<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                                                     

             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________
                                
                         SUBCOMMITTEE ON DEFENSE
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman
 JACK KINGSTON, Georgia            PETER J. VISCLOSKY, Indiana
 KAY GRANGER, Texas                JAMES P. MORAN, Virginia
 ANDER CRENSHAW, Florida           BETTY McCOLLUM, Minnesota
 KEN CALVERT, California           TIM RYAN, Ohio
 TOM COLE, Oklahoma                WILLIAM L. OWENS, New York
 STEVE WOMACK, Arkansas            MARCY KAPTUR, Ohio
 ROBERT B. ADERHOLT, Alabama       
 JOHN R. CARTER, Texas                    
                                    
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
        Tom McLemore, Jennifer Miller, Paul Terry, Walter Hearne,
         Maureen Holohan, Tim Prince, Brooke Boyer, B G Wright,
              Adrienne Ramsay, and Megan Milam Rosenbusch,
                            Staff Assistants

                  Sherry L. Young, Administrative Aide
                                ________
                                
                                 PART 1
                                                                   Page
 FY 2015 Department of Defense Budget Overview....................    1
 FY 2015 Navy / Marine Corps Budget Overview......................   87
 FY 2015 Air Force Budget Overview................................  197
 FY 2015 Army Budget Overview.....................................  277
                                ________

         Printed for the use of the Committee on Appropriations
         
         
         
       
       
       
       
       
       
       
       
       
       
       
       

             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman
 JACK KINGSTON, Georgia            PETER J. VISCLOSKY, Indiana
 KAY GRANGER, Texas                JAMES P. MORAN, Virginia
 ANDER CRENSHAW, Florida           BETTY McCOLLUM, Minnesota
 KEN CALVERT, California           TIM RYAN, Ohio
 TOM COLE, Oklahoma                WILLIAM L. OWENS, New York
 STEVE WOMACK, Arkansas            MARCY KAPTUR, Ohio
 ROBERT B. ADERHOLT, Alabama       
 JOHN R. CARTER, Texas                                 
 
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
        Tom McLemore, Jennifer Miller, Paul Terry, Walter Hearne,
         Maureen Holohan, Tim Prince, Brooke Boyer, B G Wright,
              Adrienne Ramsay, and Megan Milam Rosenbusch,
                            Staff Assistants

                  Sherry L. Young, Administrative Aide
                                ________
                                
                                 PART 1
                                                                   Page
 FY 2015 Department of Defense Budget Overview....................    1
 FY 2015 Navy / Marine Corps Budget Overview......................   87
 FY 2015 Air Force Budget Overview................................  197
 FY 2015 Army Budget Overview.....................................  277
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
                     
 90-985                     WASHINGTON : 2015











                      COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia              NITA M. LOWEY, New York   
 JACK KINGSTON, Georgia               MARCY KAPTUR, Ohio 
 RODNEY P. FRELINGHUYSEN, New Jersey  PETER J. VISCLOSKY, Indiana   
 TOM LATHAM, Iowa                     JOSEE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama          ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                   JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho            ED PASTOR, Arizona    
 JOHN ABNEY CULBERSON, Texas          DAVID E. PRICE, North Carolina        
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California                      
 JOHN R. CARTER, Texas                SAM FARR, California       
 KEN CALVERT, California              CHAKA FATTAH, Pennsylvania 
 TOM COLE, Oklahoma                   SANFORD D. BISHOP, Jr., Georgia   
 MARIO DIAZ-BALART, Florida           BARBARA LEE, California     
 CHARLES W. DENT, Pennsylvania        ADAM B. SCHIFF, California           
 TOM GRAVES, Georgia                  MICHAEL M. HONDA, California   
 KEVIN YODER, Kansas                  BETTY McCOLLUM, Minnesota     
 STEVE WOMACK, Arkansas               TIM RYAN, Ohio     
 ALAN NUNNELEE, Mississippi           DEBBIE WASSERMAN SCHULTZ, Florida        
 JEFF FORTENBERRY, Nebraska           HENRY CUELLAR, Texas       
 THOMAS J. ROONEY, Florida            CHELLIE PINGREE, Maine        
 CHARLES J. FLEISCHMANN, Tennessee    MIKE QUIGLEY, Illinois            
 JAIME HERRERA BEUTLER, Washington    WILLIAM L. OWENS, New York                 
 DAVID P. JOYCE, Ohio                         
 DAVID G. VALADAO, California                           
 ANDY HARRIS, Maryland                           
 MARTHA ROBY, Alabama
 MARK E. AMODEI, Nevada                     
 CHRIS STEWART, Utah                
              
               William E. Smith, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015


                                         Thursday, March 13, 2014. 

         FISCAL YEAR 2015 DEPARTMENT OF DEFENSE BUDGET OVERVIEW

                               WITNESSES 

HON. CHUCK HAGEL, SECRETARY, DEPARTMENT OF DEFENSE
GENERAL MARTIN DEMPSEY, UNITED STATES ARMY, CHAIRMAN, JOINT CHIEFS OF 
    STAFF
HON. ROBERT HALE, UNDER SECRETARY OF DEFENSE, COMPTROLLER

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The committee will come to 
order. As we begin this hearing, I want to take a moment to pay 
tribute to the service of our late chairman, Congressman Bill 
Young. America's men and women in uniform had no more effective 
advocate. We will miss his leadership and friendship. For my 
part, my working relationship and friendship with Mr. 
Visclosky, our committee's ranking member, will help fill that 
loss. Our recent trip to the Middle East strengthens the ties 
that bind us in our work together.
    We meet today to begin a series of hearings to examine the 
fiscal year 2015 budget request for the Department of Defense. 
We are pleased to welcome the Secretary of Defense Chuck Hagel; 
the Chairman of the Joint Chiefs of Staff General Martin 
Dempsey; and the Department of Defense Comptroller, the 
Honorable Robert Hale.
    Mr. Secretary, thank you for your service in Vietnam, 
distinguished service. General Dempsey, thank you for your 
decades of service to our country since your graduation from 
West Point. And to Bob Hale, thank you for being the longest 
continuous-serving Comptroller for the Department of Defense. 
And we hear of your retirement, but on behalf of the committee, 
both sides, and we are unified on this committee, we thank you 
for your remarkable service and dedication. We are honored to 
have each of you here today, and we look forward to your 
testimony.
    For the first time in years, the committee is operating 
under regular order. The budget agreement reached in December 
between Congress and the President means that we can proceed in 
an orderly, deliberate, transparent fashion to meet our 
responsibilities to the full committee, the full House and to 
the American people.
    Over the past several years, the practice of funding the 
Federal Government through continuing resolutions has seriously 
affected the ability of both the Department of Defense and 
Congress to do long-range planning that is crucial to our 
defense and intelligence responsibilities. Furthermore, the 
sequester, which the President proposed and the Congress agreed 
to, has compounded the problem. We must all work together to 
avoid its return.
    The committee has, as it always had, two principal 
responsibilities. First is to provide the Department of Defense 
and the intelligence agencies with the resources they need to 
carry out their missions in the most effective and efficient 
manner. The second and equally important responsibility is to 
ensure that our men and women in uniform, every one of whom 
volunteers, have the resources they need to defend our Nation 
and support their families.
    As a committee, I want to be certain that everyone knows 
that these hearings will provide all of our Members with the 
opportunity to ask questions they have and get the answers they 
require to make fully informed judgments about the budget 
before us.
    Ladies and gentlemen, we begin these hearings today at a 
critical juncture for America. The decisions this committee 
makes will help set the course for America's defense 
capabilities not just for the coming year, but for many years 
to come. And as we consider this budget, we must recognize we 
still live in a dangerous and unstable world, in the Middle 
East and throughout Africa, in Ukraine and Asia, and in 
countless hidden places where nonstate actors are planning and 
plotting to do harm to our country and our interests both at 
home and abroad.
    So among the challenges this committee faces are these: 
First, how do we use limited resources in the most efficient 
and effective way? That includes making certain our acquisition 
process works.
    Second, what are the risks associated with the decisions we 
make on the size of our military; the size of our Army, Navy, 
Air Force, and Marines? And what capabilities, such as the 
increased use of drones or cyber warfare, do we want our 
military to emphasize?
    Third, are those risks tolerable given the threats and 
conflicts we can responsibly be expected to face as a Nation 
and as a world leader?
    And fourth, with so many demands and such limited 
resources, what specifically do we hope to achieve through the 
2015 budget?
    People around the world, our allies and adversaries, are 
watching to see how we answer these questions, and we want to 
be certain that our response reassures our allies and deters 
our enemies. The budget is, after all, not just about numbers; 
the budget is, in essence, a policy document. Where we decide 
to spend our money reflects, or should reflect, our strategies 
for defending our Nation. Those choices also reflect our best 
evaluation of where the most likely threats to our national 
security are likely to originate and how we can best overcome 
them when they materialize.
    We have heard talk from the administration it is time for 
the United States to get off a war footing. Frankly, that 
troubles me, coming as I do from a State that suffered so much 
loss on September 11th, 2001. Nations around the world saw the 
manner in which we withdrew from Iraq and the way we are 
addressing Iran and Syria. They will be watching now how we 
exit Afghanistan, and they want to know whether America is 
still willing, ready, and able to lead.
    When we talk about getting off war footing, it suggests to 
both our adversaries and our allies alike that the United 
States has lost its will and its ability to lead. If that is 
the message we send, we will be promoting greater instability 
in the world and not less. History is replete with examples of 
what happens to a great nation when it tires of the 
responsibilities that accompany greatness. If we withdraw from 
the world's stage, we would leave a vacuum that others, others 
whose interests do not necessarily align with ours, are all too 
eager to fill.
    But even at a more basic level, history also shows the 
wisdom of what George Washington said more than two centuries 
ago: To be prepared for war is one of the most effective means 
of preserving the peace. We must make certain that in meeting 
the demands of fiscal austerity we do not leave any question, 
any question, about our will and our ability to defend 
ourselves and our interests around the world.
    It is not enough to say that the President's proposed 
budget does not support the military any of us wants. We must 
do everything to ensure that it supports the military we need. 
We must be creative and innovative in finding ways to rein in 
spending and make every dollar count, while also meeting our 
national security responsibilities and providing our military 
with what it needs to meet its various missions.
    And we must hear directly from you, Mr. Secretary, where 
this budget is taking us and exactly what our defense posture 
will look like in 1, 2, or 5 years from now as a result of it. 
We must also be realistic, realistic not just about our 
resources, but also about the world in which we live, realistic 
about the threats we face today and are likely to face in the 
years ahead, and realistic about maintaining our ability to 
deter and then, if necessary, meet those threats effectively 
and decisively.
    Now I would like to recognize my ranking member Mr. 
Visclosky for any comments or statements that he would like to 
make. Thank you.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Mr. Chairman, thank you very much. I would 
associate myself with your opening remarks and ask my entire 
statement be entered into the record.
    And, gentlemen, I would certainly thank you for your 
attendance today and your service. I would especially want to 
recognize Mr. Hale, our Under Secretary of Defense, the 
Comptroller. As the chairman indicated, this may very well be 
your last official appearance before the Defense Subcommittee.
    Mr. Hale, you have helped the Pentagon navigate what I 
think is probably the most difficult fiscal and financial 
terrain that they have had to deal with since I showed up in 
Washington on a congressional staff in 1977. And in all 
sincerity, I thank you for your service to our country. You 
have always performed your responsibilities with wisdom, 
whether I have always agreed with that wisdom or not, 
discretion, and as a gentleman. And again, the people of this 
Nation have been served well by you. I appreciate it.
    On the surface, the fiscal year 2015 budget request 
suggests stability; however, there is much uncertainty and 
change within an apparently stable top line. The fiscal year 
2015 budget clearly expresses a desire to break out of the 
constraints imposed by the Budget Control Act. This is best 
evidenced by the Opportunity, Growth, and Security Initiative, 
which recommends $56 billion in spending above the bipartisan 
budget agreement, paid for with tax reform and mandatory 
spending cuts; 26.4 billion of this is proposed for the 
Department of Defense and would suggest, speaking only for 
myself, that those are very questionable assumptions.
    The request leaves the overseas contingency operations 
funding unresolved, and I think this is a very serious problem 
that we face in the Congress with this subcommittee. On these, 
the budget annex contains plenty of struck language from the 
prior fiscal year but provides no new language for fiscal year 
2015.
    The Department of Defense budget does include a placeholder 
for $79 billion but also fails to provide justification for 
this amount. We certainly recognize this stems from the 
uncertainty in Afghanistan, specifically whether or when the 
Afghans approve the bilateral security agreement. However, 
under any scenario being discussed, there will be a requirement 
for OCO funding in fiscal year 2015, if nothing else, for the 
first quarter. Some path forward must be chosen to provide the 
support required for our deployed forces.
    I am very optimistic and happy that potentially we will 
have this bill on the House floor in June, and if there is not 
a sentence of justification for $79 billion, you provide us 
with a very difficult task as we proceed.
    Finally, the request also embarks on initiatives to control 
the growth of personnel and healthcare costs that consume an 
increasing share of the Defense budget. I congratulate you for 
addressing a very important and difficult issue. In light of 
failed attempts in the past, I would remark that Congress must 
be very responsible and not simply react in a politically 
convenient fashion, and be as deliberate in our consideration 
of your proposals as you have been in putting them together.
    Again, with the chairman and the other members of the 
subcommittee, I look forward to your testimony. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.

                  Summary Statement of Secretary Hagel

    Mr. Frelinghuysen. Mr. Secretary, good morning again. Thank 
you for being here. Your entire statement will be put in the 
record, and if you would be good enough to proceed.
    Secretary Hagel. Mr. Chairman, thank you. Ranking Member 
Visclosky, thank you, and to the members of this committee, we 
very much appreciate the opportunity to be here this morning. 
And I want to particularly note General Dempsey's presence, who 
I have come to have the highest regard for and rely on his 
partnership and wise counsel during the time that I have had 
the privilege to serve as Secretary of Defense, and I always 
appreciate him for what he is and what he does and what he 
represents to this country.
    Mr. Hale has been appropriately noted, beatified, sainted, 
glorified, and I don't think it is an overstatement at all to 
note what you have each said about his service and the 
sacrifice he has made to this country. And as Congressman 
Visclosky noted, it has probably been as difficult a 5-year run 
as Comptroller as maybe any Comptroller at the Pentagon has 
ever had.
    Mr. Frelinghuysen. He is a Navy veteran, too, so we didn't 
mention that.
    Secretary Hagel. Well, let the record show, of course, that 
he is a Navy veteran.
    But thank you, Bob, and I will miss you. We will all miss 
you.
    While our focus, Mr. Chairman, I know, today, as you have 
noted, is on the Defense Department's fiscal year 2015 budget, 
let me first address, if I might briefly, the situation in 
Ukraine. As you know, the administration's efforts have been 
focused on deescalating the crisis, supporting the new 
Ukrainian Government with economic assistance, and reaffirming 
our commitments to our allies, NATO partners in Europe.
    Yesterday, as you all know, the President met with 
Ukraine's interim Prime Minister here in Washington and 
reconfirmed America's strong commitment to the people of 
Ukraine. Secretary Kerry will meet again tomorrow in London 
with his counterpart, Russian Foreign Minister Lavrov, and I 
know Secretary Kerry is here on the Hill today to address some 
of the more specific issues on this issue.
    Chairman Dempsey and I have spoken with our Ukrainian 
counterparts, our NATO counterparts, as well as our Russian 
counterparts, and Chairman Dempsey and I will meet with NATO 
Secretary General Rasmussen here in Washington next week.
    Last week we put a hold on all military-to-military 
engagements and exercises with Russia and directed actions to 
reenforce NATO allies during this crisis. These include 
augmenting joint training efforts at our aviation detachment in 
Poland with 12 F-16s and 300 additional personnel, and 
increasing our participation in NATO's Baltic air policing 
mission by deploying 6 F-15s and one refueling tanker to 
Lithuania.
    I know that many members of this committee, particularly 
Congresswoman Kaptur, have been instrumental in helping the 
United States stand with the Ukrainian people, and I also know 
that you all, in the House last week, took important action by 
passing a $1 billion package of loan guarantees for Ukraine. In 
addition, the President has called on Congress to increase the 
International Monetary Fund's capacity to lend resources to 
Ukraine. I strongly support this effort because the IMF is best 
positioned to provide the Ukrainian Government and people with 
the technical expertise and the financial resources it needs.
    Mr. Chairman, the events of the past week once again 
underscore the need for America's continued global engagement 
in leadership. The President's Defense budget reflects that 
reality, and it helps sustain our commitments and our 
leadership in a very defining time. I believe this budget, as 
you have noted in your opening comments, is far more, has to be 
far more, than a set of numbers or just a list of decisions. It 
is a statement of values. It is a statement of priorities. It 
is a statement of our needs. It is a statement of our 
responsibilities. It is a realistic budget. It prepares the 
United States military to defend our national security in a 
world that is becoming less predictable, more volatile, and in 
some ways more threatening to our country and our interests.
    It is a plan that allows our military to meet America's 
future challenges and threats. It matches our resources to our 
strategy, and it is a product of collaboration. All of DoD's 
military and civilian leaders were included in this effort, the 
Chairman, the Vice Chairman of the Joint Chiefs, the service 
secretary, the service Chiefs, the senior enlisted and others.
    As we all know, America has been at war for the last 13 
years. As we end our second war of the last decade, our longest 
war ever, this budget adapts and adjusts to new strategic 
realities and fiscal restraints, while also, something you 
noted in your opening comments, is focused on preparing for the 
future. As we all recognize, this is an extraordinary time. I 
don't believe any of us have ever quite lived through this kind 
of time.
    You opened your remarks this morning, Mr. Chairman, saying 
this is the first time the regular order has been dealt with 
for some time in dealing with budgets. Rarely have we had so 
much budget uncertainty, living with continuing resolutions as 
we adjust to a very large and abrupt set of budget cuts. As a 
result, this budget is not business as usual. It begins to make 
the hard choices that we are all going to have to make. All of 
us are going to have to make some hard choices. The longer we 
defer these difficult decisions, the more risk we will have 
down the road, forcing our successors to face far more 
complicated and difficult choices into the future.
    Last year DoD's budget cut was $37 billion because of 
sequestration. Now, that is on top of the $487 billion 10-year 
reductions under the Budget Control Act that DoD was already 
implementing. December's Bipartisan Budget Act gave DoD some 
temporary relief from sequestration, but it still imposes more 
than $75 billion in cuts over the next 2 years. And unless 
Congress changes the law, sequestration will cut another $50 
billion each year starting in fiscal year 2016. The President's 
5-year plan provides a realistic alternative to sequestration-
level cuts, projecting $115 billion more than current law 
allows from 2016 to 2019.
    DoD requires that additional funding to implement our 
updated defense strategy as outlined in the Quadrennial Defense 
Review, and to responsibly meet the national security missions 
of the Department of Defense. The strategic priorities 
articulated in the QDR represent America's highest security 
interests: defending the homeland, building security globally, 
deterring aggression, and being ready and capable to win 
decisively against any adversary.
    The funding levels in the President's budget let us execute 
this strategy with some increased risks in certain areas, and 
we point those risks out. These risks would be reduced if 
Congress approves the President's Opportunity, Growth, and 
Security Initiative, a proposal that would provide DoD with an 
additional $26 billion in fiscal year 2015 to improve readiness 
and modernization. We have been in a deep hole in readiness the 
last 2 years. We have deferred many of our most important 
future programs to keep this country technologically superior 
and our forces modern.
    My submitted statement contains details of this initiative, 
Mr. Chairman, which I strongly support. Since my submitted 
statement provides a detailed explanation of our budget request 
and the rationale behind all of our key decisions, I would like 
to briefly focus on just a couple of critical issues.
    First, the relationship between our fiscal year 2015 budget 
request and our Future Years Defense Program, which we shared 
with Congress last week. As we all know, Congress appropriates 
1 year at a time, and this committee is focused on drafting and 
passing a defense appropriations bill for fiscal year 2015. The 
President's fiscal year 2015 budget request fully funds our 
preferred long-term force levels, 440- to 450,000 Active Army, 
182,000 Marines, and 11 aircraft carriers. We can do this 
because the Bipartisan Budget Act gave us some certainty in 
fiscal year 2015.
    In fiscal year 2016 and beyond, sequestration returns and 
remains the law of the land. In developing our Future Years 
Defense Program, we chose to plan for two scenarios for fiscal 
year 2016 through 2019, one where Congress provides DoD the 
resources needed to support our defense strategy, and one where 
sequestration-level cuts are reimposed. We had to do this 
because future funding levels are uncertain. We just don't know 
how much funding Congress will provide for decades--or for 
defense in our fiscal year 2016 budget and beyond. And it would 
have been irresponsible for our planning to completely ignore 
the law of the land.
    Our detailed planning for sequestration-level cuts showed 
that sequestration would impose some force structure reductions 
that simply can't be implemented with the push of a button. 
They require precise plans, longer time horizons in planning; 
therefore, our Future Years Defense Program hedges. It projects 
$115 billion above sequestration-level spending on fiscal year 
2016--in fiscal year 2016 through 2019, because those are the 
resources that will be required to execute the President's 
defense strategy, although at a higher risk for certain 
missions.
    But even though the Future Years Defense Program projects 
this additional spending, in its later years, the plan includes 
the sequestration-level force structure reductions that take 
the longest to plan and implement. By the end of 2019, it shows 
the Active Army being reduced to 420,000 soldiers and Marine 
Corps reductions to 175,000. It also reflects decommissioning 
of the aircraft carrier USS George Washington, even though we 
are committed to paying its overhaul, and if we receive funding 
at the levels requested by the President's budget, we can 
accomplish that. But we had to plan for sequestration-level 
budgets.
    We are not recommending the sequestration-level reductions; 
just the opposite. In fact, we are urging Congress to provide 
the additional resources requested by the President, but we 
cannot ignore the reality that sequestration remains the law 
for fiscal 2016 and beyond. So we start planning for some of 
the most challenging decisions required under sequestration. It 
would be irresponsible not to do so.
    DoD leaders all agree that our preferred force structure 
levels can be sustained if DoD receives appropriations at the 
President's budget level over the next 5 years, and I have 
codified this in written guidance to the service secretaries 
and the service Chiefs. But Congress, Mr. Chairman, must 
reverse sequestration in order for DoD not to plan for these 
large force structure reductions.
    Next, let me address the balance between readiness, 
capability, and capacity in this budget request. After more 
than a decade of long, large stability operations, we traded 
some capacity to protect readiness and modernize capabilities 
as we shift to focus on future requirements shaped by enduring 
and emerging threats. We have to be able to defeat terrorist 
threats and deter adversaries with increasingly modern weapons 
and technological capabilities.
    We must also assure that America's economic interests, our 
economic interests are protected, they are protected through 
open sea lanes, freedom of the skies and space, and deal with 
one of the most urgent and real threats facing our Nation today 
and well into the future, cyber attacks. That is why we 
protected funding for cyber and Special Operations Forces.
    For the Active Duty Army, we propose over the next 5 years 
drawing down, as I have noted, to about 440- to 450,000 
soldiers. Mr. Chairman, that is less than 10 percent below its 
size pre-9/11. We believe this is adequate for future demand 
and future threats. We will continue investing in high-end 
ground capabilities to keep our soldiers the most advanced, 
ready, and capable in the world.
    Army National Guard and Reserve units will remain a vibrant 
part of our national defense and will draw down by about 5 
percent. We will also streamline Army helicopter force 
structures by reducing the Guard's fleet by 8 percent. The 
Active Duty's fleet will be cut by around 25 percent. But we 
will still be able to maintain and keep these helicopters 
modernized as we move from a fleet of seven models to four.
    The Navy, for its part, will take 11 ships out of its 
operational inventory, but they will be modernized and returned 
to service with greater capability and longer life spans. This 
will also support a strong defense industrial base. That 
industrial base, as this committee knows, itself is a national 
strategic asset that we must not allow to let down.
    The Marine Corps will continue its planned drawdown to 
182,000 but will devote 900 more marines to increased embassy 
security. And the Air Force will retire the aging A-10, 
replacing it with more advanced multimission aircraft like the 
Joint Strike Fighter.
    Now, Mr. Chairman, regarding compensation reform, taking 
care of our people, as we all know you are committed to, we are 
committed to, means providing them with both fair compensation 
as well as the training and the tools and the edge they will 
always need to succeed in battle and return home safely. To 
meet those obligations under constrained budgets, we need some 
modest adjustments to the growth in pay and benefits. All these 
savings will be reinvested in training and equipping our 
troops, and there are no proposals to change retirement in this 
budget.
    Let me clarify what these compensation adjustments are and 
what they are not. First, we will continue to recommend pay 
increases. They won't be as substantial as in past years, but 
they will continue.
    Second, we will continue subsidizing off-base housing 
costs. The 100 percent benefit of today will be reduced, but 
only to about 95 percent, and it will be phased in over the 
next several years.
    Third, we are not shutting down commissaries. We recommend 
gradually phasing out some subsidiaries--or subsidies, but only 
for domestic commissaries that are not in remote areas.
    Fourth, we recommend simplifying and modernizing our three 
TRICARE systems by merging them into one TRICARE system, with 
modest increases in copays and deductibles for retirees and 
family members, and encourage them more fully to use the most 
affordable means of care. Active Duty personnel will still 
receive care that is entirely free.
    The President's Defense budget supports our defense 
strategy. It defends this country, and it keeps our commitments 
to our people. However, these commitments will be seriously 
jeopardized if we don't have the funds and the resources to be 
able to implement them. My submitted testimony details how 
sequestration would compromise that security, and the result 
would be a military that could not fulfill its defense 
strategy, putting at further risk America's traditional role as 
a guarantor of global security and ultimately our own security. 
It is not the military the President, General Dempsey, our 
leaders and I want. It is not the military you want. It is 
certainly not what we want for our future. But it is the path 
we are on unless Congress does change the law.
    Mr. Chairman, members of the committee, DoD leaders and I 
look forward to working with you, all of you, as we make the 
difficult choices that are going to be required, difficult 
choices to continue to assure America's security and protect 
our national interests. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Secretary.
    [The written statement of Secretary Hagel follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                  Summary Statement of General Dempsey

    Mr. Frelinghuysen. General Dempsey, good morning.
    General Dempsey. Good morning, Mr. Chairman.
    Mr. Frelinghuysen. Thank you for being with us on behalf of 
the entire committee.
    General Dempsey. Thank you, Chairman, Ranking Member 
Visclosky, other distinguished members of this committee. I 
appreciate the opportunity to be back here this year to discuss 
the Defense budget for 2015.
    Before I do, let me comment that I do remain deeply engaged 
in our efforts to support the diplomatic approach to the 
resolution of the crisis in Ukraine. I have engaged with our 
NATO allies, and, as the Secretary mentioned, I have spoken 
several times with my Russian counterpart, and I have urged 
continued restraints in the days ahead in order to preserve 
room for that diplomatic solution. We will continue to maintain 
that line of communication.
    I have also recently returned from Afghanistan where I went 
to gain firsthand appraisals from our leaders and commanders on 
the ground. As always, I left there inspired. They remain fully 
engaged on the missions that we have set before them. We will 
be prepared to support a variety of options over the next 
several months as our relationship with Afghanistan moves 
forward. This includes, of course, the option to draw down our 
forces there by the end of the year if that is the decision 
made by our elected leaders.
    While 2015 remains uncertain in Afghanistan, our joint and 
NATO team has much work to do this year, and they are ready for 
it. Russia's recent actions remind us that the world today 
remains unpredictable, complex, and quite dangerous. We can't 
think too narrowly about future security challenges, nor can we 
be too certain that we will get it right. At the same time, the 
balance between our security demands and our available 
resources has rarely been more delicate, and that brings me to 
the budget.
    I want to add my appreciation to Under Secretary Hale for 
his many years of service to the Department and to our Nation 
and for getting us to this budget.
    Secretary Hagel has walked you through the major components 
of the budget. In my view, this budget is a pragmatic way 
forward that balances, as best it can, our national security 
and our fiscal responsibilities. It provides the tools for 
today's force to accomplish the missions we have been assigned, 
rebuilding readiness, by the way, in areas that were by 
necessity deemphasized over the last decade. It modernizes the 
force for tomorrow, ensuring that we are globally networked and 
that we can continue to provide options for the Nation, and it 
reflects in real terms how we are reducing our cost of doing 
business and working to ensure that the force is in the right 
balance.
    As a whole, this budget helps us to remain the world's 
finest military, modern, capable, and ready, even while 
transitioning to a smaller and more affordable force. But as I 
said last year, we need time, we need certainty, and we need 
flexibility to balance the institution to allow us to meet the 
Nation's needs for the future.
    The funds passed by this Congress in the bipartisan budget 
agreement allow us to buy back some of our lost readiness and 
continue to make responsible investments in the Nation's 
defense. It doesn't solve every readiness shortfall, it is not 
a long-term solution to sequestration, but it does give us a 
measure of near-term relief and stability.
    The Joint Chiefs and I will never end our campaign to find 
every possible way to become more effective. We will do things 
smarter and more efficiently, more in line with the sorts of 
security challenges that we face today and in line with fiscal 
reality. We will seek innovative approaches as an imperative 
not just in technology, but also in how we develop leaders, 
aggregate and disaggregate our formations, and work with our 
partners. And we will improve, we will have to, how we buy 
weapons and goods and services. And we will invest deeper in 
developing leaders of consequence at every level, men and women 
that are both competent in character, who are good stewards of 
the special trust and confidence given to us by the American 
people, our fellow citizens.
    But we have infrastructure that we don't need, and, with 
your support, we ought to be able to divest. We have legacy 
weapons systems that we can't afford and, with your support, 
that we ought to be able to retire. We have personnel costs 
that have grown at a disproportionate rate, and which we ought 
to be able to slow the rate in the way that makes the All-
Volunteer Force more sustainable over time. If we don't move 
toward a sounder way to steward our Nation's defense, we face 
unbalanced cuts to readiness and modernization, and these 
imbalances ultimately make our force less effective than the 
Nation needs it to be.
    We really can't ignore this. Kicking the can will set up 
our successors for an almost impossible problem. We have to 
take the long view here. I know these issues weigh heavily on 
the minds of our men and women in uniform, on their families, 
and on you. Our force is extraordinarily accepting, by the way, 
of change. They are less understanding of uncertainty in 
piecemeal solutions. They want and they deserve predictability.
    I support the Quadrennial Defense Review in this budget. To 
be clear, we do assume higher risks in some areas, risks that I 
have conveyed in my assessment of the QDR. Under certain 
circumstances we could be limited by capability, capacity or 
readiness in the conduct of an assigned mission. I expect that 
we will have more difficult conventional fights, we will rely 
increasingly on allies and partners, and our global 
responsibilities will have to be placed in balance with our 
available resources.
    If sequestration-level cuts return in 2016, or if we can't 
make good on the promises embodied in the QDR, then the risks 
will grow, and the options we can provide the Nation will 
shrink. That is a gamble none of us should be willing to take, 
because it is our soldiers, sailors, airmen, marines, and 
coastguardsmen, America's sons and daughters who will face 
tomorrow's challenges with whatever strategy, whatever 
structure, and whatever resources we provide today.
    Our most sacred obligation is to make sure that we never 
send them into a fair fight, which is to say they must continue 
to be the best led, the best trained, and the best equipped 
force on the planet. That objective has been a fundamental 
guiding principle as this budget was prepared, and is one to 
which the Joint Chiefs and I remain absolutely committed.
    Mr. Chairman, members of this committee, thank you for your 
support and commitment to our men and women in uniform, and on 
their behalf, I stand ready to answer your questions.
    Mr. Frelinghuysen. Thank you, General Dempsey.
    [The written summary of General Dempsey follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. And let me say that you are a wonderful 
representative of our sons and daughters.
    General Dempsey. Thank you, sir.

                OVERSEAS CONTINGENCY OPERATIONS FUNDING

    Mr. Frelinghuysen. Let me say, too, on a personal note, you 
may both be aware that your good Air Force escorted a number of 
members of this committee, Mr. Visclosky, yours truly, as well 
as Mr. Moran and Mr. Calvert, over to the Middle East recently. 
We visited Pakistan, Afghanistan, Qatar, and Jordan, and may I 
say that our time in Afghanistan, of course, it is truly 
inspiring to see what those young men and some not so young are 
doing serving after multiple deployments.
    I must say, coming away, this is sort of a personal note 
from that trip, I am somewhat discouraged by some of what we 
heard from talking with leaders in that region about our long-
range commitment to the Middle East. Of course, the soldiers 
have a desire to get out of Afghanistan and back home, but they 
look around to see and recognize the sacrifices that they have 
made, their predecessors have made, their predecessors made in 
Iraq, and they look to Fallujah, the loss of Fallujah, and they 
have serious questions about where we are going. So, one of the 
things we focused on was the overseas contingency operation, 
and this is a serious hole in your budget here. I know that you 
want us to put in a marker in there, but ingrained in that sum 
of money, which some would estimate perhaps would be $80 
billion, is some open questions.
    So, can you tell us how we are going to fill that hole and 
when we are going to fill that hole? I think it is difficult 
for us to put a bill together with that issue open.
    Secretary Hagel. Mr. Chairman, we recognize that question, 
that concern. As you have noted, and I didn't note except in my 
written testimony, and I am going to ask the Comptroller to 
take us down a little deeper into your question, but the 
obvious reason is that we held back was the uncertainty of what 
decision is going to be made about our future presence in 
Afghanistan post-2014.
    I think you know, the President has said, it is certainly 
the advice that we have gotten from General Dunford and from 
our military leaders, and I support them on this, that we 
believe we have a role, want to have a role, continued role in 
Afghanistan, train, assist, advise, counterterrorism, but that 
has to be done in coordination first with the people of 
Afghanistan inviting us and agreeing, and that is embodied in a 
bilateral security agreement, that arrangement. Without that, 
without knowing what our future is, it was our feeling that we 
would hold off and not further complicate an already 
complicated budget process, because of the reasons we have 
already talked about, and then come back with you or to you 
once we hopefully have better certainty. When we may do that, 
let me ask Bob Hale to----
    Mr. Frelinghuysen. We have to be able to go to the floor at 
some point in time. We have to defend----
    Secretary Hagel. We have anticipated it.
    Mr. Frelinghuysen. We have to defend--you know, when you 
visit Pakistan, and you see the relationship we have had with 
Pakistan since 1947--and the OCO funds are more than just 
Afghanistan. They provide resources for the region, and the 
general statement is that OCO funds will be needed for some 
time to come not only in Afghanistan, but in that region. So, I 
would be happy to have Mr. Hale address that. This sort of gets 
to my critical question is where are we going?
    Mr. Hale. Well, Mr. Chairman, when we get an enduring 
presence decision, as soon as we can after that, we will get a 
formal budget amendment to you for OCO. If that doesn't work 
with the timing issue, then we are going to have to look at 
other options, and we are thinking of them now as to how we 
proceed if we don't get an enduring presence decision. I know 
that is vague, but at the moment, I think that is about the 
best I can do.
    Mr. Frelinghuysen. Let me recognize the ranking member Nita 
Lowey from New York for any comments she may have.

                         Remarks of Mrs. Lowey

    Mrs. Lowey. Well, first of all, I want to thank you, Mr. 
Chairman. Unfortunately, there are several hearings going on at 
the same time, and I want to join my colleagues, Chairman 
Frelinghuysen, Mr. Rogers is probably on another one of those, 
Ranking Member Visclosky, Secretary Hagel, General Dempsey, 
Under Secretary Hale, and the rest of our distinguished guests. 
Thank you for appearing before us today, and, again, I 
apologize.
    As we know, the global environment is growing increasingly 
volatile with new threats emerging every day, exemplified by 
the current events in Ukraine, Syria, and Venezuela. In the 
fiscal year 2015 bill, we need to work together to help the 
Department of Defense address very serious challenges, from 
ending major combat operations in Afghanistan to addressing 
enduring threats from North Korea and Iran; flash points in the 
Middle East, Africa, and Asia. And, of course, there are also 
pressing issues at home such as the epidemic of sexual 
assaults, suicides among military members.
    We need to ensure that the quality of life for those 
service members staying in the military remains high, while 
those transitioning out of the services are cared for properly. 
And I applaud the Department for submitting a 2015 request that 
stays within the caps permitted in existing law, which already 
directs more than 50 percent of all discretionary spending to 
Defense.
    Barring an agreement to increase investments in both 
categories, the Department must live within its cap, as you 
well know. Tough choices must be made, but as the 2014 omnibus 
showed, our committee is up to the task. In times of fiscal 
constraint and uncertainty, it is hard to juggle all 
requirements, but we owe it to our service members and the 
Nation to get it right, and I would like to just ask a 
question. I thank the chairman for your indulgence.

                     SEXUAL ASSAULT IN THE MILITARY

    As we well know, sexual assault and harassment in the 
military was front and center during last year's budget cycle. 
Due to the ongoing investigations and revelations on this 
heinous crime, the issue still occupies this spot, 
unbelievably. The President, our Commander in Chief, gave the 
Department a deadline of December 1st, 2014, to evaluate 
whether changes implemented over the past 12 to 18 months are 
making a difference. The Pentagon reported about 5,400 
instances, 5,400 instances, of sexual assault or unwanted 
sexual contact in the military in fiscal year 2013, a 60 
percent rise from 2012. Just last week the top Army prosecutor 
for sexual assault was suspended after allegations that he 
sexually harassed a subordinate.
    Do you believe the military services will be able to stem 
the rise of incidents of sexual assaults or unwanted contact? 
Is it a cultural problem? Is it a leadership problem? Will 
opening more military positions to women at all ranks help the 
problem?
    So, if you could please describe the requirements of the 
military criminal investigative organizations to investigate 
100 percent of sexual assault cases, what impact will this have 
on the MCIOs, and are the MCIOs equipped in both funding and 
manning to meet this requirement? I would appreciate your 
response, Secretary Hagel.
    Secretary Hagel. Congresswoman, thank you, and I appreciate 
very much your leadership on this.
    I can provide as much background for the record as you want 
but in the interest of time, let's go back to May of last year. 
At that time, I directed all the services to do a number of 
things, and in the course of that directive and over the next 
few months, that resulted in 21 directives that I gave our 
services. Victims rights counsel, which victims had never, ever 
had; not only a process, a mechanism, a highway to deal with 
them and their concerns in every facet of a victim's rights, 
but that was just but 1 of the 21 directives.
    I actually took the initiative, along with our chairman and 
our Chiefs, to suggest to the Congress that we needed to amend 
the UCMJ. Obviously, fast forward, and what the Senate did here 
a few days ago, what the House has been working on is a 
culmination--not the end, but a culmination at least of that 
phase of a lot of the requests that DoD has made of Congress to 
help us.
    I also instituted new offices. I have asked for, directed a 
complete review of all the different offices, not just sexual 
response offices and those who have responsibility for carrying 
out the rights of our victims, but military police, trainers, 
basic training instructors, everyone who has any responsibility 
for education of our troops. And it is partly that, it is 
partly culture, it is partly some areas where we haven't paid 
as much attention. Accountability of leadership is always 
essential to any of these issues, whether it is sexual assault 
or any ethical issue. So, it has been a wide scope of 
activities that we have undertaken to get at this.
    We are going to fix it. It needs to be fixed in the 
institution. We have asked for help from the outside, from the 
Congress. The President is taking this up, as you have just 
noted one example. I meet once a week around the table with the 
Chiefs, Vice Chiefs, all our senior components of our 
enterprise, and it is to give me an update for 1 hour what has 
been implemented, what are the problems, what are we not doing 
right, what do we need to do more. I have been doing this for 
months. Each week I meet for 1 hour. Either the Chief of the 
service is there or the Vice Chief is there. Their attorney is 
there. Their sexual prevention assault people are there.
    So, we are coming at this, Congresswoman, on many fronts. 
We have to.
    One quick point, and then if the chairman may want to 
respond to this as well. Your note of 5,000 sexual assaults and 
more people coming forward, it is too early yet to make an 
assessment is that encouraging news, or is it not encouraging 
news? We think there may be some encouraging news in this in 
that victims are feeling more confident that they can come 
forward without harassment, without all of the things that have 
happened to many victims in the past, no one paying any 
attention or people covering it up, whatever the issue is; that 
they will be protected, that there will be justice done, their 
rights will be acknowledged, and they will be respected as 
victims.
    So, I think there may be some good news in this that we are 
developing confidence in the systems that they have enough 
confidence to come forward. We will see. Too early to tell. We 
haven't fixed all the problem yet, but we will fix it.
    Mrs. Lowey. General Dempsey.
    General Dempsey. Thank you.
    I just want to reenforce what the Secretary said. The 
answer to your question, the simple answer is yes, we can--we 
have to fix this. It is a stain on our profession, we just met 
with the Chiefs. We have got 12 metrics, if you will, or 
measures that we are monitoring to determine whether we have 
got the trend lines moving in the right direction or not.
    But we have to fix this because it erodes the foundation of 
our profession. You know, our profession is built on trust. You 
don't walk out the gate of a forward operating base in 
Afghanistan unless you trust the man or woman to your left or 
right, and this crime and this kind of conduct erodes that 
trust. So, it is not just because it is such a horrible thing 
to happen to a man or woman in any case; it is that it actually 
erodes the very foundation of the profession, and we are taking 
that very seriously.
    Mrs. Lowey. Thank you.
    And, Mr. Secretary, I just wanted to make one other point 
in closing, because one of the greatest honors we have as 
Members of Congress is to appoint beautiful, young, smart, 
intelligent women to our Nation's service academies, and it has 
been shocking to me that these young men and women also have 
this issue that is out of control. So I would just suggest to 
you that you look at that very carefully, because I know that 
this is high on the agenda of almost all of us who appoint 
people to our academies, and I thank you very much. Thank you 
so much for your indulgence.
    Mr. Frelinghuysen. Thank you, Mrs. Lowey. We should have 
zero tolerance for this type of behavior.
    Pleased to yield to the vice chair Ms. Granger.
    Ms. Granger. Thank you.
    Mr. Chairman, I have two questions. I am sorry. Two 
questions. Should I wait for another round for the second or--
--
    Mr. Frelinghuysen. Go right ahead.

                    STEALTH AIRCRAFT OF ADVERSARIES

    Ms. Granger. Thank you.
    Mr. Secretary, as you and I have both discussed before, the 
Joint Strike Fighter is critical to the U.S. and our allies' 
ability to maintain air superiority, but both China and Russia 
continue to dramatically increase their defense spending in an 
effort to increase their influence throughout the world. With 
both countries developing Stealth fighters, it is likely they 
will export these planes to other countries. So what countries 
concern you the most as potential buyers of their aircraft, and 
how would those potential purchases impact the ability of the 
U.S. and our allies to establish and maintain air superiority 
in those regions?
    Secretary Hagel. Congresswoman, one of the points I made in 
my opening statement, and much of the strategy of the QDR, and 
essentially what was behind the President's defense strategy 
guidance that he issued in January 2012 was not to allow our 
superiority, our technological edge to erode or to forfeit that 
to any nation. And as I have noted, we put a premium focus on 
that on our prioritization, on the modernization of our 
capabilities. The Joint Strike Fighter is a good example of 
that, and that is what we are committed to do. Our budget 
reflects that, our strategy reflects that, everything we are 
doing reflects that.
    We have had good partnership on the F-35, as you know, with 
a number of other countries, and those allies are continuing to 
hang in there with us. Everyone has budget issues, as you know, 
and so some of the orders have slowed down, but none, as far as 
I know, have been canceled.
    Ms. Granger. Right.
    Secretary Hagel. So, we are always in a competitive race 
with adversaries who are upgrading and financing that 
upgrading, but we have to play our game. We have to recognize 
that that threat is going to be out there, and we have to be 
wise in the decisions we have made, and I think that we are 
doing exactly that.

                    ARMY NATIONAL GUARD RESTRUCTURE

    Ms. Granger. Thank you.
    I have one other question for the Secretary. In 2011, the 
Air Force proposed a plan that restructured the Air National 
Guard, and the Guard opposed this plan, but their attempts to 
work with the Air Force on an alternative solution were 
dismissed. Congress didn't appreciate that, nor did they 
respond very well to that approach. Unfortunately, it appears 
that the Army is attempting a very similar tactic.
    So, Mr. Secretary, given the Guard's critical role both 
domestically and internationally, what are you doing to ensure 
the Army takes the concern to the National Guard Bureau and our 
Governor seriously? I can't see Congress supporting a plan that 
they so vehemently oppose.
    Secretary Hagel. Congresswoman, first, I put a high 
priority on the Guard and the National Guard and the Reserves; 
the President does. I know all of our Chiefs do, and General 
Dempsey may want to address this. That is where I start. As I 
noted in my opening statement, the Guard and Reserves are going 
to continue to be, must be, a vibrant part of our larger 
national security enterprise, and they will. That is where I 
start.
    Second, as you know, the Guard has a seat at the table with 
the Joint Chiefs; General Frank Grass, who is a very, very 
articulate, capable spokesman for the interest of the Guard. I 
just met 2 days ago with Governor O'Malley of Maryland. We 
interface with Governors on trying to connect with them. That 
is part of the reason for setting up the Governors Council a 
few years ago, which the Secretary of Department of Homeland 
Security and the Secretary of Defense cochair, to get that 
input from them directly, from their adjutant generals.
    Now, to the more specific points of your question. We have 
in every way tried to protect as much as possible the Guard and 
Reserve, and I gave you some numbers which I think reflect 
pretty well how we have come up with decisions to protect them 
in every way. In fact, the Active Duty Army proportionately 
have taken far bigger cuts in every way than what we are 
talking about for the Guard here.
    So, their voice is important, it is heard, we need it to be 
heard, but the bottom line is when we are talking about the 
cuts that we have already taken, and what is ahead, and then, 
on top of that, the uncertainty yet that we have to deal with, 
we have to examine everything, and we have to come at this from 
what Chairman Dempsey said, and this is exactly the way we 
looked at the budget, of the balance of what is going to be 
required for the national security interests of this country. I 
don't see anybody exempt from that, because everybody plays an 
important role, but it has to fit into the overall framework of 
the balance of what I said: Readiness, capability, capacity, 
and the modernization.
    Mr. Frelinghuysen. Thank you.
    General Dempsey. Thank you, Congresswoman.
    I don't agree actually that the Active Army has been 
unwilling or unable to hear the concerns of the Guard, because 
I have been watching this debate over the past year, and it may 
just be that they have come to a position where they can't 
agree with each other, and we have got to work through that. 
But they have been engaged.
    Secondly, it is about balance for me. I mean, my 
responsibility is the Joint Force, and that is all the services 
and all the components who together have to be greater than the 
sum of their parts. And so as we go forward, what I have 
suggested to Active Guard and Reserve is the thing we ought to 
be most concerned about is not whether we can agree or not on 
an end state number or a number of bases or a number of 
weapons; we have got to link arms on the message that if we go 
to sequestration levels of cuts, if we go back to that in 2016 
and beyond, we won't be able to maintain a balanced force, and 
in which case we won't have the military that the Nation needs.
    Mr. Frelinghuysen. Mr. Visclosky.

                               READINESS

    Mr. Visclosky. Thank you, Mr. Chairman.
    Gentlemen, just a couple of things. First, I do want to 
thank you, because last year when I asked questions about 
auditable financial statements you indicated that they would be 
completed, if you would, by the end of September 30th, 2017. 
Note that in the statements prepared for the budget, that 
deadline continues to be the same and has not slid to the 
right.
    I do think it is an important principle. I think it is 
important as far as underlying financing of the Department, and 
I appreciate that that has not slid to the right and would 
encourage you to continue to hold fast to that September 30th, 
2017, date.
    I would want to add my voice again to the chairman as well 
to reiterate my opening remarks concerns, and that is on OCO. I 
am certain as we meet here today that it is not the decision of 
anyone on the panel not to provide details for $79 billion. 
Understand there are very delicate negotiations going on, we 
are anticipating the outcomes of elections, and we need a 
statement signed. Also realize it is probably very difficult 
for the administration to come up with one set of numbers, 
assuming an agreement is signed; a second, if no agreement is 
signed; and then a third as to what the next 6 months look if 
there is a complete pullout.
    But there is a fundamental problem we face when we go to 
the floor, hopefully earlier rather than later. And I speak 
only for myself, but I think it is impossible for us to go to 
the floor with a placeholder for $79 billion. The Comptroller 
has mentioned other alternatives in the past supplemental 
requests have been used. I am not going to ask for a response, 
except as discussions take place with the President and other 
officials in the administration, they have got to understand 
there is some urgency here as far as the appropriations 
process.
    The question I do want to ask is on readiness. In the 
budget submittal, the Department stated that with the enactment 
of fiscal year 2014 appropriations, the readiness levels are 
trending positive, but the fiscal year began with relatively 
low readiness levels. I did mention the Opportunity, Growth, 
and Security Initiative that is very dependent upon entitlement 
changes and tax changes.
    Mr. Secretary, I absolutely agree with you on 
sequestration. I voted against the agreement last December 
because it was only for 2 years. You have a government to run 
and a Department to plan for, and I am concerned that those who 
want to, if you would, act irresponsibly are simply lying low 
until November, and they will continue to have the leverage.
    And on readiness, the Opportunity, Growth, and Security 
Initiative that has been put forth, that I do not think is 
going to happen, includes additional monies for readiness 
enhancements for training for the Army, spares and logistic 
support for the Navy, unit training for the Marines, and 
increased flight training for the Air Force.
    The question I have is relative to the 2015 requests and 
looking at the issue of readiness to make sure nobody is ever 
in a fair fight. I agree with that.
    Are some of those items things we should have in mind as we 
mark our bill up that are still necessary in 2015, assuming 
that this initiative is not adopted? Are there still readiness 
holes that we should be concerned about if this initiative is 
not adopted?
    Secretary Hagel. Well, I think, first let me begin the 
answer this way, and then I am sure the Comptroller would want 
to respond to this, and the chairman may also.
    Chairman Dempsey and I have made it clear in our opening 
statements, and all of the Chiefs and the combatant commanders 
who have been on the Hill this week and will be next week, and 
some before Appropriations Committee already this week, have 
made it very clear that readiness is a concern, will continue 
to be a concern.
    Let's take the 26 billion additional piece for fiscal year 
2015 that the President has asked for, and Hale can go deep 
into this, but about 40 percent of that, I think, is for 
readiness, is to just try to get us back out of this hole to 
some extent that we have sunk into the last 2 years. And so 
readiness is something that is up front all the time for all of 
us in all of our planning.
    If we don't get that additional money, then we have already 
talked a little bit about the future years, 2016 through 2019, 
but I think your questions is, should you be looking at 
something for 2015 if you don't get the money.
    Well, I am going to ask Hale how he handled that in the 
budget specifically. But, yes, it is always a concern for us, 
and it is going to continue to be a concern.
    General Dempsey. ``Readiness'' is a very difficult thing to 
define, to be honest with you. We struggle with it, we keep 
working at it. So let my give you a little historical 
perspective.
    This is my third appearance before this committee, and 3 
years ago----
    Mr. Visclosky. Doesn't get better than that.
    General Dempsey. I know. I look forward to it every year, I 
promise you. It gets easier every year. Not really. Not because 
of you, by the way. Just the issues seem to become more and 
more complex.
    But some of you will remember that 3 years ago, we 
highlighted the fact that coming out of 12 years of--or that at 
that time it was 9 or 10 years--of fighting a particular kind 
of conflict, that even if we didn't have this challenge called 
the Budget Control Act, that it would take us a few years to 
restore our readiness in terms of resetting the force after 
having, you know, worked it for so hard for so long; and, 
secondly, that there were forms of warfare, kinds of fights, 
for which we hadn't prepared.
    So, for example, we have become extraordinarily capable at 
counterinsurgency, counterterror. Less so some of our skills 
have eroded in things like maneuver warfare, and that is true 
of every service. So is you are the Army, it is the movement of 
larger formations over distance, integrating fires, joint fires 
and Army fires. For the Air Force, it is suppression of enemy 
air defenses. We haven't had to do that for a long time. It is 
forced entry for the naval forces in concert with Army and Air. 
There are things we just haven't practiced.
    And 3 years ago I said, we have got to practice those. And 
then along came the Budget Control Act and took $52 billion a 
year--well, first of all, came the $487 billion, followed by 
the Budget Control Act. We have not yet been able to restore 
our credentials, if you will, to rekindle some of those lost 
skills. And that problem persists. And it is taking us longer 
to restore our full readiness than it should.
    Mr. Frelinghuysen. Mr. Hale, you are going to have to hold 
for a while because I want to make sure Members have a chance.
    Mr. Visclosky, thank you very much.
    Mr. Crenshaw.

                        SIZE OF THE NAVY'S FLEET

    Mr. Crenshaw. Thank you all for being back. A special word 
of thanks to Under Secretary Hale for his service, and just 
would note that he was a great traveling companion to the North 
Pole not too long ago. So if you ever go back to the North 
Pole, please call me. Love to make a return trip.
    I want to ask a question or two about ships. You know, I 
have been in Congress for about a decade, but I have been 
around the Navy all my life because I am from a community where 
the Navy has a big presence. And I have seen times when the 
Navy was modernizing and transforming and changing. I have seen 
leaner times when the Navy was--had ships that couldn't deploy 
because maintenance had been neglected. But I never have seen a 
time when we didn't need the Navy, its flexibility, its 
firepower, its presence. There has never been a time we didn't 
have that need.
    And I guess when I look at the number of ships, it makes me 
think about how important the ships are. And then for the last 
year, we have had briefings about how we need to pivot to the 
Pacific, that that is the geographic area that we have got to 
be concerned about in terms of our national security, and I 
guess to be successful there, we would need a strong maritime 
presence. And so that seems to indicate probably more ships as 
well.
    And I know that there was a time when Ronald Reagan said we 
ought to have 600 ships and 15 aircraft carriers. And times 
have changed. The ships today are a lot more capable, a lot 
more technologically advanced. But I don't think we ought to 
kid ourselves, I think numbers still matter. And we still 
haven't figured out the age-old problem of how you have one 
ship in two different places at the same time. And the world 
hasn't gotten any safer; I know the world hasn't gotten any 
smaller.
    And so when I look at the budget, Mr. Secretary, in my 
opinion, the numbers just don't add up. On one hand you have 
the Secretary of the Navy saying that we are going to grow our 
fleet size from about 285 to a little over 300, and that makes 
sense. But that is contradicted by the fact that the Navy is 
going to require 20 less littoral combat ships than they 
planned. You mentioned 11 cruisers are going to be laid up. I 
don't know exactly what that means. There is talk that maybe a 
carrier that still has 25 years of useful life might be 
decommissioned.
    So it seems to me that you have got to figure out how we 
are doing all this counting, because if you are taking 11 
cruisers that don't have weapons systems, that don't have 
crews, I don't know if they are counted in part of our fleet. I 
don't know if you count an aircraft carrier that might or might 
not be decommissioned.
    So ordinarily I would ask the Secretary of the Navy this 
question, but, Mr. Secretary, my understanding is a lot of the 
decisions that are being made are coming from your office, 
which is appropriate; in other words, which ships we are going 
to keep, which ships we are not going to keep, how much money 
we are going to spend to develop the Navy that we need today. 
And so I do think it is appropriate to ask you if you could 
tell this subcommittee how you plan to meet those requirements.
    And I would like to ask General Dempsey if he has looked at 
those plans and if he has kind of validated the size and the 
makeup of this planned fleet, because, as I understand it, the 
combatant commanders, when they request assistance from the 
Navy, they are accommodated about less than half the time. I 
have seen the number 43 percent of the requests that are made 
by the combatant commanders actually have requirements met.
    So it seems to me if you face greater risks, and you have 
less ships, then there will be even less a percentage of those 
requirements being met.
    So if you all could comment on those two, I would very much 
appreciate it.
    Secretary Hagel. Congressman, first, yes, we are gong to 
need a Navy. I don't think there is any question about that. 
The Navy is a critically important component for forward 
presence, and power projections, and all the things that you 
know. So make no mistake, no one is suggesting otherwise. That 
is first.
    Second, of the specific examples you used, all of those 
examples you used except one, the LCS, and I am going to come 
back to that, those were recommendations made to me by the 
Navy. So those were not initiated out of my office; those came 
from the Navy, and I accepted them. And I am going to address 
LCS.
    But I think the bigger point here is if you have only got 
so much money to go around, you have only got so much money to 
go around. And I can't invent more money. I have got to balance 
a budget, I have got to balance our force structure, because I 
don't think there is any question that we are still going to 
need an Army and an Air Force and modernization. Half of our 
money goes to compensation, retirement benefits. I don't think 
there is any question there, we want to make sure our people 
are taken are of. I have only got so much.
    I would like to have more ships, I would like to have more 
planes. Everybody would like to have more revenue.
    On the LCS, you made the comment that we are taking 20 of 
the LCSs out. That is not exactly right. The program of record 
for the LCS was 52. A decision I made was play it out to 32, 
there is a specific mission for the LCS, but what I asked the 
Secretary of the Navy to do, is to come back to me by the end 
of the year and give me some options for a more capable LCS, 
one that is far more survivable than this one. Up gun.
    This panel has already talked about, and we will hear more 
about, as this focus should be, the technological capabilities 
of our adversaries. You can have a lot of ships, Congressman, 
but if they don't have the capability to survive, and the power 
that they need, and the projection of that power is out there, 
but if they can't survive these new technologies, then I am not 
sure we have made the right decision.
    It isn't a matter of we are going to lose 20 ships. What I 
said to the Navy is, come back to me, see if there is a better 
way to do this. All that money that was budgeted for the LCS is 
not taken out of their program. So if that helps clear that up, 
that was the reasoning behind this.
    So in the interest of time, I will be glad to go further on 
any of this.
    Mr. Frelinghuysen. The time is of the essence. I know you 
want to weigh in, General, but I do want to get to other 
Members.
    Thank you, Mr. Crenshaw.
    Mr. Moran, thank you for your patience.

                      MILITARY COMPENSATION REFORM

    Mr. Moran. Sure.
    Let me start with the positive. This is a good and 
responsible budget, particularly under the circumstances. And, 
General Dempsey, you are proving yourself to be an excellent 
Chairman of the Joint Chiefs, and thank you for your service.
    And, Mr. Hale, you are a true professional, a real 
gentleman, and extraordinarily good guy. You have been a 
delight to work with.
    And, Mr. Secretary, I mean it when I say that you are a man 
of exceptional character and courage and ability, and really 
the finest person we could find at this time in the history of 
the Defense Department. So I want to thank you as well.
    The three of you are the best bet, then, for tackling what 
I think may be our most serious threat to a robust defense 
budget, and that may not be any military threat outside our 
borders. Just as entitlement programs are squeezing our ability 
to invest in the kinds of programs that would ensure a stronger 
economic and social future for our country, the cost of 
military pay and health care is now a third of the Department's 
budget, and it is the fastest-growing element, and unless we 
get some handle on it, it really is going to foreclose many of 
the discretionary options that are necessary within our Defense 
budget.
    And to a greater extent, it really isn't an investment in 
the future of our security. I was very disappointed in what has 
happened to the effort to trim by 1 percent military retirement 
pay. Eighty-seven percent of our military veterans don't get 
retirement. They don't stay for 20 years. A lot of them are the 
kids who get the most serious combat wounds. But there are many 
who will stay for 20 years, and then more often than not, 
because they are particularly healthy, they will sign up for a 
second career with a defense contractor. Of course, the 
contractor doesn't have to pay for their health insurance. It 
is a good deal all around. In fact, we find now that by the 
time they are in their sixties, those who do benefit from 
retirement pay and another salary are in the top 5 percent of 
compensation throughout the country.
    You know, that doesn't bother me. In fact, I think it is a 
good thing. You know, living the good life, voting Republican, 
it is fine. But I am not sure we can continue to afford it. And 
I was particularly disappointed that those organizations who 
represent military retirees were so adamant. I think they knew 
they were going to ultimately be successful. One of the most, I 
think, comical arguments was that it is going to affect 
adversely recruitment.
    I am not sure how many 18-year-olds, when told that 20 
years later their retirement COLA is going to be cut by 1 
percent, really change their mind about signing up, you know? 
And you picture an, Oh, no. A 1 percent cut in my COLA when I 
am 38? Oh, no. Let me change my mind on that. They don't. The 
fact that we froze civilian pay, many of these civilians work 
alongside those in uniform, for 3 years. It just shows you that 
it is an area that we are going to have to overcome 
politically, but somehow you are going to have to get a handle 
on the budget. And what you have suggested is kind of trimming 
around the edges.
    Now, this is not supposed to be a speech, it is supposed to 
be a question, so I am going to ask you if you think there is 
any chance that the Commission on Military Compensation can 
give us an opportunity to get a handle on the fastest-rising 
portion of the Defense budget, because it really seems 
unsustainable.
    Mr. Secretary.
    Secretary Hagel. Well, that is the charge of the Commission 
that the Congress set up, and we have just sent a number of 
options to them, as you probably know, on retirement. And for 
all the reasons you mentioned, I think it has been pretty clear 
across our leadership spectrum that we can't continue to 
sustain the kind of commitments that we are now obligated to 
sustain.
    And just one point on the COLA-minus-1 issue, as you know, 
that would be for--I think you referenced people coming in 
after January 1st of this year.
    Mr. Moran. Yes, yes.
    Secretary Hagel. No, this is a serious issue. It has to be 
dealt with. I am hopeful that the Commission will come forward 
with some very smart recommendations.
    The Congress is going to have to work with all of us on 
this. We can't move without the Congress on this, as you know. 
And I would tell you that I am committed. Our enterprise is 
committed to work with you on what those recommendations will 
be. But it is a key part of our future enterprise in order to 
deal with this, and it is the most difficult part, as you have 
mentioned.
    Mr. Moran. I know we are the problem more than you, but----
    General Dempsey. I will be very brief, Chairman. What we 
are trying to do here is slow the growth, we are trying to slow 
growth. We want the money to go back to the services so they 
can do things like plow it back into readiness and maintenance 
and equipment. And we want to do it once.
    By the way, that is important. I know that you pass annual 
budgets, but we want to have pay compensation, healthcare 
reform once so that the force can settle and stabilize against 
a new set of compensation standards.
    And on retirement, Congressman, the one place I probably 
part company with you a bit is I have said and will continue to 
advise or recommend that any changes to retirement should be 
grandfathered for the force currently serving.
    Mr. Moran. Sure.
    Mr. Frelinghuysen. Thank you, Mr. Moran, for raising an 
important issue.
    Mr. Calvert.

                           CIVILIAN WORKFORCE

    Mr. Calvert. Thank you, Mr. Chairman.
    And thank you, gentlemen, for coming to speak to us today.
    I would like to talk a little bit about the civilian 
workforce. It was mentioned briefly, Mr. Secretary, in your 
statement. The committee has heard official and unofficial 
testimony in the past that the Department could use some 
assistance from Congress in better managing its workforce, 
giving you some legal authorities. According to the American 
Enterprise Institute, over the last 10 years, the Active Duty 
military grew by 3.4 percent, while the number of civilian 
defense employees grew by 17.4 percent. Despite this disparity, 
in light of our fiscal challenges, I am concerned that your 
testimony does not address any real detailed effort to 
rebalance the Defense Department's workforce; rather your 
proposed defense cut would obviously shrink the Army and 
obviously would add to risk in certain areas.
    I am introducing some legislation tomorrow, which I have 
worked with some former Comptrollers--we discussed this in Los 
Angeles at the Defense Forum--which would require DoD to make 
necessary reductions to its civilian workforce in a systematic 
manner without compromising our ability to maintain a strong 
national defense over the long term. I think it is time that 
we, obviously, keep the best and brightest of our civilian 
workforce and bring the workers into balance with the Active 
Duty Force.
    So my question, Secretary, in your testimony you mention a 
5-year defense plan, which includes savings from reducing 
civilian personnel and contractor costs, but I didn't see any 
real details on how you would do that.
    Just one last comment. Last year former Secretary Lehman 
wrote in a Wall Street Journal article that each 7,000 civilian 
employee reduction saves at least $5 billion over 5 years.
    Can you explain in more detail how your proposal to reduce 
civilian personnel and contractors will be implemented and 
savings that will result?
    Secretary Hagel. Congressman, first, and I will ask the 
Comptroller to give you some numbers on this, we did focus--and 
those numbers and how we would intend to do it are in the 
budget and the specifics of that. We did focus exactly on what 
you just talked about. We have been focusing on the civilian 
workforce, trying to judiciously explore what their role is. 
Twenty percent of the headquarters staff over the next 5 years, 
all headquarters staffs, will be cut. Chairman Dempsey and I 
did this together. The Joint Chiefs, all headquarters across 
the globe.
    Now, when you look at just plain numbers, that doesn't 
represent a great number, but it is not insignificant. But it 
is bigger than that. And the percentages here are pretty 
impressive, what we are looking at.
    And if I can ask the Comptroller to explain what is in that 
budget, the specifics of how we intend to do it and the focus 
that we put on it. But we did focus on it.
    Mr. Hale. I will keep it short, and we can give you more 
detail. It was about a 5 percent cut in civilian full-time 
equivalents between fiscal 2014 and fiscal 2019 in this budget, 
similar to the reduction in the Active strength.
    It comes from reorganizations. It comes from recognizing 
that workload is going down, as, for example, the war ends. And 
it comes--and here we could use your help--from BRAC. And when 
you get rid of a brigade combat team, you don't get rid of many 
civilians. If you close the base that that team was, then you 
save all the infrastructure, and that is a lot of civilians. 
So, if you give us BRAC authority, we will be much better able 
to----
    Mr. Calvert. Let me follow up on that. As you know, we have 
been through several BRACs, and we have been through several 
previous secretaries, and they have all tried to reform and 
reduce the civilian workforce, most notably Secretary Rumsfeld. 
But they failed to do so.
    And I have been told by some of your predecessors and some 
of your former Comptrollers that you are unable to do so 
because of laws that are on the books, the number--and so forth 
that--especially on issues regarding performance, to make 
significant reductions in the civilian workforce.
    You mentioned 5 percent. The Defense Business Board said 
that it is necessary, to bring them back into a ratio relative 
to civilian-to-military employees, should be a reduction of 15 
percent over 5 years. Do you agree with that number?
    Mr. Hale. We set our civilian numbers to match workload. So 
these are service recommendations that seemed right to us. So, 
I wouldn't be willing to sign up to a 15 percent cut, 
especially if we are going to have to keep civilians at bases 
we don't need.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Frelinghuysen. Mr. Calvert, thank you for your 
questions.
    Ms. McCollum, thank you for your patience.

                     BASE RE-ALIGNMENT AND CLOSURE

    Ms. McCollum. Thank you, Mr. Chair.
    Good morning. I guess I could almost say good afternoon, 
gentlemen.
    Mr. Secretary, this defense budget makes tough choices that 
are responsible and necessary, and it has my support. Yet this 
year's tough choices are modest when you compare them to the 
dangerous budget choices that we will face next year if 
sequestration remains in place, as you gentlemen have pointed 
out. So I believe it is high time that some of my conservative 
colleagues in Congress stop criticizing this budget. Instead, 
find the political courage to put new revenue on the table to 
fund our national security priorities.
    But absent such political courage or new revenue, we are 
not going to make America stronger and more secure by cutting 
domestic priorities like education, infrastructure investments, 
health research, or Social Security to fund the Pentagon's 
budget.
    So to follow up on what you started talking about, BRAC, 
you know, one of the tough choices in this budget is a new 
round of closings. In 2004, the Department estimated that it 
had about 25 percent excess infrastructure. So, Mr. Hale, you 
started to kind of allude to this. Could you give us the 
estimate of excess Defense Department infrastructure today?
    Mr. Hale. Well, I have to give you the same number. We have 
not been allowed to plan, and so we haven't. But we know that 
it was about 25 percent at the end of the BRAC 2005 round, and 
it is almost certainly higher now because we have reduced 
forces. So there is a good deal of unneeded infrastructure out 
there.
    Ms. McCollum. Okay. Secretary Hagel, is it fair to say that 
as Congress continues to spend billions of dollars every year 
for military facilities and infrastructure that the Department 
of Defense does not need or no longer wants, that it impacts 
projected savings in future year defense programs from 
implementing the--you know, when we don't close BRACs, that 
means there is less money for readiness, there is less money 
for modernization, other priorities.
    Could you maybe explain how if we don't do that, you can't 
do some of the things that General Dempsey and you were talking 
about for preparing our force to be well rounded?
    Secretary Hagel. Congresswoman, it is really pretty simple. 
If you are paying for overhead you don't need, whether it is 
people that Congressman Calvert talked about, or all the 
expense that goes with overhead you don't need, then you are 
absorbing resources from the more viable parts of your 
enterprise, and that is just less money you have.
    And so I don't think it is anything more complicated than 
that. It is complicated to get there. It is imperfect, I know 
that. But the longer we defer this, and the longer we continue 
to keep that excess capacity that we are paying for, taking 
money away from the real important aspects of our mission and 
our national security, the higher price we are going to pay for 
that.
    And at some point then, at some future Congress, or whoever 
is running the Pentagon at the time and the next chairman, they 
are going to have to make some tough choices. And that is what 
I said in my opening statement. The chairman has noted it. You 
all know it. That is life. So we are far wiser to get at this 
now to try to sort this out. But make no mistake, it is costing 
us now.

               CAPABILITY OF AFGHANISTAN SECURITY FORCES

    Ms. McCollum. Thank you.
    As the White House and the Pentagon has to consider a 
withdrawal of U.S. troop, zero option, and it was alluded to 
with the dollar figure that the ranking member brought up on 
the floor, there is also something else I would like you to 
briefly touch on.
    What is your assessment of Afghan security forces' capacity 
to sustain the gains our troops have made and ensure that 
progress made by civil society and women in Afghanistan allow 
to be continued to develop?
    Secretary Hagel. I don't think there would be anybody here 
certainly today that would argue that things are not better in 
Afghanistan for women, for the people of Afghanistan than they 
were 10 years ago. That has come at a cost, yes. And the real 
question, I think General Dunford addressed this yesterday, and 
General Dunford will continue to address it; Chairman Dempsey 
noted it in his opening statement--that how do we protect that 
as much as we can, as best we can, the tremendous gains that 
have been made, the sacrifices that we have made, our people, 
to help the Afghan people get there.
    Obviously, they are a sovereign nation. They have the 
responsibility to defend themselves, just as Iraq does. We have 
tried to help build those capacities as we have dealt with the 
terrorism issue, which led us there in the first place.
    But the open question is, if in fact there is no role for 
the United States, and if there is no role for our allies--and 
let's not forget we have 50 International Security Force allies 
with us in Afghanistan and NATO--then there is an open question 
on the vulnerabilities that they are going to be dealing with.
    I have confidence in the tremendous progress the Afghan 
army has made, their institutions. It is imperfect, I know. Our 
inspector generals remind us of that every day. But they have 
made great progress.
    And General Dempsey was just there, as he noted. He made 
some evaluations, and he stays very close to this every day. I 
talk to Dunford on a regular weekly SVTS and touch base with 
him, our commanders as well, a number of times each week. But 
there is risk, and there is unpredictability.
    Ms. McCollum. Thank you. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Ms. McCollum.
    Mr. Cole.

                        AWACS/DEPOT MAINTENANCE

    Mr. Cole. Thank you very much.
    Gentlemen, first, thank all of you for your service. And I 
appreciate it more than I can say. We may occasionally have 
some disagreements, but nobody on this panel doubts anybody's 
commitment to the defense of the country or absolute personal 
integrity and appreciates all the service.
    I am going to focus on two or three things quickly. But I 
first want to make a quick remark. This is a budget full of 
really tough choices. I don't think there is any doubt about 
you made some choices you didn't want to have to make. And I 
want to associate myself, Mr. Secretary, with a couple of your 
remarks, because I think you made those tough choices because 
we in Congress and the administration have not made the tough 
choices that we ought to make. Frankly, we all know we are 
under a cloud here of fiscal restraint that is beyond what 
anybody on this panel wants to see happen where the military is 
concerned.
    So, again, your job would get a lot easier if we did our 
job as well as you do your job. And, hopefully, in the next 
couple years we will be able to find some way to get there. 
Most of the members on this panel have voted for every deal 
that has been out there, whether it was the fiscal cliff or 
whether it was, you know, reopen the government or the Ryan-
Murray deal, and they did that in large measure because they 
are very concerned about the men and women in uniform and about 
the challenges that we have dealt you as leaders.
    So, again, I think the real message here at a deeper level, 
beyond the budget, is the political class of the country needs 
to start doing its job so that you guys are free to do yours.
    Now, the two areas of concern that I had quickly to focus 
on, one, you made some tough choices in this budget concerning 
our AWACS fleet. And that is a pretty low-density but high-use 
asset that we are using right now, as you mentioned. And in 
full disclosure, this is a parochial concern, most of those are 
stationed in my district at Tinker Air Force Base. So obviously 
I have got a concern there.
    But I think the fact that you could immediately deploy six 
of them, and you have got missions in the books for homeland 
security, to deny and to defeat, I mean, it is an asset we use 
an awful lot. So I would like to get your thinking on why we 
can lose that percentage. I recognize there have to be cuts not 
just in one place. This is a very high percentage of this 
asset. Essentially 25 percent that we are going to be losing.
    Second question, and somewhat related, I just would like, 
if we have enough time, to expound a little bit, this sort of 
picks up on Mr. Calvert's question about are you comfortable 
with where you are at in terms of the depot system that we 
have. I mean, do you have what you need for modernization? Do 
you have what you need in terms of personnel? When you look at 
civilian reductions, where do you see those coming across the 
civilian workforce?
    I think we get high value out of our depots. And I just 
want to kind of probe your thinking a little bit on where these 
civilian personnel cuts could come from, what areas of 
economizing there are out there.
    Secretary Hagel. Thank you, Congressman. And thank you for 
your comments.
    Starting with your last question, using depots as an 
example, but it is a broader question, picking up on 
Congressman Calvert's question, picking up on Congressman 
Calvert's question, which is a very important one. I think I 
would refer back to what the comptroller noted. Any business 
person, many of you are business people, or any responsible 
person who has responsibilities for an institution and people, 
so on, knows that you have to match your resources up with your 
mission. You match your people with the mission.
    And what the comptroller was noting in a general answer, I 
think, to Congressman Calvert was we have tried to focus on 
what the civilian component responsibilities are for this 
institution. Everyone knows they support the military. And so 
what is their exact role? How many do we need? How many do we 
not need? As the world changes, everything shifts. So we have 
tried to do that. No, we are not perfect at it. But we 
prioritize that. So that would be the first general answer I 
would make to your point.
    Depots and the civilian workforce there are really 
critically important for all the reasons, starting with the 
mission of the depot and how do they support the military. And 
so we focus on, again, those missions, and those missions that 
are most critical in support of our military and national 
security interests. That is always the starting point.
    On AWACS and some of the touch choices we made. I followed 
most all of the recommendations that our chiefs and our 
secretaries made. General Dempsey deserves tremendous credit in 
working through this. This was not an easy process internally, 
as you all can imagine.
    Each Service Chief, of course, has the responsibility for 
his or her service. And we have to rely, the President has to 
rely, I have to rely on the fact that they will be an adequate, 
an efficient, effective spokesman for their service, they will 
protect their service. That is their job.
    But in the end, they also have a bigger responsibility, and 
that is the entire enterprise. And the chiefs had to make some 
very tough recommendations based on these fiscal restraints. 
And so I think I did a very effective job, much because General 
Dempsey helped them work through all this. It wasn't easy for 
anybody.
    And so, therefore, your direct question to me, those were 
recommendations in almost every case that came from the Service 
Chiefs, the secretaries, on what they thought they were going 
to need with the restraints, fiscal restraints to protect the 
country, do the job that they are asked to do.
    Mr. Cole. I am sure this was taken into consideration, this 
is last point, and I don't need a follow-up answer. But this is 
an asset that does enhance the capability of our allies. It is 
not just an asset for us. And so in that sense, it is a force 
multiplier. I think one of these things can enormously useful. 
That is really how we are using it now, as I understand it, in 
Romania and Poland. And it is something, it is a capability 
that not very many other people have that we do, obviously.
    Secretary Hagel. No, there are strong arguments, 
Congressman, on both sides of that. Those are close calls. I 
mean, I get it.
    Mr. Frelinghuysen. Mr. Cole.
    Mr. Cole. I am sorry we put you in that position. I am 
sorry, Mr. Chairman. Yield back.
    Mr. Frelinghuysen. Mr. Cole, point is well taken. Mr. Ryan.

                          DOMESTIC NATURAL GAS

    Mr. Ryan. Thank you, Mr. Chairman.
    Thank you, gentlemen. I am going to cover a little bit of 
territory.
    First, Mr. Secretary, I would like to thank you. Last time 
you were here, I talked with you about an airman, Karl Hoerig, 
who was murdered in my district, and his wife fled back to 
Brazil. And I want to thank you for your help. And I may have a 
question or two for the record on that issue.
    With the issue of Ukraine, one of the issues, if you look 
at the map of Ukraine, you obviously see a lot of gas pipelines 
coming in and out of Russia. One of the things we are trying to 
do here is export more of this newly accessed natural gas that 
we have in the United States, in eastern Ohio and western 
Pennsylvania.
    Can you just talk for a minute or two, General and Mr. 
Secretary, about what you think the Pentagon, Department of 
Defense position is on using our bounty that we have here as an 
opportunity to wean a lot of the European countries off of 
Russian natural gas?
    Secretary Hagel. Congressman, thank you for your comments 
regarding your former constituent, too.
    Well, first, that is not our area of responsibility, 
specifically, as you know, as you implied. Not that we are 
unmindful, and cannot be, of all the different tools that the 
President has to conduct foreign policy to assure our national 
security and our national interests around the world. And 
certainly your question brings into focus one of those areas.
    I know that the interagency is looking at all these 
different options. I am no expert on any of this, but I do know 
that one of the issues that we are dealing with--we, not DoD, 
but just our economy domestically as far as exports and 
liquefied natural gas--is our terminals. We don't really have 
the facilities, that I know some are being built and plan to be 
built.
    But your bigger question, though, is one that we really 
don't get involved in. I don't know, the Chairman may have a 
response to it.
    General Dempsey. Just to align myself with your thinking 
that an energy independent and net exporter of energy as a 
nation has the potential to change the security environment 
around the world, notably in Europe and in the Middle East. And 
so as we look at our strategies for the future, I think we have 
got to pay more and particular attention to energy as an 
instrument of national power, because it will very soon, in the 
next few years, potentially become one of our more prominent 
tools.

                        DEFENSE INDUSTRIAL BASE

    Mr. Ryan. I appreciate that. We had a meeting with Ms. 
Merkel, a year ago today, the German Study Group was in 
Germany. And the first question she asked us was about how do 
we get some natural gas. And now the world is seeing how they 
are in the middle of this whole play that is happening.
    The other issue and final question is regarding the defense 
industrial base. And I know you said earlier that the defense 
industrial base is an important national asset, which those of 
us in the industrial Midwest certainly know.
    One of the issues is, as we move to cut some of these 
programs and weapon systems, I think it is important for us to 
understand how that is going to affect the industrial base, how 
that is going to affect the supply chains, Tier 1, Tier 2, Tier 
3, all the way down, subcontractors, all the way through the 
supply chain. And I don't think that DoD has yet a full, deep 
understanding of the supply chain.
    And I want to know and ask, is there any move afoot or 
initiative within the Department of Defense to really map and 
figure out what this supply chain looks like? And it would 
certainly have benefits into other manufacturing sectors as 
well.
    Secretary Hagel. Congressman, your point here is very, very 
important, and I alluded to it, as you noted, in my statement. 
But to your question, yes, we do, matter of fact, pay a lot of 
attention to this.
    I don't know if our under secretary for acquisitions has 
been up here, Frank Kendall, to talk with any of you. I suspect 
most of you know who he is. He comes from the business world. 
In fact, he is a West Point graduate. But he has spent a lot of 
time on this, as all of our chiefs have, our services have, 
because everyone recognizes that industrial base is where that 
strength, where that comes from.
    Every decision we make, recommendation we make, factors 
that in, Congressman. Now, you may disagree with some of the 
decisions, but it goes back to what we have been talking about 
all morning. I mean, when we are limited with resources, we 
have got make some hard choices. I would like to keep all the 
airplanes flying and all the ships steaming, and more ships, 
more airplanes. But I don't have that opportunity to do that. 
So we have to make tough choices.
    But I want to assure you--and we will be glad to come over 
and give you a complete briefing on this, too, as to how we do 
this--that your point is a very important part of all our 
decision making.
    General Dempsey. Mr. Chairman, could I just add.
    Mr. Frelinghuysen. Yes. Very briefly.
    General Dempsey. To your point, I am sure there are things 
happening out there that we haven't yet been able to fully 
understand. So, for example, the big providers are able to 
absorb the uncertainty that we are all confronted with. The 
smaller ones, subcontractors, are not. And so I am sure that in 
terms of the big providers, the effect is probably pretty 
minimal. But I think among the small providers it is probably 
pretty significant, and it argues for the kind of certainty we 
have been asking. Long-term certainly will mitigate the risk 
that we lose some of these really important and smaller 
providers.
    Mr. Frelinghuysen. Thank you, General.
    Thank you, Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Womack. Thank you for your patience.

                       ARMY AVIATION RESTRUCTURE

    Mr. Womack. Thank you, Mr. Chairman.
    And again, I would like to add my thanks to the panel here 
today for their great service to our country. And I can't 
imagine the difficulty you are having in making these tough 
choices.
    At the risk of getting down in the weeds, maybe more 
appropriately at the hover level, I want to ask you for your 
explanation on the decision to take attack aviation out of the 
Guard and put it into the Active component in totality. And 
then there is a second piece to this question that is more 
strategic thinking in nature. Does it signal that there is a 
new construct to how we look at our Guard and Reserve, who for 
many, many years, since the war on terror began, has become 
more of an operational force? And now we are making a proposal 
or making a decision to take strategic depth away from attack 
aviation and put it in the Active component.
    Does that signal a change in the construct of how we look 
at our Guard and Reserve?
    Secretary Hagel. Thank you, Congressman. That is a 
critically important question, and I am going to ask the 
General to address it. Because he has probably--not probably. I 
can't speak for the all-knowing comptroller here, who is expert 
on everything, at least we go to him for everything. But there 
is certainly nobody at this table, nobody in this room I am 
aware of who knows more about this question than the Chairman 
of the Joint Chiefs of Staff. So I am going to defer. I have 
got an answer, but his will be better. So let me defer my 
answer and let General Dempsey address this.
    Mr. Womack. Please, General. Thank you.
     General Dempsey. I can't promise you better, but I will 
promise you as much information as I can possibly provide. And 
I would be happy to also take a further follow-on for the 
record.
    [The information follows:]

    We are continually assessing our force structure, to include the 
balance of forces in the Active and Reserve Components. Moreover, we 
constantly look for more efficient ways to manage the force while 
meeting combatant commander requirements. Transferring attack aviation, 
the low-density/high-demand AH-64 Apache helicopters, from the Guard 
into the Active Component is an example of the normal rebalancing of 
capabilities between components to better enable the Joint Force to 
meet the needs of the combatant commands. This decision better enables 
Apaches to be teamed with unmanned systems for the armed reconnaissance 
role as well as their traditional attack role. Further, it provides the 
National Guard a more robust capacity of the more versatile UH-60 
Blackhawk. These aircraft not only improve the National Guard's 
capabilities to support combat missions, they increase their ability to 
support civil authorities, such as disaster response, while sustaining 
security and support capabilities to civil authorities in our states 
and territories.

    General Dempsey. The Army is essentially trying to reduce 
the number of platforms from seven to four, to replace some 
aging platforms that, frankly, are just cost inefficient, and 
in so doing turn the Apache helicopter both from an attack 
platform into a scout helicopter, link it with some unmanned 
aerial systems in order to form a scout weapons team.
    To do that, their intent, as currently briefed, is to move 
the attack helicopter fleet, as you know, into the Active 
component, but replace the loss of aircraft in the Guard with 
lift helicopters, which have both utility in a combat 
environment, but also in homeland defense, humanitarian 
assistance, disaster relief.
    I can assure you it is not a move toward pushing the Guard 
back into a strategic reserve. That is actually a separate 
issue. I can understand the question, and I can understand the 
concern on the part of the Guard. But the Guard will always 
remain part of our operational capability. Albeit the attack 
helicopter capability, the rotary wing attack helicopter 
capability would be removed.
    We are now in negotiation, frankly, and in discussion with 
the Guard about how much of it can be operational at any given 
time in balance with the Active component and how much of it 
then would be in a more strategic role. And that is a 
discussion that will persist for the foreseeable future as we 
determine what our needs will be. But we are not trying to push 
the Guard onto the shelf, I assure you.
    Mr. Womack. My last comment would be this, and if you want 
to respond to it, fine. You have already touched on this notion 
that we are pretty good right now at counterinsurgency. We have 
been doing that for a long time, we are really good at it.
    Some of the more recent activities going on in Eastern 
Europe concern me that we could be thrust back into some kind 
of full spectrum operational environment. And we are not very 
good at that now. We are not certified, as you called it, 
credentialed to do that. We have to know up here, as we pivot 
to new threats, emerging threats, we have to know up here where 
we are weak in our ability to respond, to project power into 
these trouble spots. And the sooner the better.
    So I got it. I agree with you. I am concerned about it. And 
I hope that our Nation can become as concerned about it.
    Mr. Frelinghuysen. Thank you, Mr. Womack, for some 
excellent, on-point questions.
    Mr. Owens.

                     BASE RE-ALIGNMENT AND CLOSURE

    Mr. Owens. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I want to go to an issue that has been raised several 
times. But you have clearly, I think, laid out an argument that 
we have excess weapon systems or at least aging weapon systems. 
We have facilities that are, in your minds at least, not 
necessary. And, obviously, that brings people along in the 
process as well. You have also told us that we have not allowed 
you to plan to deal with that issue.
    If you had the capacity to plan, how long would it take you 
to construct something that would tell us where you anticipated 
being after you made cuts, and then how would that lay over to 
what you see as the mission and/or threats that you are trying 
to address? Because it is clear to me that we have had a change 
in what we see as our threat assessments over the last 10 or 15 
years.
    Secretary Hagel. Congressman, were you speaking about--you 
started in your comments about excess capacity. I am not sure--
--
    Mr. Owens. You mean I wasn't clear?
    Secretary Hagel. No, I wouldn't put you in my category. Let 
me take a run at what I think I can provide you here.
    Mr. Owens. Maybe I can clarify this. There has been a lot 
of talk about BRACs. You said you can't plan for a BRAC because 
you don't have authority to plan. What I am trying to 
understand is, if we gave you authority to plan, how quickly 
could you develop a plan, present it to us, and how does that 
match up with our threat assessments?
    Secretary Hagel. On BRAC, you mean?
     Mr. Owens. Right.
    Secretary Hagel. Well, we have done a lot of planning on 
that. We know based on, to your point, corresonding threats, 
where those threats are. For example, I laid out in my opening 
statement just a brief four specific priorities on our defense 
strategy guidance, QDR, what was the focus, homeland security, 
went right down through that. Let's just take those four 
priorities that the President laid out 2 years ago, QDR. How do 
you implement the plans the programs, the missions in order to 
develop, sustain, and then implement those strategies to deal 
with the threats?
    And so, yes, we have got a pretty good sense of overhead 
and structures and so on that we could do without, that don't, 
in fact, factor into the strategic threats that you noted have 
changed significantly in the last 10, 15 years.
    Mr. Owens. It doesn't appear to me that the public 
understands that you have had this change in threat assessment 
and what those threats are and how you would meet those 
threats. I don't think that is well understoood by the public.
    Secretary Hagel. Well, maybe not. I mean, if you start with 
the President's Defense Strategic Guidance and then QDRs, I 
suspect most in the public don't spend that much time going 
that deep down into it, and maybe we haven't articulated 
clearly enough what we see as threats. But I think, you know, 
in speeches I give, the Chairman gives, our chiefs give, we 
talk about those all the time, cyber terrorism, so on. And so 
maybe we could crisp that up better.
    When I go out and speak or when I take questions and when I 
am on different forums, different settings, not just up here, 
as the Chairman does often, we are often asked that, I mean, by 
the media, by others in various ways. But I don't think it has 
been any particular secret as to where we thought we needed to 
go and what the threats were.
    Mr. Frelinghuysen. General Dempsey.
    General Dempsey. Let me take a really brief swing. This is 
the elevator speech of national security strategy.
    Our threats can be described as two, two, two, and one. Two 
heavyweights: Russia and China. Two middleweights: Korea and 
Iran. Two networks: Al Qaeda and the transnational criminal 
network that runds from south to north in this hemisphere. And 
one domain: cyber.
    And in response to that we have distributed the force, we 
have a very good idea of how much of it should be foreard 
deployed, how much should be rotational, and how much should be 
in we call it surge capability and the homeland. We have got 
that. We can certainly provide that.
    Mr. Owens. Thank you.
    [The information follows:]

    Our global posture analysis, which includes forces, footprints, and 
agreements with Partner Nations, is an on-going and dynamic process 
that involves multiple coordinated efforts. We carefully balance the 
need to provide forces to the geographic combatant commands to assure 
our allies and deter our adversaries with the need to preserve ready 
units for homeland defense and surge events. This delicate balance is 
measured against our strategic pillars, National Security Initiatives, 
and mission prioritizations. This review yields a set of forces that 
are forward-based (stationed), forward-deployed (rotational) from the 
U.S., and forces that can be deployed in response to crisis or war 
(surge). The combatant commands have forces with which to plan and 
conduct current operations, and the Services manage forces for steady-
state missions while providing a hedge for unforeseen contingencies.

    Mr. Frelinghuysen. Let me just comment before I go to Mr. 
Aderholt. A lot of emphasis is placed on all these assessments 
and QDR. And, of course, it didn't escape you that in the most 
recent one, of 64 pages, Russia was only mentioned once. I 
think you perhaps saw that. I mean, that is pretty alarming.
    Mr. Aderholt.

                      SPACE LAUNCH ROCKET ENGINES

    Mr. Aderholt. Thank you. I join my colleagues in welcoming 
you to our subcommittee. And it is great to have you here this 
morning.
    Concerning the Ukrainian situation, touch base about it 
just a minute. My question would be, do you feel like--and I 
will address this first to the Secretary and then to the 
Chairman, or whoever would like to respond to it--but does it 
demonstrate it is time for us to move ahead promptly more with 
a joint Air Force-NASA funding to develop additional 
capabilities for making powerful rocket engines here in the 
U.S.? Just your thoughts on that.
    Secretary Hagel. You are obviously referring to the 
relationship we have with the Russians on----
    Mr. Aderholt. Yes.
    Secretary Hagel [continuing]. On their rocket motors.
    Well, I think this is going to engage us in a review of 
that issue, I don't think there is any question about that.
    Mr. Aderholt. But do you feel that this is something that 
is rising to the forefront now with this Ukrainian situation?
    Secretary Hagel. Yes. As I just said, I think there is no 
question it is----
    Mr. Aderholt. Yeah.
    Secretary Hagel. Sure.
    General Dempsey. Well, as you know, we have got 
relationships not only in the issue of commerce and trade with 
Russia, but the northern distribution network coming out of 
Afghanistan, cooperation on counterterror and counterpiracy; 
many, many different areas where we have a relationship with 
them, and I think they will all be under some scrutiny, 
depending on how the issue in the Ukraine evolves.

                          LITTORAL COMBAT SHIP

    Mr. Aderholt. Let me move over quickly to the LCS. I know 
it has already been mentioned here this morning, but you know, 
of course, some concerns about I think about every ship in the 
fleet will be equally armored, but be that as it may, I believe 
that the threats which the current LCS are designed to address 
need to be defended against probably as we go for the budget 
process. But in the fiscal year 2015 budget report, the Navy, I 
understand, acquires three LCS ships instead of four as 
originally planned. Given the situation, how do you decide 
which of the two versions of the LCS to put on hold for a year?
    Secretary Hagel. Well, first of all, we are not putting 
anything on hold with the production line that is in place. 
What I have said is that of 32 LCSs, 24 have already been 
contracted for, and another 8 will need to be contracted for. 
Those go forward. Those are ongoing now. We budget for them, so 
there is no change. Those will go right into fiscal year--in 
the current production line, 2020, so that doesn't change.
    What I have asked the Navy to do is to come back to me, as 
you may know or you may have seen the memo, and address the 
issue of if we are projecting out a 300-ship Navy, is it the 
smartest place we can have a sixth of our ships, LCSs? That is 
what we are projecting. In the light of some of the points that 
have been made here today, the new emerging technologies and 
threats that our adversaries have, is this really what we need 
and what we want, we should be spending our money on?
    You are correct, the LCS was designed for specific 
missions, and that isn't changing. We are going ahead with 
those, for those missions, but then we are talking about, well, 
is that where we need another 20, which then that would 
represent a sixth of our Navy. So that is the question.
    Your point about the two holds, one, as you know, being 
produced in Alabama and the other in Wisconsin, what I have 
asked the Navy to go do is look at those two holds; is there 
any variations that can come with already what is in the 
production line, research, technology, everything we know 
about, so you don't start over. How do you come back to me, 
will you come back to me with some thoughts about a more 
survivable ship, a more up-gunned ship, a more capable ship 
than what the LCS is presently? So that is the decision. Then 
we will make a decision in the next budget on that.
    Mr. Aderholt. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you. And the cost.
    Secretary Hagel. I am sorry?
    Mr. Frelinghuysen. The cost of that.
    Secretary Hagel. The cost.
    Mr. Frelinghuysen. The cost. That is one of our primary 
focuses.
    Secretary Hagel. Yes.
    Mr. Frelinghuysen. Of what might succeed----
    Secretary Hagel. That is right.
    Mr. Frelinghuysen [continuing]. Represent and upgrade.
    Secretary Hagel. That is right.
    Mr. Frelinghuysen. Yes, Ms. Kaptur.

                    FORCE INTEGRATION/ALCOHOL ABUSE

    Ms. Kaptur. Thank you, Mr. Chairman, and again, thank this 
panel. We really appreciate your service to our country and 
your being here today. You are under a lot of pressure on many 
levels, and we thank you for your great intelligence and your 
composure.
    I am going to ask for three items for the record, so I will 
just tick these off very quickly and then ask my question. For 
the record, I would appreciate any information the Department 
has on Ukraine's military losses, including wounded and their 
engagements in support of our efforts on the global war on 
terrorism.
    [The information follows:]

    Industrial base impact (at all levels of the supply chain) is an 
important consideration factored into the Department's investment 
planning and budget preparation. In 2013, the Department implemented 
its first widespread application of Sector-by-Sector, Tier-by-Tier 
(S2T2) Fragility and Criticality (FaC) assessments with the Services 
and Defense Agencies. These assessments systematically evaluate the 
need for program adjustments or investments to sustain specific niches 
in the defense industrial base. The framework allows DoD leadership to 
better consider industrial capabilities spanning multiple sectors, 
tiers, Services, and programs as part of DoD's normal budget process. 
FaC assessments measure the criticality of a capability; the impact of 
losing the capability, including the difficulty of restoring it; the 
fragility of a capability; and the difficulty of obtaining a capability 
when needed. A summary of S2T2 FaC assessments will be included in the 
2014 Annual Industrial Base Capabilities Report to Congress.
    Results of the S2T2 fragility and criticality assessment are 
reflected in the FY15 President's Budget Request including investments 
for Air Force and Navy high-performance jet engine technology 
development, Army next generation ground combat vehicle design teams, 
and missile industrial base for production process improvements/
automation and material/technology upgrades for enhanced performance.
    In addition, the Department initiated a new program in FY14, 
Industrial Base Analysis and Sustainment Support, which will fund 
projects that preserve critical defense industrial base capabilities 
through a break in production that would otherwise have to be recreated 
later at a higher cost to the taxpayer. These projects are rated by the 
S2T2 FaC criteria. FY14 will fund focused projects for Butanetriol, a 
solid rocket fuel precursor chemical; Infrared Focal Plane Arrays; 
Advanced Thrusters for Solid Rocket Propulsion; and Test Facilities for 
Radiation Hardened Electronics.
    While the Department is committed to achieving the best possible 
balance between affordability and capability, budget cuts are and will 
continue decreasing production and R&D for all defense systems and we 
cannot afford to ``fix'' all of our industrial base vulnerabilities. In 
general, we are concerned about maintaining engineering design 
capabilities in several sectors, most notably for tactical aircraft and 
rotary wing.
    <bullet>  To address tactical aircraft concerns, the Department has 
initiated an Air Dominance Initiative (ADI) led by DARPA with extensive 
participation from both the Navy and the Air Force partnered with major 
tactical aviation industry suppliers. This ADI team is exploring 
concepts for the next generation of air dominance and undertaking 
prototyping efforts based on the results of concept exploration. The 
Department continues to promote competition and innovation in 
aeronautics with its investments in enabling technologies and programs, 
including the Unmanned Carrier Launched Airborne Surveillance and 
Strike (UCLASS) aircraft and the Long-Range Strike Bomber (LRSB).
    <bullet>  With regard to rotary wing concerns, DARPA has launched 
the vertical take-off and landing (VTOL) X-Plane program to challenge 
industry and innovative engineers to concurrently push the envelope in 
four areas: speed, hover efficiency, cruise efficiency, and useful load 
capacity. They are looking for true cross-pollinations of designs and 
technologies from the fixed-wing and rotary-wing worlds. Additionally, 
the Future Vertical Lift Joint Multi-Role Technology Demonstrator (JMR-
TD) program will also encourage innovation and enhance competition for 
rotary wing platforms.
    The Department has also worked with other government rocket 
propulsion stakeholders (Services, NASA, & OSTP) to establish a 
collaborative body within the Joint Army, Navy, NASA, and Air Force 
(JANNAF) construct to address rocket propulsion industrial base issues. 
We are leading activities associated with implementing the Government's 
Course of Action for sustaining the solid and liquid propulsion 
industrial base.
    The Department is working through the Defense Ordnance Technology 
Council to address industrial base concerns associated with developing 
and executing missile fuze and thermal battery risk mitigation 
activities. We are also developing a strategy to address ammonium 
perchlorate industrial base issues.
    As the Department continues to refine and implement S2T2 FaC 
assessments, we will increase our knowledge of those capabilities that 
truly need to be preserved as well as help inoculate the Department 
against concerns not related to industrial base risk.

    Number two, in terms of a defense industrial base, a 
summary of vulnerabilities, componentry, processes, and trained 
employees in the sectors you deem most critical.
    [The information follows:]

    Industrial base impact (at all levels of the supply chain) is an 
important consideration factored into the Department's investment 
planning and budget preparation. The Department conducted its first 
widespread application of Sector-by-Sector, Tier-by-Tier (S2T2) 
Fragility and Criticality (FaC) industrial base assessments with the 
Military Services and Defense Agencies in 2013. These assessments 
systematically evaluated the need for program adjustments or 
investments to sustain specific niches in the defense industrial base. 
The framework allows DoD leadership to better consider industrial 
capabilities spanning multiple sectors, tiers, Services, and programs 
as part of DoD's normal budget process. FaC assessments measure the 
criticality of a capability; the impact of losing the capability, 
including the difficulty of restoring it; the fragility of a 
capability; and the difficulty of obtaining a capability when needed.
    The S2T2 fragility and criticality assessment results were used to 
balance short and long-term risks, and balance cuts to capabilities, in 
moderation. These decisions are reflected in the FY 2015 President's 
Budget Request, which include investments for Air Force and Navy high-
performance jet engine technology development, Army next generation 
ground combat vehicle design teams, and missile industrial base for 
production process improvements/automation and material/technology 
upgrades for enhanced performance.
    In addition, the Department initiated a new program in FY 2014, 
Industrial Base Analysis and Sustainment Support, which will fund 
projects that preserve critical defense industrial base capabilities 
through a break in production that would otherwise have to be recreated 
later at a higher cost to the taxpayer. These projects are rated by the 
S2T2 FaC criteria. FY 2014 will fund focused projects for Butanetriol, 
a solid rocket fuel precursor chemical; Infrared Focal Plane Arrays; 
Advanced Thrusters for Solid Rocket Propulsion; and Test Facilities for 
Radiation Hardened Electronics.
    While the Department is committed to achieving the best possible 
balance between affordability and capability, budget cuts are and will 
continue decreasing production and research and development for all 
defense systems, and we cannot afford to ``fix'' all of our industrial 
base vulnerabilities. In general, we are concerned about maintaining 
engineering design capabilities in several sectors, perhaps most 
notably for rotary wing. For instance, the Defense Advanced Research 
Projects Agency has launched the vertical take-off and landing X-Plane 
program to challenge industry and innovative engineers to concurrently 
push the envelope in four areas: speed, hover efficiency, cruise 
efficiency, and useful load capacity. They are looking for true cross-
pollinations of designs and technologies from the fixed-wing and 
rotary-wing worlds. Additionally, the Future Vertical Lift Joint Multi-
Role Technology Demonstrator program will also encourage innovation and 
enhance competition for rotary wing platforms.
    The Department has also worked with other government rocket 
propulsion stakeholders (Services, NSA, and the Office of Science and 
Technology Policy) to establish a collaborative body within the Joint 
Army, Navy, NASA, and Air Force to address rocket propulsion industrial 
base issues. We are leading activities associated with implementing the 
Government's Course of Action for sustaining the solid and liquid 
propulsion industrial.
    Through the Space Industrial Base Council and the Critical 
Technologies Working Group, the Department is assessing and identifying 
actions to preserve and sustain essential capabilities and critical 
sub-tier vendors within the broader space industrial base. Risks are 
identified through annual S2T2 analysis efforts and then coordinated 
and ranked with interagency space partners for resourcing and action.
    The Department is working through the Defense Ordnance Technology 
Council to address industrial base concerns associated with developing 
and executing missile fuze and thermal battery risk mitigation 
activities. We are also developing a strategy to address ammonium 
perchlorate industrial base issues.
    As the Department continues to refine and implement S2T2 FaC 
assessments, we will increase our knowledge of those capabilities that 
truly need to be preserved as well as help inoculate the Department 
against concerns not related to industrial base risk.

    Number three, there was nothing really in the testimony 
today dealing with energy security. There was some reference in 
the question, but in the quadrennial Defense Review, there was 
a little bit in there, but I am very interested in how you, 
across departments, deal with the management structure to lead 
the Department towards energy security and independence, and in 
so doing lead our country in that direction.
    [The information follows:]

    The Department incorporates the geostrategic implications of global 
energy supply and demand into our strategic planning. More directly, 
for the Department, energy security means having assured access to the 
reliable supplies of energy for military forces and operations and the 
ability to protect and deliver sufficient energy to meet mission 
essential requirements. Building on the strategic direction in the 2014 
Quadrennial Defense Review, the Department issued a policy directive 
(DoD Directive 4180.01) on April 16, 2014 that will enhance military 
capability, improve energy security, and mitigate costs in its use and 
management of energy. The Directive institutionalizes the imperative to 
improve our use of energy and assigns responsibilities for implementing 
these actions across the Department. Regarding collaboration with other 
agencies, our Memorandum of Understanding with the Department of Energy 
is a good example. It provides a framework for steadily strengthening 
the collaboration and information sharing between both departments 
regarding energy technology in such areas as permanent and contingency 
bases and ground vehicles.

    In terms of questions, in following Mr. Womack's question, 
he has left the room at this point, but in evaluating your 
spending reductions, across various categories and cost savings 
associated with these hard choices, I was surprised that the 
Guard and Reserve was also reduced. And in the region that I 
represent, I will give you a real specific example of what 
appears to have happened.
    I support the Guard and Reserve very heavily. They have 
just performed superbly, and they cost less, but yet at our F-
16 unit in northern Ohio, for the first time someone from 
Active Duty has come to command the base. This may be something 
strategically important that is beyond my ability to 
comprehend, but never before have we had someone come from 
Active Duty into a Guard situation at a base that is so highly 
ranked. And I thought, hmm, does that cost more than someone 
residing within the Guard? Maybe it is an anomaly, maybe it is 
something that is unusual with the blending of force, but if 
that is happening across the country, it is going to cost us 
more money, I think.
    So I just point that out. With all these changes happening 
at the Department of Defense, I just think, following with what 
Mr. Womack said, we need to really look at that and make sure 
that Guard and Reserve are properly respected on many levels, 
because you are really dealing with tough budget choices.
    Finally, I wanted to reference the area of human 
effectiveness, brain research that DARPA is doing, so 
important. We didn't talk much about DARPA today, but I want to 
pinpoint mental health of our troops, and particularly alcohol 
abuse. The most current report suggests alcohol use disorders, 
such as alcohol abuse and alcohol dependence, to be three times 
more prevalent in the military than PTSD. How is the military 
managing what appears to be an epidemic of alcohol misuse, 
abuse, and dependence, and the co-occurrence of alcohol misuse 
in a soldier who is either depression or PTSD, is recognized as 
being a common route by which impaired soldiers downwardly 
drift, leading to attempted suicide. Essentially alcohol abuse 
converts a soldier who is depressed and thinking suicide to one 
who plans and attempts suicide.
    So this issue of alcohol abuse across the force, including 
in our veteran population once they are discharged, is very 
serious. I would just like a comment on that today, and then if 
you want to provide additional for the record, terrific.
    [The information follows:]

    In 2012, DoD released a review of policies and programs for the 
prevention, diagnosis, and treatment of Substance Use Disorders (SUDs) 
in members of the Armed Forces. Concurrently, the Institute of Medicine 
conducted an external review of DoD SUD policy and programs. A recently 
submitted Report to Congress, dated October 10, 2013, focused on 
outlining DoD activities that ensure a comprehensive approach and plan 
for the prevention, diagnosis and treatment of SUDs. The Department has 
published two new instructions related to substance use: DoD 
Instruction (DoDI) 1010.01, ``Military Personnel Drug Abuse Testing 
Program,'' was published on September 13, 2012, to establish standards 
for specimen and data collection on drug use and misuse and to direct 
the Services to issue guidance regarding participation in national 
anti-drug awareness, community outreach, and education campaigns. DoDI, 
1010.04, entitled ``Problematic Substance Use by Department of Defense 
Personnel,'' was published on February 20, 2014, establishing 
requirements for prevention, screening, and intervention for SUDs. New 
initiatives include the use of the Screening, Brief Intervention, and 
Referral to Treatment (SBIRT) model across the continuum of care. SBIRT 
is a comprehensive, integrated, public health approach to the delivery 
of early intervention and treatment services for persons with SUDs, as 
well as those who are at risk of developing these disorders. SBIRT 
includes the routine screening of patients for unhealthy alcohol use by 
using an empirically validated measure and prescribes interventions 
consistent with an identified risk.
    The Department also continues to improve the flexibility of 
information technology platforms that track prescription medications in 
an effort to inhibit the diversion and misuse of prescribed 
medications. The Department is monitoring the implementation of the 
U.S. Army's Confidential Alcohol Treatment and Education Pilot, which 
has expanded confidential substance use treatment services for Active 
Duty personnel. Lessons learned from this pilot may provide new 
insights and strategies for broadening the implementation of SUD 
treatment without impacting force health and readiness. In addition, 
there are several proposed changes to the TRICARE SUD benefit which are 
ongoing or under review. DoD has published a proposed rule lifting the 
ban on opioid replacement therapies, thus increasing the pharmacologic 
options for those suffering with an opiate addiction. Also, the 
Department is reviewing recommendations to lift current lifetime and 
annual benefit limits on SUD care and is exploring alternatives that 
would permit the delivery of SUD care in settings outside of a TRICARE 
certified Substance Use Disorder Rehabilitation Facility. These 
combined efforts will help to ensure a standardized, integrated 
approach to the screening, education, early intervention and recovery 
for unhealthy alcohol use among our military members.

    General Dempsey. Sir, if you want to take the alcohol abuse 
one, and, I mean, clearly we are focused on all manner of 
social challenges we have with the force, but let me just 
really briefly on the Guard.
    The Air Force has actually been the most innovative force 
of all in integrating their Active component and Guard. I went 
and visited a B-2 squadron, and when they lined up the crew of 
the B-2 in front of it and introduced me, about every third 
member was a member of the Guard.
    So they are looking at ways to integrate the force, and I 
would like to believe, but will check, that what you see 
manifest in the question you have asked is part of that 
integration, and that somewhere else there is a national 
guardsman taking command of an organization that heretofore has 
always been Active. But I will check with the Air Force.
    The only thing other thing I would say, and I will take it 
for the record to give you analytics, that cost issue is really 
a challenging one. The fact is, if you want a guardsman to be 
as ready tonight as an Active component soldier, sailor, 
airman, or marine, it is going to cost you the same thing. You 
buy readiness, how quickly can you have that man or woman 
deploy, and that costs exactly the same. So, we will give you 
the data to document that.
    [The information follows:]

    The cost to deploy a unit of active or reserve forces is roughly 
equivalent; however, there are cost differences in preparing active and 
reserve units prior to deployment. These differences occur primarily 
due to the number of training days for reserve forces--generally 39 
days a year, increasing as a reserve unit approaches a deployment date. 
In peacetime, active units are funded to maintain a higher level of 
readiness relative to reserve component units and, therefore, cost more 
per unit. If you want a Guardsman to be as ready and capable as someone 
who is active, then you must pay for them to achieve that level of 
readiness, and the costs become equal.
    Reserve component units are generally resourced at a lower level of 
readiness in peacetime and require additional time and resources to be 
ready for deployment, although there are some exceptions, particularly 
in the Air Force. These training times range from days to months, 
depending on the unit type, and will affect the time for each unit to 
be ready to deploy.

    Mr. Frelinghuysen. Ms. Kaptur.
    Ms. Kaptur. Thank you. And I wanted again to acknowledge 
Mr. Hale's exemplary service to our country. We wish you 
Godspeed in the months and years ahead, and thank you so very 
much.
    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    Anchoring our questioning is Judge Carter from Texas, who, 
I believe, has some of the strongest military presence of any 
Member of Congress in his congressional district. Judge Carter.

                    PURPLE HEART ELIGIBILITY REVIEWS

    Mr. Carter. Thank you, Mr. Chairman. We like to hope so 
anyway, and welcome and thank you for being here. I apologize 
for being bouncing in and out, but I am chairing a hearing 
across the hall, and I have to get over there once in a while 
to make sure it is moving along.
    To start off with a more provincial question, fiscal year 
2014 defense authorization required two reviews and reports 
regarding the issuance of the Purple Heart. The reports are due 
not later than 180 days from passage, which means this May. One 
review is of the attacks at Fort Hood, Texas, and Little Rock, 
Arkansas, of what requires anyone determined to be eligible for 
that review to receive the Purple Heart.
    The second review is a broader look at whether the criteria 
for awarding the Purple Heart is still relevant in today's 
battlefield and requests your recommendations for any changes 
in that criteria.
    Mr. Secretary, I hate to get local, but this issue is very 
important to me. I represent Fort Hood, and the community that 
I represent has a keen interest in this issue. It also has 
significant impacts on the Department. Can you provide the 
current status of that, the report preparation, any updates you 
can give and about these reports that are due in May?
    Secretary Hagel. The reports are ongoing. The 
recommendations have not been presented to me yet. It is 
something that I watch very carefully. You might be aware that 
I have asked for a complete review of all our military 
decorations in light of I think it is just important to do that 
every now and then as we have come out now, coming out our 
military combat action portion of the longest war we have been 
in in Afghanistan. I think it is a smart thing, appropriate 
thing to do, so there is an ongoing review of all our military 
decorations. And this specific area that you have mentioned, 
because it is specifically noted in the 2014 budget, I will get 
the recommendations, I will make a decision, we will be--
obviously, we are working with the Congress on this, and we 
will be in touch with you on it.

                            FORCE REDUCTIONS

    Mr. Carter. Well, we look forward to that report in May. It 
is important to our community.
    If I may, another line of questioning here. Mr. Secretary, 
this budget proposes significant force reductions, particularly 
in the Army. Our men and women join the service with the 
understanding that they would be performing duties associated 
with their military occupational specialty, or MOS. Recently I 
have heard concerns about the effect of morale of service 
members who are being tasked to perform duties that have 
nothing to do with military skills.
    The morale of our service members severely impacts 
efficiency and performance of our military and must be taken 
into consideration in seeking these efficiencies. Has this 
issue been brought to your attention? How do you plan to 
address this issue to ensure that our men and women are 
performing tasks they signed up for? As DoD reduces its 
civilian and military workforce, as this budget proposes, can 
we anticipate service members will have to perform more of the 
support roles that were once conducted by civilian workforce? 
And finally, what consideration, if any, does DoD give to the 
effects these civilian workforce reductions have on the 
surrounding communities around our military installations?
    Secretary Hagel. Judge, I am going to respond briefly, and 
then I am going ask General Dempsey to respond to this 
question, because I think it is important you hear from the 
Chairman of the Joint Chiefs of Staff on this.
    First, the morale of an institution, our military, nothing 
more important. I am committed to assure that.
    Second, we have a professional military. They don't peel 
potatoes anymore, like I did once, and maybe you did, when I 
was in the military. This is a professional group of men and 
women. We treat them as professionals. We ask them to undertake 
professional assignments that they were trained for. If there 
are specific examples or areas where that is not happening, I 
want to know about it, and I know Chairman Dempsey wants to 
know about it, our Chiefs would want to know about it. I will 
do everything I can while I am Secretary of Defense to assure 
that.
    So that would be my general commitment to you and to the 
people of this country and to our military, and this just won't 
happen as long as I am here, but let me ask the chairman.
    General Dempsey. Yeah, and I will answer this briefly, and 
we will follow up with you, Congressman.
    In adjusting to our new budget reality, we, of course, have 
had to issue guidance to the force on displacing, in some 
cases, contract workers. Over the last 10 years when we had a 
budget where we were able to do so, for example, you might have 
noticed most of our installations were guarded by civilian 
contractors.
    So, as we have adjusted to the new fiscal reality, the 
guidance has been, put soldiers back into those functions, but 
only if they can relate to their responsibilities as--I am 
using soldiers, but it is true of all the services. So one of 
the responsibilities of a soldier is inherently guard things. 
That is what we do. And so putting soldiers back on the front 
gate at Fort Hood makes perfect sense and is consistent with 
what you would expect of a soldier.
    Where there may be other things happening, and we learn 
about them, we adjust it. But we are doing more than we did 
before at garrisons because we have got less money to spend to 
have others do it for us.
    Mr. Frelinghuysen. Thank you.
    Mr. Carter. And I am not saying this is happening at Fort 
Hood, but the question comes up, do you want an MOS that is an 
artillery man pushing a lawnmower?
    Secretary Hagel. No.
    Mr. Carter. And that is why I ask the question.
    Mr. Frelinghuysen. Thank you, Judge.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Judge Carter.
    Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.

                             A-10 AIRCRAFT

    To our distinguished panel, I am sorry. I am chairing 
another committee right across the hall with another Secretary, 
so I apologize for going back and forth. I will submit my 
questions for the record.
    I would be remiss in my duty representing actually every 
branch of the military in my district, but also particularly 
the Air Force and the Army, A-10s, Air Force loves them, Army 
lives and breathes by them, and so I wanted just to make sure 
you knew how the Georgia delegation feels about A-10s.
    And then also the proposal of the Commission for 
restructuring the Air Force in regards to the Air Force Reserve 
Command, I will have a question submitted to you on that. And 
then also potentially transitioning JSTARS to a bizjet of some 
sort in terms of a platform that gets them up faster. And so, 
aside from that, I will submit the questions.
    Mr. Frelinghuysen. Thank you, Mr. Kingston.
    Mr. Visclosky.

                             SPECIAL FORCES

    Mr. Visclosky. Thank you, Mr. Chairman.
    Gentleman, I just want to note that the budget proposes 
reductions in services end strength, but notice that there is a 
request for a Special Operations Command to receive a 10 
percent increase over fiscal year 2014 in Active levels.
    Last October, the Joint Staff authorized the Special 
Operations Command to develop a detailed campaign plan to 
establish a global Special Operations Forces. It also directed 
that it must maximize the use of existing infrastructure and, 
at a minimum, be cost neutral and offer scalable options under 
reduced cost and force structures. The fiscal year 2015 budget 
requests funding to begin new activities associated with the 
global SOF network vision, and also there is budgetary document 
language talking about obtaining the necessary authorities.
    The Special Forces are special, but from this Member's 
perspective, anybody who puts on that uniform is special, and I 
do have a very serious concern about the accretion within 
Special Forces, and also that everyone understands that there 
is a Title 10 authority for Special Forces.
    So I want to make it very clear, and I am, again, speaking 
for myself. I have a deep concern. I understand that Admiral 
McRaven is coming in. We are going to have a full hearing on 
this issue. But I just wanted you to understand my concerns.
    Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    On behalf of the committee, let me thank all of you for 
your testimony this morning and this afternoon. We focused a 
number of questions, and you have provided answers. We have a 
bucketful of other questions that we would like answered on a 
timely basis which go to your important work representing the 
world's best military. And as someone who once performed KP, I 
am aware that even the man or woman on the lowest rung of the 
ladder is part of a remarkable team of heroes.
    So, with that, we are adjourned. Thank you.
    [Clerk's note--Questions submitted by Mr. Rogers and the 
answers thereto follow.]

                                  Need

    Question. Does TriCare provision of pediatric/adolescent 
psychological services meet present and anticipated demand?
    Answer. Yes, TRICARE has implemented many initiatives to ensure 
pediatric/adolescent psychological services meet current and 
anticipated demand. TRICARE plays a significant role in caring for our 
Active Duty Service members, retirees and their families and is 
continually evaluating and adjusting its programs and policies to 
ensure that eligible beneficiaries are receiving the mental health care 
services required. TRICARE, through the Managed Care Support 
Contractors (MCSCs), has established networks of civilian providers 
world-wide. The MCSCs primarily establish networks as a means of 
augmenting Military Treatment Facilities' (MTFs) capability and 
capacity; however, the MCSCs have added networks in some additional 
areas distant from MTFs.
    TRICARE beneficiaries usually constitute only a small portion of 
any particular civilian provider's practice, and TRICARE has a good 
deal of flexibility in expanding or contracting the size, composition, 
and use of the network in response to changes in MTF capability and 
capacity. For example, since October 2004, network outpatient 
behavioral health care visits for Active Duty family members 17 and 
under increased. This increased need for services was met by drawing on 
the nationwide unused network capacity and by adding thousands of 
additional providers to the network.
    Question. What is the number of TriCare eligible children who are 
presented for the treatment of psychological illness each year? Within 
this population, what percentage are related to child psychological 
health consequences of military personnel traumatic brain injury (TBI), 
post-traumatic stress disorder (PTSD), and other military-related 
chronic stress?
    Answer. The association between children with mental health 
conditions and parental PTSD, TBI, and other military-related chronic 
stress cannot be quantified; however, the table below represents the 
number of beneficiaries from birth to age seventeen with primary mental 
health, PTSD, and/or acute stress diagnoses across fiscal years 2005 to 
2014.

                       Number of Beneficiaries Aged 0-17 Who Were Seen for Any Mental Health, PTSD, and/or Acute Stress Diagnoses
--------------------------------------------------------------------------------------------------------------------------------------------------------
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
             Fiscal Year                Mid-Year Population            Mental Health
                                                        PTSD
                                                    Acute Stress
--------------------------------------------------------------------------------------------------------------------------------------------------------
2005................................                2,053,847         187,019        9.1%              2,721       0.13%             1,013       0.05%
2006................................                2,020,144         187,653        9.3%              2,735       0.14%               952       0.05%
2007................................                1,980,003         191,300        9.7%              2,740       0.14%               968       0.05%
2008................................                1,995,552         200,350       10.0%              2,926       0.15%             1,138       0.06%
2009................................                2,033,837         213,216       10.5%              3,117       0.15%             1,190       0.06%
2010................................                2,092,201         230,234       11.0%              3,360       0.16%             1,086       0.05%
2011................................                2,086,571         245,050       11.7%              3,474       0.17%             1,075       0.05%
2012................................                2,068,359         256,951       12.4%              3,667       0.18%             1,146       0.06%
2013................................                2,031,581         260,803       12.8%              3,632       0.18%             1,118       0.06%
2014*...............................                1,987,267         172,116        8.7%              1,869       0.09%               481       0.02%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note: 2014 data is incomplete; Mental health defined as ICD-9 code 290 to 319; PTSD defined as ICD-9 Code 309.81; Acute Stress defined as 308.xx; Data
  extracted from the Military Health System Data Repository on April 1, 2014.

    Question. Has there beeen an increase in the need for pediatric/
adolescent pychological treatment in the military health care system 
during the last ten years? Is a future increase in demand anticipated?
    Answer. Yes, there has been an increase in mental health diagnoses 
among beneficiaries age 17 and under and this increase is consistent 
with the trend also seen in the general population. Based on these 
trends, it is reasonable to assume that the demand will continue to 
increase. The number of pediatric and adolescent beneficiaries who had 
a primary mental health diagnosis increased from 187,019 in Fiscal Year 
2005 to 260,803 in Fiscal Year 2013. The beneficiary population 
actually decreased from 2,053,847 in 2005 to 2,031,581 in 2013, meaning 
that the percent of the beneficiary population who had at least one 
mental health encounter increased from 9.1% in 2005 to 12.8% in 2013.
    The Services have robust staffing models, including the 
Psychological Health Risk-Adjusted Model for Staffing (PHRAMS). PHRAMS 
was developed to provide the Services with a tool using a consistent 
methodology to define the appropriate number of mental health personnel 
to meet the mental health care needs of Service members, retired 
members, and their families. PHRAMS and other mental health staffing 
models permit the Services to make adjustments in planning assumptions 
to meet the needs of individual communities to determine the 
appropriate number and mix of mental health personnel required in 
Miliary Treatment Facilities (MTF).
    Additionally, TRICARE has a good deal of flexibility in expanding 
or contracting the size, composition, and use of the network in 
response to changes in MTF capability and capacity. For example, the 
increase need for services from October 2004 to 2013 was met by drawing 
on the nationwide unused network capacity and by adding thousands of 
additional providers to the network. Finally, the National Defense 
Authorization Act for 2014 (Title V, Subtitle C, ``Mental health 
counselors for service members, veterans, and their families'') 
directed the Secretary of Defense and the Secretary of Veterans Affairs 
to provide a joint report that describes a coordinated, unified plan to 
ensure adequate mental health counseling resources to address the long-
term needs of all members of the armed forces, veterans, and their 
families. As part of this request, the Department is conducting a 
formal review of current mental health staffing, resources, and future 
demand.
    Question. Compared to the general population, is the pediatric/
adolescent military dependent population at increased risk of PTSD, 
PTSD-like symptoms, and other psychological disorders?
    Answer. According to a large study of 307,520 children conducted by 
the U.S. Army (Mansfield, et al, Deployment and Mental Health Diagnoses 
Among Children of US Army Personnel, Archives of Pediatric/Adolescent 
Medicine. 2011;165(11):999-1005), 16.7% had a least one mental health 
diagnosis. This is consistent with the overall prevalence of a mental 
disorder in a given year reported in the general population, which 
according to the Centers for Disease Control (CDC) (estimate is between 
13-20%. The study also reported that children of deployed Service 
members have higher rates of specific mental health disorders than the 
general population, particularly for depression (5.6% prevalence 
compared to CDC's 2.1%) and pediatric behavioral issues (4.8% 
prevalence compared to CDC's 3.5%). Disorders of stress (a category 
that combines the diagnoses of acute stress reaction/adjustment 
disorder, neurotic disorder, posttraumatic stress disorder [PTSD] and 
other stress disorders) were assessed at a prevalence of 5.9% among 
children of deployed Service members, which was only slightly higher 
than the CDC prevalence rate of 5.0% for PTSD alone is 5.0%. This 
suggests that children of deployed Service members may be at higher 
risk for depression, pediatric behavioral issues, and, to a lesser 
extent, PTSD or PTSD-like symptoms, compared to the general population.
    Question. How do the psychological/psychiatric health issues seen 
in military children differ from the psychiatric issues seen in the 
general population?
    Answer. At least three studies suggest that children of deployed 
Service members have higher rates of depression than the general 
population. A 2005 United States (U.S.) Army survey found that 
approximately one in four children experienced depressive symptoms when 
a parent(s) was deployed (Orthner, D. et al, 2005). Another study, 
Children in the Homefront: the Experience of Children from Military 
Families (Chandra A. et al, 2010), found that school aged children 
scored 2.5 times higher risk for emotional problems than the national 
norms. According to a large study of 307,520 children conducted by the 
U.S. Army (Mansfield, et al, Deployment and Mental Health Diagnoses 
Among Children of US Army Personnel, Archives of Pediatric/Adolescent 
Medicine. 2011;165(11):999-1005), 16.7% had at least one mental health 
diagnosis. This is consistent with the overall prevalence of a mental 
disorder in a given year reported in the general population, which 
according to the Centers for Disease Control (CDC) estimate is between 
13-20%. The study also reported that children of deployed Service 
members have higher rates of specific mental health disorders than the 
general population, particularly for depression (5.6% prevalence 
compared to CDC's 2.1%) and pediatric behavioral issues (4.8% 
prevalence compared to CDC's 3.5%). Disorders of stress (a category 
that combines the diagnoses of acute stress reaction/adjustment 
disorder, neurotic disorder, posttraumatic stress disorder [PTSD] and 
other stress disorders) were assessed at a prevalence of 5.9% among 
children of deployed Service members, which was only slightly higher 
than the CDC prevalence rate. This suggests that children of deployed 
service members may be at higher risk for depression, pediatric 
behavioral issues, and, to a lesser extent, PTSD or PTSD-like symptoms, 
compared to the general population.

                                Research

    Question. Has pediatric/adolescent psychological health been 
recognized as a research priority within the DoD? What is the research 
priority of child psychological health consequences of military 
personnel traumatic brain injury (TBI), posttraumatic stress disorder 
(PTSD), and other military-related chronic stress?
    Answer. Yes, family research is an important aspect of 
understanding the well-being of the military family. The military 
family research portfolio is focused on improving military family 
psychological health outcomes and mitigating potential negative 
trajectories. Some research specifically targets child psychological 
health consequences of military member traumatic brain injury, 
posttraumatic stress disorder, and military-related chronic stress. In 
addition, research within the broader psychological health portfolio 
indirectly affects pediatric and adolescent health by identifying ways 
to improve the health of Service members, thereby improving the well-
being of the family and the children in the process.
    Question. What is the current funding commitment specifically for 
research into diagnosis and treatment of psychological health in 
military families? Is this adequate? What would be the optimal level of 
such research funding?
    Answer. Funding priorities are based on requirements-driven 
research to project, sustain, and heal our Service members. All 
programs are subject to the availability of funds and are prioritized 
based on the greatest health threats facing the force. Family research 
is an important aspect of the overall well-being of the force.
    In Fiscal Year (FY) 2013, $8.72 million was committed to research 
focused on the diagnosis and treatment of psychological health in 
military families. Approximately $11 million is projected for FY 2014-
2015.
    While greater investment will always enhance the quantity of 
research, current and planned investments in this area support the 
needs of the Department.
    Question. Is further research in treating military dependent 
pediatric/adolescent psychological health issues required? [Effect on 
the Military]
    Answer. Military families and children face unique challenges 
compared to their civilian counterparts. Further research in treating 
military dependent pediatric/adolescent psychological health issues is 
needed to continue the adaptation and development of appropriate 
evidence-based interventions and targeted therapies to address the 
specific mental health needs of military children.

                         Effect on the Military

    Question. This question concerns future military recruitment. The 
active duty military population is a small demographic group within the 
American population, but the children of active duty personnel and 
veterans are a very large component of the recruit population. Could 
the incidence of psychological illness among military children have a 
significant effect on future military recruitment? Simply put, are we 
in danger of losing the next generation of military recruits?
    Answer. The Department of Defense recruits personnel across the 
full strata of the age-eligible U.S. population. The Department of 
Defense Instruction 6130.03, ``Medical Standards for Appointment, 
Enlistment, or Induction in the Military Services,'' April 28, 2010, 
provides accession standards for mental health and substance use 
conditions by using the International Classification of Diseases. A 
definitive response to the questions above may not be possible even if 
a comprehensive study were to be conducted, but the available data 
indicate that any observed higher incidence of mental health issues 
among military children is not so significant as to affect the next 
generation of military recruits. Also, during Operation Enduring 
Freedom and Operation Iraqi Freedom, the Department instituted a waiver 
process to allow the accession of personnel into Military service who 
were experiencing less severe mental health conditions and possessed 
mitigating factors that would justify a waiver. This waiver process 
generally worked well and helped ensure the military was able to meet 
its recruitment goals.
    Question. This question concerns retention. Are data available 
indicating that the incidence of psychological problems in military 
dependent children is having a negative impact on the retention of 
senior NCOs?
    Answer. While the specific retention of Senior Noncommissioned 
Officers with children with psychological health concerns has not been 
directly studied in Health Affairs, the Military Health System (MHS), 
which includes TRICARE, provides a robust mental health benefit that 
covers military dependent children until age 26 (when including the 
TRICARE For Young Adults program). TIRCARE provides MHS beneficiaries 
both outpatient and inpatient mental health services. In addition to 
the TRICARE Basic Program, the development of the Extended Care Health 
Option (ECHO) for Active Duty beneficiaries has made available 
additional supplemental services to eligible Active Duty family members 
with a qualifying special needs condition. These programs have 
addressed significant needs for military families as evidenced by 
parental feedback and the rapidly increase in beneficiary utilization. 
Under the ECHO Autism Demonstration Program, for example, TRICARE 
continues to increase access to Applied Behavioral Analysis services, 
and positive feedback from parental surveys indicate this and similar 
programs may improve retention.

    [Clerk's note--End of questions submitted by Mr. Rogers. 
Questions submitted by Mr. Kingston and the answers thereto 
follow.]

                           Air Force Reserve

    Question. The Commission on the Restructuring of the Air Force made 
recommendations that Air Force Command be eliminated and absorbed by 
the Active duty component. The report proposes these responsibilities 
could be subsumed within Headquarters Air Force and within the existing 
active duty major commands. While there appears to be no plan for this 
to occur in the budget, does future planning past FY15 have this move 
taking place? Has consideration been given to how its implementation 
would directly affect the effectiveness of the Air Force Reserve and 
the considerable costs associated with a move such as this?
    Answer. I rely on the Secretary and Chief of Staff of the Air Force 
to organize, train and equip our great Air Force to meet the needs of 
our national military strategy. I recognize that this Commission was 
very thorough in its approach to this issue; however, the assessment of 
restructuring the Air Force by eliminating the Air Force Reserve 
Command does not indicate substantial savings, and could lead to 
decreased efficiencies and effectiveness in both organizational 
structure and command relationships.

                                J-STARS

    Question. The J-STARS recapitalization plan in this budget has a 
divestiture of six E-8 aircraft in FY15-16 at Robbins AFB. While there 
is an add for two of the new next generation J-STARS replacement 
aircraft, this does not occur until FY19. What plans are in place to 
meet this capability gap from the time that the existing J-STARS 
aircraft come out of service and the next generation J-STARS 
replacement comes online?
    Answer. The Air Force did not want to reduce the J-STARS fleet, but 
the Budget Control Act forced the Air Force to make difficult strategic 
choices and to accept a temporary, near term, capability gap. However, 
the divestiture enables the Air Force to recapitalize the critical J-
STARS mission area with the least amount of risk. The E-8C's increasing 
sustainability costs on top of tight budgetary constraints led the Air 
Force to make a decision to pursue the J-STARS Recap aircraft with its 
on-board Battle Management/Command and Control (BMC2), improved radar, 
and affordable operations and sustainment costs. While this divestiture 
will result in capacity shortfall and additional risk in the near-term, 
the payoff will ensure combatant commanders' success in contested 
environments during future joint operations. We will continue to 
prioritize CCDR requirements to ensure the most pressing needs are met 
while maintaining historical deployment and usage ratios. Operations 
tempo and aircraft utilization rates for J-STARS will remain high.

                             A-10 Aircraft

    Question. The Department's FY15 budget request proposes to 
eliminate the entire fleet of A-10 ground attack aircraft (the 
Department already has authorization to retire 61 aircraft out of a 
fleet of 346). However, we do not have enough F-35s right now to 
deliver to the squadrons that will lose their A-10s. Does the 
Department have a plan for backfilling those A-10 squadrons until the 
F-35 is available? Why is there no plan to assign aircraft and follow 
on missions to active duty units currently flying the A-10?
    Answer. The following timeline illustrates the Air Force's A-10 
retirement plan along with planned backfills:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Starting in fiscal year 2015, the Air Force will begin retiring 
overseas-based active duty A-10s as well as aircraft based at Moody 
AFB, GA, Davis-Monthan AFB, AZ, Nellis AFB, NV, and Eglin AFB, FL. The 
Air National Guard squadron at Boise, ID will form a Classic 
Association with the F-15E squadron at Mountain Home AFB, ID. The 
remaining active duty A-10s at Moody and Davis-Monthan will be retired 
in fiscal year 2016. As part of the Air Force plan to retire Air 
Reserve Component (ARC) A-10s in the latter half of the Future Years 
Defense Program, the aircraft at Selfridge, MI Air National Guard Base 
(ANGB), will be replaced by eight KC-135 aircraft in fiscal year 2017. 
Whiteman AFB, MO Air Reserve Base and Martin State, MD ANGB A-10s will 
be replaced by 18 F-16 Block 40s and eight C-130Js, respectively, in 
fiscal year 2018. The reserve unit at Davis-Monthan AFB and Ft Wayne, 
IN ANGB will gain 18 F-16 Block 40s each, once their A-10s are retired 
in fiscal year 2019.
    The Air Force is simply unable to backfill any of the Active Duty 
A-10 units as a result of the $54 billion in funding cuts directed by 
the Budget Control Act of 2013, coupled with our effort to move 
targeted force structure to the Air Reserve Component.

                          Equipment Providers

    Question. The Department of Defense has purchased hand and power 
tools and other types of related equipment in high volume through the 
General Services Administration (GSA) Federal Strategic Sourcing 
Initiative Multiple Award Schedule contract holders. It has come to my 
attention that GSA has recently undertaken an effort to dramatically 
scale back the number of participants in this schedule--especially 
impacting small businesses. You are probably also aware that the 
Government Accountability Office (GAO) recently issued a report to 
Congress about the effects of this sourcing initiative on small 
businesses which found that DoD among other agencies was not adequately 
tracking performance measures on the inclusion of small businesses and 
monitoring progress (or regression). In fact, I have been informed that 
a most recent contract solicitation for a Blanket Purchase Agreement 
would cut participants through the GSA schedule from over 380 equipment 
providers (over 300 which are small businesses) to a total of just six. 
This seems like a very drastic and sudden change. Has the Department of 
Defense, as one of the largest participants in this GSA effort, 
provided input to GSA on this matter? Does the Department support this 
approach? Why? Will a sudden reduction of over 98 percent of its 
equipment providers in this category impact DoD supply chains?
    Answer. The Department of Defense (DoD) is committed to removing 
any barriers that impede the maximum utilization of small businesses in 
fulfilling our requirements. DoD, through the Strategic Sourcing 
Leadership Council (SSLC) chaired by the Office of Management and 
Budget, had subject matter experts work with the General Services 
Administration (GSA) in analyzing requirements for the proposed 
Maintenance, Repair and Operations (MRO) Blanket Purchase Agreements 
(BPAs). Although the analysis, conducted by GSA and the Defense 
Logistics Agency (DLA), determined the contracts that support DLA would 
not be included in the MRO acquisition, DoD advocated for maximum use 
of small business vendors on these BPAs.
    DoD, GSA, and other SSLC members reviewed the previous requirements 
across this category of spend, and GSA determined an acceptable number 
of BPAs to be issued in order to maximize savings and efficiencies.
    DoD will continue to utilize those contract vehicles that provide 
the maximum savings and efficiencies in order to meet the mission. DoD 
continues to assess capabilities of small businesses in all of its 
acquisitions. Small businesses have provided support in this area in 
the past, and we expect they will continue to help DoD meet its mission 
in the future.
    Question. Is DoD taking steps to improve its monitoring and 
performance measures of the impacts of strategic sourcing decisions on 
small businesses? Is the Department confident that such a drawback is 
warranted and that its implementation timeline is manageable? Is there 
evidence to suggest limiting the supply pool will save money?
    Answer. Strategic sourcing is the collaborative and structured 
process of analyzing an organization's spending and using this 
information to make business decisions about acquiring commodities and 
services more effectively and efficiently. This process helps the 
Department of Defense (DoD) optimize performance, minimize price, 
increase achievement of socio-economic acquisition goals, evaluate 
total life-cycle management costs, improve vendor access to business 
opportunities, and otherwise increase the value of each dollar spent. 
Strategically sourced contracts are utilized across the Department and 
the Federal government (i.e., Office Supplies, Fuel, IT, Small Package 
delivery).
    DoD acquisition teams conduct market research for all requirements 
to determine the capability of small businesses in supporting the 
mission. Strategic Sourcing teams strive to maximize small business 
utilization and to scope their requirements in order to support small 
businesses.
    In response to the Government Accountability Office Report 
``Strategic Sourcing: Selected Agencies Should Develop Performance 
Measures on Inclusion of Small Businesses and OMB Should Improve 
Monitoring,'' the Department has begun to collect baseline data on the 
inclusion of small businesses on current and future strategically 
sourced contracts. Small business utilization rates are being tracked 
and monitored in order to provide senior leadership with visibility of 
markets where small business can achieve success, or areas where future 
small business opportunities may exist. The Department believes that 
maximizing competition and small business utilization is critical to 
achieving mission success.

                                TRICARE

    Question. The FY 15 budget request creates a consolidated TRICARE 
plan with higher co-pays and deductibles along with increases in co-
pays for pharmaceuticals and implements an enrollment fee for new 
TRICARE-for-life beneficiaries. In reviewing these options has the 
department considered implementing a means tested scale for fees and 
co-pays? How do these cost increases compare to similar civilian 
healthcare plans?
    Answer. The department has considered means testing for premiums. 
The President's Budget 2014 proposal for TRICARE Prime enrollment fees 
was means tested for retirees and the PB 2015 proposal is still means 
tested for TRICARE For Life beneficiaries. Even the PB 2015 
consolidated TRICARE plan has some aspect of means testing for fees and 
co-pays with the lowest copays for Active Duty families of El-E4s and 
lower copays for Active Duty families than for retirees. It also 
proposes that the medically retired and the families of those who died 
on active duty have the lower co-pays associated with active duty 
family members.
    The fees and co-pays are for the most part significantly less than 
most civilian plans. Attached is a comparison with the 2014 Blue Cross/
Blue Shield plans offered under the Federal Employees Health Benefit 
(FEHB) Program. (Note that the comparison is with the 2014 BC/BS cost 
shares which may rise by 2016 when the Consolidated TRICARE Plan would 
begin.)

    [Clerk's note--End of questions submitted by Mr. Kingston. 
Questions submitted by Mr. Cole and the answers thereto 
follow.]

                             Depot Workload

    Question. Secretary Hagel: Core requirements in Section 2464 of 
Title 10 establish the link between the organic depot workload that 
must be performed by depot personnel and our warfighting systems. DoD 
generally has interpreted this section to mean the minimum capability; 
however, Section 2464 also requires that the organic facilities are 
given sufficient workload to operate efficiently. What is DoD doing to 
meet that part of the statutory requirement?
    Answer. Department of Defense (DoD) core capability requirements 
and sustaining workloads are calculated in accordance with DoD 
Instruction 4151.20, ``Depot Maintenance Core Capabilities 
Determination Process.'' Workloads necessary for efficiency are 
imbedded in the core sustaining workload requirement. Those 
requirements are then compared to anticipated workloads and any 
shortfalls identified. Core capability requirements and sustaining 
workloads are determined by the Military Services on a biennial basis, 
to ensure currency. They are also reported to the Congress in 
accordance with the requirements of 10 U.S.C. 2464.
    The Department's last report, August 2012, reflected a total core 
requirement of 69.5 million direct labor hours (DLHs). In that report, 
the Army and Air Force reported anticipated core sustaining workload 
shortfalls of 982,000 and 404,000 DLHs, respectively. Army shortfalls 
were related to ground vehicles and ground support equipment. The 
ground vehicle shortfall (869,547 DLHs) occurred as operational tempo 
declined and because overseas contingency operations funding reduced 
the average age of the fleet to 3-4 years, so the Army assessed this 
shortfall as minimal risk. The shortfall is in ground support equipment 
related to Rhino Passive Infrared Defeat System, Floating Bridges, Tank 
and Pump Units, Biological Integrated Detection System, and Forward 
Repair Shelter System. The Army planned to mitigate these specific 
shortfalls by performing workloads on systems with similar attributes. 
Air Force shortfalls were in Communications and Electronics (C&E) 
(260,698 DLHs) and Ordnance, Weapons and Missiles (143,280 DLHs). The 
C&E shortfall was in Unmanned Aerial Systems (UAS), whose organic 
capabilities had not yet been established. UAS organic capability will 
stand up incrementally through FY 2016. Ordnance, Weapons and Missile 
shortfall was in missile components, which will be mitigated through 
existing and new weapons systems, such as missile launchers and 
defensive missile systems for the KC-46, F-35, MQ-1, and MQ-9.

                           DoD Workforce Plan

    Question. Secretary Hagel: I am concerned about the ongoing 
utilization of civilian personnel caps and the perverse incentives that 
are created. As I read the transcript from last year, you and the 
Comptroller testified to the Senate Defense Appropriations Subcommittee 
on this topic that contractor personnel often cost at least two times 
more than civilian personnel, particularly for long term employment. 
How do you plan to allow your managers to hire personnel based on law, 
need, requirements and cost? How do you avoid a de facto freezes on 
personnel that cause problems with ensuring DoD has the appropriate mix 
of personnel, such as in depots, where skills and positions are not 
necessarily fungible?
    Answer. The Department's total workforce plan is based on sourcing 
of functions and work among military, civilian, and contracted services 
based on workload requirements, funding availability, readiness and 
management needs, as well as applicable laws and guidance. The 
Department does not utilize civilian personnel caps and has not imposed 
a Department-wide hiring freeze in FY 2014. The Department continues to 
be committed to defining the right mix of military, civilians, and 
contracted services workforce needed to reflect new strategic 
priorities and evolving operational challenges within available 
resources.
    Ensuring DoD has the right mix of personnel and protecting certain 
critical skill areas, such as depots, from civilian personnel 
reductions reflect not only DoD priorities but also congressional 
intent. For example, section 955 of the FY 2013 National Defense 
Authorization Act directs the Department to exclude civilians 
performing core or critical functions in complying with the statutorily 
required civilian personnel reductions over the FY 2012 to FY 2017 
period. The core or critical functions that are protected include 
depots, acquisition workforce, cyber, and Sexual Assault Prevention and 
Response.

    [Clerk's note--End of questions submitted by Mr. Cole. 
Questions submitted by Mr. Womack and the answers thereto 
follow.]

                       Third Party Payment System

    Question. Secretary Hagel, despite a series of acquisition program 
reviews and enhancements, recent studies have shown that the cost of 
doing business with the Department of Defense continues to grow. 
Current estimates identify 38% of every dollar spent by the DoD goes 
towards administrative and other bureaucratic requirements. The 
overhead costs greatly reduce the overall purchasing power of the DoD 
and the ability to equip our armed services personnel. In fact, a 
recent article by the Lexington Institute referenced the DoD's Third 
Party Payment System program as an example of where significant savings 
could be realized by the DoD. Since 1998 the DoD has employed a third 
party payment provider to perform transportation invoicing and payment 
processing for the Department much like successful private sector 
companies. This program has virtually eliminated paper invoicing, 
provided ``commercial best practice'' financial controls, and has saved 
the Department millions of dollars in reduced fees and personnel costs. 
The program also provides the Department a rebate for ensuring prompt 
and accurate payments.
    I understand that only half of the DoD's annual $10B freight spend 
is processed through this program In light of the aforementioned cost 
savings of this program, can you tell me if and when the DoD plans to 
expand this program across the Department?
    Answer. While DoD has gained efficiencies with the automated 
transportation process, it is not a fully automated solution. Since the 
beginning of fiscal year 2014 approximately 50% percent of the payments 
transacted through the Third Party Pay Service--Transportation (TPPS-T) 
service provider are processed as fully automated. Until the current 
volume of DoD transportation business is successfully processing 
through the TPPS-T automated process, additional savings cannot be 
realized and expansion to other DoD transportation business cannot 
occur. The Defense Finance and Accounting Service is working 
aggressively with the other DoD Components and the financial 
institution providing Third Party Payment System services to improve 
the volume of transactions that can be processed in an automated 
fashion.

    [Clerk's note--End of questions submitted by Mr. Womack. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow.]

                           Hypersonic Weapons

    Question. Given the recent work by China on hypersonic weapons, and 
also the threats from other nations: Is a US hypersonic weapon 
considered critical to our strategic posture? What type of hypersonic 
system, including AHW, could we field the fastest as a forward-deployed 
capability? What would the cost of that be, versus the cost of having 
to develop an alternate launch platform such as a submarine? Is this 
program supported by EUCOM, CENTCOM and STRATCOM, given the threats 
from Syria, Iran and now Russia?
    Answer. In part to respond to the FY 2014 NDAA, a cost comparison 
study of various hypersonic strike concepts is underway.
    The U.S. hypersonic boost-glide strike capability was recently 
addressed by the Joint Requirements Oversight Council (JROC) in 
November 2012. It was determined that the existing portfolio of fielded 
strike systems or modifications to current systems can meet the interim 
long-range-strike requirements identified in the prompt strike Initial 
Capabilities Document (ICD) with acceptable risk. The JROC did 
recognize that potential future circumstances may require a capability 
to address high value, time sensitive, and defended targets from ranges 
outside the current conventional technology.
    The hypersonic strike capability is supported by EUCOM, CENTCOM, 
and STRATCOM; however, the Department is not confident that a 
realistic, affordable hypersonic strike concept capability can be 
fielded in the near future. Technology risk must be reduced, projected 
costs driven down, and operational considerations addressed before the 
Department commits to funding and fielding this kind of capability. In 
the mid-term, a forward-based ground or air-launched hypersonic strike 
concept could be fielded, but both present capability that would need a 
new basing plan and defenses. A submarine-launched hypersonic-strike 
concept could be fielded within 10 years utilizing existing platforms 
currently under development, and this concept does not require new 
basing or defenses. I fully support the Army and Navy's collaboration 
on hypersonic boost-glide concepts that are applicable to both land- 
and sea-basing as part of the Defense-Wide Conventional Prompt Global 
Strike program.

                       Littoral Combat Ship (LCS)

    Question. The Navy seems to have a sudden shift in its position on 
acquiring the LCS ship. The Navy selected the LCS program as the most 
cost-effective program for filling the fleet's requirement for 
additional capability for countering mines, small boats, and diesel 
submarines in littoral waters. I am not aware of a drop in these types 
of threats: Has DoD conducted a formal analysis that demonstrates that 
there is a more cost-effective way to address these capability gaps? 
Are you concerned with the lost investment in LCS by changing to a new 
ship? Are you concerned that ``starting over'' with a new ship design 
will set us back by 10 years in addressing the threat that the LCS is 
charged to counter? Does the LCS meet the CENTCOM requirement to 
counter Iranian ``A2/AD'' threat?
    Answer. While the LCS was selected to conduct a range of missions 
in the littoral regions, the Secretary directed a review of three 
alternative proposals to ensure the LCS is capable of operating against 
more technologically advanced adversaries. The review will consider 
using the existing LCS design, a modified LCS design, and a completely 
new design. Each option will consider required delivery date as well as 
target cost and mission requirements. These alternatives will be 
presented to the Secretary in time for FY16 budget deliberations. There 
is no lost investment in LCS, however, as two of the three alternatives 
utilize, in some part, the existing LCS design.
    The CENTCOM requirement for anti-access area denial (A2AD) threat 
requires a family of systems of which LCS with a Mission Package (MP) 
is a part. LCS with the Mine Counter Measure (MCM) MP will provide a 
capability to conduct mine countermeasures comprising of both mine 
hunting and mine sweeping to counter mines throughout the water column 
in the littoral operating environment (with the exception of buried 
mines). LCS with the Surface Warfare MP will enable LCS to conduct 
missions in the littoral against a group of fast attack/fast inshore 
attack craft. LCS with the Anti-Submarine Warfare MP provides the 
flexibility and persistence to make a substantial contribution to 
denying adversary submarines an effective offensive capability and by 
protecting the maritime operating areas of US and coalition naval 
combatants, support ships, and merchant shipping from undersea attack 
within and enroute to maritime operating areas.

                Evolved Expendable Launch Vehicle (EELV)

    Question. Regarding the possibility of high-cost, national security 
satellites being launched by new companies, General Shelton was quoted 
March 11, as saying: ``National security payloads have to get there, 
and we have to make sure we've done due diligence on the part of the 
government to make sure that that rocket is going to deliver that 
safely and reliably to orbit.'' In order for competition to be accurate 
and fair, will each launch company be open to the same level of 
financial accounting-scrutiny by the government, and held to the same 
high level of mission assurance activities? My understanding is that 
one new entrant was given a special arrangement by the Air Force, which 
is less transparent than the requirement for the current launch 
provider. When will commercial capabilities be certified to launch 
high-value security payloads? Will the certification requirements 
include the same level of tasks and reporting for mission assurance as 
is required of the current launch provider?
    Answer. All potential satellite launch competitors will be expected 
to comply with the applicable auditing, oversight, and accounting 
standards related to and required under the specific acquisition 
strategy the Department ultimately pursues in the competitive phases of 
the Evolved Expendable Launch Vehicle (EELV) acquisition strategy. 
Similarly, once certification is complete, all potential EELV 
competitors will be expected to comply with the applicable mission 
assurance standards and reporting measures. New entrant certification 
to launch high-value security payloads is an ongoing process which the 
Department is closely monitoring.

                    Condition-Based Maintenance Plus

    Question. Most Army aircraft are now equipped with sensors which 
allow for condition-based maintenance and have been conducting 
condition-based maintenance on a pilot program basis for several years, 
which created a lot of data. (1) When can we expect the Army to analyze 
the data? (2) When will a decision be made on whether the savings merit 
making condition-based maintenance even more widespread? (3) Will the 
other services adopt the program?
    Answer. (1) Condition-Based Maintenance Plus (CBM+) is maintenance 
performed based on the evidence of need and is enabled by data 
collection and analysis. Engineering and logistics data analysis from 
sensors and related data systems is an ongoing Army aviation life-cycle 
process that has been actively expanding for nearly a decade. The Army 
Aviation and Missile Command (AMCOM) has moved well beyond piloting 
CBM+, by equipping 86 percent of their helicopters with sensors and 
establishing a Common CBM+ Data Warehouse to centralize all the 
collected data for easy analysis and retrieval. The data generated by 
on-board aircraft sensors is foundational to Army Regulation 750-1, 
``Army Materiel Maintenance Policy,'' and Army Regulation 700-127, 
``Integrated Logistics Support,'' which aim to improve flight safety, 
reduce operations and support costs, decrease maintenance labor, and 
increase aircraft availability.
    (2) In December 2012, Army Headquarters approved AMCOM's cost 
benefit analysis (CBA), which resulted in continuing planned CBM+ 
activity. The analysis identified over $51 million in cost avoidance to 
date, showed a projected return on investment of nearly $2 billion in 
life-cycle cost avoidance, and highlighted avoidance of 4 Class A 
mishaps. Additionally, Army TACOM Life Cycle Management Command has 
installed sensors on 1,740 Tactical Wheeled Vehicles resulting in an 
approved CBA that projected net savings of $45 million over 20 years, 
just for those 1,740 vehicles. The Army will monitor the actual results 
of the pilot and build their plan for further expansion.
    (3) The other Services are also actively implementing CBM+. Navy 
guidance is in OPNAV Instruction 4790.16. Their Integrated Condition 
Assessment System program has installed sensors on hull, mechanical, 
and electrical equipment on 96 surface fleet vessels with funded plans 
to expand to 164 ships by 2020. The Marine Corps incorporated CBM+ in 
MCO 4790.25, ``Ground Equipment Maintenance Program,'' and is currently 
conducting a capabilities based assessment and business case analysis 
to define and document current gaps and vulnerabilities, assess 
alternatives, and validate requirements for enterprise-wide CBM+ 
implementation. Air Force Instruction 63-101, ``Acquisition and 
Sustainment Life Cycle Management,'' defines the Service's overall CBM+ 
policy. Aircraft engines have a long history of sensors and data 
analysis capability. Air Force Instruction 20-115, ``Propulsion 
Management for Aerial Vehicles,'' directs engine health management 
processes on propulsion assets to enable a predictive maintenance 
capability.

    [Clerk's note--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Frelinghuysen and the answers 
thereto follow.]

             Defense Equal Opportunity Management Institute

    Question.  I want to follow up on my earlier discussion on the free 
exercise of religion--a right guaranteed in our constitution--and the 
Equal Opportunity Briefings conducted by the Defense Equal Opportunity 
Management Institute (DEOMI) that have labeled Christian churches and 
Christian non-profits as hate groups.
    Has a review of DEOMI training materials been conducted? What 
material is considered non-federal reference material and could you 
provide me with a list of such sources that are used in the equal 
opportunity briefings? Is there DoD policy requiring what materials 
should be made available for training purposes? Who is responsible for 
approving the material's content?
    Answer. The Defense Equal Opportunity Management Institute (DEOMI) 
has never conducted any equal opportunity briefing that labeled 
Christian churches and Christian non-profit groups as hate groups. The 
incidents you mentioned were the result of service members at the unit 
level, who had never been trained by DEOMI, developing their own 
training slides that contained the erroneous information. The Office of 
Diversity Management and Equal Opportunity conducted a comprehensive 
review of DEOMI curriculum. During the review, curriculum content items 
were identified and updated.
    As DoD's premier entity to promote human dignity through education 
in equity and diversity, DEOMI evaluates the relevance and 
applicability of training content based upon the equal opportunity 
occupational training need. Instructional designers, curriculum 
developers, and subject matter experts review information and data to 
ensure its significance to each Service's training requirement. DEOMI 
course designers consider all sources of information to provide the 
academic scope needed to prepare instructors to meet the human 
relations needs of their students, and the students' customers and 
clients. DEOMI faculty and staff use sources external to DoD to inform 
instructor guides/lesson plans that generate discussion on sensitive 
human relations issues in an instructor-led classroom environment. The 
classroom experience prepares DEOMI graduates to perform their duties 
as Equal Opportunity Advisors to commanding officers or officers in 
charge. Information from non-DoD sources is used in instructor guides/
lesson plans only when necessary to ensure an approved training 
objective is met.
    This academic freedom allows instructors to best prepare students 
to perform their duties and responsibilities as equal opportunity 
advisors.
    Further DEOMI training material is evaluated annually as directed 
by local operating instructions and required by the Council on 
Occupational Education (COE), DEOMI's accrediting agency.
    DEOMI faculty and staff conduct course evaluations frequently to 
ensure the Service training requirements are met. DEOMI uses several 
instruments to assess the effectiveness and efficiency of the training, 
to include DoD Instructional Systems Design guidance, evaluation 
surveys, condition checklists, and research. Curriculum approval is 
completed and documented annually during DEOMI Curriculum Review 
Committee meetings. This documentation is available to the Office of 
Diversity Management and Equal Opportunity and demonstrates that DEOMI 
consistently produces high quality training and properly trained equal 
opportunity trainers.

                          Military Healthcare

    Question. As your Services look to control the rising costs of 
military healthcare and benefits, what steps are you taking to ensure 
that our warriors and their families have ready access to the care they 
need--both upon return from deployment and during their transition from 
the Department of Defense to the Department of Veterans Affairs 
healthcare system?
    Answer. The Military Health System offers a very comprehensive and 
low cost benefit that is far better than virtually every comparable 
employer in the US today. The TRICARE Prime access standards coupled 
with the robust TRICARE Network around MTFs help ensure ready access to 
the care they need.
    Most Service members being involuntarily separated from the 
military including those who are being medically separated (not 
medically retired) qualify for premium-free TRICARE coverage under the 
Transitional Assistance Management Program (TAMP) for themselves and 
their families. Established more than two decades ago, the purpose of 
TAMP has always been to provide coverage to certain sponsors and their 
families for a brief period of time while they are making arrangements 
for their ongoing health care coverage. DoD's in-Transition program 
helps Service members undergoing behavioral health treatment with at 
least weekly contact with a telephonic coach until they find an 
appropriate follow-on mental health provider.
    In addition to getting TAMP coverage; deactivating reservists are 
highly encouraged to enroll in the Veteran Health Administration at 
demobilization stations with VA staff often on-hand to assist. DoD and 
the VA have been working closely together on care coordination for a 
number of years.

                                           Tuesday, March 25, 2014.

           FISCAL YEAR 2015 NAVY/MARINE CORPS BUDGET OVERVIEW

                               WITNESSES

HON. RAY MABUS, SECRETARY OF THE NAVY
ADMIRAL JONATHAN W. GREENERT, CHIEF OF NAVAL OPERATIONS
GENERAL JAMES F. AMOS, COMMANDANT OF THE MARINE CORPS

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The committee will come to order. If our 
guests will take their seats, we will get this show on the 
road. I want to thank everybody for being here so promptly.
    This morning the committee conducts an open hearing on the 
posture and budget request from the Department of the Navy. I 
would like to welcome the Secretary of the Navy, Ray Mabus; the 
Chief of Naval Operations, Admiral Jonathan Greenert; and the 
Commandant of the Marine Corps, General James Amos. Welcome to 
you all and thank you for being here this morning.
    I am sure I can speak for every member of the committee in 
thanking you for your valuable service to our Nation and to the 
men and women you represent that are serving around the world 
as we gather here.
    Gentlemen, this committee has constantly heard about all 
the difficult choices that had to be made to prepare the fiscal 
year 2015 defense budget. Your choices set the stage for the 
difficult decisions that lie ahead for this committee in coming 
weeks.
    The committee is anxious to hear from you this morning on 
how your budget request will deter future conflicts with fewer 
marines, fewer ships, and a smaller naval presence in parts of 
the world where our adversaries and potential adversaries are 
expanding their military capabilities every day.
    We are aware that China plans a 12 percent increase in 
military spending in 2014 and has already delineated areas 
where they challenge our naval power and that of our allies 
every day.
    As my predecessor, Congressman Bill Young, would constantly 
remind us, it is all about risk and how much more we are all 
creating as a result of continuing resolutions and 
sequestration.
    So let's take advantage of the regular order we have in the 
time we have it and make sure we can do what we can to make 
sure we have regular order into the future.
    Gentlemen, this committee realizes that all the rebalancing 
and repivoting to the Pacific and the size and capability of 
the fleet are dependent on an industrial base that needs to be 
as robust as we can make it, and we can talk about that later. 
I think that is important to all of us.
    I am also somewhat alarmed about the frequency of reported 
misconduct by some members of the Navy leadership team. Just 
since the beginning of this year we have been notified of nine 
separate commanding officers, executive officers or command 
master chiefs being removed from their leadership position for 
some type of misconduct. That is a disturbing frequency of 
nearly one incident per week.
    And then there is the suspension of the 30 nuclear reactor 
instructors and the shutdown of the Navy's training reactors in 
Charleston in connection with an exam cheating scandal. I think 
you know that both Mr. Visclosky and I were very much involved 
in the Energy and Water Committee and committed to naval 
reactors. So I think it is important at some point in time we 
explore what is going on there. There really have not been any 
reports since that situation was uncovered.
    I would also like to add, as somebody who served on the 
Naval Academy Board of Visitors, I still have the sense that 
the institution needs to do more to address the whole issue of 
sexual assault and sexual harassment. I was very unhappy 
serving on that board, from time to time when we addressed the 
issue, we do it briefly in public and then we went into 
executive session.
    And I think I can say on behalf of all of us here that the 
men and women that we nominate we are enormously proud of. They 
represent the best of America. And I am not sure that 
everything is in place to eliminate that type of behavior, and 
I hope we have some level of reassurance here this morning.
    Despite these challenges, as we have always done in the 
past, this committee will work hard to assure the Navy and 
Marine Corps are ready and able to conduct their very important 
missions. This year, more than ever, we will have to work 
together to assure the best possible budget outcome.
    I would like to yield the floor to Ms. McCollum, if she has 
any comments she might wish to make on behalf of Mr. Visclosky 
or herself.

                    Opening Remarks of Ms. McCollum

    Ms.  McCollum. Well, thank you, Mr. Chair.
    And on behalf of those of us on the other side of the aisle 
who serve on this committee, we thank you for your openness, we 
thank you for your leadership, and your statement reflects many 
of the shared common interests and goals that we want out of 
this hearing.
    Especially appreciate your comments on sexual abuse and the 
scandals involving cheating and other things throughout the 
military that have been in the Navy as well. So thank you very 
much, Mr. Chair.
    Gentleman, thank you for being here, Admiral, Mr. Secretary 
and General Amos. We work alongside of you in our role to 
protect and defend our country. I look forward to hearing the Q 
and A that will result after your testimony.
    Thank you for submitting your testimony earlier so that my 
colleagues who are in other committees right now will be fully 
prepared when they attend the hearing to ask their questions.
    Thank you, Mr. Chair.
    Mr.  Frelinghuysen. Thank you, Ms. McCollum.
    Mr. Secretary, the floor is yours. Your comments will be, 
of course, a matter of public record. So the floor is yours.

                  Summary Statement of Secretary Mabus

    Mr.  Mabus. Thank you.
    Before I begin my opening statement, I just want to say 
that our thoughts and prayers and that of the whole Navy family 
are with the sailor who was killed in Naval Station Norfolk 
last night.
    They go out to his family, friends, and shipmates. It is 
very early in the investigative process and, of course, we will 
keep this committee apprised of any information that we learn 
about this sad case.
    Chairman Frelinghuysen, Congresswoman McCollum, members of 
the committee, I want to first thank you for your support of 
the Department of the Navy, our sailors, our marines and our 
civilians and their families.
    General Amos, the Commandant of the Marine Corps, and 
Admiral Greenert, the Chief of Naval Operations, and I couldn't 
be prouder to represent those courageous and faithful sailors, 
marines and civilians.
    These men and women serve their Nation around the world 
with skill and dedication no matter what hardships they face, 
no matter how far they are from home and from their families.
    And I want to take just a personal moment here--this will 
be Commandant Amos's last posture hearing before this 
committee--just to say what a high privilege it has been to 
serve with Jim Amos as the Commandant of the Marine Corps.
    The architects of our Constitution recognized the inherent 
value of the United States Navy and Marine Corps. Article I, 
Section 8, gave Congress the responsibility to provide and 
maintain a Navy because our Founding Fathers knew that the 
Nation needed a naval force to operate continuously in war and 
in peace.
    Over 2 centuries ago the United States had a crucial role 
in the world, and today that role is exponentially larger.
    Whether facing high-end combat, asymmetrical threats or 
humanitarian needs, America's maritime forces are ready and 
present on day one of any crisis for any eventuality.
    In today's dynamic security environment, naval assets are 
more critical than ever. In military terms, they provide 
presence, presence worldwide.
    They reassure our partners that we are there and remind 
potential adversaries that we are never far away. This presence 
provides immediate and capable options for the Commander in 
Chief when a crisis develops anywhere in the world.
    In the past year, our naval forces have operated globally 
from across the Pacific to the continuing combat in Afghanistan 
and from the Gulf of Guinea to the Arctic Circle.
    The 2012 Defense Strategic Guidance and the recently 
released QDR are both maritime in focus and require presence of 
naval forces around the world. Four key factors make that 
global presence and global action possible.
    These four factors--people, platforms, power and 
partnerships--have been my priorities during my tenure as 
Secretary and they have to continue to receive our focus 
looking ahead.
    In our fiscally constrained times, we have used these 
priorities to help balance between the readiness of the force, 
our capabilities and our capacity. Our people are our biggest 
advantage, and we have to ensure that they continue to get the 
tools they need to do their jobs.
    In compensation, we have increased sea pay to make sure 
those sailors and marines deployed aboard ship are 
appropriately recognized.
    However, this budget also seeks to control the growth of 
compensation and benefits which threaten to impact all areas of 
our budget.
    If this is not addressed, as Admiral Greenert puts it, the 
quality of work for our sailors and marines will almost 
certainly decline.
    Shipbuilding and our platforms remain key elements of our 
maritime power and a focus of this committee. The number of 
ships, submarines and aircraft in our fleet is what gives us 
the capacity to provide that global presence. While we have the 
most advanced platforms in the world, quantity has a quality 
all its own.
    I think it is important to understand how we got to our 
current fleet size. On September 11, 2001, the fleet stood at 
316 ships.
    By 2008, after one of the great military buildups in 
American history, that number had dropped to 278 ships. In the 
4 years before I took office as Secretary, the Navy put 19 
ships under contract.
    Since I took office in May of 2009, we have put 60 ships 
under contract. And by the end of this decade, our plan will 
return the fleet to 300 ships.
    We are continuing our initiative to spend smarter and more 
efficiently, which is driving down costs through things like 
competition, multi-year buys and just driving harder bargains 
for taxpayer dollars.
    Power, our energy, is a national security issue and is 
central to our naval forces and our ability to provide 
presence. Dramatic price increases for fuel threaten to degrade 
our operations and training and could impact how many platforms 
we can acquire.
    Having more varied, stably priced, American-produced 
sources of energy makes us better warfighters. From sail to 
coal, to oil, to nuclear, and now to alternative fuels, the 
Navy has led in energy innovation.
    Since the end of World War II, U.S. naval forces have 
protected the global commons to maintain the foundation of the 
world economy.
    In today's complex environments, partnerships with other 
nations, evidenced by things like interoperability, by 
exercises and by operations, continue to increase in 
importance.
    The Navy and Marine Corps, by nature of their forward 
presence, are naturally suited to develop these relationships, 
particularly in the innovative, small footprint ways that are 
required.
    With the fiscal year 2015 budget submission, we are seeking 
within the fiscal restraints imposed to provide our Navy and 
Marine Corps with the equipment, the training, and the other 
tools needed to carry out our missions that the Nation needs 
and expects from them.
    There are never any permanent homecomings for sailors and 
marines. In peacetime, wartime, and all the time they remain 
forward deployed, providing presence and providing whatever is 
needed for our country. This has been true for 238 years, and 
it is our task to make sure it remains true now and in the 
future.
    Thank you.
    Mr.  Frelinghuysen. Thank you, Mr. Secretary.
    [The written statement of Secretary Mabus follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                 Summary Statement of Admiral Greenert

    Mr.  Frelinghuysen. Admiral Greenert, good morning and 
thank you for being with us.
    Admiral  Greenert. Thank you, Chairman Frelinghuysen, and 
Ranking Member Visclosky, distinguished members of the 
committee.
    I am proud to represent 633,000 sailors, Navy civilians and 
their families, especially the 50,000 sailors deployed and 
operating forward around the globe today.
    The dedication and resilience of our people continue to 
amaze me, Mr. Chairman, and the citizens of this Nation can 
take great pride in the daily contributions of their sons and 
daughters in places that count.
    I, too, like Secretary Mabus just past, would like to offer 
my condolences to the family and the friends and the shipmates 
of the sailor killed in last night's shooting.
    The sailors, particularly those of the USS MAHAN, are in 
our thoughts and prayers today, as well as the entire Norfolk 
Naval Station family.
    Mr. Chairman, it is an honor to testify today for the first 
time under your leadership of the committee. And I am also, as 
Secretary Mabus said, proud to appear this morning beside him 
and General Amos.
    Your Navy and Marine Corps team is united in fulfilling our 
longstanding mandate to be where it matters when it matters and 
to be ready to respond to crises to assure that the stability 
that underpins the global economy is in place.
    General Amos has been a great shipmate. Our services' 
synergy of effort has never been better, and I am committed to 
continuing that momentum.
    Secretary Mabus has provided us the vision, the guidance, 
and the judiciousness to build the finest Navy and Marine Corps 
that this Nation is willing to afford.
    Mr. Chairman, forward presence is our mandate. We operate 
forward to give the President options to deal promptly with 
contingencies.
    As we conclude over a decade of wars and bring our ground 
forces home from extended stability operations, your naval 
forces will remain on watch.
    The chartlet that I provided in front of you which has the 
Navy today shows the global distribution of the deployed forces 
as well as our bases and our places that support them.
    Our efforts are focused in the Asia-Pacific and the Arabian 
Gulf, but we provide presence and respond as needed in other 
theaters as well.
    Now, with this forward presence, over the last year we were 
able to influence and shape decisions of leaders in the Arabian 
Gulf and in Northeast Asia.
    We patrolled off the shores of Libya, Egypt and Sudan to 
protect American interests and to induce regional leaders to 
make the right choices.
    We relieved suffering and provided assistance and recovery 
in the Philippines in the wake of a devastating typhoon. Our 
presence dissuades aggression and coercion against our allies 
and friends in the East and the South China Seas.
    We kept piracy at bay in the Horn of Africa, and we 
continued to support operations in Afghanistan while taking the 
fight to insurgents, terrorists and their supporting networks 
across the Middle East and Africa with our expeditionary and 
Special Operations forces.
    The 2014 budget will enable us an acceptable forward 
presence. Through the remainder of fiscal year 2014, we will be 
able to restore fleet training, maintenance and operations and 
recover a substantial part of the 2013 backlog caused by that 
tough year, and I thank this committee for its support.
    The President's 2015 budget submission enables us to 
continue to execute these missions, but we will face high risk 
in specific missions, those that are articulated in the defense 
strategic guidance. And I have laid that out in my written 
statement to you.
    Our fiscal guidance for the FYDP--that is the future year 
defense plan--for the President's budget 2015 is about halfway 
between the Budget Control Act caps and our PRESBUD 2014 plan. 
That represents a net decrease of $31 billion versus PRESBUD 
2014.
    So to prepare our program within these constraints, I set 
the following six priorities: Number one, a sea-based strategic 
deterrence; number two, forward presence; number three, the 
capability and capacity to win decisively; four is readiness; 
five, asymmetric capabilities and maintaining technological 
edge; and, six, as you articulated, sustaining the relevant 
industrial base.
    Using these priorities, we build a balanced portfolio of 
capabilities within the fiscal guidance provided. We continue 
to maximize our presence in the Asia-Pacific and the Middle 
East using innovative combinations of rotational, forward 
basing and forward stationing forces.
    We still face shortfalls in support ashore and a backlog in 
facilities maintenance that will erode the ability of our bases 
to support the fleet.
    We have slowed modernization in areas that are central to 
remain ahead of or keep pace with technologically advanced 
adversaries.
    Consequently, we face higher risks if confronted with a 
high-tech adversary or if we attempt to conduct more than one 
multi-phased major contingency simultaneously.
    I am troubled by the prospects of reverting to Budget 
Control Act revised caps in 2016. That would lead to a Navy 
that is just too small and lacking the advanced capabilities 
needed to execute the missions that the Nation faces and that 
it expects of its Navy.
    We would be unable to execute at least 4 of the 10 primary 
missions articulated in the defense strategic guidance in the 
Quadrennial Defense Review if we reverted to those caps.
    Looking at the back of the chartlet that I provided you, 
you can see our ability to respond to contingencies and that 
they would be dramatically reduced, limiting our options and 
our decision space, and we would be compelled to inactivate an 
aircraft carrier and an air wing.
    Further, as you can see there, our modernization and our 
recapitalization would be dramatically reduced, threatening the 
readiness and threatening our industrial base.
    Reverting to the BCA caps year by year will leave our 
country less prepared to deal with crises, our allies' trust 
will wane, and our enemies will be less inclined to be 
dissuaded or to be deterred.
    Mr. Chairman, I remain on board with the efforts to get the 
fiscal house in order. I look forward to working with this 
committee to find solutions that enable us to sustain readiness 
while building an affordable, but a relevant, future force. 
This force has to be able to address a range of threats, 
contingencies and high-consequence events that could impact our 
core interests.
    I appreciate the opportunity to testify today. Thank you 
for your continued support and this committee's continued 
support. I look forward to the questions.
    Mr.  Frelinghuysen. Thank you, Admiral Greenert.
    [The written statement of Admiral Greenert follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                   Summary Statement of General Amos

    Mr.  Frelinghuysen. General Amos, thank you for your 
decades of service.
    Of course, you as well, Admiral Greenert.
    But this is your last hearing. But thank you for standing 
strong, representing the Marines. And the floor is yours. Thank 
you so much.
    General  Amos. Thank you, sir.
    Mr. Chairman, I am not sure it is my last hearing all 
total, but----
    Mr.  Frelinghuysen. Maybe before this committee.
    General  Amos. So if you could give me a waiver, I would be 
happy to----
    Mr.  Frelinghuysen. We would be happy to give you a waiver.
    General  Amos. Sign a chit for me or something like that.
    Mr.  Frelinghuysen. Be happy to.
    General  Amos. Anyway, Mr. Chairman, Ranking Member 
Visclosky, members of the committee, it is good to be here 
today, and thanks for the opportunity to tell you a little bit 
about your Marine Corps as we move into the next year.
    Since our founding in 1775, marines have answered the 
Nation's call, faithfully protecting the American people and 
maintaining a world-class standard of military excellence. 
Nothing has changed. We will continue to do the same in the 
future.
    And, yet, we find ourselves at a strategic inflection 
point. After 12 years of war, we are drawing down our forces in 
Afghanistan, resetting our institution, and reawakening the 
soul of our Corps.
    Today we are challenged by fiscal uncertainty that 
threatens both our capacity and capabilities, forcing us to 
sacrifice our long-term health for near-term readiness.
    As I have testified before many times, despite these 
challenges, I remain committed to fielding the most capable and 
ready Marine Corps that the Nation is willing to pay for.
    Our greatest asset is the individual marine, the young man 
or woman who wears my cloth. Our unique role as America's 
signature crisis response force is grounded in the legendary 
character and warfighting ethos of our people.
    As we reset and prepare for future battles, all marines are 
rededicating themselves to those attributes that carried 
marines across the wheat fields and into the German machine 
guns at Belleau Wood in March of 1918, those attributes that 
enabled raw and combat-inexperienced young Marines to 
courageously succeed against a determined enemy at America's 
first offensive operation in the Pacific, the attack at 
Guadalcanal on August 7, 1942, and, lastly, those timeless 
strengths of character and gut courage that enabled marines to 
carry the day in an Iraqi town named Fallujah and against a 
determined enemy in the Taliban strongholds of Marja and 
Sangan.
    Your Corps is rededicating itself to those timeless 
attributes. There are simply just four of them: Persistent 
discipline; faithful obedience to orders and instructions; 
concerned and engaged leadership 24 hours a day, 7 days a week; 
and strict adherence to established standards. These ironclad 
imperatives have defined our Corps for 238 years. They will 
serve us well in the decades to come.
    As we gather here today, some 30,000 Marines are forward 
deployed around the world, promoting peace, protecting our 
Nation's interests and securing our defense. But we don't do 
this alone.
    Our partnership with the Navy provides America an unmatched 
naval expeditionary capability that is forward deployed. Our 
relationship with the Navy is a symbiotic one. My relationship 
with Admiral John Greenert is, quite frankly, unprecedented.
    This is why I share the CNO's concerns about the impacts 
associated with our marked paucity of capital ships, 
shipbuilding funds. America's engagement throughout the future 
security environment of the next 2 decades will be naval in 
character, make no mistake.
    To be forward engaged and to be present when it matters 
most, we need capital ships and those ships need to be loaded 
with United States marines. Expeditionary naval forces are our 
Nation's insurance policy. We are a hedge against uncertainty 
in an unpredictable world.
    The Navy and Marine Corps team provides power projection 
from the sea, responding immediately to a crisis when success 
is measured in hours, not in days.
    From the typhoon that tragically struck the Philippines 
last fall to the rescue of the American citizens in South Sudan 
over Christmas, forward deployed naval forces were there. We 
carried the day for America.
    As the joint force draws down and we conclude combat 
operations in Afghanistan, some argue that, ``Well, we are done 
with conflict.'' My view is different.
    As evidenced in the events currently unfolding in Central 
Europe today, the world will remain a dangerous and 
unpredictable place. There will be no peace dividend for 
America, nor will there be a shortage of work for its United 
States marines. Ladies and gentlemen, we will not do less with 
less. We will do the same with less.
    In closing, you have my promise that we will only ask for 
what we need. We will continue to prioritize and make those 
hard decisions before ever coming to you and this committee.
    Once again, I thank the committee for your continued 
support for its marines, and I am prepared to answer your 
questions.
    Mr.  Frelinghuysen. Thank you, General Amos.
    [The written statement of General Amos:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
      
    
                          SHIP COUNTING RULES

    Mr. Frelinghuysen. And I was remiss for not extending 
condolences of our entire committee for the loss of that sailor 
in Norfolk, to his family and, obviously, to the Navy family.
    I would like to yield the floor to Mr. Crenshaw for the 
first question.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    And let me add my words of welcome to three true friends of 
the subcommittee. I know I have worked with each of you all and 
developed what I would describe as a trusted working 
relationship and, indeed, a friendship.
    And I am grateful for that, and I know the subcommittee is 
grateful for the work that you do, the dedication for the 
future of our Navy.
    I want to say just a personal word of thanks for visiting 
Northeast Florida, both of you, Admiral Greenert and Secretary 
Mabus.
    I know you were in Northeast Florida/Southeast Georgia over 
the last couple of weeks, and you know how Navy friendly those 
communities are.
    And I want you to know it is a big deal when you all take 
the time to not only visit the men and women in uniform, but 
the communities that support them. That gives them a sense of 
where your commitment is to the future of the Navy.
    One of the things I wanted to kind of talk a little bit 
about, we have worked on aircraft. We have worked on ships. We 
have worked on submarines.
    But I must say, when I saw the proposed budget, it raised 
some questions about some of the programs that we worked on, 
like the P-8 Poseidon program where eight aircraft are being 
dropped; the E2-D Hawkeye, Advanced Hawkeye, one of those is 
being dropped; when you look at how are we going to replace the 
Ohio-class submarines; what are we going to do about 
prepositioning ships that the Marines have; what about the 
amphibs; questions about that.
    But the Chairman runs a pretty tight ship; so, we don't 
have time to talk about all of that. But I would like to 
continue that conversation as we develop the subcommittee's 
final work.
    But I would like to talk about just the heart and soul of 
the Navy, and that is ships.
    The first question comes, Secretary Mabus, when you sent up 
the budget, you also sent up a new way to count ships, and for 
the first time that I know of you are going to count ships that 
haven't been counted as part of the count.
    And I know the Navy always has a problem making sure that 
we keep our ship count up because numbers matter. We talk about 
that. And so, when you count ships you haven't counted before, 
then you get to increase the size of the fleet without going 
out and buying a new ship.
    I guess at a time when there is talk about decommissioning 
an aircraft carrier, there is talk about laying up cruisers, 
skeptical people might say, ``Is this just a coincidence that 
you decided you are going to count ships that you didn't count 
before?'' while maybe that takes some of the attention way from 
some of the other things that are going on.
    So I guess my first question is just common sense. What 
drove you? What goes behind that decision to decide to count 
ships, like, I guess, a hospital ship that hadn't been counted 
as part of that battle group--or battle force? What went into 
that thinking?
    Mr. Mabus. Well, first, Congressman Crenshaw, we talked 
about this last year. And the Navy always takes a look at how 
we do our ship counts and we have changed it several times over 
the past decade or so.
    The short answer to why we made this change was it was the 
ships that were requested by combat commanders, so ships that 
were requested to be forward deployed. And we have also taken 
some ships out in this count.
    And two examples are we have taken mine countermeasures 
ships that are not forward deployed out of the count. We put 
patrol craft that are forward deployed that have been up-
armored and up-gunned and are now on patrol in particularly in 
the Arabian Gulf onto this because this is requested by the 
combat commander.
    One of the things I told this committee last year was that, 
if we did this, we were going to be completely transparent. So 
when you get the 30-year shipbuilding plan, you are going to 
get the old counting rules and the new counting rules. And when 
I say we are going to get the fleet to 300 ships, I am using 
the old counting rules.

                    CRUISER MODERNIZATION/RETIREMENT

    Mr. Crenshaw. I get it.
    For instance, I want to ask you about the cruisers because 
there is also in the budget a proposal to, I guess, lay up--I 
don't know exactly what that means--lay up 11 cruisers, and I 
guess they will still be counted.
    But here is the question. The last two years the Navy said, 
``We are going to decommission 7 cruisers,'' and this 
subcommittee, trying to be cost-efficient, has said, ``Common 
sense will tell you, if you have got some ships that have 
useful life remaining, then maybe, rather than decommission 
them, it might be wise to modernize them and upgrade them and 
then they would stay in the fleet.'' And, as you know, we put 
that in our appropriations bill and said do that.
    And this year it was kind of a surprise when we say you 
should modernize them, then we--I guess this year at least you 
didn't say, ``We are going to decommission them,'' but you did 
say, ``We are going to take 11 cruisers and put them in what is 
called, I guess, a lay-up and kind of a phased modernization.''
    As I understand it, the average time would be 9 years. Some 
would be modernized in 5 years. Some would be modernized in 12 
years.
    But if you are going to phase in this modernization, it 
seems like that is a long time to have these cruisers out of 
service. I assume they are tied up somewhere with no crew and 
the weapons systems, et cetera.
    So I guess my question is: Is that, you think, the best use 
of the money that we appropriated? And, I guess, what assurance 
does this subcommittee have that--it is almost like one foot in 
the grave.
    You say, ``We are not''--at least we didn't say we are 
going to decommission them, but you did say, ``We are going to 
phase in the modernization that might take, on average, 9 
years.''
    So my concern and, I think, the concern of the subcommittee 
might be that--is this kind of a way to phase in the 
decommissioning as opposed to actually modernizing them and 
upgrading them?
    Mr. Frelinghuysen. We need some answers here. This is a 
focal point. And maybe Mr. Crenshaw might not have any more 
time.
    But before we leave here, we need to know how we are going 
to have this forward presence with a lot of ghost ships that 
are part of that count.
    Mr. Mabus. Well, first, the short answer to your last 
question is no. It is not a way to try to decommission them.
    Second, we are profoundly grateful to this committee and to 
Congress for giving us the funds to modernize these cruisers.
    When we looked at the cruisers that we needed, we need 11 
operational at any one time. The most effective way to keep 11 
in the fleet--because, if we simply modernized all the ships 
today, all those cruisers would leave the fleet.
    All 22 of them would leave the fleet in the late 2020s. By 
doing this phased modernization, we will keep those cruisers in 
the fleet into the 2040s. And we are not laying them up. We are 
modernizing them.
    I know that the concern is that this is just a way for us 
to decommission them. This is the first step down that road. We 
will work with this committee in any way you want us to to 
reassure you that that is not the case.
    In fact, our plan is to buy all the materials to do the 
hull, mechanical and electrical modernization, for these 
cruisers up front so that the ships begin to be modernized.
    Second, we are not taking them out from under the control 
of the Chief of Naval Operations. Unlike a ship which is laid 
up which goes under the control of the shipyard, the CNO has 
command of these ships and can bring them back in if there is a 
national emergency that requires that.
    Third, the reason that we are phasing it the way we are 
doing it is, as the cruisers that remain forward deployed, 
operational, retire, as they reach the end of their lives--the 
ones we are modernizing have the most life left in them.
    As the ones that reach the end of their lives, we are doing 
a one-for-one. As one retires, one comes out of modernization 
so that we keep the same number--we can keep the same number 
deployed.

                       AMPHIBIOUS COMBAT VEHICLE

    Mr. Frelinghuysen. This is--no pun intended--a pivotal 
question, and I suspect others may follow up on Mr. Crenshaw. 
But I would like at this time to yield to Mr. Moran for some 
questions.
    Mr. Moran. Thank you very much, Mr. Chairman.
    I first want to thank General Amos for the tremendous 
Marine Corps fellows, Dax and now Catherine, that have put 
together our questions. So it is really their fault if you 
don't like these questions.
    I also have to say once that, since this is the last time 
before the committee, Mr. Chairman, I had the great honor of 
holding the banner with General Amos for the end of the Marine 
Corps marathon one year. We haven't----
    Mr. Frelinghuysen. Have you ever run it?
    Mr. Moran. I did, but not recently. Thanks for asking. I 
wish you hadn't. I finished in 3:56, but that was in another 
life. I then threw up in the Pentagon parking lot afterwards.
    But this was a true highlight because we had this great 
pleasure because--I haven't been asked again. I am not sure if 
you have, General--because we got to talking among ourselves as 
the female lead runner passed the finish line.
    So we wound up in the awkward position of having to run 
after the lead runner, trying to get in front of her so we 
could put the banner in front of her so she could run through 
the finishing banner.
    So it was not one of our most glorious achievements. 
Anyway, I will get back to--that is a true story, isn't it, 
General?
    Let me ask you about the Amphibious Combat Vehicle. The 
budget has $106 million in it. We canceled the Expeditionary 
Fighting Vehicle in 2011 after a $3 billion investment. So that 
one hurt.
    And we are still trying to replace the Amphibious Assault 
Vehicle. But after the budget was drafted, you announced, 
General, that you were going to review the program.
    So the question is--we provided $123 million last year. I 
am not sure whether that is being used for the Amphibious 
Combat Vehicle. And we really have to ask, if we are reducing 
end strength and force structure, do we still need the 573 
vehicles?
    General  Amos. Congressman, thanks for the opportunity to 
talk about that.
    There was no sleight of hand on that. And you were very 
generous with your historical memory of the $3 billion, because 
my memory of the EFV vehicle was actually more expensive than 
that when we canceled it. But I will take your number.
    Mr. Moran. The $3 billion hurts enough.
    General  Amos. Yeah.
    But that was 15-plus years of effort to produce a vehicle 
that, in the fall of 2010, the Secretary and I sat down with 
then-Secretary Gates and said this is unaffordable for a host 
of reasons.
    So we stopped, as you recall, and we said we are going to 
spend--we are going to put a lot of effort and try to determine 
the way ahead.
    We need a vehicle that swims out the bowels of the ship. 
You come off the ship one of two ways. You either fly off or 
you come off in some type of surface craft.
    We spent two years in detailed effort on that and we have 
labeled that program the Amphibious Combat Vehicle. We have put 
money in the budget for R&D.
    A year ago I was getting close to being prepared to make 
the decision on that, come to Congress, ask you for help. I 
wasn't satisfied that the absolute final degree of effort had 
been done.
    I knew I was only going to get one more bite at this apple, 
and I was not about to come to this committee and say, ``Let me 
proffer up something that looks a lot like the one I just 
canceled.''
    So we put it back in the sausage factory again, 
Congressman, I mean, detailed efforts, and it reported out in 
January. And I sat and fussed with that for about 45 days, 
wanting to make the right decision.
    The money right now that you see in this year and over the 
FYDP is sufficient to do what I am about to describe. It is 
just in the wrong cubbyholes. And my folks are going to work 
with this committee to try to rearrange that. We are not going 
to ask for any more money.
    But, in a nutshell, what we have elected to do is we can 
build a high water speed vehicle, and we know now that we can 
do it. The cost of that vehicle is going to be somewhere along 
the lines of the vehicle that we canceled; so, that is not 
good.
    And, second of all, the compromise on what that vehicle 
will be able to do ashore with its 13, 17 marines in it, 
however many marines it is going to carry, was too great. The 
compromise ashore where the vehicle is going to live 99 percent 
of its time was too great.
    So we elected to switch and go to a wheeled vehicle. And 
these are commercial, off the shelf, Congressman. They are 
already being made by several different manufacturers.
    So we have put a program in place for what we call an 
increment one, which will be somewhere probably around 300 
vehicles. We are in the process of doing the acquisition work 
on that right now.
    And, sir, these vehicles will be somewhere between $3 
million to $4.5 million apiece viz 12 to 14. It is the way to 
go. And they are highly mobile. And that is the direction we 
are going.
    I hope that answers your question.
    Mr.  Moran. It does. It did take up all the time, 
unfortunately, but I am glad you gave us a complete answer. I 
want to talk about the George Washington, too.
    Do you think we need to move on, though?

                     AMPHIBIOUS TRAINING EXERCISES

    Mr.  Frelinghuysen. I want to give Mr. Kingston a chance to 
put his oar in the water here. But we are going to hear plenty 
about the George Washington, I can assure you.
    Mr.  Moran. Okay. And we will get another round. So I'll 
move on.
    Mr.  Frelinghuysen. Thank you.
    Mr. Kingston.
    Mr.  Kingston. Thank you, Mr. Chairman.
    First of all, I want to clarify for the record to my 
friend, Mr. Crenshaw, that Kings Bay is, in fact, in Georgia 
and not part of north Florida, although we will be happy to 
annex Jacksonville, if necessary. But----
    Mr.  Visclosky. Would the gentleman yield?
    Mr.  Kingston. Absolutely.
    Mr.  Visclosky. My wife was born and raised in 
Jacksonville.
    Mr.  Kingston. We are good with her, particularly if she 
votes the right way.
    Mr.  Frelinghuysen. Your time is evaporating here.

                     OHIO-CLASS REPLACEMENT PROGRAM

    Mr.  Kingston. First of all, General Amos, I want to say 
thank you for all the service that you have given our country 
and the great leadership that you have shown the men and women 
of the Marines.
    Mr. Secretary and Admiral Greenert, we appreciate your 
visits to Kings Bay and your support of the nuclear deterrent 
program and the Ohio-class submarine replacement.
    Mr. Secretary, I think foremost my question number one 
would be: Can you assure us that the Ohio replacement program, 
the Ohio class, is going to stay on target?
    As you know and I say many times in my speeches, that--they 
are going to be decommissioned in 2028 and the time to build 
them is not 2027.

                             F-35C PROGRAM

    And then, secondly, I would like you to comment on the F-
35C program and the Navy's commitment to it.
    And then, thirdly, depending on time, about a year ago a 
number of us and some members of the authorizing committee went 
to Operation Bold Alligator, the training exercise, and I think 
the price tag on that was maybe $15 million of the exercise.
    And it really worries me that the Navy doesn't have the 
money for large-scale training operations like that, and maybe, 
if only for the record, if you could say how important those 
large training operations are, because, as you know, that was 
all over the eastern part of the country.
    Mr.  Mabus. If I could take that in reverse order, I will 
be happy to say for the record how important those large 
particularly amphibious training exercises are, like Bold 
Alligator, to, number one, completely mesh the Navy and Marine 
Corps team, but, number two, to practice the opposed amphibious 
assaults that our marines are unparalleled and unrivaled in the 
world in doing.
    On the Ohio-class replacement program, Congressman, I can 
say, yes, we are absolutely on track on that both--in this FYDP 
in terms of the engineering money and the R&D money.
    We have to start building that first replacement in 2021 to 
be ready to go to sea at the end of that decade. We have to 
have the common missile compartment ready earlier because the 
British, who are also buying that compartment, will field their 
replacement submarines first and will test that common missile 
compartment.
    We are driving costs out of the program as aggressively as 
possible, making sure that we don't compromise any mission 
areas.
    I do think that there needs to be discussion, conversation, 
in Congress and in the country as to how we pay for the Ohio-
class replacement program because this is a national program 
and, if Navy bears it all out of our shipbuilding budget, it 
will absolutely devastate the rest of the fleet, including the 
other submarines, including the attack submarines in the fleet, 
which I don't think is a result that any of us want.
    We are committed to the F-35C program and the carrier 
program. The Marines are first with the B version and we in 
this FYDP--or in this budget are buying two C's and six B's, 
two for the Navy, six for the Marine Corps.
    We pushed some tails off purely as a financial measure. It 
will not affect IOC--initial operating capability--for the 
first naval squadron. And we feel confident in our ability to 
bring F-35C's into the fleet while maintaining our current 
TacAir capability.
    Mr.  Kingston. Thank you.
    Thank you, Mr. Chairman.
    Mr.  Frelinghuysen. Thank you.
    Ms. McCollum.

                          MILITARY MISCONDUCT

    Ms.  McCollum. Thank you, Mr. Chair.
    General Amos, thank you for your service. And I am going to 
talk about military misconduct. My comments are going to be 
more directed to the Admiral, but I just want you to know that 
we will continue to watch the Marine Corps handle its progress 
towards military misconduct and the way the discipline is met 
out.
    But to Secretary Mabus and Admiral Greenert, I do want to 
thank you for your leadership. I know this is something that 
you have been focused on and that an overwhelming majority of 
our seamen and -women serve honorably and with great 
distinction. And today we have a heavy heart because of the 
loss of the sailor that we just heard about this morning.
    However, the recent state of high-profile cases of military 
misconduct within the Navy, we have to confront it. We have to 
address it.
    Widely reported bribery scandals involving two Navy 
commanders, the cheating incidents in the Navy nuclear power--
--
    Mr.  Frelinghuysen. Ms. McCollum, could you just pull your 
microphone up a little bit?

                                  BRAC

    Ms.  McCollum. Thank you, Mr. Chair. [continuing]. And the 
sexual assault allegations are deeply concerning to me as well 
as my colleagues on the committee, and we will continue to 
follow this. But because we are preparing our budget, I wanted 
to discuss and get some feedback on BRAC.
    Secretary Mabus, as you know, the Under Secretary of 
Defense, Robert Hale, said--and I quote--``We have got at least 
25 percent of unneeded infrastructure in the Department of 
Defense. If we can't get Congress to allow us to close it, we 
are simply going to waste taxpayers' dollars,'' the end of his 
quote.
    He goes on to say that not allowing the closure of this 
excess infrastructure means the Pentagon--and I quote again--
``won't have the money to invest in things like readiness and 
reducing the numbers of force cuts that are required.'' And 
that is the end of his quote.
    So, Secretary Mabus, I would like you to tell me explicitly 
how much excess infrastructure that you have in the Navy.
    And then here is where there is a bit of a contradiction, 
gentleman, because Admiral Greenert on March 24th in an AP 
press was quoted as saying that the Navy is not pushing for 
BRAC.
    So, gentleman, can you explain to me what--the Navy's 
position on getting rid of excess capacity in order to free up 
funds for other things like readiness and maintenance and 
operations as has been discussed by my colleagues earlier?
    Mr.  Mabus. Thank you, Congresswoman.
    Comptroller Hale was obviously speaking for the entire 
Defense Department when he made that statement.
    And while we think that everything ought to be on the table 
in these fiscally constrained times and that BRAC is a useful 
tool to take a look at what we have, one of the things that the 
Navy and Marine Corps has done is, in previous BRAC rounds, we 
have taken those very seriously and we have ridded ourselves of 
a good bit of excess capacity that we have.
    We will certainly take a very hard look at all our 
capacities, at all the bases that we have, should Congress 
authorize a new BRAC round, and we do support the use of that 
tool. But we think that, in the past, because of past BRAC 
rounds, we have gotten rid of most of our excess capacity.
    Admiral  Greenert. And, ma'am, the context of my comment 
was speaking at a base about a base, in this case, Mayport.
    As you know and as Congressman Crenshaw mentioned earlier, 
strategic dispersal is important to us. And as Secretary Mabus 
said, BRAC is a process. It is frequently used as a verb--``You 
are BRACed''--as a derogatory thing.
    The Department of Defense is asking for a BRAC. I support 
that. It is not a bad process. It is kind of cleansing to look 
at what you need strategically and in the business case 
analysis of it.
    With regard to our laydown, our strategic dispersal, which 
I was addressing at the time, I am satisfied with it.
    Ms.  McCollum. So, gentlemen, in your opinion, unless 
ordered to by Congress--because I am confused--Mr. Hale 
identified 25 percent--could you perhaps talk to Mr. Hale and 
get us back to what share of the Navy's 25 percent that is? 
Because, from what I am hearing today, you say that there's--
possibly none of the 25 percent is in the Navy.
    Mr.  Mabus. I would be happy to talk to Bob Hale.
    And, Congresswoman, I was Governor on the other side of a 
BRAC process; so, I understand how BRAC processes work.
    And to the CNO's point, they do bring some needed rigor to 
looking at what bases that we do need.

                          JOINT STRIKE FIGHTER

    Mr.  Frelinghuysen. Thank you, Ms. McCollum.
    Ms. Granger.
    Ms.  Granger. Thank you, all three of you, for your service 
and your leadership and for being here to answer our questions 
this morning.
    General Amos, you and I have discussed the Joint Strike 
Fighter many times, and I certainly appreciate your leadership 
in keeping the Marine variate on track.
    Could you give us an update on how the program is going 
from your point of view and, also, confirm the Marine Corps' 
plan to replace six Harrier losses in Afghanistan with 
additional Joint Strike Fighters.
    General  Amos. Congresswoman, thank you.
    To your last point, when we lost the six airplanes in the 
attack at Bastion airfield about a year and a half ago, there 
were six Harriers completely destroyed on the line.
    Since then, we have brought two of the other Harriers back, 
and it is my understanding that those two airplanes have not 
survived what we call the planning and estimating, trying to 
determine how much damage. So the total is really eight 
airplanes at this point.
    We have put in an OCO request--a request through OCO, 
through OSD and through OMB to replace those airplanes. We 
can't buy Harriers anymore. They don't manufacture them. So to 
buy JSF's with those.
    We have certainly--OCO in the past has replaced damaged and 
lost equipment, whether it be vehicles, whether it be attack 
helicopters and that. So that is what that is about.
    And I don't think a final determination has been made on 
that. We have included it in our unfunded priority list up to 
the House. Chairman McKeon asked for that. So you have that. 
And that is really for just six airplanes, and it is six JSF's.
    The program itself is doing well. The GAO, as you are 
aware, released a report yesterday critical of several things. 
And they are doing their job. They are doing what they are 
required to do.
    But the airplane for us--we have one squadron completely 
stood up with 16 airplanes down at Yuma, Arizona. It is our 
first fleet operational squadron. And we have a training 
squadron set up in Eglin Air Force Base along with the Navy and 
the Air Force.
    The airplane itself now has over 5,000 flight hours on it, 
both in developmental testing and the flying that is being done 
out at Yuma, Arizona. It is still in developmental testing. I 
mean, we are going to find issues with it.
    I talk to the JPO, the Joint Program Officer, all the time, 
who manages this. We understand where he is with relationship 
to software, with relationship to the structural integrity of 
the airplane. We have got a good plan--he does--to continue to 
fix those things.
    It is pressurized. There is no question about it. Just to 
give you an order of magnitude on software, the F-22 has 2 
million lines of software code in it. The JSF has 6 million 
lines of software code. So it is an order of magnitude greater 
in complexity.
    But it is a tremendous weapons system. It is flying well. 
And we are still on track at this point to what we do, initial 
operational capability for our squadron out in Yuma, Arizona, 
in late summer of 2015.
    Ms.  Granger. Thank you.

                             AIRCRAFT TIRES

    Mr.  Frelinghuysen. Thank you, Ms. Granger.
    Mr. Ryan.
    Mr.  Ryan. Thank you, Mr. Chairman.
    General Amos, it is sad to see you depart, but I have a 
feeling that you will still be around. And I want to thank you 
for your leadership, especially your leadership in the field of 
resiliency. I know we have talked and met about that a good 
many times, and I want to just thank you for your leadership on 
that score as well.
    I have a question, Secretary Mabus, on an issue that I have 
been working on since I got in the Congress a while back, not 
as far back as when Mr. Moran was running marathons.
    But it was----
    Mr.  Moran. Before you were born.
    Mr.  Ryan [continuing]. It is regarding Navy aviation 
tires.
    And the Defense Department tire procurement reform was 
taken up in 2005 during the BRAC process and, subsequently, the 
House and Senate Armed Services Committee and this subcommittee 
and our Senate counterparts.
    Those reforms have almost completely eliminated the unfair, 
uncompetitive and uneven process that used to allow a tire 
manufacturer to directly contract and manage DOD's tire 
procurement.
    The result, which--means that the company--for example 
Michelin--has the contract that sells DOD almost exclusively 
their own tires in this instance.
    In the fiscal year 2010 defense appropriations report, we 
said, ``Having a tire manufacturer as the manager as well as 
the vendor creates a perception of a lack of competition.''
    And then we went on to say that the Secretary of Defense 
will award a new contract and ``the new contract should 
prohibit any tire manufacturer from acting as a prime 
contractor for the management of the contract.''
    The existing Navy aircraft tire contracts are exempted. 
That existing contract continues and, as this committee said, a 
perception of the lack of competition continues as well.
    Mr. Chairman, I would like to show the Secretary and the 
committee a chart that puts into stark terms the actions of the 
existing contractor's actions. The contractor selects their 
tires 98 percent of the time.
    The Navy, for reasons that are not clear to anyone given 
the language and direction provided by this committee, is at 
this very moment proceeding with a new tire contract RFP with a 
tire manufacturer acting as a prime contractor for the 
management of the contract. It seems as though the Navy 
believes it received a never-ending exemption.
    Mr. Secretary, this budget environment is extremely tight. 
Let us save the taxpayers some money, conduct business in a 
uniform way across DOD, provide competitive pricing for your 
aviation tires, inject fairness, and allow for investment into 
American manufacturing, one of which has aviation tires all 
made here in the United States, in Virginia.
    You received a letter--and I have it in my hand--signed by 
19 members of the House, including 5 members of this 
subcommittee, asking you to have the Navy employ the process 
for tire procurement used by the rest of the Defense 
Department. A letter is also forthcoming from the United States 
Senate.
    Mr. Secretary, the Congress and this subcommittee have been 
on record on this subject for quite some time. You have this 
letter from members of the House Armed Services Committee and 
the Appropriations Committee asking you to act as Congress has 
previously directed the Navy.
    Now, we can do this the easiest way, I think, possible or a 
harder way, where we end up having to act on this committee and 
writing it into law.
    But can you commit to me and my fellow members concerned in 
writing you and the membership of this committee that the Navy 
will abandon its duplicative contracting members and use TSI?
    Mr.  Mabus. Congressman, what I can commit to you doing is 
getting you an answer not only to your letter, but, also, to 
this question in the detail that we should get you the answer 
and as quickly as is possible. I will do that, and I will make 
sure personally that is done.
    Mr.  Ryan. I would appreciate this.
    I think this just feeds into--I mean, there is always a 
level of cynicism on how the government is doing business, and 
I think this just feeds into that level of cynicism to say, you 
know, you are going to be in charge of picking and you pick 
yourself.
    I mean, people in Youngstown, Ohio, and Akron, Ohio, they 
get that. You know? That sounds like a scam to them. And so I 
would appreciate your response.
    And I appreciate the other members of this committee who 
have signed on to that letter.
    And I appreciate the time, Mr. Chairman.
    Mr.  Frelinghuysen. Thank you, Mr. Ryan.
    Mr. Calvert.

                           CIVILIAN WORKFORCE

    Mr.  Calvert. Thank you, Mr. Chairman.
    I also, General Amos, want to thank you for your service 
and look forward to your next career, whatever it may be.
    This budget proposes significant reductions in the size of 
our military, particularly the Army and the Corps. While the 
U.S. military is now 30 percent smaller than at the end of the 
Cold War and forecast to shrink even further, it has 20 percent 
more three- and four-star generals.
    The fiscal year 2014 Appropriations Act directed the 
department to provide a report on all direct and support costs 
associated with general and flag officers.
    While reducing the size of the force will save money, it is 
important that we retain a force that is rightsized with the 
right mix of personnel, both military and civilian, to 
accomplish that mission.
    Secretary Mabus, Admiral Greenert and General Amos, as you 
may know, just two weeks ago I introduced an act, the REDUCE 
Act, which will require DOD to make necessary reductions to its 
civilian workforce in a systematic manner without compromising 
our ability to maintain a strong national defense over the long 
term.
    It would provide DOD with the authority to reduce the most 
nonessential positions and an opportunity to determine which 
tasks no longer need to be done through a reduction in force.
    Currently the United States has 1.3 million active duty 
military personnel versus 770,000 civilian personnel. I believe 
that ratio is out of balance.
    I would like to ask each one of you: What do you believe is 
the right mix of civilian and military personnel across your 
services?
    Mr. Secretary.
    Mr. Mabus. Congressman, we have been taking a very hard 
look at this for several years now, and, in fact, we have had 
our hiring freeze in place last year for civilians, and Marines 
have had a hiring freeze in place for 2 years for civilians, 
and we have cut pretty substantially the number of civilians 
working.
    However, having said that, we literally can't put our fleet 
to sea without the civilian workforce. The 12 people that we 
lost at the Washington Navy Yard were working as civilians 
building our fleet. The people that worked with them, 2 days 
later, were back at work to make sure that we did that.
    So I think we have to continue to take a look at both, at 
the uniformed and at the civilians. But also, one of the things 
that we are finding, we spend an enormous amount on contracts, 
on contract services that are not government employees. We 
spend $40 billion a year on that, more than all our 
acquisitions combined. We are absolutely convinced that we can 
save at least 10 percent a year on that over the FYDP without 
harming in any way any of our activities.
    Mr. Calvert. General.
    General Amos. Congressman, as my Secretary said, in 2012 we 
put a hiring freeze on the Marine Corps, on the civilian side 
of the Marine Corps. In fact, we set thousands of numbers below 
what we would call the targeted, the right balance. So you ask 
what is the right balance between Active Duty and civilian 
Marines. We said several thousand below that number that we 
have adjusted almost annually to make sure that we have got the 
right balance. We are the leanest of all the services. We have 
got the fewest civilians per--and I was just looking through my 
notes here to get you the exact figure, and I will find it here 
in a minute--of all the services.
    Now, I don't want to be misleading. We use the services of 
my brother in the Navy with his depots and with his systems 
commands. So we don't have quite the overhead in civilians, but 
we look at this twice a year, Congressman, to maintain that 
right balance.
    I will tell you, we are short right now. I don't think it 
is going to get any better for us. So I guess if you are 
looking for a force that is already lean, we are there, and I 
think we are probably going to get leaner over the future.
    Mr. Calvert. Admiral.
    Admiral Greenert. What is a little unique about the Navy, 
Congressman, is we buy equipment, and we man it as opposed to--
and I am talking about military--as opposed to determining the 
size of the Navy on numbers of people. That is just not what we 
are about. And it is similar to the Air Force as opposed to the 
ground forces, and they get people, and then they equip it.
    With regard to civilian personnel, as Secretary Mabus said, 
there are folks there, they are wrench turners, welders, pipe 
fitters, electricians. If we were to reduce them, well, we just 
have to bring in military, because that has to get done for the 
fleet to sail and for aircraft to fly, and, as General Amos 
said, same with Aircraft Depot.
    But to look at this in a broad, more strategic approach, I 
think that would be great. But we would need some regulatory 
relief, because we have to manage higher, if you will, and 
reduce in force locally, which is different from our military, 
which we can do. We can put a master plan and look at----
    Mr. Calvert. I worked with former comptrollers--it was 
their suggestion, by the way--and former Under Secretary of the 
Department of Defense and former Secretaries of Defense who 
believe that the ratios are out of balance, and that the 
Secretary does not have the authority under existing law to 
make those types of reductions.
    And we are not talking about the wrench turners or the 
folks that are manually working every day; we are talking about 
a look at the Department, especially in management and the 
management of middle management and the rest, like civilian 
workforces have done in private sector over the years to 
reevaluate the growth in the civilian workforce.
    As you know, it has grown by 17 percent in the last 10 
years versus the military at approximately 3 percent. And I 
think, from a business perspective, you need to take a serious 
look at that and have the tools to make those reductions. And 
we are talking about 3 percent per year over 5 years in a 
770,000 workforce, it would seem to me a reasonable thing that 
could be accomplished, and it could save over 10 years 
approximately $170 billion and keep that in the Department, I 
think would help sustain the readiness, procurement and troop 
levels.
    Admiral Greenert. Armed with that sort of authority, if you 
will, and guidance, we could do that. But heretofore things 
have been done so homogeneous that we would go to these 
shipyards and say, you are frozen, I can't hire a wrench 
turner, when the target may be support. And so until we can 
change that, the baby goes out with the bathwater.
    Mr. Calvert. And that is the intent of this legislation.
    Mr. Frelinghuysen. It is worth a look. Please take a look 
at Mr. Calvert's proposal.
    Mr. Cole.

                              E-6 AIRCRAFT

    Mr.  Cole. Thank you, Mr. Chairman.
    Thank you, gentlemen, all three of you, for your terrific 
service to our country in so many different capacities.
    Two quick points to make and then a bigger, unrelated 
question. To my friend Mr. Ryan, not as a corrective and not to 
undermine your point at all, but I do want to just point out 
Michelin has a lot of factories in America. One of them is in 
my district; it is actually the largest single site in 
Oklahoma. Now, we don't make aviation tires there, but it is 
over 2,200 jobs. So they are a good company with a great 
presence in the United States.
    I would like to know, and we have been trying to go through 
the budget to determine, do you have any plans in terms of 
downsizing or changing the E-6 Communications Wing that you 
have at Tinker Air Force Base now?
    Admiral Greenert. No, sir, we don't. To my knowledge, we 
don't. We sized that base. It is all part of the--as you know, 
the sea-based strategic deterrent; and the support, that is the 
command-and-control feature.
    Mr. Cole. Right.
    Admiral Greenert. So we are required to have a number of 
airborne--you can call it an orbit, however you want, and 
everything fits around that just like SSBNs at sea.

                         CAPABILITIES OF CHINA

    Mr. Cole. Thank you very much.
    Let me switch it pretty dramatically now. Again, you have 
had to deal with some really pretty tough budget decisions. I 
appreciate the fact that both the service chiefs in particular 
used the phrase, I think, you know, the best force that America 
is willing to pay for, or something like that. I think that is 
a really important point to be made, and ringing the alarm bell 
about 2016 can't start too early. Everybody on this committee 
knows what we are going to be facing if sequester actually does 
kick back in and what that will mean for your jobs. So thank 
you for making that point.
    I would like you to look outside. While we are going 
through a pretty difficult downsizing process with our 
military, that is certainly not true of some of our assets--or 
potential adversaries that you deal with, particularly in the 
Western Pacific. So I would like you to give us a quick 
overview of what you think the Chinese in particular are doing, 
and whether or not you have what you need to make sure that 
that remains a stable and hopefully peaceful place, even given 
all the tension there is in the South China Sea right now.
    Admiral Greenert. Well, the Chinese Navy, as they are very 
upfront, they intend to build and replace. They are modernizing 
their fleet. Folks think they are building a larger fleet. 
Frankly, the size itself is not so much the change; the 
modernity of the vessels that they have and aircraft and 
submarines is changing.
    I view it with vigilance right now. You can buy all kinds 
of new stuff. We have done it. Can you operate it? Can you 
network it? Do you have the people to support it? Can you man, 
train and equip it? And I watch that closely as I do that.
    Secondarily, so what is the strategy here? And that is a 
frequent topic of us in military talks. I had my Chinese 
counterpart here in September for a week in the United States, 
spent the entire week with him, and it was clear to me they 
want to become what they call, if you will, a world-class navy, 
therefore the carrier program and others. So they were quite 
inquisitive. How do you guys do this? How do you build the 
force to do that? So our asymmetric advantages are people. As 
we have talked about, the right industrial base you can, you 
know, build or not. So that is the core of what we are.
    Do I have what I need to do what I need to get done, 
presencewide? Yes. And I provide this little chartlet. With 
what we have, we can be where we need to be when it matters. Do 
we meet the COCOM requests--there are several questions here--
no. The COCOM in the Pacific is very clear. He needs greater 
than two carrier strike groups. With the ships and aircraft 
that we have, we can provide one, and that is reconciled, if 
you will, we call it the Adjudicated Global Force Management 
Plan.
    My concern is if we go to Budget Control Act caps, we will 
have difficulty just keeping one in the Pacific and one in the 
Arabian Gulf, and we will at times go below that. We won't be 
able to build with the industrial base that we need. And 
perhaps more importantly, when contingencies occur, the ability 
to respond with the right capacity, with the right capability, 
on time, all of those three are very important, won't be there 
like the combatant commanders say it needs to be at a Budget 
Control Act level, if you will, at sequestration.
    Mr. Cole. Thank you, Mr. Chairman.

                         ACCEPTABLE RISK LEVELS

    Mr. Frelinghuysen. Thank you.
    Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman.
    My thanks to the gentlemen. I will start with a thank you.
    And I want to thank General Amos. In late January, you 
visited my district. It was part of one of your initiatives 
that brought you there, but I have got to tell you, the 
luncheon that you spoke at that normally seats about 350 people 
had over 900 that day, and a number of marines were there, old 
and young alike, that made a lot of difference in their lives, 
and I just want to thank you publicly for taking the time to do 
that.
    My question is for the panel, starting with the Secretary, 
and it is kind of a follow-up to what Mr. Cole has just 
broached. What we are doing today is we are trying to address 
real or perceived or emerging threats based on budget 
constraints, and that is just a business that we always have to 
do.
    So my question is really simple: When you speak to us, you 
are speaking to the American people. What is an acceptable 
level of risk that we can take, given the spectrum of things 
that you have to have the capacity to respond to, sometimes 
surprisingly? What is that acceptable level of risk, and are we 
getting to an unacceptable level of risk particularly when we 
see just around the corner the potential for the resumption of 
sequestration in fiscal year 2016?
    Mr. Secretary, I would offer the floor to you first and 
then as the two gentlemen to your left and right might be 
willing to respond.
    Mr. Mabus. Thank you, Congressman.
    The budget that we put forward, I think the short answer is 
we have an acceptable level of risk. There is a level of risk, 
and we have tried to articulate that level, and it goes to 
several factors. The concern that we have, which the CNO has 
talked about earlier today, is if in fiscal year 2016 we go 
back to sequester levels, that level of risk goes up, and it 
goes up pretty dramatically in terms of numbers of ships that 
we have, in terms of the assets that we can put forward, in 
terms of the stress that it puts on, in terms of our 
modernization programs, in terms of our weapons programs, in 
terms of so many programs that we have that we simply couldn't 
get the things that we need when we need them.
    So our concern is not so much for 2015, the budget that we 
are talking about right now, because we do think we can manage 
that risk, because it has been. Thanks to this committee and 
thanks to Congress, we have these 2 years, 2014 and 2015, to do 
some planning and to set some priorities. It is from 2016 out 
and, if it does return to those sequester levels, the problems 
that that will cause.
    General Amos. Congressman, I think knowing that risk and 
readiness would probably be a key part of today's discussion, I 
spent a bit of time last night thinking about how I could 
describe that so it would make sense. If you would allow me, 
please, to talk just as a service chief how I look at readiness 
to begin with, and then I will transition to risk, because I 
think they are absolutely related, because one will drive the 
other.
    The matter of readiness for my service, the Marine Corps, 
is measured in people, people readiness; in other words, 
everything from their preparedness to deploy, everything from 
as simple as dental readiness and medical readiness to their 
family readiness. Are they set and ready to go? Are the right 
people, the right ranks, the right experience levels? Do they 
have the right noncommissioned officers in charge of young 
marines, what I call baby marines, the ones that have just 
joined? Do I have the right staff NCOs? So it is people 
readiness, and it is equipment readiness.
    And the equipment readiness is mechanical. It is I have a 
piece of gear; I have got a Humvee; I have got an MRAP. Is it 
up? Is it operating? And if it is not, is it partially mission 
capable? We do that in airplanes. Can we fly the airplane on 
some missions, or is it completely grounded, is it down?
    So it is people, it is equipment readiness, and both of 
those, in particular the second one, require a lot of 
operations of maintenance money. It is parts. It is support. It 
is that kind of thing.
    The next one is training readiness, and that is taking 
those marines and being able to put them through the training 
syllabus and ensure that they are at a--what we would call at 
the highest state of readiness before they go to deploy, if 
they are going to deploy in combat. I have told this 
subcommittee many, many times, those marines that are forward 
deployed in Afghanistan and those that have gone before in Iraq 
are my highest priority, so they will always go ready. So it is 
training readiness is the next piece.
    Then there is what we call bases and stations, which is 
often overlooked, because that is where our training ranges 
are; that is where our facilities are; that is where all that 
home station support is that takes those squadrons and 
battalions and sets the conditions so that they can train, they 
can deploy, they can deploy and know that their families are 
going to be cared for back in the rear.
    And the last part is tied to what I just talked about, and 
that is family readiness. Are the programs set so that when 
that unit deploys on a moment's notice, that the family is 
plugged into a network, and they are going to be cared for, and 
information is going to flow.
    So that is the readiness kind of Rubik's Cube that we work 
in as commanders, and I certainly do within my force.
    You transition to risk now. First of all, risk is a 
judgment call by the individual. I try to pass this to 
somebody, but it is. The other thing I would say is that risk 
is not necessarily a point on a continuum; it is a space on a 
continuum between high risk and probably low risk. Somewhere in 
there is moderate risk in there we would probably describe as 
acceptable risk, and it would be, in my case, you know, a 
certain size force, and I can talk about that in a minute.
    But risk is a function of the total capacity of the force; 
in other words, it is numbers of units, the capacity, the 
numbers of ships, the numbers of marines, battalions, squadrons 
to be able to do something that the Nation wants it to do. So 
that is the first part in the calculus of risk.
    The second part of it is the levels of readiness, which I 
just got done talking about. That fits in the risk equation. 
And those levels of readiness are readiness for forward-
deployed units, readiness for those next-to-deploy units, and 
those readiness of those units that are, frankly, maybe a year 
from now. And this is where we are beginning to feel the pinch 
is those units that are at home station that are not in the 
queue that start deploying because they are in a low state of 
readiness right now.
    So the next piece of risk is the ability to build combat 
power over time; in other words, how quickly can I move forces? 
We have always got forward forces deployed, you know that. 
Thirty thousand marines. John Greenert has got his ships 
forward deployed, and we are out there. But how quickly, in 
case we need something for a large-scale operation, can I build 
that combat power up? How do I get it there? Do I sail it? Do I 
put it on airplanes? Where does the equipment come from? How 
quickly can I build that? So that is an element of risk.
    And then the next thing, quite honestly, is the sustainment 
ability both in people, combat replacements, and the ability to 
get parts; the ability to get stuff forward to fix things; the 
ability to provide meals ready to eat, water, batteries, fuel, 
ammunition; and then how quickly can I get those combat 
replacements to people that are wounded or we have lost in 
action, and we have got to replace them in a unit. So those are 
all parts of the things that count that fit in the calculus of 
risk.
    In my service we sit at about 193,000 marines today. We are 
on our way down to 175,000. That 175,000k force was built and 
designed around full sequestration. That is a force that is 
highly ready. I have gone into bases and stations, pulled money 
out of maintenance and facilities, and put them into these 
deploying units, so they are ready. But the ones that aren't 
deploying, I have taken money away from them; I have taken 
money away from the bases and stations. There is risk there, 
but there is not risk for those that are forward deployed and 
ready to go. They are at a high state of readiness.
    Mr. Frelinghuysen. General, I need to make sure I recognize 
Mr. Visclosky at some point. I want to get to this issue 
through my own questions, too. But this is a critical issue 
here, whether this is budget driven or military requirements 
driven, but I think we are getting some of the answers we need.
    Mr. Womack. And I appreciate the gentleman for his remarks.
    Just a quick point I think we all need to remember: Risk 
can go on or off pretty quickly, but capacity to address the 
risk is not an on/off switch, and that is where I base most of 
my concerns.
    And I yield the floor.

                    OVERSEAS CONTINGENCY OPERATIONS

    Mr. Frelinghuysen. We share your concerns, and I don't mean 
to cut anyone short, but I want to make sure we all get some 
questions here.
    Mr. Visclosky.
    Mr. Visclosky. Chairman, thank you very much.
    General Amos, I want to join the chairman and my colleagues 
in thanking you for your service to this country as well as 
your colleagues on the panel, and also join the chair and my 
colleagues in extending my personal and all of our sympathy on 
the death of the sailor yesterday.
    General Amos, you mentioned in response to Ms. Granger's 
question a number of aircraft and suggested that a request was 
submitted for the overseas contingencies operation. We face a 
very difficult task because there is a placeholder for $79 
billion for next fiscal year. And our bill hopefully will be on 
the House floor, and there will be a placeholder for $79 
billion that is as of this moment undefined. That is going to 
be a very difficult problem to address.
    There is a theory that there is a bridge that the 
administration is considering for the last 3 months of this 
calendar year as well as a supplemental. But the question I 
would ask today is, Secretary and Officers, has the Navy/Marine 
Corps contributed assumptions or analyses that are contained in 
that placeholder? There was a specific mention of a request for 
aircraft in OCO. What is in OCO for the Navy and Marine Corps 
for fiscal year 2015?
    Mr. Mabus. I will give you a very specific answer to your 
very specific question. Yes, we have contributed information 
into the OCO request. As you know, it is not final yet, and we 
put the things in that we thought were appropriate to be put in 
to an overseas contingency operation request, things that were 
related to our combat operations, particularly in Afghanistan.
    Mr. Visclosky. I appreciate you answering my question. That 
is why you are Secretary of the Navy.
    Could I ask, have you submitted options? Because there 
appears to be an operative theory that at some point after an 
election and/or runoff, an agreement will be signed, but that 
if an agreement is not signed, there is a so-called zero option 
that the President of the United States has talked about. Would 
your request in that instance be different than the ones that 
you have submitted to date?
    General Amos. Sir, there is no question about it, and that 
is a little bit of the unknown right now, is this going to be a 
zero option, or will there be enduring force presence? If there 
is enduring force presence, it is going to require OCO; if it 
doesn't, then the actual OCO to deploy and train those forces 
in Afghanistan or sustain them there will go away.
    But the requirement to reset the Marine Corps will not go 
away; that will be 2 to 3 years. And I have sat before this 
committee many, many times and talked about that, and we are 
now down to about $1.3 billion worth of requirements to reset 
the Marine Corps. That is from about 15.5 billion years ago 
when Chairman Murtha sat here. So we have come a long ways to 
reset, but there are--there will be some OCO requirements, sir, 
as a result of once we even come out of Afghanistan.
    Mr. Visclosky. And on the reset, because the roles are 
changing place, and we obviously face some very difficult 
circumstances with Russia and the impact that has as far as 
their influence on some of the former republics that are 
contiguous to Afghanistan, is that factored in as to any 
possible fluctuation in your cost on reset if that becomes more 
difficult as far as transit of equipment north?
    General Amos. Congressman, we have got forward deployed 
forces in that--in the Persian Gulf area, and we are looking at 
putting a Special Purpose Marine Air-Ground Task Force on the 
ground somewhere there for the combatant commander. Those will 
be covered in our----
    Mr. Visclosky. I am talking about transit out of 
Afghanistan as far as the reset----
    General Amos. Pardon?
    Mr. Visclosky [continuing]. And the lack of options 
potentially based on Russians' activity with some of the 
nations that border Afghanistan.
    General Amos. Sir, we have not put any money in there for 
options.
    Mr. Mabus. Congressman, the Marines have more than 75 
percent--in fact, it is getting close to 80 percent of their 
equipment has already gotten out of Afghanistan. They took 
their weapons out of Iraq, and they have had a detailed plan 
now for some time, and they have moved equipment out. So the 
risk to them in terms of the way you take it out is--it is not 
completely gone, but because of what they have done, it is much 
smaller.
    Mr. Visclosky. Thank you very much.
    Thank you, Mr. Chairman.

                        SIZE OF THE MARINE CORPS

    Mr. Frelinghuysen. Following up on Mr. Visclosky's 
question, and this may be a focus on the Marines. And let me 
thank you for reminding us of the Marine Corps' ethos and 
invoking Belleau Wood, and mentioning, obviously, Fallujah, 
which was one of the most remarkable battles and successful 
battles that the Marines were ever involved in. I don't think 
we will ever forget the level of sacrifice that was identified 
in Iraq.
    I would like to ask, relative to the size of the Marine 
force going forward, to some extent the forces of all of our 
military are directly related to our withdrawal of U.S. Forces 
in Iraq. What do you see, General Amos, as the laydown--maybe 
that is not the proper term--but the blueprint of where the 
Marines are going to be over the next couple of years?
    And I am not talking about as a result of the, you know, 
potential of continuing resolutions and sequesters, but 
relative to military, you know, the military obligation, what 
you see out there. I know sometimes we are taking a look at 
what the Russians are doing. That was unanticipated to some 
extent, it appears. The Chinese, with all due respect, are 
still on the high seas doing things to deny us access in areas, 
and our allies. Give us a blueprint as to where you think the 
Marines are over the next couple of years.
    General Amos. Thank you, Chairman.
    I think we will always have somewhere between 30- to 40,000 
Marines forward deployed at all times. We will continue in this 
budget, even the fully sequestered budget, we will have seven 
Marine expeditionary units, the same number we have today, 
which are those ships and marines that are forward deployed on 
a rotation basis. We have three MUEs out right now; Admiral 
Greenert has his ships out, one in the Pacific, one in the 
Persian Gulf area, and one on its way home, coming up through 
the Mediterranean. So they will always be there. So that hasn't 
changed.
    And we will have 22,500 marines west of the International 
Date Line. That doesn't include Hawaii. That is starting up 
north in Iwakuni, Okinawa, Guam and down in Australia. And we 
are realigning that, as you are aware right now. Today we have 
pretty close to about 20,000 marines west of the International 
Date Line. So they will be there. They will be forward 
deployed, and they will be ready.
    What we have built, and we have one already in existence, 
it is called a Special Purpose Marine Air-Ground Task Force 
Crisis Response, and it sits in the European theater right now 
by the graciousness of the country of Spain. They have been 
very good to our country, allow us to position our forces there 
and to operate into the African Continent.
    And General Rodriguez uses them. They were down in the 
South Sudan, they rescued the Americans out of there, and they 
are his crisis response force. We have money, and they will be 
positioned available there. We are going to build one of those 
for General Lloyd Austin. It has to be approved by the 
Secretary of Defense, and so we are offering that up. And we 
are looking at building one of those down in South America for 
General Kelly. So the marines will be positioned all around, 
Chairman, and that is our----
    Mr. Frelinghuysen. So what the Secretary talked earlier in 
the morning about, you will be an essential part of what he 
described as the innovative combinations that are being used 
now and will be structured in the future to meet a potential 
aggression and crises. So you are essentially part of that, 
which sort of begs the question here, and I say this 
respectfully, we know that the Marines will do anything at any 
time for our country and have done it time and time again. You 
have always been the point of the spear. You are remarkable. 
What is your relationship with--and I know you are part of that 
relationship--with our special operators, who also do 
remarkable work, and who now have a greater role in this budget 
scenario? In other words, you are being reduced, and we are 
making substantial investments in cyber warfare, we are making 
investments, and no one is against them in the role of our 
special operators. Where are you in that mix?
    General Amos. Chairman, we have 25-, almost 2,600 marines 
that are part of Marine Special Operations Command. They are 
under the command and control of Admiral Bill McRaven, the 
Commander of Special Operations Command down in Tampa. They are 
just like SEALs, they are just like the Rangers, the other 
forces that he owns. They are highly trained, and they are our 
contribution.
    And they have a general role as Special Operations Forces, 
but the synergy here is they have unique tentacles back to us. 
And so we have just agreed, Admiral McRaven and Admiral 
Greenert and I, that we will put some of those on Navy ships, 
on Marine expeditionary units, on amphibious ready groups, and 
they will be in concert working with these special operators as 
they travel around.
    So it is a symbiotic relationship, and, sir, we are all in 
on it. I think we have got the right amount. I get asked that 
question all the time, do you have too many, do you have not 
enough? Right now for the budget that we have and the roles and 
missions, I think we have got the right amount.

                 SPECIAL PURPOSE AIR-GROUND TASK FORCE

    Mr. Frelinghuysen. Ms. Granger, any further questions?
    Ms. Granger. Yes.
    General Amos, we have seen and heard from the Navy on the 
need for more amphibious ships; however, as I understand it, 
you began filling this critical amphibious gap with land-based 
crisis response forces, particularly in Africa. And my question 
is will the Marine Corps continue to develop these Special 
Purpose Air-Ground Task Forces throughout the world, and do you 
feel the air support at your disposal is adequate to continue 
those missions?
    General  Amos. Congresswoman, I think we will. I think it 
is a sign of the future. It is the sign of kind of this what 
people are calling the new norm. We want to be relevant based 
on what the needs are for the combatant commanders, what the 
real world has unveiled. After the Libyan tragedy with 
Ambassador Stevens, we sat back and within my service said, is 
there anything that we can do in the future?
    And two things came to mind. One was, with the help of 
Congress, was to authorize another 1,000 Marines in the Marine 
Security Guard detachment, which we have done and we are in the 
process of. It is turning out to be very successful so far. The 
second was what if they had a force that was on the ground 
somewhere or at sea, ideally it would be at sea, that could 
react in the event the combatant commander has a need?
    And that is what this is all about. And so this is in 
anticipation of can we provide something for future 
requirements. So I think we are going to continue to do that. I 
know that Admiral Greenert and the Secretary are working very 
hard on the ships. We will probably talk some more about that 
here. We would like to be on ships. It is just they cost a lot 
of money, and it is just a function of trying to balance the 
budget.
    Ms. Granger. Thank you very much.

                           AIRCRAFT CARRIERS

    Mr. Frelinghuysen. Thank you.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    I mentioned that I wanted to ask some questions about the 
George Washington, and we haven't gotten into that, and I know, 
Admiral and Secretary, that you really do want to get into that 
subject, so I will give you the opportunity.
    We invested $3 billion into the George Washington aircraft 
carrier back in 1983. The price of a new carrier is now $10 
billion. In this budget you have put 46 million for defueling 
the ship, but it is going to be $1 billion if we actually 
decommission it.
    Now, in prior years this subcommittee has provided over 
half a billion for the planning and advance procurement of 
these kinds of--you know, for the lead items like the reactor 
core and for refueling. So we have got an issue here. I know 
you do, as well, but we need to be able to plan, what are you 
going to do? It is an enormous cost if we change our mind, as 
you know.
    We don't know whether this ship is going to be inactivated 
for $1 billion. We know that this small amount of money is not 
even a placeholder. Are you going to ask for the additional 800 
million to deactivate it, or is it just a situation where we 
haven't made a decision as yet?
    I guess I should ask you, Mr. Secretary. That is why you 
get paid the big bucks to answer those kinds of questions.
    Mr. Mabus. Congressman, to start with, I just don't think 
it is true that either one of us was at the first marathon.
    Mr. Moran. What?
    Mr. Mabus. I don't think either one of us was at the first 
marathon even though there are rumors that we were there in 
Greece a couple of thousand years ago.
    Mr. Moran. Oh.
    Mr. Mabus. The only thing we have done with the GW is moved 
the decision 1 year, whether to move----
    Mr. Moran. Move the decision for 1 year, you are saying?
    Mr. Mabus. Yes, to move the decision for 1 year. Nothing is 
going to take place in 2015 that will head in one direction or 
the other.
    Having said that, we very much want to keep the GW, as you 
pointed out. She was built 25 years ago. She is halfway through 
her expected life span. Admiral Locklear, the Pacific Command 
Commander, testified in Congress about the need for us to keep 
11 aircraft carriers. We are very aware that there is a law 
that says we will have 11 aircraft carriers. So it is like 
gravity: It is not just a good idea; it is a law.
    And so we are very aware of all that, and we want to keep 
that carrier and her associated air wing. To lose that carrier 
would have implications in terms of our presence, in terms of 
our surge capacity, in terms of the stress that we put on the 
remaining carriers, and also on the industrial base in terms of 
building carriers.
    So by moving the decision, completely moving it, we had a 
year to work with, we will not have an impact on the cost of 
refueling or defueling, and we will not have an impact on the 
next carrier coming in to be refueled. And that is why we did 
it, to give us a little more decision space, to give Congress a 
little more decision space, because, as you point out, the bill 
for keeping GW and her air wing and operating her is about $7 
billion over that 5 years beginning in 2016.
    Mr. Moran. Okay. Well, thank you, Mr. Secretary.
    Thanks very much, Mr. Chairman.

                          LITTORAL COMBAT SHIP

    Mr. Frelinghuysen. Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Let me just quickly finish the conversation about cruisers 
and ask a question. You know, last year we had to find $25 
billion to take out of our bill to meet all the requirements, 
and in spite of that, there was money left to modernize those 
seven cruisers. So you can see from our standpoint, we thought 
that was pretty important, because it is common sense; if you 
are going to maintain your fleet without spending a lot of 
money to buy new ships, you simply maintain, modernize the 
ships you have.
    And so I just want to kind of make that clear that we were 
pretty clear in our intention. And I think that your proposal 
probably is within the letter of the law, but I am not sure it 
follows the spirit of our clear intention to say here is seven 
cruisers, and here is the money to modernize them and proceed.
    So I am hoping that we can work together, because you won't 
always be--all you three gentlemen, always be sitting there, 
and you say, okay, we are not really putting one foot in the 
grave; 9 years, everything is going to be fine. But I have seen 
times when the Navy said, well, here is an aircraft carrier, 
and we are going to spend $350 million to do an availability, 
and which was done; and then they said, here is 400 million to 
finish the availability, and then all of a sudden somebody 
said, well, we need the 400 million somewhere else, we are 
going to decommission the aircraft carrier and $350 million 
down the drain.
    So I just want to leave you with that thought, that we 
would be happy to work with you to kind of understand what our 
clear intention was. That is just a comment. Doesn't require a 
response.
    Here is my question: I want to talk about the littoral 
combat ships. You know, that was going to be the ship of the 
future. And we spent a lot of time and energy developing that 
ship, and then we decided it is the ship of the future, and we 
are going to build 52 of these.
    And when Secretary Hagel was before the subcommittee a week 
ago or 2 weeks ago, I said, I see where you have decided to cut 
back the number of littoral combat ships from 52 to 32. And he 
said, well, no, we are not really not going to build the last 
20 littoral combat ships, we just are only going to contract 
for the first 32, and then we are going to take another look at 
the littoral combat ship; maybe we can upgrade it, maybe we can 
replace it, whatever.
    But I always thought that what we do is we try to figure 
out what we are going to need, and then, to be cost efficient, 
we buy as many of those as we think we need. So I guess my 
question is if you decide that maybe it is not exactly what we 
wanted, and somehow you are going to take a second look, I 
mean, how did you figure out we will do the first 32, we are 
tight on money, and somehow in the meantime we are going to 
decide that there is a better way to do the littoral combat 
ship or maybe even replace it? It seems to me it is either the 
ship of the future or it is not. So how did you decide to say 
we will just do 32 of those, and then we will decide what to do 
with the next 20?
    Mr. Frelinghuysen. We need some answers on that. I mean, 
respectfully, in our first hearing we didn't get a lot of 
answers to these questions. So----
    Mr. Mabus. Well, I think it is important to----
    Mr.  Visclosky. If the gentleman would yield, I would 
associate myself with the question just raised by the chair and 
the gentleman from Florida. And I guess I would just add, why 
buy any more?
    Mr. Mabus. Well, I think it is important to look at exactly 
what the Secretary of Defense said, which is don't engage in 
contract negotiations past 32. That will take us almost all the 
way through this FYDP on the littoral combat ship as they are 
being built today. And it is not unusual at all, in fact, we 
have done it on virtually every ship, to take a look at are we 
getting the requirements that we need; are we getting the 
lethality that we need; are we getting the survivability that 
we need?
    And we have done it, the DGG-51s, where we are about to 
start building the fourth consecutive flight of those, and the 
ones we are building now are very different from the first ones 
we have built. Same thing with the Virginia class submarines; 
we are about to begin to build flight 4 of those. So we are 
taking a look now, and we will have this answer, you will have 
this answer in order to inform the 2016 budget.
    And the options that he directed me was keep building the 
LCS, build a modified LCS, or complete the new design. But he 
also said, take into account cost and take into account 
delivery time to the fleet, because he said in his statement 
that we needed to get to this number of small service 
combatants to meet our war plans, to meet our presence 
requirements.
    So that is the look that we are engaged in now. We will be 
finished in time to put whatever we find into that. But this is 
not an unusual thing to do for a class, particularly a new 
class, of Navy ships. We have just deployed the first one to 
Singapore, 10-month deployment, came back, had an excellent 
deployment. We have block buys for 20.
    And the last thing I would like to say is one of the things 
that I am very proud of about the littoral combat ship is that 
the first of these ships cost north of $750 million. We have 
now driven that cost down so that the ships that are coming 
that we are contracting for now will cost about $350 million.
    And when you add the weapons systems and its cost to the 
cost of the haul, and the fact that you can switch out these 
weapon systems, the fact that you don't have to build a new 
ship as technology changes, they are bringing these ships in at 
pretty close to what Congress was told they were going to cost 
in 2002 in 2002 dollars, which I think is a pretty remarkable 
accomplishment.
    Mr.  Crenshaw. And I appreciate that.
    Mr.  Frelinghuysen. You are suggesting that the deployment 
to Singapore was an enormous success? I thought it was replete 
with all sorts of issues.
    Mr.  Mabus. Any time you have a first ship of a class, we 
deployed this one early to learn some lessons, but it was 
available for service at the same rate the rest of the Pacific 
fleet was available. It performed all the missions that we sent 
her out there to do----
    Mr.  Frelinghuysen. If everything is working well--I have 
endorsed both models--why are we working on version 3 here? The 
issue is survivability, isn't it?
    Mr.  Mabus. Again, it is not unusual to do this for Navy 
ships----
    Mr.  Frelinghuysen. I know that this is sort of what makes 
the committee very exasperated and frustrated. I mean, we look 
at the Army with a ground combat vehicle and messed around with 
that. With all due respect to the, you know, expeditionary 
vehicle, we spent a huge investment. I mean, these are sort of 
what we want to try to eliminate, this type of situation here. 
I don't mean to jump on your time here, but this is sort of the 
crux of what we do here. People are looking over our shoulder 
wondering what is going on here.
    Mr.  Mabus. Well, as I said, we are driving the cost down 
on this ship, and we have gotten it down and through 
competition and through block buys to do that. We are where we 
need to be in terms of the weapons systems, in their stage of 
development. But if you look back----
    Mr.  Frelinghuysen. Well, whatever you put on the ships 
were for it, but they could be put on the new model as well.
    Mr.  Mabus. Well, anything that you build, you would have 
to be modular going forward, because to build these systems in 
and not be able to change them as technology changes, no matter 
what kind of ship we build, we can't afford to do that anymore.
    Mr.  Frelinghuysen. Mr. Visclosky.
    Mr.  Visclosky. And I don't want to impose on the 
gentleman's time, but as long as we are on, I appreciate the 
gentleman raising it. You used an analogy about we have 
improved the Virginia class, no question about it, carrier, no 
doubt about it. But in this case, the Secretary talked about 
the literal survivability of the ship, talked about the 
lethality of the ship, talked about the concept of operations. 
This isn't just this is a good ship, we can make it better.
    And you mentioned that we are hitting a cost target; I am 
delighted. But if the ship is not survivable, I don't care if I 
meet my cost target if it is in the bottom of the ocean. Maybe 
we should be looking at that next small surface combatant.
    And you mentioned earlier in your answer, we need to get to 
a number which raises the earlier question the gentleman also 
raised. I am an accountant, but I don't just get to a number; I 
want to have a survivable ship for the purpose intended as 
opposed to one that meets costs, that is not survivable, not 
lethal, and it is subject to the concept of operations.
    Mr.  Mabus. Let me give you two chunks of an answer here. 
One is I have looked back at reports from GAO and other sources 
on things like the DDG-51, things like the frigates that we 
have today. In nearly every case where we have a new class of 
Navy ship, there have been questions, serious questions, about 
survivability, about lethality, and about concepts of 
operation. And those ships have obviously met all those 
requirements.
    Secondly, in terms of the concept of operations, that is 
being developed today. That is what the CNO set up the Littoral 
Combat Ship Council for, exactly how we use these ships. You 
know, before a conflict starts, we might have one of these out 
by itself, clear mines or something like that. Once a conflict 
starts, it is going to be part of a battle group.
    We have to protect lots of Navy ships including----
    Mr.  Frelinghuysen. Respectfully, it is about a group which 
is shrinking, and we are not quite sure how many ships we have. 
We want to make sure the ones we do have are survivable.
    I want to yield to Ms. McCollum so we can keep the 
questions going here.

                           ALTERNATIVE ENERGY

    Ms.  McCollum. Thank you, Mr. Chairman.
    I want to commend all of you for your commitment to energy, 
security and your support of alternative energy investment. I 
had the opportunity to see some of that that work firsthand at 
Camp Pendleton with the solar panels and the real thoughtful 
process that was put into the building the new barracks and any 
rehab that you are doing on base.
    But, Secretary Mabus, you have been really focused on 
reducing operational energy costs by shifting the Navy's 
reliance from fossil fuels to alternative energy. You have had 
a stated goal of 50 percent of the Navy's total energy coming 
from alternative sources by 2020. So I am hoping that you could 
further discuss the energy programs that you have in place that 
will help the Navy achieve this goal, and is the goal still 
attainable within the top line defined by the Control Budget 
Act?
    So, in other words, how much of the fiscal year 2015 budget 
request is devoted to securing these alternative energy 
resources as well as energy conservation through smart 
investments when you are purchasing equipment and rehabbing 
buildings and ships as well?
    Mr.  Mabus. It is more important in constrained budget 
times to do this than it is in unconstrained budget times. One 
of the reasons that we are doing it is that in fiscal year 2011 
and fiscal year 2012, Navy got a bill for unbudgeted fuel 
increases of $2 billion because of the price spikes and the 
cost of oil, because oil is a globally traded commodity, and 
any time something happens somewhere in the world, there is a 
security premium that oil traders put on the price of oil.
    So it is important that we move to these alternative 
sources, particularly in these budget-constrained times, to 
flatten out those spikes, to keep those spikes from harming the 
rest of the budget. We are well on our way to meeting those 
goals using the Defense Production Act. We have four biofuel 
companies now that are obligated, as they are moving through 
the process, to provide 163 million gallons of biofuel starting 
in fiscal year 2016 at an average cost of a good bit less than 
$4 a gallon. So in direct answer to your question, we are not 
going to spend any more money on these energy-saving things 
than we would on other things.
    In terms of efficiencies, we are moving at sea, hull 
coatings, voyage planning, stern flaps, replacing lights with 
LED lighting onboard ship, simple things like that to bring 
down the operational costs. We built our first hybrid ship, the 
Makin Island, which came back with almost half its fuel budget 
from its last deployment. We have also on bases done many of 
the same things.
    The final thing is the culture has almost completely 
changed, and one of the ways that we are meeting these goals is 
just because sailors and marines have come forward with, this 
is a way we can save, this is something we can do. And the 
Marines, I want to say, have embraced this more 
enthusiastically than anybody, because they know that if we 
make energy where we use it, we save marine lives.
    Ms.  McCollum. And General Halter did a fabulous job of 
explaining all the smart investments.
    So my point is when we look as a committee at cutting these 
line items, we are actually having the potential of increasing 
your future operational costs; are we not, gentlemen?
    Mr.  Mabus. Yes.
    Ms.  McCollum. Thank you.

                             NAVY WORKFORCE

    Mr.  Frelinghuysen. Thank you.
    Mr. Calvert.
    Mr.  Calvert. Thank you, Mr. Chairman. I was going to get 
into the George Washington littoral combat ships, but I was 
beat----
    Mr.  Frelinghuysen. You still can. I think there are more 
questions to be----
    Mr.  Calvert. We may come back to that.
    It was brought up that we need contract reform, and I 
absolutely agree with that, and I think Mac Thornberry is 
working on that, and also procurement reform. I think he is 
working on that, also. But the issue regarding the civilian 
workforce, as I understand it, the Marines are almost--based 
upon the numbers that you gave us, General Amos, you are 
talking about almost a 10 percent reduction in the core force 
from 193,000 to 175,000. The Army is talking about reductions 
of exceeding 15 percent. I am not quite sure where the Navy is 
going. Admiral, what is the reduction you are looking at?
    Admiral  Greenert. I will have to give you the specific 
numbers of civilian personnel, but we are reducing our 
headquarters, a lot of them, 23 percent.
    Mr.  Calvert. How much of that on military uniform?
    Admiral  Greenert. Pardon me?
    Mr.  Calvert. On uniform personnel, what percentage?
    Admiral  Greenert. A vast majority are civilian and 
contract. I will give you the numbers and breakdown, but I can 
tell you right now, a very small number of military 
comparative.
    Mr.  Calvert. Well, I want to make sure that everyone 
understands that we are not targeting depots or people who are 
performing tasks that are necessary to the United States 
Government. What we are looking at is giving managers the 
ability to evaluate performance and make sure that we keep the 
best and the brightest people in the civilian workforce.
    And this isn't something that came out of whole cloth; this 
is people that you know and I know you have talked to that 
believe that the civilian workforce ratio is out of whack, and 
it needs to be taken a serious look at. And you need to have 
the tools, because, like Marley's ghost, you have been hauling 
around chains from previous administrations, both Republican 
and Democratic, task force commissions that have never 
dissolved, employees that are around that have not been able to 
be changed, and that is not acceptable, especially when many of 
these employees are up for retirement.
    As I understand, there is a significant number of employees 
at the Department that are up for retirement at this point, and 
so that kind of what I would call as an employer some of the 
low-hanging fruit out there, but you don't--and I understand 
you don't have the tools, but that is what we are trying to do 
is provide the tools for managers to make decisions that have 
to be made; rather than cutting Marines and Army and Navy 
personnel, uniform personnel, that you can also look at the 
civilian personnel the same way you are looking at uniform 
personnel, because it is easier to cut military personnel than 
it is civilian personnel.
    Or it is easier, and the problems that was also discussed 
on procurement. I mean, it is, as the chairman pointed out, 
embarrassing, the billions of dollars that we have spent in 
Army programs, Navy programs, Marine programs, and that is gone 
money that you really wish you had right now.
    So all of these things have to be done in order for us to 
make sure we maintain our readiness, to make sure we maintain 
the personnel that you want to maintain the platforms, the 
economies in fuel and so forth that you want to do. If anyone 
wants to make a comment on that, Secretary, go ahead.
    Mr.  Frelinghuysen. A brief comment, and then we are going 
to go to Mr. Ryan.
    Mr.  Mabus. The only comment I want to make is you are 
absolutely right about the procurement reforms, and I think we 
have done a lot. And in terms of some of these programs, we 
killed them. If it was not giving us what we needed, or if it 
was too expensive, or if it wasn't going to perform in the way 
that it should, we killed them.
    And we have, I think, and I am very proud of the fact, we 
have driven down costs all across every one of our procurement 
programs, and we have done it by pretty simple business things: 
putting competition back in, using firm fixed-price contracts, 
just driving harder bargains, and keeping a closer eye on tax 
money. And thanks to this committee and thanks to Congress for 
giving us some of those tools to be able to do that, and I do 
appreciate the tools, whether in the military, in the civilian 
workforce or in procurement.
    And in answer to the number of Navy people, our numbers 
will stay essentially the same over the FYDP.

                                SUICIDE

    Mr.  Frelinghuysen. Flatlined pretty much, the numbers.
    Thank you, Mr. Calvert.
    Mr. Ryan and then Mr. Cole.

                         METAL HEALTH PROGRAMS

    Mr.  Ryan. Thank you, Mr. Chairman.
    I have a question for each of you on the issue of suicide 
in the force, and this is an issue that the committee continues 
to deal with and we know that you continue to deal with as 
well.
    Mr.  Ryan. It is too high, too many, still happening. And 
lots of programs; 123 programs in the Navy alone designed to 
improve resiliency or prevent suicide, but it is really unclear 
how many of them are actually effective.
    So what kind of metrics are you using and are being used to 
measure the effectiveness of these programs, given that we 
don't seem to be making much progress in tackling the issue? 
That is for the Secretary.
    And then to the Admiral and General Amos, if you could talk 
about what mental health services are available to your sailors 
and marines prior to deployment, while in theater, and then 
upon returning; and which programs--which of those programs do 
you see as really having merit and ones we can move forward on?
    Mr.  Mabus. The way we are measuring it, Congressman, and 
we saw the same thing you did, that we had 123 of these, I set 
up something called 21st Century Sailor and Marine to tackle 
all the issues of resiliency that the force faces, and as part 
of that there is a task force looking specifically at suicide. 
We don't need 123 programs; we just need some effective 
programs.
    And one is too many, but in fiscal year 2013, for both the 
Navy and the Marines, suicide numbers came down, I believe, in 
each single month and I know over the course of the year.
    We think we are beginning to get traction on things like 
educating sailors and marines on warning signs of their 
shipmates. We have travel teams now that go out to do this sort 
of training, bystander intervention, making sure that, as the 
Commandant and the CNO will talk about, that people are willing 
to reach out and seek help, that there is no stigma to 
receiving that help, and that we watch very closely whether the 
stress on the force has anything to do with it.
    The last thing I will say is that there seem to be three 
common denominators in most suicides, one of these factors or 
more: relationships, finances and alcohol, and/or alcohol. So 
we are trying to move on the alcohol part, but also on the 
other two in terms of warning signs and when a shipmate needs 
to intervene.
    Mr.  Frelinghuysen. Admiral Greenert, very briefly, because 
we want to sort of have some sort of exit time in the near 
future.
    Admiral  Greenert. Regarding mental health, we have a 
predeployment survey. Everybody takes it before they deploy. It 
is done, if you will, quietly, if you will. You fill out the 
form and say what you want.
    The point is here are your options. You can go to a 
nonclinical counselor, and they are on all our bases. I have 
seen these. This is not at a Fleet Family Service Center even. 
It is not in the hospital. You can go down and talk about it to 
somebody, a chaplain or whomever. You could go to the Fleet 
Family Service Center where you have a counselor, again 
nonclinical or clinical. Or you can go to the medical treatment 
facility.
    When one returns from deployment, you fill out a 
postdeployment health survey, how do you feel. It is anonymous, 
like predeployment. You do it again in about 30 days, and you 
do it--90 days, excuse me, and then at about 6 months because, 
as you know, these things sometimes take time to manifest 
themselves. Those are all available, again, nonclinical or 
clinical.
    Now, if you fill out the form, and it is obvious, each of 
those postdeployment and predeployment, they are screened by a 
medical officer to see if there is something consistent here or 
alarming, and then you say, well, we need a clinical consult at 
least in this case.
    So there is a pre and a post. And we are getting good use 
out of these nonclinical. Our sailors, I saw a few of them. 
Kids come in, they are very comfortable, you don't have to get 
an appointment. And the whole idea is the stigma. Get over the 
stigma. Go in and see someone. It is okay to not feel okay.
    Congressman, that is what we have got to continue to drive 
home. The nonclinical aspect is reaching some pretty good 
results.
    The 123 programs, I agree with you, that is where we were. 
We have, to the Secretary's point, the 21st Century Sailor Task 
Force called Resiliency. How do you make the sailor more 
resilient? Get these programs focused onto the ones that get to 
the point, you know, how do you get a job, how do you deal with 
debt, deal with marital problems that we all have, substance 
abuse, whatever it may be, and bring them into something more 
coherent.
    Mr.  Frelinghuysen. General Amos, I am going to turn to Mr. 
Cole, but I assume the ranks are in lockstep with the Navy 
brothers and sisters on this issue.
    General  Amos. We are, sir. The thing we have, we have got 
embedded mental health providers in our forward-deployed combat 
units and special training for a whole host of folks, and I 
would be happy to talk to you about it offline, sir, if we are 
out of time.

                          PIVOT TO THE PACIFIC

    Mr.  Frelinghuysen. Good question, Mr. Ryan.
    Mr. Cole.
    Mr.  Cole. Mr. Chairman, in the interest of time, I yield 
to my friend Mr. Womack.
    Mr.  Frelinghuysen. Mr. Womack, almost batting cleanup. Go 
right ahead.
    Mr.  Womack. Thank you.
    I want to address these questions to the Chief of Naval 
Operations and more concerning the pivot to the Pacific. You 
know, we have been tied up in a decade-plus long war in 
landlocked nations, and now we are pivoting to an area that is 
extremely vast in terms of water.
    What kind of technologies--and specific maybe to the MQ-4 
and the UCLASS programs--what kind of technologies is the Navy 
investing in? And if I might just kind of add to the question, 
to lengthen the question a little bit more about back to what 
we were saying earlier about LCS, the ``measure twice, cut 
once'' kind of thinking, are we doing the right thing? Are we 
on the right track? It seems like particularly in the UCLASS 
program it is extended a little bit. The timelines have moved.
    Help me understand this pivot to the Pacific and what we 
are trying to do to extend our capability in that region.
    Admiral  Greenert. I happen to have a little chartlet here 
for you, and it is all about the Asia-Pacific rebalance, right 
in front of you underneath your iPhone there. It is about 
forces and capabilities and what I call understanding. So I 
will focus on your question, which I think is forces and 
capabilities.
    So we have talked about, I think, in this committee before 
home porting ships 60 percent to the west, 40 percent east and 
moving that. We are growing our forward presence no matter what 
the budget. I mean, whether we go to the Budget Control Act or 
not, we must grow as we do this rebalance. But we have to have 
our most modern forces out there. So that gets to the force 
structure, which brings you the capability.
    To the UCLASS, unmanned carrier--carrier landing, excuse 
me, surveillance and strike. And the point here is we want to 
make sure that what we bring into the fleet has the means to 
grow; has appropriate observability, read stealth; can carry a 
proper payload to deliver, in effect read weapon; that has the 
right kind of sensors; has enough fuel so it has persistence.
    Balancing all of those, and I underline the ability to grow 
in each of those key performance parameters, that is what we 
are having this lengthy discussion, which, as you said, we are 
measuring again twice before we build so that we get what we 
need. And again, it can grow out there.
    So what we want, we need this by the end of the century 
and--decade, excuse me. And what we want to do is bring this to 
the Western Pacific. We talked about the Joint Strike Fighter, 
the C version. That will deploy to the Western Pacific first 
for us. 2019-2020 is our goal there.
    Other capabilities, Unmanned Underwater Vehicles, we have a 
host of them out there today that industry and our Office of 
Naval Research has brought. We need to neck those down and 
bring Autonomous Unmanned Underwater Vehicles, large diameter, 
about three times the size of this open area here you see in 
front of you, so that we can then put them on patrol. Again, I 
want to do this. We have got to do this by about the end of 
this decade, because we have to own the undersea domain like we 
do today. We have superiority in it, and we need to bring that.
    Other issues become electronic attack, the electromagnetic 
spectrum. Our potential adversaries are going to higher 
frequencies that are outside where our sensors detect. They are 
changing their sensors on their weapons. We need to be able to 
detect them so that we can spoof them, jam them, or shoot them 
down. They are lower power, so we need to have more sensitive 
sensors.
    These are the electronic warfare, the electromagnetic 
spectrum work. We need to be able to jam not just radars, but 
series of radars so that we get where we need to get. That is 
access. Some call it antiaccess area denial. To me it is joint 
assured access in the amount of time we need and for as long as 
we need.
    So these are the sorts of technologies. And, of course, 
cyber. We need to be able to get in to protect our networks, 
know if anybody is in our networks, and then get in other 
networks to the degree we need to and do what the combatant 
commander and what the Nation wants us to do in there.

                       AIRBORNE ELECTRONIC ATTACK

    Mr.  Womack. Quickly on the Growler, you had an unfunded 
priority for an additional nearly two dozen. Speak to me about 
the EA-18.
    Admiral  Greenert. Well, the EA-18, if you look at the air 
wing of the future, we spoke earlier about the E2-D, that is 
the Hawkeye, that is the big radar, that is the manager of the 
air wing. And the E2-D is awesome. It has an extended range; it 
has the ability to find very, very small objects and, most 
importantly, network to bring that together. So that is your 
manager, but you got to get in. And a lot of what we are about 
in the future, as I mentioned, is electromagnetic spectrum, and 
we have got to jam, spoof and depress as necessary. So the 
Growler has got to get us in there.
    Our adversaries and potential adversaries in technology, 
advanced radars, I kind of mentioned it. Many bands. X-band is 
your lower frequency, and that is your original detection. But 
then you have got S-band and others bands to target. We have 
got to understand all of that, and we have got to operate in it 
and jam it.
    So the Growler of today, what we have in the air wing today 
on the program of record is the minimum requirement. That is 
fine for the missions that we have today. But as we look out, 
and as we have done studies and look into the future, and we 
are the DOD electronic attack source, I view it as increased 
risk and a hedge as we look at the Growler line potentially 
closing.
    So, for me, I discussed with Secretary Mabus and put it on 
the unfunded requirement list as a risk reducer and as a hedge, 
which is what the request to us was: Show me what you need for 
programmatic and operational risk reduction.
    Mr.  Crenshaw. I think one of the E2-D Hawkeyes is being 
cut. If it is important, it might be something to think about.
    Admiral  Greenert. Absolutely. I mean, I don't like that 
anymore. As Secretary Mabus spoke earlier of other programs, we 
will protect the IOC, the initial operability capability, but 
we need to--I mean, more capacity is definitely there. It is 
totally about money, Congressman.
    Mr.  Frelinghuysen. Thank you, Mr. Womack.
    And, gentlemen, don't underestimate the committee's 
interest in the issue I raised in my opening statement: 
misconduct. It is way beyond what is unbecoming to an officer. 
But, you know, sometimes the public's perception of our 
remarkable people who serve us, sometimes it is framed by the 
bad acts of a few that we condemn. And I understand the issue 
of command influence, but it is time we get--there are some 
consequences.
    I think I am especially appalled, since I know, Admiral, 
you are a submariner, Admiral Rickover would be turning over in 
his grave if he knew that we had that recent incident in 
Charleston, I think. We need some level of assurance, and I am 
sure we are getting it from you, just looking at you, that this 
is an area that will be addressed.
    Admiral  Greenert. Yes, sir. The investigation regarding 
that is almost complete. Admiral Richardson is spearheading 
that. He is our Director for Navy Nuclear Propulsion. He will 
be ready to brief you in a matter of a week or two. As I said, 
the investigation is complete.
    More importantly, where do we go from here? What is inside 
the heads of these kids? These were not poor performers, these 
were people making choices.
    Mr.  Frelinghuysen. They are kids, but these kids have 
leadership above them. And we work with Admiral Donald, we are 
working with Admiral Richardson, and sometimes, you know, the 
people who are in charge of the program do bear some 
responsibility. It is not just the kids at the lower rung of 
the ladder. And since the safety of those subs depends on every 
submariner, it is important that we get this situation 
corrected.
    Admiral  Greenert. Sorry, Chairman, everybody is a kid to 
me when you are at this point in my career. But I know what you 
mean, and I completely agree. All levels of leadership.
    Mr.  Frelinghuysen. On behalf of the committee, we thank 
you gentlemen for your service and those that you represent. We 
stand adjourned.
    [Clerk's note--Questions submitted by Mr. Crenshaw and the 
answers thereto follow.]

                    Sunken Military Craft Act (SMCA)

    Questions. Recently the Department of the Navy issued proposed 
regulations concerning the Sunken Military Craft Act. My office has 
been contacted by several Florida based companies involved in the 
underwater treasure salvage industry and dive industry concerning these 
proposed regulations.
    As you may know, these industries are significant contributors to 
Florida's overall economy--employing thousands of employees directly 
and indirectly. These proposed regulations might contradict efforts 
undertaken by the Department of Transportation's Office of Ship 
Disposal to salvage valuable cargos on ships that sunk while on 
missions for the US Government--World War II Liberty Ship, SS Barry 
(RFI issued by Office of Ship Disposal in Oct, 2013).
    I'm concerned these proposed regulations might restrict the Office 
of Ship Disposal's ability to conduct future salvage efforts which 
might return significant revenues back to the US Treasury.
    Were these changes to the SMCA developed without an impact study, 
or consultation with stakeholders; if so, why? How has the department 
worked with stakeholders regarding proposed changes to SMCA?
    Answer. The Department of the Navy's (DON) proposed regulations do 
not amend or change the SMCA. The prohibitions and restrictions that 
may be of concern to the treasure salvage and dive communities have 
been in place since enactment of the SMCA in 2004. The proposed 
regulations do not expand these prohibitions or restrictions. Per the 
SMCA, the regulations do create a permitting regime that will allow 
persons to engage in otherwise prohibited activities for 
archaeological, historical, or educational purposes. In January, the 
DON published the proposed regulations in the Federal Register for a 
60-day public comment period and received many comments from 
stakeholders, including the salvage and dive communities.
    Question. The proposed changes will directly conflict with 
Department of Transportation's jurisdiction over billions of dollars in 
commodities aboard wrecked vessels from WWI and WWII. Was this 
considered or intended as a reason for the regulatory changes?
    Answer. The proposed regulations do not impact the Department of 
Transportation (DOT) or resources under its jurisdiction in any manner. 
Furthermore, and more importantly, the SMCA contains specific language 
excluding the actions of Federal agencies, including DOT, from the 
prohibitions in the law. The DON's proposed regulations do not change 
this or any other provision of the SMCA.
    While the DON's proposed regulations establish a permitting program 
that only applies to sunken military craft under the jurisdiction of 
the DON, upon the request of the Secretary of a military department, 
the Secretary of the Department in which the Coast Guard is operating, 
or a foreign sovereign, the DON may consider incorporating sunken 
military craft under the jurisdiction of those entities within the DON 
permitting program.

    [Clerk's note--End of questions submitted by Mr. Crenshaw. 
Questions submitted by Mr. Cole and the answers thereto 
follow.]

                              Shipbuilding

    Question. What is the Navy's current capacity with respect to the 
shipbuilding industrial base? How does this compare, for example, with 
the Chinese shipbuilding industrial base?
    Answer. The Chinese and United States (U.S.) shipbuilding 
industrial bases differ in terms of mission, which leads to differences 
in capacity, supplier infrastructure, ship types built, and technical 
capability.
    1.  Mission. The Chinese and U.S. shipbuilding industries serve two 
national missions, sea power and economic growth, but the priorities 
are not the same. China, as a newly-industrializing society, places a 
high priority on the shipbuilding industry's role in fostering export-
led Gross Domestic Product growth. This has led to the government-
supported creation of a large-scale, export-oriented commercial 
shipbuilding industry in China. Chinese government support mechanisms 
for the shipbuilding industry have included export credits, loan 
guarantees, R&D funding, and encouragement of foreign investment. In 
addition, many major Chinese shipyards are state-owned enterprises. The 
U.S. shipbuilding industry is focused on naval construction and 
fulfilling Jones Act commercial shipbuilding needs.
    2.  Capacity and supplier infrastructure. One of the most notable 
features of Chinese shipyards involved in naval production is that 
most, if not all, are also actively involved in commercial 
shipbuilding. The Chinese shipbuilding industrial base accounted for 
approximately 35 percent of commercial vessel tonnage delivered in 2013 
as measured by compensated gross tons--roughly tied with the South 
Korean industry for 1st place in global market share (the U.S. industry 
accounted for about 0.2 percent). Large-scale shipbuilding strengthens 
the business case for investment in modem production infrastructure and 
technologies in the shipyards, and provides the volume to support 
capital-intensive supplier industries that are not viable in the U.S. 
(for example, low speed diesel engine manufacturing).
    3.  Ship types built. Many Chinese shipbuilders concentrate on 
lower-complexity products such as bulk carriers; however, some are 
moving up-market. One example is Hudong-Zhonghua Shipbuilding (Group) 
Co., Ltd., which builds both commercial and naval vessels; it is 
currently under contract to build a series of large Liquefied Natural 
Gas (LNG) carriers, some for a Japanese owner. LNG carriers are at the 
upper end of the commercial complexity scale. NASSCO is currently 
building LNG powered Container Ships for the Jones Act trade.
    4.  Technical capability U.S. shipbuilders are the global leaders 
in naval shipbuilding and their technological capabilities in that area 
are unmatched. The technical capabilities of the leading, well-
capitalized Chinese shipyards tend to focus on enabling high-volume 
steel fabrication and assembly, and commercial ship design. Operations 
management and production planning remain a challenge in the Chinese 
industry, as reflected in reports of late deliveries on commercial 
contracts.
    Question. Does the Navy consider the shipbuilding industrial base 
critical to its future warfighting requirements? If so, does the Navy 
have a strategy to maintain its shipbuilding capacity?
    Answer. A healthy design and production industrial base is critical 
to achieving the Department of the Navy's priorities and fulfilling the 
Navy's needs going forward. We are very mindful that our decisions 
impact the industrial base and we take those impacts into consideration 
along with the near-term and long-term effect such decisions have on 
future readiness.
    Since I took over the Department, we have focused on revamping 
internal management and oversight practices, and have reached out to 
our industry partners to foster communication and establish clear 
expectations. Two key facets of our plan to sustain our shipbuilding 
industrial base are stability and affordability. Stability is required 
in naval ship design and construction because of the long-lead time, 
specialized skills, extent of integration needed, and complex nature of 
military ships. Recognizing that schedule and quantity perturbations 
have a cascading and often expensive impact on programs, the Navy and 
Congress have worked together to provide industry greater stability by 
offering a realistic shipbuilding plan so that the number, type, and 
timing of building will be transparent; awarding multi-year and block 
buy procurements on mature programs; stabilizing designs and 
requirements; and to the extent possible, avoiding the introduction of 
changes or new technologies until the next block upgrade.
    Affordability is another facet of our plan to sustain the 
industrial base. We have introduced initiatives to acquire our ships 
and equipment smarter and more efficiently, through competition, multi-
year buys, and better buying practices. In exchange, we have asked our 
industry partners to do their part in driving down costs, and 
delivering a more affordable, high quality product. We have made it 
clear that in doing our part to stabilize requirements, design, and 
acquisition profile perturbations, we expect them to do their part, 
namely: demonstrate consistent learning from ship-to-ship so each ship 
of the same type, whose design had not dramatically changed, would take 
fewer man-hours to build and cost less than previous ships; revisit 
their cost drivers and practices and drive costs out and quality and 
visibility in; and make appropriate investments in infrastructure and 
workforce training. All of these efforts are focused on making our 
programs more affordable. Given a constrained budget, improving 
efficiency and driving out costs from our programs enables the 
Department to deliver the ships our Sailors and Marines deserve.
    Question. Do you consider this strategy to be optimal to ensure a 
robust industrial base or does it reflect a budget-driven strategy?
    Answer. The Navy's strategy to sustain the industrial base provides 
a sound approach toward achieving Navy goals regardless of the fiscal 
constraints. In the past five years, we have turned shipbuilding around 
putting 70 ships under contract. This is a significant increase 
compared to the 27 ships put under contract in the prior five year 
window We have promoted acquisition excellence and integrity as well as 
aggressive oversight. We have focused on everything from requirements, 
to design, to construction efficiency, continuing to introduce 
stability and affordability into our shipbuilding programs.
    In today's fiscal environment maintaining and increasing the fleet 
size will require us to continue applying sound management, innovative 
solutions, and a comprehensive approach toward ensuring that our 
design, construction and vendor base is sufficient to meet our naval 
shipbuilding requirements. That said, today, even with the Navy's 
priority on shipbuilding acquisition, there are not enough ships being 
built to sustain the industrial base at an optimal level, nor at a 
level which satisfies the Fleet and Combatant Commander operational 
requirements. Sequestration in FY 2016-2019 will further exacerbate 
shipbuilding industrial base issues and may result in significant lay-
offs and/or closures in those areas most affected.
    Question. Are you concerned about a future date when the U.S. 
shipbuilding industrial base may not be sufficient to meet mission 
requirements? If so, what is your strategy to mitigate this potential 
shortfall so that we do not end up in the same situation as some of our 
allies have experienced?
    Answer. As numerous Navy witnesses have stated, we are concerned 
that the Navy's fiscal topline at the FY2011 Budget Control Act levels, 
commonly referred to as sequestration levels, in FY 2016-2019, is 
insufficient to meet the ship force requirements called for in the 
Defense Strategic Guidance. Recapitalization of the Ohio Replacement 
program further compounds an already challenging situation. Over the 
next two decades, the Navy's number one priority will be recapitalizing 
the Ohio Replacement SSBN. At constrained fiscal levels, every other 
shipbuilding program will suffer.
    Our ability to mitigate the adverse impacts on the shipbuilding 
industrial base from constrained resources has its limits. At some 
point, we reach the point of diminishing returns from our efficiency, 
stability, and shaping efforts. The Navy will need to work with the 
Department of Defense (DoD), Congress, and industry to ensure that we 
do not allow our design, engineering, and production skills and 
capabilities to deteriorate to such a level that we are not able to 
reconstitute them. Some legislative relief may provide the means to 
delay making drastic reductions which could permanently harm our 
ability to reconstitute, but these too have their limits. Ultimately, 
some difficult discussions and decisions will be required which look 
beyond our development and procurement accounts and fundamentally 
address the way and lime in which we respond to crises, our desire for 
forward presence, and how we meet those demands.

                 Operations--Cruiser Modernization Plan

    Question. Please describe your plan to lay up the eleven cruisers: 
For how long? At what cost? What are the anticipated savings? How can 
you ensure they will be returned to active service in future years in 
light of the persisting budget fiscal challenges? What is the 
alternative if Congress does not approve the layup plan?
    Answer. Beginning in FY15, the Navy plans to induct CGs 63-73 into 
a phased modernization period. The Navy will begin phased modernization 
on the 11 cruisers with material assessments, detailed availability 
planning, and material procurements. Subsequently, the Navy will 
perform hull, mechanical, and electrical (HM&E) upgrades, critical 
structural repairs, and extensive corrective and condition-based 
maintenance. The final phase is combat system installation, 
integration, and testing. This will occur concurrently with re-manning 
the ship, preceding restoration to the Fleet.
    The Navy will commence the cruiser phased modernization plan with 
the HM&E modernization of USS GETTYSBURG (CG 64) in FY14. The first 
combat system modernization will notionally begin in FY17, followed by 
another in FY18 and continuing armually through FY23, with two 
executing annually in FY24 through FY26. The ships undergoing phased 
modernization will replace, on a hull-for-hull basis, the retiring CGs 
52-62 as those ships reach the end of their service life in the 2020s.
    The cost per ship will vary based on individual hull material 
condition of the ship and previously completed modernization. The range 
is estimated to be approximately $350-$600M per ship which includes 
induction, sustainment, modernization, and maintenance costs. 
Initially, Navy will leverage the Ship's Modernization, Operations and 
Sustainment Fund (SMOSF) for those ships specifically named in the FY14 
National Defense Authorization Act (CGs 63-66, 68-69, 73.)
    Navy estimates cost avoidance of $2.2 B in Operations and 
Maintenance (OMN) and $1.6 B in Manpower, Navy (MPN) which will provide 
additional resources to partially offset the cost of phased 
modernization.
    In order to ensure the CGs will retum to active service in future 
years in light of the persisting budget fiscal challenges, Navy has 
built a transparent plan which includes direct Congressional monitoring 
of funding and work accomplishment.
    If Congress does not approve the phased modernization plan or 
provide the funding to retain the force structure, the Navy's only 
remaining alternative is to decommission the ships.
    Question. If the cruisers are laid up, how will the Navy meet the 
COCOM force presence requirements?
    Answer. The Navy will maintain 11 of its most capable Air Defense 
Commander CGs in service to meet COCOM requirements. To date, the Navy 
has modernized CGs 52-58 with the Advanced Capability Build (ACB) 08 
Combat System as well as substantial Hull, Mechanical, and Electrical 
(HM&E) upgrades, and has nearly completed modernization on CGs 59-62 
with the improved ACB 12. These investments to date have allowed the 
first 11 ships of the Ticonderoga class to remain the world's premier 
Air Defense Commander platform, fully capable of integrating into the 
Carrier Strike Group construct or operating independently in support of 
COCOM demands.

                           Depot Maintenance

    Question. Naval aircraft depot maintenance (to include Marine 
Corps) is funded at $815 million in the fiscal year 2015 base budget 
request, up from $795 million in fiscal year 2014 enacted base budget. 
According to DOD, ``this program funds repairs, overhauls and 
inspections of aircraft and aircraft components to ensure sufficient 
quantities are available to meet fleet requirements to decisively win 
combat operations.''
    In fiscal year 2014 it appears that even with OCO funding, the Navy 
can meet only 89 percent of its total requirement. Therefore, the Navy 
expects an increase from the FY14 backlog of 33 airframes and 319 
engines to 66 airframes and 612 engines in FY15. The FY15 budget 
request for aircraft depot maintenance is $14 million less this year 
for a total request of $83 million.
    How will the current backlog be managed and what carryovers do you 
expect for FY16?
    Answer. Naval Aircraft Depot Maintenance (ADM) (to include Marine 
Corps and Naval Reserve Forces) is funded at $898 million ($815M OMN 
and $83M OMNR) in the fiscal year 2015 base budget request, up from 
$892 million ($795M OMN and $97M OMNR) in the fiscal year 2014 enacted 
base budget.
    In reference to the current backlog to be managed and what 
carryover we expect for FY16, we have been successful in minimizing the 
current backlog in FY14 though deferred maintenance due to operational 
commitments, better than planned reliability for engines and some 
targeted retirements of aircraft that were coming due for maintenance. 
We will continue to make these types of decisions throughout FY14 and 
FY15 to minimize the impacts.
    There is no data on projected FY16 depot carryover because the 
Fiscal Year 2016 budget has not been finalized and published.
    Question. How would a 15% mandatory decrease in number of civilian 
personnel, starting in FY2015 through FY2025 impact workloads at Navy 
Depots and how would the necessary workload be managed? In order to 
meet the required workload, would the Navy need relief or seek a change 
to 10 U.S.C. 2466 that mandates a 50% ceiling, measured in dollars, on 
the amount of depot maintenance workload that may be performed by 
contract for a military Department or defense agency during a fiscal 
year?
    Answer. A 15% CIVPERS reduction would reduce public depot capacity 
by at least 15%, but would not reduce the workload requirement, 
creating a mismatch between public depot capacity and workload that 
would reduce operational availability and the ready force structure.
    For example, in naval shipyards the workload requirement is 
dependent on ships' schedules, class maintenance plans, and required 
emergent repairs/maintenance and unaffected by cuts to naval shipyard 
capacity. A 15% reduction to CIVPERS would cut naval shipyard capacity 
by approximately 750,000 man-days per year. Because most of the work in 
naval shipyards is required maintenance on nuclear powered submarines 
and aircraft carriers that cannot be deferred, the result of this lost 
capacity would result in the loss of submarine/aircraft carrier 
operational availability as ships are not able to be returned to the 
Fleet on schedule. Attempting to move this workload to the private 
sector would be more expensive and less effective than simply 
maintaining the current CIVPERS levels in the naval shipyards. 
Similarly, naval aviation does not have sufficient commercial contracts 
(type and scope) to move that much workload.
    A public sector workload reduction of this magnitude would likely 
result in a breach of the 50% ceiling of 10 USC Sec. 2466.

    [Clerk's note-- End of questions submitted by Mr. Cole. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow.]

                       Littoral Combat Ship (LCS)

    Question. The Navy seems to have a sudden shift in its position on 
acquiring the LCS ship. The Navy selected the LCS program as the most 
cost-effective program for filling the fleet's requirement for 
additional capability for countering mines, small boats, and diesel 
submarines in littoral waters. I am not aware of a drop in these types 
of threats.
    Has DoD conducted a formal analysis that demonstrates that there is 
a more cost-effective way to address these capability gaps?
    Answer. Navy has not changed the requirements for LCS. Rather, as 
directed by the Secretary of Defense, ships beyond LCS 32 are not yet 
being placed on contract. The Navy has been directed to complete a 
study to support the future procurement of ``a capable and lethal small 
surface combatant''. The Navy has also been directed to submit 
``alternative proposals to procure a capable and lethal small surface 
combatant'' and the study should consider options of ``a completely new 
design, existing ship designs (including LCS), and a modified LCS.'' A 
Small Surface Combatant Task Force has been established to conduct the 
analysis and will complete by July 31, 2014.
    The threats that LCS was designed to counter still exist, and LCS 
(as currently designed and under contract) will defeat those threats. 
The approved 2008 LCS Capabilities Development Document, which 
establishes the requirements for the LCS Program, was revalidated by a 
Joint Capabilities Board in 2013.
    Question. Are you concerned with the lost investment in LCS by 
changing to a new ship?
    Answer. No. As designed, LCS is a capable and affordable ship that 
meets requirements and is a sound investment. The requirement is for 52 
small surface combatants. The first 32 LCS have been designed for 
countering mines, small boats, and diesel submarines in littoral 
waters. Going forward, it is fiscally and strategically prudent to 
review the capabilities and requirements, to ensure Navy continues to 
deliver a ship that meets anticipated future requirements. It is 
premature at this time to say Navy is changing to a new ship. The Small 
Surface Combatant Task Force was established to evaluate requirements 
and design options for the ships beyond LCS 32.
    Question. Are you concerned that ``starting over'' with a new ship 
design will set us back by 10 years in addressing the threat that the 
LCS is charged to counter?
    Answer. It is premature at this time to say Navy is changing to a 
new ship. The Small Surface Combatant Task Force was established to 
evaluate requirements and design options for the ships beyond LCS 32.
    Question. Does the LCS meet the CENTCOM requirement to counter 
Iranian ``A2/AD'' threat?
    Answer. LCS meets the CENTCOM requirements for Anti-Access Area 
Denial (A2/AD) threats. LCS with a SUW Mission Package is lethal 
against FAC/FIAC threats using its speed, aircraft, and onboard weapon 
systems. LCS with its shallow draft can operate in areas inaccessible 
to FFG/DDG/CG. Also, with the addition of Longbow missile to the SUW 
Mission Package, LCS will provide more firepower capacity to defeat the 
small boat threat than FFG or PC. Additionally, LCS with an MCM Mission 
Package is able to clear mines faster and safer than legacy MCM-1 class 
due to its unique systems which allow it to operate outside the mine 
danger area. LCS MCM Mission Package also provides vital support to 
amphibious operations in theater.
    Question. Has a new threat developed since the days of the original 
contracts? Or is all this the result of the fact that there is a shift 
to build up our forces in the Pacific and the way to pay for that is to 
cancel LCS ships and to linlc it to the overall number of ships.
    Answer. Navy and Department of Defense examine emerging threats in 
all theaters, to include the Pacific, and apply resources as required 
to best counter current and future threats. With the shift in strategic 
guidance to rebalance to the Pacific, LCS will be a major contributor 
against existing and emerging threats with all three focused mission 
packages.
    LCS has not been cancelled. Rather, as directed by the Secretary of 
Defense, ships beyond LCS 32 are not yet being placed on contract while 
the Small Surface Combatant Task Force continues to conduct their 
analysis and report their findings.

                          LCS Procurement Plan

    Question. There seems to be some conflicting information about the 
LCS procurement plan between 3 or 4 ships in FY15.
    To clear the record, how many ships does the Navy intend to buy in 
FY15?
    Answer. The PB15 submission provides funding for 3 LCS in FY15.
    Question. Will either company be directed to deliver one less ship? 
(per this change in the FY15 budget request)
    Answer. No, Navy will not direct the industry teams to deliver one 
less ship. Navy plans to procure the single LCS shifted to FY16 under 
the current block buy contract(s) by making an adjustment to one of the 
two contracts. The decision of which shipbuilder will have one ship 
shift to FY16 will be determined in consultation with industry, with 
consideration of cost, production schedule performance, shipyard 
resource loading, and vendor base considerations.

                           Shipboard Weapons

    Question. In terms of a having a fleet that is smaller than in past 
decades, are there particular budget challenges or technical challenges 
you are concerned about in terms of being asked to put new weapons 
systems, or other systems, on your ships and submarines?
    Answer. The total number of ships available for the requirements of 
the global combatant commanders continues to be a challenge. As the 
Navy has drawn down in the total number of ships over the years, our 
forward presence has remained relatively constant, adding increased 
pressure on the ships, their crews, and their families. Because we have 
fewer total ships, periodic modernization and scheduled improvements of 
the weapons systems on those ships is essential to ensure that the 
ships we do have are as lethal as they can be. Balancing the capability 
and capacity to win decisively is a key Navy priority.
    While the size of the fleet has become smaller than in past 
decades, the technical challenges associated with delivering and 
sustaining these advanced systems have grown. The Navy consistently 
strives to get the most out of each acquisition dollar to ensure our 
Sailors are equipped with sensors, systems, and weapons to accomplish 
the mission. Cost reduction efforts the Navy has implemented include 
increased commonality in weapons systems so they can be used across 
multiple classes of ships, scalable equipment designed to fit different 
types of ships and situations, and modular systems that can be easily 
swapped with newer, more modern systems at the end of their service 
lives. Additionally, the Navy is leveraging the work done by the 
commercial sector to deliver systems whose processing capabilities 
improve with advances made by the pace of industry and not by the sole 
needs of the military.
    We have prioritized investments to close gaps in critical kill 
chains, and have accepted risk in capacity or in the rate at which some 
capabilities are integrated into the Fleet. We have also terminated 
certain capability programs that do not provide high-leverage 
advantage, and slowed funding for those that assume too much technical 
risk or could be developed and ``put on the shelf'' until needed in the 
future.

                           Hypersonic Weapons

    Question. How much funding and what length of time would be 
required to field a sea-launched hypersonic weapon of the same reach 
and destructive power anticipated by the HTV-2 program?
    Answer: The Navy does not have, at this time, a requirement or a 
program of record to develop a sea-based Conventional Prompt Global 
Strike (CPGS) capability. At the request of OSD (AT&L), Navy Strategic 
Systems Programs is participating in the advancement of hypersonic 
delivery technologies and providing subject matter expertise. If the 
Department of Defense validates a requirement for a sea-launched 
hypersonic weapon, system requirements such as payload, range, accuracy 
and reliability would need to be defined in order to scope a program 
and estimate cost and schedule. Certain attributes such as range and 
payload would likely differ from the HTV-2 program due to technical 
considerations. For example, range requirements would likely be less, 
as a sea-based concept would be forward-deployed requiring less flight 
time to reach target sets.

                           Training Programs

    Question. Why doesn't the surface Navy have a comprehensive 
training program like every other officer community in the military, 
and how may that be affecting the morale of junior officers?
    Answer. The Surface Navy has a comprehensive junior officer 
training program that begins with an eight week Basic Division Officer 
Course followed by a series of Personal Qualifications Standards (PQS) 
and on the job training on their assigned ship. The first tour afloat 
is comparable to an afloat training schoolhouse and emphasizes 
development of surface warfare and leadership slcills as a Division 
Officer and Officer of the Deck. Training and PQS focus on watch 
standing competency, seamanship, ship handling, navigation and 
administrative tasks that are fundamental to the community and 
necessary for professional development. The recently established 
Advanced Division Officer Course, which occurs between first and second 
afloat tours, standardizes baseline Icnowledge and reinforces 
competencies previously developed. The second afloat tour, in a more 
complex Division Officer billet, further develops and refines the core 
competencies of the community and enables the junior officer to gain 
additional operational experience and qualifications as Engineer 
Officer of the Watch or Tactical Action Officer, which are 
prerequisites for command afloat. Additional comprehensive leadership, 
billet specific, tactical and operational pipeline training is 
conducted prior to Department Head, Executive Officer and Commanding 
Officer assignments.
    This longstanding model for training junior officers has been 
effective in producing confident and capable officers to support 
Surface Navy operational milestones at every pay grade. Periodic 
surveys of Surface Navy junior officers are developed to assess 
satisfiers and dissatisfiers in the community. The most recent survey 
from 2013 does not indicate an adverse effect on morale, but rather an 
increase in satisfaction with the junior officer training program since 
the 2008 survey.

                     Mission Qualification Programs

    Question. Are there objective and universal standards and tests to 
become a qualified surface warfare officer? How does surface warfare 
compare to aviation and to submarine warfare on this point?
    Answer. Until FY15 there were three paths for junior officers to 
qualify Surface Warfare Officer. All paths for qualification for 
Surface Warfare Officer include objective and universal standards and 
tests directed under Surface Force Type Commanders instruction and 
administered by the afloat Commanding Officers. The three paths for 
qualification are the Basic Division Officer Course (BDOC) path, the 
Surface Warfare Officer Introduction/Advanced Ship handling and Tactics 
(SWO Intro/ASAT) path, and the Direct Path. Officers on the BDOC path 
attend the BDOC course and then report to their ship to complete the 
rest of the qualification process. The BDOC course requires a 90% on 
the Rules of the Road examination and a minimum acceptable score of 75% 
for all other examinations. Officers on the SWO Intro/ASAT path attend 
a short introductory course on Surface Warfare, report to their ship, 
and attend the ASAT course prior to final qualification as a Surface 
Warfare Officer. As with BDOC, ASAT requires a 90% on the Rules of the 
Road examination and a minimum acceptable score of 75% for all other 
examinations. The Direct Path is for officers not from a traditional 
Surface Warfare Officer source designator, such as Limited Duty 
Officers and Chief Warrant Officers. Direct Path officers do not attend 
BDOC or SWO Intro/ASAT, but must meet all other qualifications. All 
junior officers are required to satisfactorily complete Personnel 
Qualification Standards (PQS) qualification in Basic Damage Control, 
Maintenance and Material Management System, Division Officer Afloat, 
Import Officer of the Deck, Small Boat Officer, Engineering, Combat 
Information Center Watch Officer, Anti-Terrorism Watch Officer, and 
Officer of the Deck Underway. Junior officers must demonstrate 
effective leadership skills and proficiency in performing Division 
Officer duties, to include management of personnel, spaces, and 
equipment as well as significant experience as a watch stander. On 
completion of the required PQS, the junior officer must pass a multi-
member Surface Warfare qualification oral board, chaired by the 
Commanding Officer to validate the officer's general professional 
knowledge of all aspects of Surface Warfare.
    In FY15 the process will be further standardized by consolidating 
the BDOC and SWO Intro/ASAT paths into the BDOC path.
    This qualification process is similar to warfare qualification as a 
Submarine Officer with the exception of nuclear power training.
    The qualification process for Aviation Officers is different than 
that of Surface Warfare Officers, due to the differences in employment 
of ships and aircraft. Naval Aviators and Naval Flight Officers receive 
their warfare qualification upon successful completion of initial 
flight training in the Naval Air Training Command. All Naval Aviators 
and Naval Flight Officers then receive tactical employment training in 
their Fleet type/model/series aircraft at the Fleet Replacement 
Squadron (FRS). Officers retuming to the fleet from non-flying 
assignments receive refresher training at the FRS before returning to 
an operating squadron. Advanced tactical training for aviation officers 
is guided by a formal air combat training continuum administered by the 
Commander, Naval Air Forces, the Naval Strike and Air Warfare Center, 
and aviation community weapons schools.
    Question. How many junior surface warfare officers are recommended 
for non-attainment by their commanding officers, and what percentage of 
those are subsequently approved by Commander, Surface Forces?
    Answer. From March 2012 through March 2014 there have been 69 non-
attainments representing a four percent non-attainment rate from 1753 
junior officers in year groups 2010 and 2011. Recommendations for non-
attainment are forwarded by the afloat Commanding Officer to Commander, 
Naval Surface Forces (Pacific or Atlantic) following review and 
endorsement by the Immediate Superior in Command (ISIC) (an O-6 or 
Flag-level review). Statistics on those recommended by the Commanding 
Officer for non-attainment that were disapproved by the ISIC are not 
kept as to not disadvantage officers who are afforded another 
opportunity to qualify.

                           Inspector General

    Question: What is the funding level for the Inspector General's 
office for each year from Fiscal Year 2011 to Fiscal Year 2015? Are 
changes in funding impacting the IG office's ability to process cases?
    Answer: The funding levels for the Office of the Naval Inspector 
General (NAVINSGEN) are:

                                 FY2011-FY2015 Budget Levels Amount in Thousands
----------------------------------------------------------------------------------------------------------------
                    FY                         Pay             %          Support           %           Total
----------------------------------------------------------------------------------------------------------------
2011.....................................       $5,553         75.28%         1,823         24.72%        $7,376
2012.....................................        6,020         83.15          1,220         16.85          7,240
2013.....................................        6,326         80.56          1,527         19.44          7,853
2014.....................................        7,268         87.85          1,005         12.15          8,273
2015.....................................        7,961         88.61          1,023         11.39         58,984
----------------------------------------------------------------------------------------------------------------

    Although it appears that the funding has increased, NAVINSGEN grew 
by 23 investigators in FY13, which, increased staff salaries, 
accounting for the growth. In contrast, funding for support functions 
including transcript services, travel, and information technology 
requirements (hardware/software) declined since FY13 (see chart above 
showing percentage decline in support dollars.)
    The NAVINSGEN HQ is comprised of 92 people: 20 inspectors, 36 
investigators, and 36 audit liaison and support personnel. The small 
number of staff in the Naval IG community presents a challenge in 
processing cases, especially given the general increased trend of 
NAVINSGEN Hotline contacts, Hotline investigations, and Military 
Whistleblower Reprisal investigations since 2008. In particular, 
NAVINSGEN has been unable to complete Military Whistleblower Reprisal 
investigations within the statutorily required 180-day timeframe, but 
importantly, has taken actions to add billets over the last 2 years, as 
well as review processes, policies, procedures, and training in an 
effort to improve through put.

    [Clerk's note--End of questions submitted by Mr. Aderholt. 
Questions submitted by Ms. McCollum and the answers thereto 
follow.]

                 Airborne Electronic Warfare Capability

    Question. I understand the Navy is reviewing an emerging need for 
additional 
E/A-18G Growlers and Next Generation Jammer equipment to provide needed 
electronic warfare capacity. The Navy submitted a recent ``unfunded 
priority'' for 22 additional Growlers following the release of the 
Fiscal Year 2015 budget.
    Can you please comment on the ``unfunded priority'' for additional 
Growlers and the need for electronic attack.
    Answer. Electromagnetic Warfare is a core competency and primary 
mission area of the Joint Force. Operating in Anti-access/Area Denial 
(A2AD) contested environments requires precise control of the Electro 
Magnetic Spectrum (EMS). EA-18Gs bring the fundamental attributes of 
range, speed, persistence, and flexibility to regions of the globe 
where Airborne Electronic Attack (AEA) capability is required to 
support the Joint Force whether with sea-based or land-based aircraft.
    The Growler will soon be the only DoD tactical AEA aircraft in the 
joint force inventory and is required to support both 4th and 5th 
generation strike fighter aircraft. With legacy jamming pods or Next 
Generation Jammers the EA-18G provides precise control of a broad range 
of the EMS to create sanctuaries for the Joint force, denying enemy 
access to portions of the EMS.
    The current total procurement of 138 aircraft can source the Navy 
mission. Recent analysis conducted for the Navy's Air Warfare Division 
pointed to the need for additional Growlers. The addition of 22 EA-18Gs 
will be used to augment existing Navy squadrons in the execution of the 
joint AEA missions allowing carrier squadrons to deploy with seven 
aircraft vice their current complement of five aircraft per squadron. 
The additional aircraft will reduce risk in meeting operational demand 
for multi-ship tactics and the potential increased need for joint AEA. 
The Navy's Assessments Division is completing an AEA mission 
requirements study to determine the number of Navy Growlers needed for 
the Carrier Strike Group in support of joint MCO requirements. Results 
are expected to be available in June, 2014. As nations expand their use 
of the EMS, the ability to perform the AEA mission will become more 
critical and buying additional EA-18Gs in FY15 reduces risk in our 
ability to meet future AEA demand.

    [Clerk's note--End of questions submitted by Ms. McCollum.]
                                         Wednesday, March 26, 2014.

               FISCAL YEAR 2015 AIR FORCE BUDGET OVERVIEW

                               WITNESSES

HON. DEBORAH LEE JAMES, SECRETARY, UNITED STATES AIR FORCE
GENERAL MARK A. WELSH III, CHIEF OF STAFF, UNITED STATES AIR FORCE

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. We gather in public 
session this morning to take testimony on the Air Force budget 
request for fiscal year 2015. I would like to welcome, on 
behalf of the committee, Secretary Deborah Lee James in her 
first appearance before our subcommittee, and may I commend 
President Obama on making an excellent choice. You have had a 
lot of experience on the Hill and a lot of experience off the 
Hill, and we are highly appreciative of your role and new 
responsibilities.
    Ms. James. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. General Welsh is making a second 
appearance before the committee. General, welcome back, and may 
I say thank you for representing the best of America, the men 
and women of the United States Air Force, and a special thumbs 
up to the remarkable men and women who at Bagram Airbase do 
that air transport, the land stool, any of us that have been 
over that part of the world, and I know we are winding down 
there. But the transport of those individuals with serious 
injuries and the way and manner and the professional way it is 
done is truly remarkable. So I salute you.
    Air power is vital to the Department's ability to project 
power globally and to rapidly respond to contingencies. The Air 
Force brings capabilities critical to national security in the 
air and the space, in cyberspace and will continue to improve 
performance in each. We will incorporate Next Generation 
Equipment and concepts into the force to address sophisticated 
threats, key priorities include continuing plans to field the 
new generation of combat aircraft and making advancements in 
cyber capabilities, avionics, weapons, tactics and training. 
These are not my words; they come directly from the Quadrennial 
Defense Review, and they illustrate the tough decisions the Air 
Force will have to make balancing current readiness with future 
modernization.
    This committee also has some tough decisions to make in 
coming weeks, and this morning we are anxious to know from our 
witnesses where our Air Force is going with its nuclear 
mission; with the F-35 procurement; with the KC tanker program; 
with the combat rescue helicopter; the Next Generation JSTARS 
platform; the proposed long-range strike bomber; the role of 
UAVs; the competition between U-2 and Global Hawk; the high-
altitude ISR and other military satellites and the role and 
size of our Air Guard and Reserves.
    We must also seek your views on military modernization in 
China and the threats posed by the Russian Federation in what 
we call transnational terrorists. As the QDR said, and I quote, 
``Air power is vital'' in defending America and America's 
interest. And we need to know how the Air Force is preparing 
itself to meet current and future threats in an increasingly 
dangerous world.
    I would now like to recognize my Ranking Member, Mr. 
Visclosky, for any comments that he may make, but, again, Madam 
Secretary, General Welsh, thank you for being with us.
    Mr. Visclosky.

                   Opening Comments of Mr. Visclosky

    Mr. Visclosky. Chairman, thank you very much for having the 
hearing today, and I want to thank the Secretary as well as 
General for your appearance and your service and look forward 
to your testimony.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Madam Secretary, good morning.
    Ms. James. Good morning, and thank you very much, Mr. 
Chairman, Mr. Visclosky and Members of the Committee. General 
Welsh and I really appreciate the opportunity to come before 
you today and we do have written testimony, which is combined 
between the two of us, and we would ask that it be included in 
the record.
    Mr. Frelinghuysen. It will be put in the record. Thank you.

                  Summary Statement of Secretary James

    Ms. James. It certainly is a huge honor and a privilege for 
me to serve as the 23rd Secretary of the Air Force alongside 
our nearly 690,000 Active Duty, Guard, Reserve, civilian Airmen 
and their families. I have now been on the job for all of 3 
months, and I want you to know that I have visited 18 bases in 
13 States. In addition, I have just returned from a trip to the 
Area of Responsibility (AOR), including stops at Kabul and 
Bagram, Kandahar and Shindand, so I had those stops in 
Afghanistan; and I saw terrific Airmen delivering crucial air 
space and cyberspace capabilities across the U.S. Central 
Command.
    It was truly a phenomenal trip, and I was so proud to be 
among them, and I know many of you have visited with them, as 
well, overseas. And by the way, whenever I have visited a 
location, I have basically seen three things: I have seen 
leaders who are tackling tough issues at every level; I have 
seen every step of the way superb, total-force teamwork, but 
particularly Active, Guard, Reserve and civilians working 
together seamlessly. And once again, it all comes down to those 
amazing and innovative and enthusiastic Airmen who are so 
dedicated that their mission and to our Nation.
    Now, Mr. Chairman, it is no secret to this committee that 
we are in challenging times, both in terms of our changing 
security environment as well as having a period of declining 
budgets. And so in this submission that we bring before you 
today, we have attempted to tackle these challenges head on, 
and we have tried to do it in a thoughtful and deliberate and 
inclusive way.
    So to make these tough choices, of course, we started with 
our strategy. It is a strategy for today: Defending the 
homeland against all strategic threats, building security 
globally by projecting U.S. influence and deterring aggression, 
and remaining ready to win decisively against any adversary 
should deterrence fail. So that is the mission of today.
    But we also have a mission for tomorrow: We need to invest 
in new technologies and platforms, to take on new centers of 
power as well as those old centers of power that sometimes are 
troublesome, as well, and be prepared to operate in a much more 
volatile and unpredictable world, a world in which the American 
dominance of the skies and space can no longer be taken for 
granted.
    Now, your Air Force is crucial in all of these areas, but 
the trouble is, the likely budget scenarios we face will leave 
us with gaps in this strategy that I have laid out. Now, I have 
been in the defense business for upwards of 30 years, and of 
course, I know as you know that strategy and budgets never 
match exactly; there are always some mismatches, and those 
mismatches force us to make budget decisions, judgment calls, 
you might say, about where we want to assume the most prudent 
risks.
    I will grant you, I think this year is probably more 
difficult than most that I have seen. And by the way, we are 
very grateful for the stability that we have and the additional 
bump up in resources that we received in fiscal year 2014 and 
2015 and under the Bipartisan Budget Act and the Consolidated 
Appropriations Act of Fiscal Year 2014. These laws didn't solve 
all of our ails. We are still faced with these difficult 
scenarios, but they were a great help and we want to thank you 
for that.
    Our 2015 budget request does hit the budget targets, the 
dollar targets of the BBA, but it also contains something 
called the Opportunity Growth and Security Initiative. This is 
a $26 billion initiative across DOD, 7 billion of which is 
targeted for the Air Force; and if we are to receive it, it 
would go toward readiness and investment priorities that will 
help us close those gaps I told you about.
    So the bottom line is, the budget in a 5-year plan is all 
about rebalancing. We are all about rebalancing, readiness and 
future capability. It is not an either/or; we really need both. 
It is essential for our future.
    Now, I would like to give you a quick overview of some of 
the major decisions, but put them in the framework of the three 
priorities that I have laid out for our Air Force. And those 
three priorities are: Taking care of people, balancing today's 
readiness with tomorrow's readiness, and ensuring that our Air 
Force is the most capable at the least cost to the taxpayer.
    So beginning with taking care of people, as far as I am 
concerned, every job I have ever had I have learned, it always 
comes down to people, 100 percent of the time. So taking care 
of people to me means we need to recruit the right people, 
retain the right people, we need to develop them once we have 
them in the force. We need diversity of thought at the 
leadership table, diversity of background so that we make 
innovative decisions and solutions going forward.
    We need to protect the most important family programs. We 
need dignity and respect for all, and that includes combating 
sexual harassment and assault and making sure that everybody in 
our Air Force is living the legacy and living our core values 
of integrity, service and excellence all the time. It means 
fair compensation going forward for our Air Force. So all of 
this is taking care of people.
    Now, let me zero in on two areas where we have had some 
controversy lately. First is force reductions. We are coming 
down in all of our components, Active, Guard, Reserve and 
civilians, and we will rely more, not less, in the future on 
our Guard and Reserve. We think that makes good sense both from 
the mission standpoint as well as from the budgetary 
standpoint.
    But as we draw down, it is not good enough just to get 
lower numbers; we have to reshape the force. At the moment on 
the Active Duty side, we have too many of certain types of 
career fields and too few of others. So we need to get in 
balance and we are doing that through both voluntary and 
involuntary initiatives.
    The second controversy has to do with compensation, where 
we are proposing to slow the growth in military compensation. 
We think there are reasonable ways to do this and these are 
contained in our budget proposal and it is across DOD, but this 
was one of those hard decisions that nobody is really happy 
with, but it is necessary to ensure that we free up some money 
to put back into both the readiness of today as well as the 
modernization of tomorrow.
    That leads me to priority two, which is balancing today's 
readiness and tomorrow's readiness. You are well aware that our 
readiness has suffered over the years and particularly last 
year during the period of sequestration where we had to ground 
flying squadrons and furlough civilians and delay maintenance 
and a whole host of other approaches.
    In fiscal year 2015 we have fully funded our flying hours 
and other high-priority readiness issues; and if approved, we 
will see gradual improvements of readiness over time. It won't 
be overnight; it won't be in 1 year, but we will be on a good 
path toward getting to where we need to be.
    At the same time, we are looking to tomorrow. So we do 
remain committed to those programs you mentioned, Mr. Chairman, 
the F-35, the KC-46 tanker, the long-range strike bomber, and 
our triad, two-thirds of which the bombers and the ICBMs reside 
in our Air Force. So we are committed to all of this, and we 
are funding these going forward.
    We are also beginning to replace other aging platforms. As 
you mentioned, the combat rescue helicopter, we have laid the 
groundwork for the Next Generation of JSTARS, we have laid the 
groundwork for the replacement of our trainer aircraft, called 
the T-38. We want to invest in a new jet engine technology that 
promises reduced fuel consumption, lower maintenance, and will 
help the industrial base.
    Now, to pay for all of these investments, given the 
budgetary realities, we had to make some hard choices, and we 
have to accept some risk. So here we go. It is not popular, but 
here are some of the tradeoffs that we chose to make: 
Retirement of the A-10 fleet and the U-2 fleet; limiting the 
growth of combat air patrols to 55 instead of 65, and by the 
way, today we are at 64, so we would still be going up, we are 
not just not going up as much.
    We would retire the MQ-1 Predator fleet over time in favor 
of an entire MQ-9 Reaper fleet, that, of course, is the 
Predator. These are just a few examples of the tradeoffs, but 
by making these choices today, we will make sure that we don't 
end up getting bested in a contested environment in the future, 
and that is the kind of future that we are looking toward.
    And that leads me to my last priority, making every dollar 
count for the taxpayer. To me, this means keeping acquisition 
programs on budget, on schedule; it means auditability as a 
fundamental principle of our good stewardship; it means 
trimming our overhead in the Air Force, including that 20-
percent headquarter reduction that the Secretary of Defense 
asked us to do, and we think we are going to do better than 
that. And by the way, I do want to join with our Secretary of 
Defense and ask you to approve another round of BRAC in 2017.
    I want to begin to wrap up by telling you the very serious 
impacts we feel we would face if we have to revert to the 
sequestration level budgets in fiscal year 2016 and beyond. We 
do not recommend this. We feel that it would compromise our 
national security too much.
    So if we return to sequestration level budgets, this would 
mean retiring up to 80 more aircraft, including the entire KC-
10 tanker fleet; deferring sensor upgrades for Global Hawk, 
which would bring it up to parity with the U-2; retiring Global 
Hawk Block 40 fleet; slowing the purchases of the F-35; 
reducing our CAPS further of Predators and Reapers; we wouldn't 
be able to do that Next Generation engine technology I told you 
about; and we might have to relook at the combat rescue 
helicopter and a whole series of other things.
    So the bottom line is, it is a bad deal for the Air Force, 
for the DOD and the country, and we ask you to please support 
the higher levels of defense under the President's Budget 
request.
    I will conclude, Mr. Chairman, by just offering you up my 
vision of the Air Force 10 years from now. It will be an Air 
Force which is smaller, but it will be an Air Force which is 
highly capable, innovative and ready. We will be a good value 
in everything that we do for our taxpayers. We will be able to 
respond overseas decisively through unparalleled air power, and 
we will also stand ready to defend here at home when disaster 
strikes.
    We will be more reliant, not less on our Guard and Reserve, 
again it makes good sense to do so from a mission standpoint 
and from our taxpayer standpoint; and we will be powered by the 
very best Airmen on this planet who live the culture of dignity 
and respect for all, integrity, service and excellence.
    I want to thank all of you for what you do for our Nation, 
and I will yield to General Welsh.
    [The joint statement of Secretary James and General Welsh 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Summary Statement of General Welsh

    Mr. Frelinghuysen. General Welsh, the floor is yours and 
your entire statement will be put in the record, so if you 
could summarize it for us, that would be great.
    General Welsh. Thank you, Chairman, I will do so. Thank 
you, Ranking Member Visclosky and members of the Committee for 
allowing us to be here. It is always a privilege to be up here 
before you.
    Ladies and gentlemen, your Air Force is the finest in the 
world and we need to keep it that way. We built this budget to 
ensure that Air Force combat power remains unequal, but that 
does not mean that it will remain unaffected. Every major 
decision reflected in this budget proposal hurts. Each of them 
reduce the capability that our combatant commanders would love 
to have and believe they need and there are no more easy cuts. 
That is just where we are today.
    We simply can't ignore the fact that the law is currently 
written and returns us to sequestered funding levels in fiscal 
year 2016, so that is also considered as part of our plan. And 
to prepare for that, we must cut people and force structure now 
to create a balanced Air Force that we can afford to train and 
operate in fiscal year 2016 and beyond.
    I will submit the rest of this oral statement for the 
record, sir. There is one thing I would like to walk through, 
though, because it highlights the very tough decisions that are 
having to be made. And let me say that because we needed to cut 
billions of dollars, not millions of dollars out of our budget, 
the normal trimming around the edges just wasn't going to get 
it done, and so we looked at cutting fleets of aircraft as a 
way to get to the significant savings that are required.
    And let me walk you briefly through that logic. In our air 
superiority mission area, we already have reductions in our 
proposal, but eliminating an entire fleet would leave us unable 
to provide air superiority for an entire theater of operations, 
and we are the only service that can do so. Intelligence, 
Surveillance, and Reconnaissance (ISR) is the number one 
shortfall of our combatant commanders year after year. They 
would never support even more cuts than we already have in our 
budget proposal.
    We have several fleets of aircraft in the global mobility 
mission area. I actually spoke with Chief of Staff of the Army, 
Ray Odierno, to ask what he thought about reductions in our 
airlift fleet as we were going through this planning, his view 
was that a smaller Army would need to be more responsive and 
able to move quicker. He did not think that reducing airlift 
assets further was a good idea, and the Secretary and I agree.
    We looked at our air refueling fleets and considered 
divesting the KC-10 as an option, just one example, but 
analysis showed us that the mission impact was too significant. 
But as the Secretary said, if we do return to sequestered 
funding levels in 2016, that option will have to be back on the 
table.
    We looked at the KC-135 fleet, but we would have to cut 
many more KC-135s than KC-10s to achieve the same savings, and 
with that many KC-135s out of the fleet, we simply can't meet 
our worldwide mission requirement. In the strike mission area, 
cutting the A-10 fleet would save us $3.7 billion across the 
FYDP, and another $500 million in cost avoidance for upgrades 
that we wouldn't have to achieve.
    To get that same savings would require a much higher number 
of either F-15s, or F-16s, but we also looked at those options. 
We ran a detailed operational analysis comparing the 
divestiture of the A-10 fleet to the divestiture of the B-1 
fleet, to reducing the F-16 fleet, to reducing the F-15E fleet, 
to deferring procurement of a large number of F-35s outside the 
FYDP, and to decreasing readiness by standing down a number of 
fighter squadrons and just parking them on the ramp.
    We use the standard DOD planning scenarios and the results 
very clearly showed that cutting the A-10 fleet was the lowest 
risk option from an operational perspective out of a bunch of 
bad options. And while no one is happy, especially me, about 
recommending the divestiture of this great old friend, from a 
military perspective, it is the right decision. And it is 
representative of the extremely difficult choices that we are 
facing in the budget today.
    The funding levels we can reasonably expect over the next 
10 years dictate that for America to have a capable, credible 
and viable Air Force in the mid-2020s, we must get smaller now. 
We must modernize our force, but we can't modernize as much as 
we would like to, and we must maintain the proper balance 
across all of our mission areas because that is what the 
combatant commanders expect from us.
    Thank you for your continued support of our Air Force and 
my personal thanks for your unending support of our Airmen and 
their families. The Secretary and I look forward to your 
questions.
    Mr. Frelinghuysen. Great. Thank you, General Welsh. Thank 
you both for your testimony.
    Before recognizing Vice Chairman Granger for the first line 
of questioning, four of us on this panel were in the Air 
Force's capable hands as we travel to Pakistan, Afghanistan, 
Qatar and Jordan, and hats off to Colonel Sam Grable and Major 
George Nichols who were with you or stand behind you today for 
their assistance. It was wings up all the way. No problems. So 
we are highly appreciative.
    Mr. Moran. Here, here.
    Mr. Frelinghuysen. I had to wait until Mr. Moran showed up 
before I gave those kudos, but he is loyal and true and did 
show up so I could do it in a show of unity.
    Ms. Granger.

                        SEXUAL ASSAULT RESPONSE

    Ms. Granger. Thank you very much.
    Secretary James and General Welsh, thank you for what you 
are doing, and we really are anxious to hear more details about 
the enormous demands that you have before us and decisions.
    But before we do that, I would like you to spend a few 
minutes. A year ago with the fiscal year 2014 Air Force budget 
hearing, it was really turned into a hearing on the Air Force 
sexual assault because of the terrible acts of one officer here 
in Washington. And at that time, a lot was said about zero-
tolerance policies within the Air Force and heightened 
screening for new recruits.
    I would like you to take just a few minutes to talk about 
the success of your Special Victims Counseling Program, but 
also tell us what steps have been taken to help weed out 
perpetrators before they enter your service, and what is 
happening at the academies and how you address Secretary 
Hagel's directive requiring additional screening of sexual 
assault coordinators and recruiters and military training 
instructors and bring us up to speed on that.
    Ms. James. Okay, thank you, Ms. Granger. First of all, I 
want you to know, I am fully committed to this as is the Chief, 
and we are both working this hard. So for example, I told you 
all this travel I have been doing, everywhere I go, I meet 
privately with the Sexual Assault Response Coordinators 
(SARCs), I meet with the Special Victims' Counsels, I meet with 
victims' advocates, sort of one-on-one to get their point of 
view about how things are going in the location where they are 
serving.
    And my overall feeling is that we are making progress. We 
are making progress in getting the force more comfortable 
believing that reporting is a good thing, and indeed, our 
reports are up over the last year on the order of about 33 
percent. We don't yet know about the incidents. We will know 
that at the end of December 2014, so the end of this year we 
will have more data on the incidents. Of course, what we want 
are reports up and incidents down, ultimately.
    Now, as to the Special Victims' Counsel Program, I think it 
has been a tremendous success. We are ramping it up a little 
bit as we go forward, and as you know, they are spreading it 
now across the Department of Defense because it has been so 
successful. It has given victims more confidence.
    Additionally, it has helped to turn some restricted reports 
into unrestricted reports. And as everybody knows, the key 
difference there is when a victim makes a restricted report, 
they can get care and counseling and help, but we don't get 
told anything, and therefore, it can't be investigated. So to 
turn these types of reports into unrestricted where they can be 
investigated and something can be done about it, of course, is 
a tremendous help. And the Special Victims' Counsel has done 
that, as well.
    As far as trying to root out predators from our system, we 
are looking at a number of ideas. We are trying to learn as 
much as we can from the civilian sector and from civilian 
research to see if we can come up with a better knowledge about 
profiles of people, to recognize people in advance; that is one 
idea that we are working on.
    Another idea is to look at the questions that we ask new 
entrants into the Air Force. We ask many questions about 
conduct and health and all sorts of questions. We are wondering 
if there might not be additional questions that depending on 
the answers could root out predators. So these are just some 
ideas we are working on. Don't have anything solid to recommend 
at this point.
    General Welsh. Only one or two things to add, ma'am. First 
of all, the Secretary mentioned this idea of Special Victims' 
Counsels helping people transition from restricted to 
unrestricted reports. This is really a big deal. It has allowed 
us to move forward with prosecutions that we could not have in 
the past by getting victim's report for an investigation, 
which, as you well know, is a difficult thing for a lot of 
reasons.
    The victims used to transition at about a 13-percent rate 
in the past from unrestricted to restricted. Those who have 
Special Victims' Counsels now over the past year have 
transitioned at almost a 50-percent rate, which allows us to 
move forward in many more cases and get to whatever the right 
outcome is.
    The second thing I would mention is that there are lots of 
things that go into this increased confidence, we believe we 
are seeing it, in willingness to report. We put new 
investigation training programs into place for all of our 
Office of Special Investigations (OSI) investigators. We have 
new special prosecutors who have been trained in a different 
way now. All the services are pursuing this same approach.
    Our prosecution rates have doubled in the last 2 years. 
Now, prosecution isn't the goal; the right outcome is the goal, 
but if we investigate better we should prosecute more. All that 
will contribute to increased confidence. Our conviction rates 
are up. There have been lots of positive trends. None of that 
is good enough. We have to continue the trends, accelerate the 
trends, figure out where the other game-changing approaches are 
and keep charging toward the only acceptable number, which is 
zero.
    Ms. Granger. Thank you very much.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Mr. Moran.
    Mr. Moran. Thank you very much. Mr. Chairman, thank you for 
recognizing these two-star Air Force personnel. They are 
terrific, as I am sure all of their colleagues are.

                       F-35 JOINT STRIKE FIGHTER

    General and Secretary, this subcommittee has, relatively 
speaking, been pretty supportive of the F-35. And it is a great 
plane. But I think we would be remiss if we did not raise 
questions over a fleet that the most at recent cost estimate is 
going to cost us $1 trillion. It is a lot of money. And so the 
underlying question is, how can we afford it?
    But let me ask some specific questions that we need to get 
on the record. Because the decision, Secretary, is to 
concurrently test and produce the F-35 has led to a number of 
problems that are kind of unprecedented in terms of the 
procurement process.
    For example, we have issues with regard to on-board safety. 
I am going to mention a number of these, and you can pick and 
choose which ones you want to address. But we have a system 
that is supposed to prevent explosions after fuel tanker is hit 
by a bullet, and that is defective. We can't seem to be able to 
stop fires if they are caused by lightning strikes. So we 
wonder, is this going to cause a roadblock to production?
    Then we have the helmet mounted display that has not done 
well in testing, and the pilots are saying that it causes 
spatial disorientation resulting from the jitter and the 
latency issues of the display. Again, is that a fatal flaw?
    And then we are told that the distributed aperture system, 
you know, you have these six infrared cameras that track the 
incoming missiles, it has failed in its most basic function as 
a missile warning and defense system, and now can't tell the 
difference between incoming missiles and the system's own decoy 
flares. Again, we are concerned about this.
    And then, most recently, we were told that performance 
concerns have led to the imposition of severe training 
restrictions on the F-35. Training squadrons are prohibited 
from night flights, supersonic flights and flights in bad 
weather, particularly when there is any possibility of 
lightning. They are prohibited from dropping live ordnance or 
firing the aircraft's guns while training. So again, those 
kinds of restrictions cause some real concerns about achieving 
our training objectives.
    So you may want to defer on some of this to General Welsh, 
but these are the concerns about a program that is going to 
cost the taxpayers $1 trillion when all is said and done. Can 
you address at least some of them, Madam Secretary and General 
Welsh.
    Ms. James. Yes, I will. I will start, Congressman Moran, 
and then, as you say, General Welsh can also chime in.
    So number one, I totally agree with you about the money, 
and it is an enormous amount of money. And there are a variety 
of pieces to this, of course, and I think that $1-trillion 
figure, which is just so enormous, also goes to the 50 years of 
operations and sustainability and what not.
    So in terms of trying to be on top, we are where we are, so 
the overruns have occurred, and there is nothing that I or 
General Welsh can do about that past history but the future is 
ours.
    So, as you heard me say, I want to be on top of this as 
best as I can, so I have already met probably four times with 
the program manager on this, General Bogdan; I have been out to 
Edwards Air Force Base, California; I have been to Eglin Air 
Force Base, Florida; I have talked to the pilots; I have looked 
at the helmet; I have been exposed to many of these things that 
you mention; I have sat down with the head of Lockheed Martin, 
and I have specifically talked to her about some of these key 
concerns.
    So we are on it. And particularly with respect to 
sustainability, we recognize that bending that cost curve, 
breaking that cost curb is going to be so crucial as we go 
forward. This issue of concurrence, you just put your finger on 
it, it is a devilishly difficult thing to be doing all of this 
at once. Again, that decision was made years ago and we are 
where we are.
    The other person I am sticking close to is Dr. Gilmore, the 
Head of Independent Operational Tests and Evaluation, because 
he frequently has a slightly different point of view than the 
program office. I think it is very important to hear both of 
those points of view.
    So I will just tell you that we are on all of these things. 
The program office feels like given where we are in the program 
that we are still going to meet the Initial Operational 
Capability (IOC) dates within reason. There is some slippages 
up to 6 months on one of the software development areas that 
the program office is predicting, but within reason, for 
something this complex, they feel like we are going to be 
reasonably on time for that IOC.

                  INDEPENDENT OPERATIONAL TESTS (IOC)

    Mr. Moran. Are you still talking about the IOC of 2016?
    Ms. James. That is right.
    General Welsh. Congressman, let me start by saying that I 
am confident that we are going to be at IOC in 2016, as is 
Lieutenant General Bogdan, as, I think, is the contractor 
leadership team for the program.
    A couple of quick things, the fuel tanks, the lightning 
strike concerns, those aren't new concerns, as you know, sir. 
Those have been a problem for awhile. Those fixes are actually 
coming into place now. The airplane is starting to fly more, in 
fact, you mentioned the helmet, the AAQ-37 Distributed Aperture 
System (DAS) system.
    The airplane flew at night for the first time down at Eglin 
Air Force Base on Monday night. The flight went fantastic. I am 
trying to remember the exact quote but this is very close, from 
a note from the squadron commander who flew the sortie, his 
note to his boss said, well, my big takeaway is that we are not 
going to have big issues flying at night. The DAS system worked 
phenomenally well; the helmet worked great. The only issue he 
had is when he turned the DAS system off that there was a 
little bit of a green glow in the mass. It was a little bit 
distracting to him, he said. But this is just not an issue. And 
the DAS system operated superbly for him at night.
    So the software issues that will allow us to not get the 
DAS confused by different inputs, whether they are airplane 
flares or a ground launch, it will allow them to utilize their 
full suite of weapons, have not been completed yet. Those are 
part of the development process.
    The airplane's performance has been on track since 2011. We 
follow it very closely. I am in touch with Lockheed Martin 
leadership team, with the Program Executive Office (PEO) team, 
with the folks in the field. The Secretary and I have both 
visited both Eglin Air Force Base where our training program 
is, and Edwards Air Force Base where our test program is within 
the last month. We are paying an awful lot of attention to 
this, sir, and I am actually more confident than I have ever 
been that we will reach IOC. There will be software issues. 
Beyond that is where those software issues start to be a 
problem in getting the full operational capability of airplane 
finalized before FOC.
    Mr. Moran. Well, that is new and encouraging information 
that your first night flight was this Monday. Thank you. I 
didn't know that.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you. We had a keen interest, 
obviously, in this project.
    Mr. Crenshaw.

                           LIGHT AIR SUPPORT

    Mr. Crenshaw. Thank you, Mr. Chairman. I have got just 
three quick questions, two about light air support and one 
about our space launch program. I think as you all know, we 
have got a lot of our international partners that can't buy, 
maintain big jet aircraft, so we have these light air support 
that we help them particularly in Afghanistan and Iraq, the 
Philippines.
    Sir, can you just give us an update, are we doing any 
foreign military sales other than those three countries on 
these light air support? I want just kind of an update on that 
program. And two, how does it work when somebody requests those 
kind of aircraft? Do we open up competition in our country to 
provide those? Give us a little overview of that.
    Ms. James. So, sir, the light air support, the A-29 issue 
that I am most familiar with, again, I was just over in 
Afghanistan, does pertain to the training of the Afghan Air 
Force. And so I think we are quite close to sort of finalizing 
a proposed way forward, and we are really waiting on General 
Dunford and his negotiations with the Afghan government on 
that.
    There has been competition in that program, of course. And 
other countries do currently use the A-29, but I believe it is 
not in our inventory. So to the extent, it depends on where we 
are going to do this training of the Afghan pilots and Afghan 
maintainers, but of course, we have a process in the Air Force. 
Once we get the go ahead, we would launch our normal process to 
try to figure out where that training would occur.
    Mr. Crenshaw. You know, there is some talk that maybe, I 
mean, we spend a lot of money in Afghanistan training the 
pilots and the folks that are involved in those aircraft, and 
since nobody knows exactly what is going to happen politically, 
whether we are going to have any troops there or not, is there 
talk about training those Afghan pilots, bringing them to the 
United States and doing training; and if so, is that any 
concern to you in terms of security? Do you have an update on 
that?
    Ms. James. So there is discussion about this, and this is 
what we are sort of awaiting, the final discussions that 
General Dunford is having. But that is a possibility, and of 
course, the Air Force has a process, if you will, to try to 
decide when a new mission like that comes along where to put 
it, and that is what we are working through. And as I 
mentioned, I think we are getting close.

                              SPACE LAUNCH

    Mr. Crenshaw. And the last quick question is, the military 
space launch, the EELV program, and as I understand it, the 
United Launch Alliance, they provided all the launch services, 
and you are going to open up that to competition to other 
companies. And are you going to make sure that, I mean, since 
you have had one group doing everything, when you open up the 
competition, the question becomes making sure it is a level 
playing field. How are you going to ensure the new entrants 
have the kind of background expertise that all things are going 
to be considered?
    Ms. James. Right. So on the Evolved Expendable Launch 
Vehicle (EELV) program, the way I will describe it, and this is 
making it very simple but it is the way I can sort of remember 
it and talk it, you have different types of launches of 
different payloads. So I will say there are heavier launches 
and then there are lighter launches in terms of the weight. So 
right now, we are interested and we are trying to aggressively 
get more competition. We think that will be good for all of us. 
It will bring our costs down.
    But the key thing is to make sure that the people are 
qualified, as you said, as you bring new entrants in. So there 
is this qualification process where new entrants have to 
demonstrate that they can actually do a certain number of 
launches. They have to share their engineering data with the 
Air Force just to make sure that they are qualified.
    We think, if all goes well, we will have new entrants 
qualified for those lighter launches, maybe as early as the end 
of the year. And eventually, some years from now, I think the 
target is 2017, if all goes well, we would have new entrants 
qualified to do the heaviers, as well. So the point is, we are 
on a glide path to get more entrants qualified so that we can 
have competition. So that is kind of the road we are on. At the 
moment, United Launch Alliance (ULA) is the only one that is 
qualified to do any of these launches.
    Mr. Crenshaw. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Crenshaw.
    Ms. McCollum.

                           ENGINEER SHORTAGE

    Ms. McCollum. Thank you. I appreciated in your testimony, 
you talked about 100 percent is personnel because you can have 
all the equipment in the world, but if you don't have good 
personnel to use it, you don't have much of anything, and 
balance. So I want to talk about something that really caught 
our eye in the office. It is from Defense News, March 24, and 
it is Air Force engineer shortage.
    The Air Force Chief Scientist Endsley recently commented 
that the U.S. Air Force is facing a perfect storm of personnel 
issues that is endangering retention and recruitment of 
engineers. And we know how important it is to have good, you 
know, science in driving innovation, technology breakthroughs; 
so a shortage is very concerning.
    And the shortage is both in Active Duty and civilian, 
according to this article. The article goes on to say that the 
main shortage isn't a lack of science and technology funding in 
the budget, but it is uncertainty. With sequestration still 
looming and 2016 government shutdowns, civilian pay freezes, 
there seems to be a lot disincentive for young engineers to 
choose the Air Force over a job in the private industry.
    It goes on to point out, you know, that we don't have the 
enhanced graduate tuition that many of the private sector 
industries that were competing for these young men and women 
in, let alone the inability to attend scientific conferences 
where you can interact with people and move towards to have 
your work published in the future if you are a scientist.
    So I want to know what kind of steps are being taken to 
prevent further erosion, and how, as we, as members of this 
committee, help with the recruitment and retain top scientists? 
And what do we need to do to be crystal clear that travel 
abuses will not be tolerated, but at the same time, expedite a 
way in which you can get people to attend top conferences so 
that we can retain?
    And I do have another question, so if you could just kind 
of briefly answer that.
    Ms. James. So I think you are dead right. I think science, 
technology, engineering and math in general is very difficult 
to recruit and retain because they can, you know, those folks 
can write their own ticket. I will go you one better, they are 
hard for the defense industry. I come out of the defense 
industry, Science Applications International Corporation (SAIC) 
was my company, and we had a tough time recruiting and getting 
such people into our workforce. They wanted to go into other 
forms of high-tech. Defense was not seen nearly as cool as it 
once was.
    So it is a hard problem and you add cyber on top of that 
and it is very difficult. I don't have any specific solutions 
to suggest at this point. We do have a series of bonuses and 
things of this nature that we utilize throughout the course of 
recruiting and retaining to make sure that we try to balance 
the force.
    I would also say that when it comes to the temporary duties 
(TDYs) and so forth, we took a very hard line during the year 
of sequestration on that. I think you are going to see 
hopefully some easing of that. So that will naturally get a 
little bit more eased, I believe.

                              SPACE LAUNCH

    Ms. McCollum. If you have some ideas and if you could get 
back to us.
    I would like to go to my second question, but first, I 
would like to comment, Ms. Granger is right on. In our 
committee is lockstep wanting to do whatever we can do to work 
on the issue of sexual assault and have it down, as you said, 
to zero.
    But Mr. Crenshaw, I want to expand on what he was talking 
about, of the launch program. Another issue that has arisen in 
recent weeks is the use of Russian-made RD-180 engines in the 
Atlas V rockets that launch our military satellites. It is my 
understanding that ULA has exclusive agreement with the Russian 
company that manufactures this particular engine.
    I believe, you know, that we should be concerned that a 
heavily-reliance on these engines at a time when our country is 
imposing sanctions against Russia for its actions in the former 
area of Ukraine, the Crimea. So how well do the RD-180 engines 
perform? And I know Secretary Hagel is asking the Air Force to 
review this matter. Could you please comment what your 
assessment is on this and when it will be complete for this 
committee?
    Ms. James. So I share the worry, and as you mentioned, we 
have launched a review. By the end of May or so, we expect to 
have the results of that review which we will be looking at 
risk, cost, and how might we do it in the United States, things 
of this nature.
    I will say this: This partnership, if you will, has been in 
existence for years. It has weathered various storms that we 
have had in the U.S./Russian relationships. That doesn't mean I 
am not worried about it; I am, but I am just trying to say we 
have seen ups and downs before.
    I also want to tell you that ULA does have, I am told, a 2-
year supply of these engines already on hand. I have learned a 
lot from my trip to the AOR: Having the equipment is one thing, 
but do you also have the spare parts? So we are looking into 
that just in case there are any other hitches out there.
    But what I am hearing right now is at least for the next 2 
years, no matter what, we are in okay shape. But it is 
worrying, and by the end of May, we should have our review 
done.
    Mr. Frelinghuysen. Thank you, Ms. McCollum.
    Mr. Calvert.

                       CIVILIAN PERSONNEL LEVELS

    Mr. Calvert. Thank you, Mr. Chairman. A couple of quick 
questions. One, obviously, Madam Secretary, you and the General 
spent some time going over what capabilities must be cut in 
order to meet the future budget obligations and those are 
difficult decisions to make. But right now, the United States 
has 1.3 million Active Duty military personnel versus 770,000 
civilian personnel. The Defense Business Board recommended the 
defense civilian reductions go back to the 2003 levels, or 15 
percent, whichever is greater. If we go back in history, in 
2003, we had 1.4 million Active Duty personnel versus 636 
civilian personnel.
    So we have had a significant increase in civilian personnel 
relative to the military personnel. That is actually a 
reduction in the military personnel and a substantial increase 
in civilian military personnel. What do you think is a 
reasonable ratio?
    We are talking about a big number here. To bring that 
number back into the conformance ratio that it has been 
previously would save $165 billion over 10 years, and we are 
talking about significant capability cuts both to in-strength 
especially in the Army, Marine Corps, obviously platforms and 
we have, I believe, a civilian workforce that is out of whack. 
What do you believe is a reasonable ratio here, and what are 
you prepared to do about it?
    Ms. James. So, Mr. Calvert, I don't have a particular ratio 
to offer up, but I will just make a couple points, if I may. We 
are coming down in our civilian personnel. The numbers that we 
put forth were very sort of judiciously figured out in terms 
of, you know, according to certain missions and reorganizations 
and 20-percent headquarter reductions and things like that. So 
our numbers add up to a total that was specifically developed 
rather than across the board.
    Mr. Calvert. According to your comptroller, it is going to 
be less than 5 percent. Less than 5 percent of civilian 
personnel will be touched through this process, and yet we are 
going to be cutting the in-strength of the United States Army 
by 15 percent, and the United States Marine Corps by more than 
10 percent. And just through your own testimony, we are 
removing several weapons platforms and talking about parking 
air wings on the ramp.
    Ms. James. Right.
    Mr. Calvert. What do you think is more appropriate, the 
reducing civilian employees to a more proportionate level or 
ending, you know, troops strength and aircraft and the rest?
    Ms. James. So we want to scrub it as much as possible. But 
most of our civilians are involved with our depots, supporting 
our Guard and----
    Mr. Calvert. I am not talking about depots or wrench 
turners or that. The biggest growth in the civilian workforce 
has not been that, it has been in--folks in middle management 
and various occupations.
    We have support from former comptrollers, former senior 
defense managers, many others who believe that the growth 
within the civilian workforce has gone out of bounds. And there 
is not anything you can do about it, because under the work 
rules you are not able to do reduction-in-force performance 
reviews and the rest. And we have a number of people that are 
up for retirement. So I hope you take a good look at this, 
because it seems to me that we ought to be looking at that 
versus removing necessary capability from the United States Air 
Force.
    One other quick question. It was brought up, these EELVs, 
and I understand this, we all love Lockheed and Boeing and ULA, 
but they guard their contracts very judiciously, I understand 
that. But competition is important. And we need to take a close 
look at that because we need to allow these new interests to 
compete.
    And, you know, let's face it, the military has been, over 
the history of the United States Military, I will just mention 
the Air Force, slow, for instance, to accept UAVs as a capable 
alternative to what was traditional aircraft. And I know you 
have changed that point of view, but there was a slow 
acceptance of new technology. And so we need to have an open 
mind and look at those technologies, and if they are capable, 
then accept it and save the taxpayer some money.
    Mr. Frelinghuysen. I think I will have to take that as a 
statement firmly held by Mr. Calvert, perhaps by others. Thank 
you, Mr. Calvert.
    Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.

                    RESERVE COMPONENT C-130 AIRCRAFT

    Secretary James, you mentioned that we need to rely more on 
our Air Guard and Reserve, and I appreciate that comment. We 
have a local Air Reserve Base in Youngstown that has C-130s 
there. As you know, it is the workhorse of the Air Force, and 
several of those were taken away. This budget divests in 
another C-130 from the Youngstown Air Reserve Station, losing 
one backup C-130 which takes us down to just eight C-130s.
    My concern is that we are hurting the mission at reserve 
bases like Youngstown by subjecting them to a death by a 
thousand cuts. We are the only fixed-wing aerial spray unit, as 
well in the DOD, but Youngstown isn't the only base losing 
backup aircraft, C-130Hs. From looking at a copy of the Air 
Force summary of PB-15 adjustments, I see many bases are losing 
and being divested of their backup aircraft, C-130Hs.
    Can you tell me where those planes are going, and General, 
as well, what the rationale behind those moves are and what the 
long-range plan for the Air Force's fleet of C-130s is.
    Ms. James. I will begin, sir, by telling you that the 
military has validated requirements and we budget against 
those, for tactical airlift, we currently have too much in the 
way of C-130s. So overall, the decision in this tough budget 
environment was to bring that down so that it is closer to the 
validated requirement.
    As to what planes went where and so forth, I would yield to 
the Chief to elaborate.
    General Welsh. Sir, the overall plan for the balance 
between the Active and Reserve components has been developed 
over the last year. We are about halfway through the proposals 
that we are going to put in place. We have done some detailed 
analysis, we would love to share it with you, by weapons 
system, on ratios between Active and Reserve components, and 
then within the Reserve components, the Air Guard and the Air 
Force Reserve working with the National Guard Bureau have 
worked with the Adjutant Generals to figure out what is the 
best way to balance those things.
    When you talk about one or two C-130s coming out of the 
unit, it is so they can make units across the Guard and Reserve 
the same size. They want to provide a consistent template for 
support equipment, for everything they do to support the fleet. 
They thought that was the best way to balance those aircraft. 
And so we can come give you the details on all those moves if 
you would like.

    The information follows:
    The fiscal year 2015 President's Budget request reduces excess C-
130 capacity by divesting 27 backup aircraft inventory C-130H aircraft. 
These aircraft will likely be retired to the 309th Aerospace 
Maintenance and Regeneration Group at Davis Monthan Air Force Base--
known as the ``bone yard.'' As part of the normal fleet management 
process, the Air Force will analyze the C-130H fleet to ensure the best 
aircraft are kept in the inventory while those with the highest 
maintenance and modernization costs are retired.
    The aircraft are being divested to reduce excess C-130 capacity. To 
this end, we will normalize Reserve Component C-130H squadrons to a 
standard size of 8 primary aircraft. The Mobility Capabilities 
Assessment-18 determined ``there is no surge scenario associated with 
the current defense strategy--even one in which a significant homeland 
defense event occurs concurrently with two warfights--that requires a 
fleet of 358 C-130s.'' In fact, the report finds that the Air Force 
requires no more than 320 C-130s, and potentially as few as 248.
    The Air Force's long-range plan for its C-130 fleet is to right-
size it in accordance with current analysis, modernizing where 
necessary and recapitalizing where feasible. Each C-130H recapitalized 
with a C-130J avoids the costs of expensive avionics modernization and 
center wingbox replacement. The current C-130J procurement effort is 
funded to 134 aircraft by fiscal year 2017. We will continue to examine 
when and how to recapitalize as part of future budget proposals; 
however, identifying funding to do so in the current fiscal environment 
remains a challenge.

                           AIRCRAFT MOVEMENTS

    I will tell you what our 2015 budget also shows if you look 
carefully. Because we are only halfway through this, we haven't 
balanced all the force structure across the Active and Reserve 
components. The guidance from the beginning has been put as 
much as we can into the Reserve components. If we can become 
more efficient and remain operationally capable, why would we 
not do that?
    So we are pushing everything we can by aircraft type 
because that is the way you have to do the analysis into the 
Reserve component. We are about 60 percent through that 
analysis. We will finish the rest this year. We have done it 
with the Air National Guard, the Air Force Reserve, the Active 
Duty sitting side by side, using the same cost models, the same 
decision support tools, and we have had the Adjutant Generals 
in the decision making process with us. And when we have a 
Program Objective Memorandum (POM) brief to the Secretary to 
make these decisions, those representative Adjutant Generals 
are sitting in the room and have a voice at the table.
    We are trying hard to get this right. The cut in the Air 
National Guard manpower for this next year, 400 people versus 
17,000 in the active component.
    Ms. McCollum. Mr. Chairman, if the gentleman would yield 
for a second.
    Mr. Ryan. I would be happy to yield.
    Ms. McCollum. I heard what you said about you wanted every 
Air Reserve to look balanced. We have one in Minnesota that 
draws a lot from pilots that fly out of the Humphrey Airport 
and the International Airport. What I have heard from those 
pilots for retaining them in the Reserve is how much that they 
are going to have to drive and how much time that they are 
going to have to take off to go to other places if it closes.
    So I hope you are surveying where your pilots are and you 
are talking to the pilots to make sure that while you are just 
looking at this someone here on paper that we aren't, you know, 
shortchanging ourselves for pilot retention in the Reserve in 
the long run because those folks have a choice whether or not 
they stay in or go out, and they are flying full-time and they 
are doing this on off hours. And if we start adding more time 
into them going and getting the training, they are telling me 
they are considering leaving.
    General Welsh. Ma'am, the Reserve and Guard are bringing 
all those discussions to the table. I hope they are talking to 
the pilots in Minneapolis. I will make sure they are. But the 
bottom line for all this in the budget is, we are getting 
smaller.
    Mr. Frelinghuysen. Mr. Ryan, I know your time is about up, 
since some of it was claimed by our colleague, but there is a 
keen interest in this issue here.
    Mr. Ryan. Just real quick.
    Mr. Frelinghuysen. Go ahead. Fire away.
    Mr. Ryan. So you are saying there is a more detailed 
account than the PB aircraft changes that we have here?
    General Welsh. What I am saying is there is a reason all 
those changes are being made. We will be happy to come and talk 
to you. We will bring the Guard and the Reserve and sit down 
and tell you the story.
    Mr. Ryan. And you think eight is about the number you want 
to have at each of the different bases?
    General Welsh. That is the footprint they were looking at 
is eight, and as they balance the fleet that is what they did. 
Some of these airplanes are older, take more to maintain, so 
they are trying to centralize to places where they can be most 
efficient and maintain the fleet over time.
    Mr. Ryan. Okay. Love to have you all come in.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Ryan.
    The gentleman from Oklahoma, Mr. Cole.

                             FISCAL ISSUES

    Mr. Cole. Thank you very much, Mr. Chairman.
    Thank both of you for being here, and thank both of you 
honestly for, I think, very politely but making the appropriate 
point that you are making a lot of tough decisions because the 
Congress hasn't really made very tough decisions in terms of 
what we are going to do fiscally, and we are forcing a lot of 
that down on you. And that is something I have said repeatedly 
just to keep reminding ourselves.
    And I know this committee feels very strongly about this. 
We don't deal with our entitlement crisis; we don't deal with 
the bigger fiscal issues in front of us. We are going to keep 
taking it out of the height of the American military, and that 
has got a lot of costs and risks associated with it. And I know 
you are both making decisions you don't like to make and that 
you probably wouldn't make, quite frankly, in different 
circumstances.
    I do want to pick up on a point that Mr. Ryan made and 
asked about a specific concern, and I will admit right up 
front, it is shamelessly parochial. I will be like Ryan, 
shamelessly parochial, but I think appropriately so. Because he 
did make the point and you did make the point, General Welsh, 
that we are going to rely more on Reserve capability than we 
have in the past, and we are fortunate to have those folks.

                                 AWACS

    But, you know, we are also going to eliminate seven AWACS, 
and they are the entire Reserve capability that we have in that 
area. I mean, they are just going to be gone. And that is a, 
you know, low-density, high-use asset. We are using them right 
now, as you know, you know, in Europe to try and send a message 
to the Russians.
    So I worry about the loss of that capability, particularly 
any in the Reserve component of it. So could you walk us 
through, insofar as you can, the decision to do that and 
explain to me why it might be wiser to actually put more of the 
Active fleet in Reserve and lower the cost that way as opposed 
to actually lose the capability.
    General Welsh. Yes, sir. The decision and the 
recommendation that we have on the E-3 Airborne Warning and 
Control System (AWACS) is actually not based on that. It is 
based on this balancing of capability today versus 
modernization and capability 10 years from now. As a platform 
base force, you understand, we have to invest now to have the 
capability in the mid-2020s that is viable against the threat 
we expect then.
    The AWACS is getting old. We have got to recapitalize it 
somehow. Within the Air Force budget, the only option we could 
come up with to modernize that fleet was to eat some of the 
aircraft to pay for the modernization of the command and 
control mission area. We completely understand, it means 
accepting more risk over the near term. And our combatant 
commanders aren't going to like that either, but if they want a 
capability in 2023 and beyond, we have to do something now.
    If they are willing to not have a capability and just let 
the AWACS fleet time out or limp along in the mid-2020s, which 
I don't think anybody is interested in, then we do nothing. So 
this is about creating investment money to recapitalize the 
command and control system.
    Mr. Cole. I understand the rationale perfectly well, and I 
think you are very wise not to count on us to do the right 
thing. But I also think and, you know, this is just a 
theoretical discussion here, that probably with sequestration 
looming, there is going to have to be some sort of big-time 
deal in this place between the administration and the Congress, 
probably sometime early next year in the first quarter of the 
year.
    Because we are not going to go through cuts of that 
magnitude, in my view, I just don't think they are sustainable. 
And again, I appreciate you, Madam Secretary, bringing that up 
and pointing that out, how critical that will be if we get past 
that point, because I think we are a lot further down this road 
than anybody a year or two ago thought we were going to be. I 
know certainly Congress never thought we were going to get to 
sequestration and we did. And I know that for a long time, the 
administration didn't. So we now know we are playing with live 
bullets that have real consequences for our military.
    But I do think we can avoid that, and I am going to be 
looking for ways, if there are ways, because I think keeping 
that capability is really a force multiplier for us and for our 
allies. A lot of them simply don't have that capability and 
actually rely on us to provide it at a critical time.
    I have got other questions, but I will reserve for another 
round, and again, thank both of you. Appreciate it.
    Mr. Frelinghuysen. Thank you, Mr. Cole.
    Mr. Womack, thanks for your patience.

                                  A-10

    Mr. Womack. Thank you.
    My compliments to the Secretary and to the Chief for their 
great work. I have a, and I will admit, I was hopelessly, 
shamelessly, however you referred to it, parochial about A-10s, 
once upon a time, and I have got an A-10 question that only 
demands just a brief answer. We are going to retire the fleet, 
but are we not investing more money in these A-10s wing 
replacement, I assume, the A-10C variant, that is complete. I 
don't know for sure, but do we continue to invest in platforms 
like the A-10 that we are targeting for elimination and why?
    General Welsh. Congressman, the ones we would continue to 
invest in, even if it was approved to divest the fleet, would 
only be to keep the airplane viable through the end of its 
service life. We don't completely divest a fleet until 2019 
under our plan. So if there is anything required to keep the 
fleet viable until then, we would have continued to invest in 
that. We would not invest in buying additional kits for 
upgrades that would happen beyond that point or to upgrade 
airplanes that we plan to divest over the next couple years.

                              MQ-9 REAPER

    Mr. Womack. Now, I will be shamelessly parochial about the 
Reaper mission. Can you kind of walk me through the Air Force's 
plans long-term on Reaper? I know there have been some targeted 
numbers of procurement that have been reduced, but where are we 
in this process?
    General Welsh. Yes, sir, right now, we have 64 orbits of 
Predators plus Reapers. Our game plan is to migrate all of the 
Predators, which are an older system, essentially the Wright 
Flyer of a remotely piloted aircraft. That airplane has been 
fantastically good for us, but it doesn't have the capability 
of the MQ-9 Reaper. And so we will transition our entire 
Predator fleet to Reapers. As we do that, the Predator fleet 
will go away. Our intent was to grow originally to the 
Department-established requirement of 65 combat air patrols. 
That has been modified down to 55, which will allow us to use 
some of that money we save in that regard to start 
recapitalizing the rest of the ISR enterprise.
    What the rest of the combatant commanders need and want is 
not 55 orbits of Reapers. But the plan right now is to continue 
with the Reaper plan that we currently have on track to include 
down at Fort Smith, Arkansas.
    Mr. Womack. Yeah. In the Fort Smith area they are having, 
in this transition period, they are engaging the FAA on air 
space-related information. Is the Air Force having any problem 
at all with the FAA on air space issues related to, say, 
unmanned aerial aircraft?
    General Welsh. I wouldn't call it a problem. I think this 
is something the FAA is doing their due diligence on for very 
good reasons. We are working closely with the FAA in places 
like Grand Forks Air Force Base, North Dakota to figure out how 
do you manage multiple types of remotely piloted aircraft in 
the same air space, something we need to do before the FAA will 
feel comfortable mixing unmanned aircraft with commercially 
piloted aircraft. So I think that is the push for the future, 
and the effort is ongoing and we need to continue it.

                         MILITARY COMPENSATION

    Mr. Womack. My last question is directed to the Secretary, 
and it is just a general question. You know, my friend, Mr. 
Cole, talked about how the Congress is having a hard time 
recognizing and wrapping its arms around the real problem 
driving the deficits and the debt that affect our country 
today, and that is basically pensions and health care. And at a 
smaller level, not an insignificant level, but at a smaller 
level, it is affecting the five-sided building, too, pensions 
and health care.
    Madam Secretary, what is your recommendation to the 
Secretary, to the President, on how we harness this growing 
problem where so much of our money that would be available for 
the platforms that we are talking about cutting and the end 
strength and the force structure are now going towards the 
mandatory side of the Pentagon spending as it is in our 
country?
    Ms. James. So Congressman Womack, I do think the proposals 
in our budget with respect to compensation are reasonable. 
Again, it is slowing the growth. We have had substantial growth 
in the last 12 or 13 years, and thank you to all of you who 
supported it, by the way, because we were able to, over that 
time, catch up military personnel to the equivalents in the 
private sector, and indeed, I think in some cases, we have 
exceeded those comparability statistics. So thank you for that.
    But I think we are now at a point, given that our 
recruiting is strong, our retention is strong, as you heard me 
say, we are offering incentives for people in some cases to 
leave the service. Given that environment, we can afford to 
take a little bit of a risk, and slow that growth and 
compensation. So that is point one.
    As far as the retirement is concerned, you know, there is, 
of course, the commission. They are due to report in something 
like 9 or 10 months. DOD has submitted some ideas but has not 
recommended one idea over the other. But everybody that I am 
aware of, certainly in DOD and the Administration, has put 
forth the important principle that when it comes to any 
retirement reforms, that people currently in the force, and 
people currently retired should be grandfathered, and that any 
sort of reforms should apply to new young people who have not 
yet entered the force.
    So that is sort of the principle that we are all behind. 
But totality, I think we do need to get control of some of 
these costs, and to do it judiciously is the way to go.
    Mr. Womack. Thank you.
    Mr. Cole. Mr. Chairman, if I could just----
    Mr. Frelinghuysen. Thank you, Mr. Womack.
    Mr. Cole. Just to make a quick point.
    Mr. Frelinghuysen. Go right ahead.
    Mr. Cole. On a hopeful note, that is exactly what Congress 
did actually in the Ryan-Murray deal. That initial proposal, 
the reaction was negative, but we retained, you know, for new 
people, that would be the standard, but we would not, 
obviously, hurt those currently serving. So I agree with you.
    Mr. Frelinghuysen. Thank you. Mr. Visclosky.

                           BUDGET PROJECTIONS

    Mr. Visclosky. Thank you, Mr. Chairman. A couple of 
questions about what is not contained in the 2015 budget. In 
the administration's budget, the 2015 request is within, if you 
would, the agreed cap, for lack of a better term. But the 
proposed 5-year period thereafter, does not accept 
sequestration, and adds an additional $116 billion above 
sequestration levels.
    Are there items that are not contained in the 2015 budget 
that are contained in that $116 billion that I consider a very 
speculative figure? It should be in 2015 on the theory, the 
$116 billion you are never going to see it?
    Ms. James. So with respect to the fiscal year 2015 budget--
--
    Mr. Visclosky. I don't want to be a downer. I am just 
trying to be realistic here.
    Ms. James. Right. So with respect to the fiscal year 2015 
budget, the way I would describe it is with the exception of 
that $7 billion I told you which was in that opportunity 
security piece, you know, part of the $26 billion, that is kind 
of, I will say, over and above the targets laid out in the BBA, 
but other than that, everything we testified to is in the 
fiscal year 2015 budget.
    Mr. Visclosky. Right.
    Ms. James. Fiscal year 2016 and beyond, that list that I 
gave you, we retire the KC-10, and the Global Hawk Block 40 and 
so forth, these are all things that if we don't get that 
President's budget level, we would have to strip out.
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Visclosky. Yes.
    Mr. Frelinghuysen. The issue here is, we are pushing a lot 
of things to the right here, you know, and I went through the 
shopping list. Some of that may be on whatever this list is 
that has been put out by the Defense Department, but there are 
a lot of things we are sort of putting off here, you know, 
combat rescue, JSTARS platform, and you know, there is some 
question as to, in the final analysis, whether we are going to 
ever, you know, whether these programs are ever going to see 
the light of the day. I would sort of like to sort of know 
where you are on that. But we are pushing a lot of things 
deliberately to the right here, which----
    Ms. James. That is true.
    Mr. Frelinghuysen [continuing]. Removes, perhaps, the 
possibility since this is all about, you know, this is a 
Defense posture hearing that we might not have something which 
is actually essential to us.
    General Welsh. Mr. Chairman, I think that is kind of the 
point of our budget submission. Everything does hurt. Now, 
everything has a major impact on us. Divesting the A-10 fleet 
has a major impact. Divesting U-2s has a major impact. Trying 
to figure out how to recapitalize AWACS and JSTARS by even----
    Mr. Frelinghuysen. And to look ahead towards the long range 
bomber, I mean.
    General Welsh. Yes, sir. But all of those things are 
included. Even if we stay at sequestered levels through the 
Future Years Defense Program (FYDP), the things I just 
mentioned stay in there. There are some other things, the 
Secretary mentioned that would have to come out because we just 
won't be able to afford them.
    Mr. Frelinghuysen. Thanks for yielding.
    Mr. Visclosky. Thank you, Mr. Chairman. I think the 
chairman probably asked my question a lot better than I did, 
and Madam Secretary, really, I don't think I am asking the 
question properly, because I didn't understand your answer. And 
I am not blaming you. I am blaming me. I guess my question, and 
it gets back to the chairman talking about things going to the 
right, is you mentioned the $7 billion for the Opportunity, 
Growth, and Security Initiative. The idea that this Congress is 
going to do entitlement reform and tax change, I think is very 
speculative. So you have got a $7 billion request there. And 
there is $116 billion department-wide for the next 5 years on 
the theory that sequestration is not going to happen.
    I guess my question is, within those requests because of 
the speculative nature of them, should some of those be shifted 
to the left for 2015, and have gone on requested in the 2015 
budget?
    Ms. James. So the fiscal year 2015 budget that we have 
placed before you is our best judgment. So I would say we made 
our judgment calls and we would stand by what is in that fiscal 
year 2015 budget.
    Mr. Visclosky. Yes.
    Ms. James. Now, of course, Congress, I believe, did invite 
us to submit and we are putting together an unfunded priority 
list, but as you said, these things are--would be over and 
above the dollar figures which are likely. But if I could maybe 
say as one summary point, we recognize that sequestration is 
the law of the land, and so we have given over-budget judgments 
that reflect those dollar figures. But at the same time, we are 
using our bully pulpit to tell all of you as much as we can, 
that we believe we need more. And that is why we are urging the 
approval of these higher levels, and we are trying to, in 
effect, tell you the judgments at the low level how we would do 
it. And we are telling you what we really need to be at that 
higher level. So we have sort of given it to you two ways with 
the urgent requests that we have that higher level.
    Mr. Frelinghuysen. So if the gentleman will yield, so the 
long-range bomber is something which has been, you know, 
pointed to as something we need. We know what we have. Some of 
it is pretty ancient. Is that a top priority for you?
    Ms. James. Yes, it is.
    General Welsh. And it is funded through the FYDP, sir.
    Mr. Visclosky. I am done, Mr. Chair.

                    MCGUIRE AIR FORCE IN NEW JERSEY

    Mr. Frelinghuysen. Reclaiming a little time, be a little 
bit parochial. I follow, obviously, the good work of McGuire 
Air Force in New Jersey, the work they did, they do and have 
done, obviously, with other Air Force bases to allow us to have 
the degree of success we had in Iraq and Afghanistan.
    What happens with those tankers, you know, just incredible 
things that they do that often people don't recognize, those 
crews and the ability to sustain the effort over there is I 
think, at times, miraculous. I give them and others in that 
part of your Air Force special credit. We talked before the 
hearing a little bit, so this isn't coming out of left field. 
This is a Defense posture hearing.

                            CHINA AND RUSSIA

    Where do you see our, I don't like to use the term 
``adversaries.'' At times around here, we are careful about the 
words we choose, but where do you see China going in terms of 
its modernization and its readiness? Where do you see the 
Russians going? I mean, it didn't surprise--it did surprise 
some of us that in the Quadrennial Defense Review only one 
mention of Russia, but now we are spending an inordinate amount 
of money trying to sort of catch up with what they are up to in 
Crimea, perhaps elsewhere, in terms of causing some inherent 
hostilities in their region.
    Where do we stand relative to China, and matching their 
capabilities? They are doing things with their own aircraft 
that to some extent from what I understand mirror--I won't say 
our capabilities, but they have their own--they have their own 
fleet, and they are doing some things relative to space 
architecture which appear to be fairly modern and innovative. 
Would you react to that to what the Chinese are doing 
specifically?
    General Welsh. Yes, Mr. Chairman, and let me kind of 
reference all three domains that the Air Force operates in, 
air, space, and cyber, very briefly. I will start with cyber. I 
think everyone is familiar with the activity in the cyber 
domain over the last number of years. It is getting more 
significant, not less. We have got to stay abreast or ahead of 
that activity, technologically, and capability-wise in the 
services. We are investing in this budget to try and do that as 
is the Department. Clearly, that is a driving factor for what 
we are planning.
    Mr. Frelinghuysen. We are putting more money in--the 
President has recommended more money both for cyber----
    General Welsh. Yes, sir.
    Mr. Frelinghuysen [continuing]. And special operators.
    General Welsh. Yes, sir. On the space side, you mentioned 
the kind of the increased threat to our capability to operate 
freely in the space domain. We think that will continue to be a 
problem, and we think it now expands beyond just the low-Earth 
orbit, and so we have got to be worried about how do we 
maintain situation awareness in space? How do we track objects 
in space? How do we maneuver, evade, in space, things that our 
Air Force Space Command has built into our plan here over the 
next 5 years because we cannot stop investing in that area.
    And on the air domain, air forces are successful over time 
because they stay on the front end of technology. There is some 
great literature out there about why air forces fail. In fact, 
that is the title of one book. And typically they fail because 
they fall behind the technological curve.
    The Chinese and the Russians are creating capability in the 
air domain, aircraft that will be competitive or more capable 
than our legacy fleets. They just will be. Now, whether we 
worry about direct confrontation with China or Russia isn't the 
point. Today 53 countries around the world fly either Chinese 
or Russian front-end fighters. And if they follow their typical 
model and they export these things within 3 to 5 years, we will 
be facing their equipment within the next 10 years. That is 
what is driving our insistence on the F-35 as a priority 
program for the United States Air Force. We need the technical 
capability it will bring in contested environments and full 
spectrum fights. It is not about a counterinsurgency battle. 
That is not what that airplane is for.
    Mr. Frelinghuysen. They, too, are working on a degree of 
stealth that is--we need to be able to contend with.
    General Welsh. Yes, sir, we think the Chinese will field it 
in 2017 or early 2018, and the Russians in 2019 and they will 
export it 3 to 5 years after that.
    Mr. Frelinghuysen. Ms. Granger.

                           FISCAL RESTRAINTS

    Ms. Granger. Thank you. And thank you both for being so 
straightforward and talking about what the losses are if we do 
the lower amount. You know, when sequestration was first talked 
about, we kept saying, tell us what this means. We couldn't get 
that answer, and there are Members of Congress who really think 
it is really not going to hurt that much. It is really going to 
hurt and you have said that and I appreciate that.

                                 CV-22

    Now, continuing the tradition of asking parochial 
questions, and I am also shameless about this, but it is 
important, and General Welsh, we talked about the CV-22 fleet, 
and the requirement of 50 aircraft. I have one real simple 
question. Are you going to replace the three that were 
essentially lost by combat, and then the other thing is the 
future of the CV-22. And as they pick up more search and rescue 
missions, and Medevac missions, it seemed like it would make 
sense to use the CV-22s, as part of the combat rescue 
helicopter needs. Are you considering that?
    General Welsh. Yes, ma'am. To both questions, yes. Congress 
has already, I believe, appropriated the funding in support of 
that funding to replace the one training and one combat loss of 
the CV-22. And so the intent is to get back to the 50 aircraft 
that we originally had programmed in the budget and thank you 
for your support for that.
    On the combat search and rescue side, even though we are 
trying very hard to push forward with the combat rescue 
helicopter program, which we think is part of the fabric of our 
Air Force, if we are going to send people out the door, to go 
engage in aerial combat, I want to be able to look them in the 
eye and tell them we are going to come get them if something 
goes wrong. And the Secretary has stood very firmly behind her 
decision to push forward with that. And I think that has been 
wonderful for us.
    The issue over time is, does the concept of operations 
change to include CV-22s and the new combat rescue helicopter? 
We haven't made that decision yet. We will look at it over time 
because there are some environments the CV-22 lends itself to, 
longer distances, longer legs for rescue operations, et cetera, 
as we saw in the Libya operation, when a great Marine Corps MV-
22 crew went and picked up an Air Force F-15E pilot. And so I 
think we have to continue to evolve the concept of operations.
    Ms. Granger. Good, thank you. Thank you.
    Mr. Frelinghuysen. Mr. Ryan.

                            AIRLIFT CAPACITY

    Mr. Ryan. Thank you, Mr. Chairman. Just to follow up on my 
last question, so we talked about the backup aircraft, and you 
were pretty clear you want to get it down to about eight for 
each of these bases. So the extra aircraft that aren't going to 
fit in, we have surplus capacity. Where do those go?
    General Welsh. Some of them are not surplus capacity, 
surplus capacity overall. We have more airlift aircraft right 
now than we believe we need. You will recall, sir, that in 2012 
and 2013, some force structure actions that we were trying to 
take were held up because we hadn't done a good job of telling 
the story to the Congress and making it clear why we were doing 
this. We believe we have too many C-130s, and----
    Mr. Ryan. You just retire them?
    General Welsh. We have to retire some.
    Mr. Ryan. So how many do you think?
    General Welsh. The number is rough. I can give you exact 
numbers, but we have 358 or so now. We think we can go down to 
nearly 320, 318 or so, in the C-130 fleet. But I will give you 
the exact numbers. I have got these buried here somewhere.

    The information follows:
    The fiscal year 2015 President's Budget request sheds excess C-130 
capacity by reducing the fleet from 358 to 328 by fiscal year 2019 
based on the findings of the Mobility Capability Assessment 2018 (MCA-
18), signed in May 2013. The MCA-18 report determined that ``. . . 
there is no surge scenario associated with the current defense 
strategy, even one in which a significant homeland defense event occurs 
concurrently with two warfights, that requires a fleet of 358 C-130s.'' 
The report finds that the Air Force requires no more than 320 C-130s.

    Mr. Ryan. And we would still be able to meet our needs with 
that number?
    General Welsh. Yes, sir, that is what the latest mobility 
and capability assessment told us. So that has been the goal we 
have been targeting for the last couple of years.
    Mr. Ryan. Okay. Well, I would love to sit and dig into this 
a little further.
    General Welsh. Yes, sir. We would love to have that chance.

                         ADDITIVE MANUFACTURING

    Mr. Ryan. Madam Secretary, continuing the parochialism of 
the committee today, which is very unusual, I must say. We have 
been blessed with President Obama's first additive 
manufacturing institute of these 15 institutes he wants to 
stand up in the field of manufacturing. The top funder for this 
is the Department of Defense, and they are pursuing research, 
development, and eventually commercialization in additive 
manufacturing; phenomenally, transformational technology as I 
know that you know.
    One of the collaborations that is now called America Makes, 
one of the collaborations that we are proposing and we are 
having conversation, is between America Makes and the 
Youngstown Reserve Station, but also the Air Force Research Lab 
in Dayton. And there is an opportunity there, I think, for a 
real partnership to figure out, as you know, they can print 
parts for aircraft, and to work, to develop in Ohio with 
Dayton, Youngstown, and the America Makes facility, to really 
figure out how we can drive down the cost in the Air Force and 
other places in the military, but particularly in the Air 
Force, to drive down the cost of component parts manufacturing.
    So I would just like to bring that to your attention, and 
have you comment on it if you would like. General, you can 
comment on it as well, to just look at the possibilities we 
have. I mean, this is the idea of the institute.
    Mr. Chairman, I think this can be huge all across the 
military. We look at the amount of money we spend on 
replacement parts and whatnot. If we can start printing these 
parts ourselves in-house without transportation costs or any of 
the other necessary things that we need to do, I think it could 
be huge. So if you could just comment on that, and at least 
consider what we are proposing with the relationship between 
Dayton and Youngstown State, and the other relationships that 
we would like to put together.
    Ms. James. So Congressman, I am not familiar with this 
program, but I would like to learn more about it. As you said, 
it sounds very exciting and it is certainly, you know, my three 
priorities. And number three, I said, is make every dollar 
count and look for ways to do things smarter and better and 
save money. So I would love to learn more about it.
    Mr. Ryan. And maybe you can come out and see it.
    Ms. James. I would love to.
    Mr. Frelinghuysen. That is a good invitation.
    General Welsh. I have been looking at this a little bit. 
Air Mobility Command, for example, is a big fan of the idea, 
because if you can laser print parts in the back of a C-17, by 
carrying a portable laser with you when you deploy somewhere, 
you might not have to have as many problems of picking up parts 
along the route in the system.
    For those who are deployed to remote locations, it is even 
more important. Air Force Special Operations Command and others 
who operate the C-130s and other aircraft in other places where 
there is no rapid FedEx access. And so we have been looking at 
this Air Force Materiel Command, and actually Air Force 
Research Labs have been looking hard at this with your teams at 
Dayton, Ohio as you mentioned. This is a real ripe area for 
further research.
    Mr. Ryan. Yeah, well, great. We would love your support on 
this. I think it would be huge and I think it, as I said, drive 
down the costs and increase convenience a great deal. So we 
would appreciate your support on that.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Ryan. Judge Carter, 
welcome. I know you have been chairing a committee--the other 
committee on which I serve, and I apologize for my absence.

                       COAST GUARD C-130 TRANSFER

    Mr. Carter. Thank you, Mr. Chairman. I apologize for being 
late, and I have been chairing Homeland, and it is still 
ongoing, which--one quick question. How are we working out on 
our joint contract with getting our C-130s for the Coast Guard? 
They are working with the Air Force on a project. When can we 
anticipate--you know, one C-130 means a whole lot more to us 
than it does to the Air Force. Do you have any idea what the 
time frame is?
    General Welsh. I should, because I was just told this about 
3 weeks ago. The program is on schedule. It is on track. Bob 
Papp and I talked about this not long ago. It is exactly where 
we want it to be. I don't remember the dates. That is my fault. 
Let me get it for you.

                C-130 TRANSFERS TO THE U.S. COAST GUARD

    Mr. Carter. Well, let me know, because as I walked out the 
door they said, ask about our C-130s.

    The information follows:
    Contract award for the HC-130J for the United States Coast Guard is 
projected for December 2014, with aircraft delivery expected by 
November 2016.

            F-16 COMBAT AVIONICS PROGRAMMED EXTENSION SUITE

    Okay, Secretary James, according to the Defense news 
article, the cancellation of the F-16 combat avionics program 
extension system, CAPES, is one of the largest cost-cutting 
measures the Air Force is requesting. This program would 
upgrade 300 U.S. Air Force F-16s. Part of the CAPES program 
also included upgrades to 146 F-16s in Taiwan. Taiwan claims 
that the U.S. is not being up front on the cost that they would 
be burdened with to upgrade their F-16 fleet if the CAPES 
program is zeroed out.
    As the co-chair of the Taiwan caucus, I take great interest 
in this particular matter. Has the Air Force found a way to 
fund CAPES upgrades for F-16s in Taiwan? What liabilities will 
Taiwan face if Congress approves to eliminate the CAPES upgrade 
for the F-16? Taiwan's Minister of National Defense claims the 
U.S. Air Force officials are not providing them with 
information they need to take the appropriate action. Can you 
please elaborate on this, and explain the actions your service 
has to alleviate the issue?
    Ms. James. So Congressman Carter, you are right, Capability 
Evaluation System (CAPES) was one of the decisions that the Air 
Force made to try to meet the affordability targets. It saves 
us about $2 billion over the rest of the program (FY15-24) just 
to give you an order of magnitude there. My information, so I 
am going to have to now go back and look into your information 
there, but my information was, of course, we did inform Taiwan 
and we don't believe that it will be significant additional 
dollars for them as a result of this.
    But I heard what you just said, and I am going to have to 
take that back, unless the Chief has anything to add at this 
point, but that is a little different from the information I 
had.
    General Welsh. Same thing, ma'am. We don't think there is 
an increase to their top line costs at all, and we do believe 
they have been notified, so we need to go check this.
    Mr. Carter. Well, I want it clarified. When I was in Taiwan 
in October, everybody, including the cab drivers, were telling 
me that they needed their F-16s. They worry, and they are 
worrying even more now that there seems to be a trend of the 
big boys pushing the little boys around, coming our way, and 
they are worried about it. So do I have time for another 
question?
    Mr. Frelinghuysen. Absolutely.

                                  A-10

    Mr. Carter. Thank you. Thank you, Mr. Chairman. I am going 
to go--I know you all have had a little discussion about the A-
10, but I want to ask you some more things about the A-10. 
First off, I have--my office manager in my office is a former 
Army Command Sergeant Major, and he and many, many, many other 
Army people tell me that nothing makes a soldier smile brighter 
than a Warthog coming over the horizon, because they do a 
fantastic job in the, up close and personal where the Army 
needs it. And so from the standpoint of the ordinary soldier, 
the loss of that A-10 is a big deal because they really see 
that as a--they just smile at me and say, when they fire that 
cannon all the way, they almost stop dead still in the air, it 
has got so much force. We love that thing.
    General Welsh. Might not be a strength of the airplane.
    Mr. Carter. He says they are tough enough. You can't shoot 
them down. That is what he said. These Army guys, they love the 
A-10. But back to the more important thing. It was designed 
primarily as a tank killer, and a very effective tank killer, 
and we are looking at using it on the battlefields in Central 
Europe. Well, as we sit here today, 20,000 Russian troops are 
sitting on the border of Ukraine, and it is not beyond our 
imagination that we are going to be needing to kill tanks 
sometime in the future.
    So as we eliminate this effective tank killing airplane, 
how--what are we doing to cover these main risks that are 
associated with retiring the A-10s? Was the plan to retire the 
A-10s coordinated with the Army? What is the plan for the A-10 
divestment? Will these aircrafts be put in storage? What is the 
prospect of our allies taking the A-10s? What would the Air 
Force do if Congress mandated retention of the A-10 fleet? What 
will be used to fill the close air support CAS missions 
currently filled by A-10s. Are you confident these platforms 
will be able to fill the other roles? And finally, you have 
stated the A-10 only provides around 20 percent of the CAS 
missions. How is that number calculated?
    Ms. James. I was going to start, and Congressman, I just 
returned from Afghanistan, so I, too, was trying to get every 
ground commander that I could ask this very question about the 
A-10s. And as you point out, it is a very beloved aircraft, and 
nobody likes the idea of retiring it. But you also just 
mentioned this 80 percent/20 percent split, so and the chief 
will tell you how it is calculated, but this is an important 
point; that there are other aircraft--well, let me back up.
    A-10, or close air support is a mission. It is not a 
platform. So there are F-16s, and F-15Es and some of our 
unmanned vehicles and bombers, others do the close air support 
mission as well. In fact, 80 percent of the mission in 
Afghanistan was done by aircraft other than the A-10, and 20 
percent was done by the A-10.
    So to answer a couple of your questions, the plan is to 
divest it over 5 years, so it is not overnight. It is gradual, 
over 5 years. The plan, at the moment, is to fully retire them, 
so not to transfer them to other countries. If there would be 
other countries interested, I suppose that would be an idea. It 
was coordinated with the Army, and as you say, the Army loves 
the A-10, but what the Army really needs from us is the 
commitment for close air support, and they have that 
commitment, absolutely. It is a sacred mission. So those are a 
couple of points I wanted to add in.
    General Welsh. Sir, I have a son who is a Marine Corps 
infantry officer. He tells me the same things about the A-10s. 
The CAS is not an afterthought for the United States Air Force; 
certainly isn't one for me, and it will not be in the future. 
We have been doing close air support for a long time in the 
United States Air Force, in a major way since World War II. It 
is not going to slow down. We are not going to change, but we 
are going to do less of it, just like we are going to do less 
interdiction, less air superiority, less ISR, less everything 
with these funding levels. And so we had to look at how do you 
save big chunks of money. And that is where this came from. It 
is not really about the A-10. It is about balance and what an 
air commander provides a ground commander. The A-10 does close 
air support. The other airplanes we are talking about, F-16s, 
F-15Es, the B-1, they do other things besides close air support 
in an uncontested environment as we have had in Afghanistan.
    For the last 14 years, all we have done that got anybody's 
attention is close air support, so people don't understand the 
value of the rest of it in a large fight. But where you save 
the most lives for a ground commander, if you are an air 
commander, is by providing air superiority so they have freedom 
to maneuver and freedom to attack; by interdicting the enemy's 
will to continue the fight; by destroying leadership command 
and control; logistics infrastructure; reenforcement ability 
from the rear areas; by eliminating the enemy's second echelon 
forces, particularly their operational reserve, which is the 
Army commander's biggest concern. Do not let them commit their 
reserve at a time and place of their choosing. They don't do 
that against us because we erase their operational reserve.
    That is where the Air Force has saved big lives on the 
battlefield. And then we have to do close air support well. We 
do it well with lots of airplanes. The A-10 was designed, 
optimized with great help from Congress over the last 20, 25 
years, to be superb at this mission. But we are very good at it 
with other platforms. I don't want to give up the A-10, but if 
you look at what the trades are, you mentioned the backup plan, 
it is giving up the capability to do those other things. That 
is not acceptable.
    Mr. Carter. And I understand the big picture of what the 
Air Force provides, the real key to the world is control the 
air, especially in a tight battle, if you don't control the air 
you are dead. But then in turn, this was designed specifically, 
and I am no military expert. Believe me. I just read a lot of 
books. But in Korea, for instance, the F-86, they just, the 
ground forces discovered that the F-86 went too fast to be 
effectively low end protecting them, so they brought in P-51s.
    General Welsh. And----
    Mr. Carter. Yes, and they used them very effectively 
because they said they come by too fast. They are not as good 
as--it is not getting in close and personal like they had 
experience in the war 8 years ago.
    Mr. Frelinghuysen. The judge is well read, General.
    Mr. Carter. And I just want to make sure that because the 
old warthog is a slow lumbering big fortress that comes in and 
wreaks havoc and it gets big holes shot in it, I am aware of 
that, but it also certainly is--it makes individual soldiers 
light up with a smile when it comes in.
    General Welsh. Sir, I had a lot of time flying the A-10.
    Mr. Frelinghuysen. I think the General is well aware of our 
keen interest in it. Thank you, Judge.
    Mr. Carter. All right, thank you very much.
    Mr. Frelinghuysen. Thank you, Judge. Mr. Crenshaw, and Mr. 
Cole.

                            NUCLEAR MISSION

    Mr. Crenshaw. I am going to ask a question about the 
nuclear missile officer scandal, and I want to point out that 
is not a parochial issue. It happened a long way from Florida, 
but it raised some serious questions about quality of life, 
pointed out the fact that a lot of people are in places where 
they don't necessarily want to be. And so I am wondering what 
your plans are to make sure you have your personnel where they 
want to be, and in a program like this, how you plan on 
maintaining that as a career field?
    Ms. James. So, in the wake of this incident, which I have 
been on the job for 3 months. I think this happened when I had 
been on the job for either 2 or 3 weeks, both the Chief and I 
went out to the missile bases to sort of directly try to get to 
the bottom of what was going on there, and we both came back 
with impressions. There were seven impressions. I won't run 
through all of them with you, but I will just give you a few; 
that there is something systemic going on, you know, that the 
cheating was only in this one base, but there were systemic 
morale issues, there were systemic cultural issues, I will say, 
at all of the locations. And that part of the solution, or I 
should say the solution needs to be holistic, not just talking 
about cheating. If all you care about is the cheating, you can 
proctor the tests differently, and just take care of that and 
be done.
    But really it is more of a holistic approach. So we have 
had these two quick studies going on, one called the Commander 
Directed Investigation, and one is called the Force Improvement 
Plan. These are coming together and among other things, these 
are going to talk about people issues, and what do we need to 
do for morale, and professional development, and the 
consideration of accolades, and awards, and incentives, and so 
forth.
    So I think we are very close. By the way, we owe the 
Secretary of Defense a report within 60 days as does the Navy. 
He got together all of us in the Department of Defense to focus 
on the nuclear mission generally. And so our reports are almost 
coming due, and so we will have more to share on all of this, 
but the main point is, it will be holistic. It will be very 
people-focused, and I think we are also going to address this 
testing and training environment which at least struck me as 
being unhealthy when I saw it.
    Mr. Crenshaw. Thank you.
    Ms. James. The nuclear mission is safe and secure. I want 
to say that. There is a lot of checks and balances.
    Mr. Frelinghuysen. Right, I think that is important. I 
think you have done that publicly, reassured us, and actually, 
you and I first became acquainted soon after your appointment 
and I had two calls from you, and certainly the committee has a 
keen interest. I think the public, as we discussed sort of 
before the meeting, is unaware of your historic 
responsibilities in this regard. I think they need to have a 
better awareness. But if you continue to have those 
responsibilities, we need to have that assurance which you have 
given us.
    Ms. James. Yes.
    Mr. Frelinghuysen. But we are--that safety is first here. 
Mr. Cole.

                          SEQUESTRATION IMPACT

    Mr. Cole. Thank you, Mr. Chairman. Having drug us down into 
shamelessly parochial issues--that seems to be the phrase of 
the day--I am going to avoid that. I am going to ask you a 
question for the record, so I just wanted to alert you on C-130 
avionics modernization program, which I think the Air Force is 
sort of--well, not sort of. I think it has pretty much ignored 
congressional intent for 2 or 3 years so I am going to ask a 
pretty pointed question about why. But, I want to actually go 
back to much, much bigger issues, and you both touched on them 
in your testimony. A few years ago, when General Schwartz and 
General Luff was sitting in your chair and was briefing this 
committee, very justifiable pride about what his airmen had 
done the year before, and he ticked off he said, you know, we 
have been in combat operations in Iraq. We have done a 
wonderful job; been in combat operations in Afghanistan, done 
one terrific job. You know, unexpectedly were called upon to 
provide support to an important friend and ally in Japan during 
a national disaster that they had, and then with 6 days 
warning, conducted an air war over Libya that, you know, we can 
debate the wisdom of the war, but I don't think you can debate 
the success of the effort which was pretty magnificent.
    So, and I asked him, and he was warning about sequester 
then. I said--well, this was even pre-sequester. I said, given 
where we are going on our budget, tell me if you can do that 
for another President 2 or 3 years down the road. And he said 
no, we will not have the capability. We can probably do two of 
these things, maybe on a stretch, three, but we certainly 
couldn't do all of them again with the kind of force reductions 
that we are looking at. And this is pre-sequester. These were, 
you know, first round of cuts.
    So I am going to pose the same question looking forward to 
you. We have made you both make a lot of very tough decisions I 
know you didn't want to make, but I do think we are in danger 
of leaving the next Commander-in-Chief, whoever that happens to 
be, with a lot fewer options and capabilities than our 
Commanders-in-Chief have traditionally enjoyed in the last 
couple of decades, or really longer.
    So what, if you are looking ahead, you know, and you have 
told us you are going to do the best with what you have and I 
have no doubt that you will, tell us a little bit, in 2 or 3 
years, if we--you can do it either--well, both would be better. 
In a sequester scenario, or a non-sequester scenario, but just 
sort of steady State funding, what kind of capabilities will 
the President have in a crisis situation? What are the things 
he can do? What are the number of different contingencies if he 
had to face multiple contingencies, and they all do at some 
point, you know, what is he going to have to say, no, we can't 
do that anymore? Or that is one where, you know, we are just 
out of here?
    Ms. James. Why don't you go ahead.
    General Welsh. Congressman, it is kind of the key question 
for service chiefs and for the combatant commanders as they are 
trying to advise the chairman and the Secretary of Defense and 
the President. We are going to be able to do less, clearly, 
which means that we have to look at it in terms of the defense 
strategy we have today. If we return to sequestered funding 
levels and maintain that through the rest of this 5-year 
defense plan and beyond, we will not be able to execute the 
defense strategy the way it is written. All the service chiefs, 
I believe, are in full agreement on that.
    Even short of that, however, if there are adjustments made 
as you have done in the balanced budget agreement for the first 
couple of years here, if more adjustments are made along those 
lines, we still will have to be doing less because we are still 
putting a lot more, a lot less on our top line than we had 
planned to have on our top line, even 2 or 3 years ago.
    And so the ability of the Nation to present options to the 
President on how to be using the military sort of National 
power, are going to be more limited. You can't continue to stay 
involved everywhere we are involved and add new contingencies. 
You won't have the capacity.
    And in this business, quantity does have a quality all its 
own. You can have the best tanker in the world, but if you have 
only got one of them, you are not refueling in two oceans. And 
so some of this you have just got to have in the back of your 
mind as you look at options for the Nation to get engaged.
    Mr. Cole. Madam Secretary----
    Ms. James. I would just reiterate the point that that 
higher level over the 5 years will put us in a much better 
position than that sequestration level. We do feel bottom line 
that that sequestration level will compromise our security too 
much.
    Mr. Cole. Well, I just want to thank you both for making 
the point, because I think it is, as my colleague, Ms. Granger 
mentioned, it is a point we need to make over and over for the 
American people, and frankly, for the Congress much more 
specifically that these things do have real life consequences, 
and we really are going to have Commanders-in-Chief that are 
not going to be able to do what we have traditionally thought 
American Presidents could do, and should be able to do not only 
for this country, but for other countries around the world in 
terms of our total security.
    So I mean, so it is real stuff we are playing with. It is 
not just, you know, my AWACS versus his tankers, versus you 
know, an A-10. It really is less capability for the country and 
for the President in a time of crisis.
    Mr. Frelinghuysen. Thank you, Mr. Cole. Points well taken. 
Mr. Visclosky.

                            NUCLEAR WEAPONS

    Mr. Visclosky. Thank you, Mr. Chairman. General, do you 
have any thoughts on how to formalize a process in conjunction 
with the Nuclear Weapons Council, Department of Defense, and 
NNSA?
    General Welsh. Beyond the current process, I am assuming 
you mean?
    Mr. Visclosky. Right.
    General Welsh. Sir, I think this is one that we actually 
worked pretty hard. There are different factors driving 
everybody's decisions, obviously, as you move across government 
agencies. And the biggest problem we have within National 
Nuclear Security Administration (NNSA), and ``problem'' is 
probably the wrong word, the biggest tension we have trying to 
balance our modernization plans with things like the B-61, for 
example, with their modernization plans for things like the B-
61, and when we are working on common programs, we have to make 
sure that our plans are closely aligned because if one side or 
the other deviates from the plan, the funding becomes 
inefficient, the program is put at risk, and certainly falls 
behind timelines. So we are trying to do that at every level 
from the program office up to the Commander of the Air Force 
Global Strike Command. It is one of the reasons that our 
predecessors put in place a directorate on the air staff 
responsible for only nuclear matters to help us in that debate 
within the Department and across departmental lines every 
single day.
    Mr. Visclosky. And I know what the answer should be, and I 
am not asking it to put you on the spot or be trite, but both 
the chairman and I have chaired the Energy and Water 
Subcommittee. I have been ranking on the committee. Mr. Calvert 
serves on it today. Ms. Kaptur does, which I think is very, 
very healthy because of the coordination of the two 
subcommittees and their jurisdiction.
    I was always under the impression that DOD may not give as 
much thought as possible to all of the cost implications to the 
NNSA and the Department of Energy as to what their needs are. 
But we need it. But it is in NNSA's budget. It is not on my 
line. I need it. Would you just address that if you could? This 
is a care or lack thereof.
    General Welsh. Yes, I would say you are a smart guy and we 
probably ought to go look at this concern. I don't know if--how 
I would stand on that. I don't know the history behind this. I 
would have to go take a look at this and advise the boss on 
where we think this stands. But I can certainly understand what 
you are saying the problem could be. I don't know if it is a 
problem today or not. I would be making up an answer, sir.

                         DUAL CAPABLE AIRCRAFT

    Mr. Visclosky. And you mentioned the B-61, and I do have a 
question on that. In earlier testimony, on the 2015 budget, you 
reaffirmed the Air Force's commitment to making the F-35 a dual 
capable aircraft; that is non-conventional weapons, and there 
is a request for $15.6 million in the budget to study and 
analyze the fielding of the B-61 on the F-35. There is also a 
quarter of the request for $198.4 million for the life 
extension program for the B-61 for the integration and 
modernization of these gravity bombs for a variant to be placed 
on the F-15 and the F-16.
    If the F-35 is going to represent a sizeable portion of the 
Air Force, and we are going to spend money as far as if you 
would be matching up the gravity bomb and the F-35, it is a lot 
of money for another variant of a nuclear weapon on a plane 
that is going to see less and less use. Andbe I am wondering 
from a cost-effective standpoint, is that a wise decision to 
spend all of that money on a variant for an aircraft that has 
seen better days?
    General Welsh. That is a great question, sir. The F-35 is 
not yet nuclear capable.
    Mr. Visclosky. Right.
    General Welsh. The F-16 and 15E are. As we do the 
transition between the platforms, I don't know what is going to 
happen to funding for the Defensive Counter-Air (DCA) 
capability on the F-35 over time. I just don't know. The hedge 
is the F-15E. So the F-16 is more of a near-term problem. When 
the B-61 first releases, will we still have some F-16s doing 
the DCA mission? We think that is possible. Therefore, we plan 
to make sure that they are capable of doing the mission. The 
policy decision is that we will support the mission. Now, we 
don't make that decision.
    The F-15E will be capable through the early 2030s, to 
support the mission and that is kind of our hedge for the 
transition into the F-35. So as the F-35 comes on board, gets 
to full operational capability, and we start to actually do the 
transition to the F-35 being a DCA platform, if that remains 
the policy decision of the Nation, then during that time 
period, the F-15E will be here to ensure we can continue the 
DCA mission until we can make the transition. That is all this 
is intended to be.
    Mr. Visclosky. Well, I do have concerns, simply because if 
we are talking about a life extension program, it is not 
something that is done tomorrow. You know, since, there is some 
concurrency as far as the two tracks of the F-35, downward 
slope, and I am spending--the taxpayers are spending a lot of 
money on doing two life extension programs for a gravity bomb 
that probably as we proceed with the arsenal is going to also 
see from a numerical standpoint a smaller portion. It is a lot 
of money.
    General Welsh. Yes, sir. With the timeline for right now, 
we still believe the first production unit of the B-61, of the 
bomb assembly being developed by DOE will come out in about 
2020 or so, late 2019, early 2020. And if that is the case, we 
do not believe that F-35 will be involved in the DCA mission 
yet at that point.
    Mr. Visclosky. Do you think that is necessary?
    General Welsh. Is what necessary, sir?
    Mr. Visclosky. That if you have a gap, if you would, do you 
think that is a critical gap?
    General Welsh. Not if the airplane that we have that is 
available today to fly the mission in support of NATO, for 
example, can carry the weapon. That is the integration with the 
F-15E and the F-16. They are the airplanes doing it today.
    Mr. Visclosky. Okay, if I could, the Air Force apparently 
has been very successful, has an efficient space deterrent 
program. Apparently, those processes are going to be applied to 
a space modernization initiative, and I guess the question I 
have, has the efficient space procurement program gone away, 
and are we taking the lessons learned to a new initiative, or 
are we going to now have two different initiatives?
    General Welsh. No, sir, I don't think so. I think----
    Mr. Visclosky. That wasn't confidence building.
    General Welsh. She is remarkably able to send thoughts my 
way.
    Ms. James. Yes.
    General Welsh. I will just make a side comment here. I have 
never worked with somebody who picks things up as fast as my 
new boss does, which is going to be remarkably good for this 
committee, I believe, and for the Air Force.
    Ms. James. I will give your money later, General Welsh.
    Mr. Frelinghuysen. You make a pretty good team, but we were 
watching your body language very carefully.
    General Welsh. She is making me study. The efficient space 
procurement strategy really is formed on four principal points, 
I will make sure I say them right: Stable R&D funding, block 
buys, fiscal authorities that allow you to maintain a smooth 
spending profile, fixed-price contracts, and then should cost 
reviews throughout the life of a program. And I think we are 
talking about the same thing, sir. I don't think that is any 
different than the focus areas you are talking about now.
    Mr. Visclosky. Do you know if there is a chart or any type 
of a document that the committee could have for the record 
relative to the initiation of the space modernization 
initiative? And if not, if you could for the record answer 
that, that would be great.
    General Welsh. Yes, thank you very much.
    Mr. Visclosky. Thank you, Mr. Chairman.

                                 KC-10

    Mr. Frelinghuysen. Thank you. Let me associate, as we say, 
myself with the ranking, of our interest in getting more 
information on both of those questions and points he has 
raised.
    Getting back to the tankers again, General, I just want to 
somewhat put a question into the record. As you know, General 
Welsh, the Air Force operates five dozen KC tankers out of 
Travis Air Force Base on the West Coast, and Joint Base McGuire 
on the East Coast. The Air Force has suggested if the 
sequestration returns in fiscal year 2015, it will retire the 
entire fleet of KC-10 extenders. I am aware of the Air Force's 
argument that it saves more money to retire the entire airframe 
because you do not have to maintain the school house, and 
maintenance systems, the logistics detail. But how much service 
life is left on these KC-10s?
    General Welsh. Sir, this wouldn't be a retirement because 
we can extend it longer. It can extend longer. The question is, 
just where do you take the cuts from? It is back to the balance 
discussion. And when we did our operational analysis, we 
determined that the KC-10 would be the next fleet that would 
make the most operational sense to retire if you had to retire 
something. There are no good answers.
    Mr. Frelinghuysen. But tell me if I am wrong, the KC-10 is 
the only aircraft that has both the boom and the basket to 
refuel.
    General Welsh. Until the KC-46 starts fielding in 2016----
    Mr. Frelinghuysen. It is still going to be the aircraft of 
choice?
    General Welsh. Yes, sir. The KC-46 will provide that 
capability, but the issue for us is number of booms, not just 
how good each boom is. And so if we take the number of KC-135s 
away that can pay the same bill, we cannot support the global 
mission. If we take the KC-10 fleet away, even though we don't 
want to, you can do the mission. It will just put more strain 
on it.
    Mr. Frelinghuysen. Okay. Any other questions?
    Ms. James. Mr. Chairman, could I also say that is a fiscal 
year 2016 issue. So under no circumstances would we do this in 
fiscal year 2015. But if sequestration returned, those levels, 
if we have to live with those levels, then----
    Mr. Frelinghuysen. We are going to do our level best to 
make sure that sequestration does not return. I think on behalf 
of all of our members, I want to thank you for your testimony. 
Madam Secretary, General Welsh, appreciate your being here. We 
do have a number of questions for the record and if you could 
expedite responses, we would appreciate it. The meeting stands 
adjourned. Thank you.
    [Clerk's note.--Questions submitted by Mr. Crenshaw and the 
answers thereto follow.]

                         Afghan Pilot Training

    Question. The American people have spent billions of dollars 
training and equipping Afghan pilots and aircrew so they can be 
responsible for their own operations once the U.S. has ended its combat 
mission in theater. I am concerned that the political uncertainty 
surrounding how many, if any, U.S. forces will be left in Afghanistan 
at the end of 2014 will destroy all the work that the United States has 
done to build the Afghan's aviation capacity and capability.
    Madame Secretary, please provide this committee with an update on 
the plan to base Afghan pilots on American soil to continue their 
flight training. What are some of your concerns with the proposed plan?
    Answer. A temporary stateside training option is being considered 
to ensure the Afghan Air Force (AAF) receives the support and training 
it needs to safely and effectively employ a platform for conducting air 
interdiction and close air support operations within their home 
country.
    The U.S. Air Force is following its formal strategic basing process 
to determine the most suitable location for a contingent of 20 A-29 
aircraft for use in Afghan pilot and maintenance training. In its 
assessment of possible locations, the U.S. Air Force has identified 
Mountain Home AFB, Idaho, Moody AFB, Georgia, and Shaw AFB, South 
Carolina, as the three candidate bases for a possible Afghan A-29 Light 
Air Support training mission. The U.S. Air Force is now accomplishing 
site surveys to begin evaluating a range of operational and 
infrastructure requirements. If training in the U.S. is to occur, 
aircraft may arrive at the host base as early as September 2014, but 
the first Afghan trainees would not arrive until February 2015.
    We acknowledge that the basing timeline is aggressive and much work 
remains. For example, we will need to ensure that appropriate National 
Environmental Policy Act requirements are met within this timeframe. 
Additionally, it is important that we accept student candidates who are 
properly identified and prepared to meet the challenges of operating 
and maintaining this aircraft.
    Question. Additionally, even though reports of ``green on blue'' 
attacks has decreased, can you please discuss the security requirements 
and procedures that need to be in place to ensure that we are not only 
protecting our service members who will be training these aviators, but 
also ensure the safety of those who reside on and near these 
facilities?
    Answer. The United States provides training for thousands of 
international students each year in the U.S.--not only with the U.S. 
Air Force, but with all branches of the Armed Forces. We are proud to 
encourage and enable international partners to work with the United 
States to achieve strategic objectives. We have already trained several 
Afghan fixed wing pilots in the U.S., and the Army has trained Afghan 
helicopter pilots in the U.S.
    Vetting requirements are more stringent for training conducted 
outside of Afghanistan than for programs conducted in-country. As such, 
all potential Afghan Air Force (AAF) trainees are nominated by AAF 
leadership for training outside Afghanistan. In-country U.S. and 
coalition organizations, in coordination with the U.S. Department of 
State, then ensure the trainees undergo proper vetting and meet visa 
requirements prior to their departure for the United States.
    The proposed Afghan A-29 training squadron would be commanded by a 
U.S. Air Force officer in order to facilitate safe and effective 
training within U.S. Air Force regulations. Afghan pilots are subject 
to the same flying rules and restrictions as U.S. Air Force pilots; 
additionally, the training squadron would embed U.S. advisors to 
specifically ensure safety in flight operations. The A-29 is a tandem 
two-seat aircraft and a U.S. instructor pilot will occupy a seat that 
has its own set of flight controls; this allows the instructor to take 
control at any time. The U.S. instructor pilot can inhibit any weapons 
dropped from the aircraft through a ``consent switch,'' which can 
prevent drop commands from the front seat. The training program is 
designed to have U.S. presence at the flight controls on all Afghan 
training sorties.
    The U.S. Air Force plans to hire dedicated personnel stationed at 
the location where training will take place. These personnel take 
measures to discourage possible absences and will maintain contact with 
the students on a daily basis to include weekends.

                    B-2 Defensive Management System

    Question. The Air Force indicated in the fiscal year 2014 budget 
justification materials that modernization of the B-2's Defensive 
Management Systems (DMS) was the number one priority modification 
program for the B-2 and critical to ensuring that this platform will 
remain survivable against the world's most advanced adversary 
technologies. However, the fiscal year 2015 request for the B-2 DMS 
program is $160.6 million below what the request was when the fiscal 
year 2014 budget was submitted last year.
    What are the impacts to the scheduled fielding of the upgraded B-2 
DMS capability should the committee approve the Air Force's fiscal year 
2015 budget request for this program?
    Answer. The Air Force's fiscal year 2015 budget request will delay 
fielding of the B-2 Defensive Management System modernization by two 
years. Initial operational capability will be 2021 instead of 2019, and 
full operational capability will be in 2022 instead of 2020.
    Question. Does the new schedule for fielding this capability 
adequately address emerging threats to the B-2?
    Answer. The new fielding schedule adequately addresses emerging 
threats to the B-2. The new schedule will not impact the enhancement of 
the B-2 direct attack capability by addressing emerging and future 
threats and robust modern Integrated Air Defense Systems. The delayed 
fielding does delay the reduction of the risk to the aircraft and 
aircrew, but the risk is acceptable.
    Question. Could additional funding for this program accelerate the 
schedule for deploying the new capabilities?
    Answer. No. Additional funding for the B-2 Defensive Management 
System would have negligible impact to the schedule for deploying the 
new capabilities.

                Light Air Support Foreign Military Sales

    Question. This committee has been committed to ensuring that the 
United States is able to provide our international partners with the 
ability to provide light air support for their ground forces. This is 
especially important for nations like Afghanistan who have limited 
infrastructure and capabilities. While many nations cannot afford to 
buy and maintain large jet fighters, it is still essential that they 
have sufficient air power to counter threats to security and stability.
    Secretary James, in the fiscal year 2014 Omnibus Appropriations 
bill, Congress instructed the Air Force to provide notice prior to 
entering into any contract for LAS aircraft. How is the Air Force 
handling requests for light support aircraft? Also, please describe the 
status of the LAS foreign military sales program and discuss any 
potential buyers.
    Answer. All requests for light support aircraft (LAS) are processed 
by the Air Force in accordance with established policies and 
procedures. We acknowledge the provision in the fiscal year 2014 
Consolidated Appropriations Act to provide notice prior to entering 
into any contract for future LAS aircraft. If a security cooperation 
partner nation requires LAS capability, the acquisition strategy would 
depend on the funding source. If the new country uses its own national 
funds, it could specify that the purchase be made from a specific 
contractor (sole source) for its LAS-like aircraft, like Iraq did with 
the AT-6. If a partner nation is relying on Department of Defense (DoD) 
funding, such as the Afghanistan Security Forces Fund appropriation, as 
in the case for the LAS for Afghanistan, the Air Force would compete 
the effort in accordance with U.S. acquisition statutes and 
regulations, to include the Competition In Contracting Act.
    Currently, the Air Force is executing a Letter of Offer and 
Acceptance (LOA) for 20 A-29 aircraft for Afghanistan and has received 
a Letter of Request (LOR) from Iraq for 24 AT-6C aircraft. A fiscal 
year 2014 Global Train and Equip (Section 1206) case for an 
intelligence, surveillance, and reconnaissance (ISR)-only LAS platform 
has been approved for the country of Yemen. Additionally, the Republic 
of the Philippines has submitted an LOR for price and availability for 
LAS aircraft, to which the Air Force has responded. However, the 
Philippines has not pursued this aircraft acquisition any further, at 
this time.
    [Clerk's note.--End of questions submitted by Mr. Crenshaw. 
Questions submitted by Mr. Calvert and the answers thereto follow.]

                Evolved Expendable Launch Program (EELV)

    Question. Is it your intent to sole source launches for which a New 
Entrant could compete?
    Answer. The Air Force intends to compete portions of the launch 
manifest each year in 2015, 2016, and 2017 if there is even one new 
entrant is ready to compete (i.e., they have successful launches and 
have completed the required certification steps as documented in their 
certification plan). Currently, the Air Force plans to compete 7 of the 
8 missions in fiscal year 2015 to fiscal year 2017 that we assess new 
entrants as being able to lift: NROL-79, AFSPC-9, GPS III-4, 5, & 6, 
SBIRS-5, NROL-47. The 8th, SBIRS-4, is planned for the 36-core buy to 
maintain requirements contract terms and preserve $4.4 billion in 
savings gained. The Air Force is committed to competition as soon as a 
certified New Entrant exists and is examining options to compete 8 
instead of 7 missions in the fiscal year 2015 to fiscal year 2017 
timeframe.
    Question. It is our understanding that there are actually five 
missions that New Entrants have the capability to compete for in 2015 
alone: GPS III-3, NROL-61, NROL-42, NROL-79, SBIRS-4. Were you aware of 
this and if so will you open these missions to competition, as was 
clearly the letter and spirit of the Kendall Acquisition Directive?
    Answer. There are updates to your information. First, GPS III-3 is 
currently planned to be awarded in fiscal year 2014. Second, our 
current assessment indicates that the Falcon 9 v1.1 cannot launch NROL-
61 or NROL-42 payloads. Additionally, the satellite designated for 
NROL-61 is a fixed-price contract, which includes the launch service as 
government furnished equipment. We will not open up a previously 
awarded fixed price contract. NROL-79 is planned for competition. SBIRS 
GE0-4 was moved into the 36 core buy to preserve requirements contract 
terms and the $4.4 billion in savings achieved with the block buy. The 
Air Force is committed to competition as soon as a certified new 
entrant exists and is investigating options to compete 8 instead of 7 
missions in the fiscal year 2015 to fiscal year 2017 timeframe.

                U-2, Global Hawk, and High Altitude ISR

    Question. Two years ago the Department of Defense wanted to cancel 
the Global Hawk Block 30. At the time, the Department stated that while 
the two systems had roughly equal operating costs, the U-2 collected 
far better imagery. What has changed in the last two years that led to 
this about-face?
    Answer. The Department of Defense determined the RQ-4 Block 30 will 
be sufficient over the long-term to meet intelligence, surveillance, 
and reconnaissance (ISR) requirements when considered within the total 
portfolio of ISR capabilities. The lower operating cost of the RQ-4, as 
seen in the reduction of the system's cost per flying hour and enabled 
by its greater endurance, became the primary driver for retaining the 
RQ-4. Although upgrades to the Block 30 will cost more in the near-term 
versus keeping the U-2, the potential long-term savings provided the 
rational basis to retain the RQ-4 Block 30.
    Question. These two platforms, the Global Hawk and the U-2, have 
some overlap, but they each bring unique capabilities to the high 
altitude ISR mission. Furthermore, both systems are being heavily 
employed overseas. Should we be reviewing these as rival, rather than 
complimentary systems?
    Answer. The Air Force has long viewed the RQ-4 and U-2 as 
complementary systems, but cannot afford to maintain both in the 
current fiscal environment. Both systems provide unique capabilities to 
the warfighter, and if the Air Force could maintain both fleets, it 
would.
    Question. If the U-2 retires, will there be a gap in our capability 
to collect intelligence?
    Answer. With a force structure reduction, there will be less 
intelligence, surveillance, and reconnaissance (ISR) capacity to meet 
conventional peacetime and wartime requirements; however, the 
Department of Defense has determined that the RQ-4 Block 30 force 
structure is sufficient when considered within the total portfolio of 
ISR capabilities. Some losses in ISR capability can be mitigated with 
planned upgrades to the RQ-4 and the Air Force is accepting some 
increased risk to combat and peacetime ISR collection capabilities. Any 
specific mission, capability, or capacity gaps must be discussed at a 
classified level.
    Question. When the Department of Defense wanted to cancel the 
Global Hawk Block 30 two years ago, the Air Force had 18 aircraft 
delivered or on contract. Congress mandated that the Air Force purchase 
three more that had already been appropriated, bring the total fleet to 
21. The program of record was for 31 aircraft. If the U-2 is retired, 
will there be a need to procure more Global Hawks?
    Answer. Based on Joint Requirement Oversight Council requirements, 
the current programmed fleet of 21 Block 30 will be sufficient. There 
will be no need to procure any RQ-4 aircraft beyond the pith-filed 21 
aircraft.
    Question. What are the plans to increase the Global Hawk's 
capabilities in the Pacific theatre?
    Answer. The RQ-4 Block 30 is already operating in the Pacific. The 
fiscal year 2015 President's Budget request funds Block 30 improvements 
to increase operational reliability, including improved performance in 
inclement weather and avoiding conditions previously resulting in early 
recovery or flight cancellations. In addition, the budget request 
provides funding to transition unique U-2 sensor capabilities to the 
Block 30 in the future years defense program at fiscal year 2015 
funding levels. Starting in the third quarter of fiscal year 2014, the 
RQ-4 will open up a temporary forward operating location in Japan to 
improve mission reliability during the Pacific typhoon season. In 
addition, the first deployment of Block 40 early operational capability 
(pre-initial operational capability) is scheduled to deploy to Guam in 
mid-2014.
    Question. Do you plan to adapt the U-2's sensors for the Global 
Hawk?
    Answer. The Air Force plans to capitalize on our long experience 
with the U-2 as we transition the conventional high altitude 
intelligence, surveillance, and reconnaissance (ISR) responsibilities 
solely to the RQ-4. The fiscal year 2015 President's Budget request 
provides investments to transition unique U-2 sensors to the RQ-4 Block 
30. An engineering feasibility study is ongoing with a report due to 
the Congress this summer. Pending the outcome of this study, the Air 
Force will develop plans to integrate the Senior Year Electro-Optical 
Reconnaissance System (SYERS) and the Optical Bar Camera (OBC) on the 
RQ-4 Block 30. However, the sensor transition to Block 30 will be 
deferred if the budget is reduced to the Budget Control Act levels.
    Question. One of the Global Hawk's perceived shortcomings is its 
difficulty in avoiding bad weather, which is a particular problem for 
the Pacific theater, and its lack of an anti-icing system. What are the 
plans to address these concerns?
    Answer. The Air Force's fiscal year 2015 budget request includes 
funding for three distinct efforts related to these concerns:
    1. A weather radar system that will enable operators to avoid 
thunderstorms;
    2. Ice shape testing to better understand how icing conditions 
affect the airflow over the Global Hawk's wing; and
    3. A heated cowling on the Global Hawk's engine inlet which will 
prevent ice buildup.
    All three efforts are scheduled to begin in fiscal year 2015.
    Question. The U-2 carries the wet-film Optical Bar Camera (OBC), 
which produces high-resolution digital imagery; it is highly trusted, 
making it critical to certain situations--such as the U.S. mission to 
monitor the Middle East peace treaty. If the U-2 retires, how will you 
address this capability gap?
    Answer. The Department of Defense does not intend to gap Middle 
East peace treaty support and is pursuing options to fulfill this 
requirement based upon the fiscal year 2015 President's Budget request. 
The Optical Bar Camera (OBC) capability is not available from any other 
Department of Defense platform. OBC is a ``wet film'' sensor, providing 
broad area synoptic coverage. The fiscal year 2015 President's Budget 
request provides funds to transition the U-2 OBC and the Senior Year 
Electro-Optical Reconnaissance System sensor to the RQ-4 Block 30 by 
fiscal year 2019. In the interim, the Air Force and the Office of the 
Secretary of Defense for Intelligence are assessing OBC capability 
options from the time of U-2 shutdown until RQ-4 is capable and 
approved for the mission. Those plans will be developed by the Air 
Force and coordinated with the rest of the Department of Defense, the 
Department of State, and the National Security Council, as required.
    [Clerk's note.--End of questions submitted by Mr. Calvert. 
Questions submitted by Mr. Cole and the answers thereto follow.]

                                  E-3

    Question. General Welsh, we still have Homeland Security 
responsibilities and the strategy calls for U.S. forces to ``defeat'' a 
regional adversary in a large-scale, multi-phased campaign, and 
``deny'' the objectives of, or impose unacceptable costs on, an 
opportunistic aggressor in another region. Does it make sense to lose 
the most effective, efficient, and qualified crew members ever 
assembled on the E-3? How do you capture the experience of service 
members who have developed special E-3 skills and experience when you 
do away with the one and only E-3 Reserve squadron?
    Answer. In order to retain maximum flexibility to fulfill combatant 
commanders' requirements, execute the strategy as described above, and 
endure a high operations tempo, the best way forward is to transition 
to an all-active duty E-3 AWACS force structure and to divest the 
reserve squadron. The ultimate decision to divest this squadron was a 
result of Budget Control Act-mandated reductions. Being responsive to 
homeland security requirements and global ``defeat'' and ``deny'' 
operations requires a force that can be deployed at a moment's notice. 
Because we do not want to lose these highly qualified E-3 Reserve 
aircrew members, we intend to retain their operational knowledge and 
Airmanship expertise within the Reserve force. In fiscal year 2016, the 
Air Force plans to incorporate the Reserve AWACS 513th Air Control 
Group into the Reserve KC-135 Wing currently at Tinker Air Force Base, 
Oklahoma. Four KC-135s and E-3 Reserve personnel will be added to the 
KC-135 Wing.
    Please note that the fiscal year 2015 President's Budget request 
decisions were a Total Force effort and each component--Active, 
Reserve, and Guard--recommended these tough choices in light of fiscal 
constraints.
    Question. General Welsh wouldn't it make more sense to augment the 
Reserve squadron and reduce the number of active duty E-3s if you 
wanted to save money and preserve a mission? How did you arrive at this 
recommendation and did you consider alternatives?
    Answer. In light of the Budget Control Act (BCA)-directed 
reductions, the Air Force concluded it is most prudent to trade 
capacity in order to retain capability. Based on Title 32 limitations 
for utilizing the Reserve force, the best course of action for meeting 
both BCA-directed reductions and maintaining the maximum ability to 
fulfill combatant commanders' requirements was to divest 7 E-3 aircraft 
and both associated active duty and Reserve personnel. Augmenting the 
Reserve force would not increase flexibility to meet prioritized 
combatant commanders' requirements and fund modernization of the aging 
command and control (C2) enterprise. Modernization of the C2 
enterprise--AWACS 40/45, JSTARS recapitalization, 3-Dimensional 
Expeditionary Long Range Radar (3DELRR) acquisition, Air Operations 
Center (AOC) 10.2 upgrade, and Deployable-Radar Approach Control (D-
RAPCON) acquisition--is critical to the Air Force being ready to meet 
the operational demands of the future fight in 2023 and beyond.
    Please note that the fiscal year 2015 President's Budget request 
decisions were a Total Force effort and each component--Active, 
Reserve, and Guard--recommended these tough choices in light of fiscal 
constraints.
    Question. General Welsh, most recently, the 513th ACG activated yet 
again for 180 days May-Nov 2012 to deploy and completely take over the 
OEF Mission in Afghanistan, as the Active Component could not maintain 
their mission without the 513th Air Control Group. Without their 
support, there wouldn't have been enough AWACS crews able to deploy in 
theater. How will the Air Force adjust to meet the demand for this 
asset?
    Answer. The Budget Control Act and the resulting sequestration-
level funding constraints compelled the Air Force to make changes and 
cuts that will impose higher near-, mid-, and far-term operational risk 
across a broad range of mission areas and platforms. These constraints 
drove the Air Force to assume additional risk with the E-3 AWACS in 
order to fund critical modernization of the aging command and control 
enterprise. The E-3 AWACS inventory reduction will exacerbate 
operational shortfalls. As with other high demand/low density 
platforms, the Air Force will provide assets to meet the critical 
priorities of combatant commanders through the global force management 
process.
    Question. Cutting platforms and programs such as JSTARS, Compass 
Call, and AWACS, removes high demand, low density assets that support 
the combatant commanders. I'd like to understand the rationale behind 
the decision to cut high demand, low density assets and how that 
comports with the priorities that were laid out in the QDR and the 
Defense Planning Guidance.
    Answer. The fiscal environment required tough choices, and the 
fiscal year 2015 President's Budget request cuts capacity across all 
Air Force missions. Due to these constraints, the Air Force chose to 
trade capacity in order to sustain critical modernization for airborne 
and ground command and control (C2) systems to remain operationally 
viable for contested/highly contested environments. The capacity 
reduction permits completion and fielding of E-3 AWACS Block 40/45 by 
2020, continuing modernization of legacy E-3 AWACS avionics systems, 
and other needed C2 modernization, including: Deployed Radar Approach 
Control; Air Operations Center 10.2; and Three Dimensional 
Expeditionary Long Range Radar (3DELRR). In order to improve E-3 AWACS 
capacity, we are funding an analysis of alternatives to evolve the E-3 
AWACS mission into a more efficient and effective platform, similar to 
the E-8 JSTARS recapitalization effort. The EC-130H Compass Call fleet 
reduction was another tough decision given the unique and critical 
capability it brings to combatant commanders. Over the next five years, 
even with the reduction of half the fleet, there will be capacity to 
support most combatant commander airborne electronic attack 
requirements. It also allows time for analysis to replace the 
capability in a manner that will allow operation in the range of non-
permissive combat environments outlined by the Quadrennial Defense 
Review and Defense Planning Guidance.

                               C-130 AMP

    Question. The fiscal year 2014 President's Budget stated, ``with 
termination of C-130 Avionics Modernization program (AMP), the Minimize 
C-130 Communication, Navigation, Surveillance/Air Traffic Management 
(CNS/ATM) option provides minimal airspace compliance focused program 
to modify 184 C-130H aircraft.'' It is alarming that the Air Force has 
identified the C-130 AMP for termination after investing over $2 
billion in the program.
    Even more alarming is the fact that even despite funds being 
appropriated in fiscal years 2012, 2013, and 2014 for the program of 
record, those funds have remained unobligated and it appears no effort 
has been made to move the program forward. To date, C-130 AMP has been 
on cost and schedule since 2007, and resulted in the delivery of five 
modified aircraft and four additional kits. Moreover, a robust training 
program is in place with full motion simulators and multiple aircrews 
and maintenance personnel have been trained.
    Secretary James, the Air Force has ignored congressional intent for 
the past three budget cycles and does not plan to obligate funding 
authorized and appropriated in fiscal year 2014 for the C-130 AMP. The 
Air Force has sunk $1.5 billion in developing and testing this 
successful program and now plans to shelve the taxpayers' investment. 
Why has the Air Force not continued the C-130 AMP program?
    Answer. In today's fiscally constrained environment, C-130 AMP is 
too expensive ($3.15 billion for 187 aircraft) and not all upgrades are 
essential. A reduced scope C-130 CNS/ATM program meets Federal Aviation 
Administration and international airspace requirements at a 
significantly lower cost--$0.62 billion. Due to fiscal year 2013 budget 
constraints, the Air Force attempted to cancel the C-130 AMP and 
replace it with the reduced scope ``Optimize Legacy C-130 CNS/ATM'' 
program. Section 143 of the National Defense Authorization Act for 
Fiscal Year 2013 prohibited the Secretary of the Air Force from taking 
any action to cancel or modify C-130 AMP until a period of 90 days 
after the Secretary submitted to the congressional defense committees a 
cost-benefit analysis. This congressionally mandated analysis was to 
compare the C-130 AMP to a reduced scope CNS/ATM program and be 
completed by the Institute for Defense Analyses (IDA). The Institute 
for Defense Analysis (IDA) study, delivered to Congress on November 15, 
2013, recommended that the Air Force not continue the AMP program. 
Accordingly, the fiscal year 2014 President's Budget request funded a 
reduced-scope ``Minimize C-130 CNS/ATM'' program to meet minimum CNS/
ATM requirements and ensure global access. However, the National 
Defense Authorization Act for Fiscal Year 2014 again prohibited C-130 
AMP cancellation pending a Comptroller General sufficiency review of 
the IDA study. The fiscal year 2015 President's Budget request funds 
the reduced scope C-130 CNS/ATM solution; however, the Air Force is 
unable to proceed until Congress removes the restrictive legislative 
language.
    Question. Secretary James, in lieu of C-130 AMP, the Air Force 
plans to develop a lesser avionics modernization capability that will 
not provide the required capability throughout the service-life of the 
C-130 aircraft to meet FAA and international airspace flight 
restrictions. What is the cost to develop a lesser avionics 
modernization program that will satisfy airspace flight restrictions to 
keep C-130 aircraft relevant and capable through year 2040, its 
projected service-life?
    Answer. The fiscal year 2015 President's Budget request includes 
funding for the C-130 CNS/ATM program. This program will allow the C-
130H aircraft to meet the January 2020 Federal Aviation 
Administration's airspace mandates. The total fiscal year 2015 Future 
Years Defense Program funding for the C-130 CNS/ATM program is $177.8 
million and is planned to be complete in fiscal year 2023.

               Readiness of Combat and Mobility Services

    Question. General Welsh, in what year will you achieve sufficient 
readiness in your combat and mobility air forces to fully support the 
requirements of the 2012 Defense Strategic Guidance? How would you 
characterize the operational risk incurred in executing the 2012 DSG 
and supporting combatant commanders' steady-state rotational and 
warfighting requirements between now and that date?
    Answer. The fiscal year 2015 President's Budget request allows the 
Air Force to begin recovering readiness, but recognizes it will likely 
not fully recover until sometime around 2023. The current strategy 
requires the vast majority of Air Force units to be ready now. The 
proportion of Air Force units required to be ready to meet this 
strategy will actually have to increase as the Air Force continues to 
shrink.
    Air Force readiness recovery is heavily influenced by ongoing 
operations, as time and resources consumed in supporting current 
operations limits opportunities for units to train for the full 
spectrum of potential operations. Operational demands over the last 
twelve years have eroded the Air Force's ability to conduct the full 
range of Air Force missions, especially complex missions conducted in 
contested and highly contested environments.
    Regarding operational risk, rotational mission readiness currently 
meets combatant commander rotational demand, but leaves few, if any, 
other forces available for surge or emerging requirements. Return to 
Budget Control Act funding levels in fiscal year 2016 or roll-back of 
the force structure divestitures in the fiscal year 2015 President's 
Budget would substantially increase risk in Air Force readiness.

                                 KC-10

    Question. General Welsh, if the Air Force is required to execute 
fiscal resources at Budget Control Act levels, what operational risk do 
you incur by having to divest the entire KC-10 tanker aircraft fleet? 
What other programmatic options would you have to execute if Congress 
prohibited the retirement of the KC-10 aircraft?
    Answer. If Budget Control Act level caps are maintained into fiscal 
year 2016 and the Air Force is forced to divest the KC-10 before 
sufficient numbers of KC-46s are fielded, we would have less 
flexibility in meeting air refueling demands across a broad spectrum of 
operations, resulting in fewer ready forces to support current 
strategic guidance. The resulting tanker force will be smaller, but 
still required to meet pre-divestiture air refueling demand levels. 
Higher tanker readiness and availability levels are required to meet 
the strategy.
    If the Congress prohibits the Air Force from retiring the KC-10 
fleet, the Air Force's ability to meet the strategy will be at greater 
risk and we would be forced to shift critical funds from our readiness 
and recapitalization/modernization accounts, as well as consider 
reductions in other parts of our force. These may include deferring KC-
46A procurement and reducing the KC-135 and the C-5 fleets. Budget 
Control Act-imposed cuts to our readiness and recapitalization/ 
modernization accounts would mean a less capable, smaller force that is 
even less ready for tomorrow's fight.

                            F100-229 Engines

    Question. General Welsh, its my understanding that the production 
line for F100-229 engine, which powers F-15s and F-16s, will shut down 
by the end of calendar year 2016. I am also aware that the Air Force 
has a validated shortfall in spare 229 engines to meet wartime 
requirements. Can you confirm this for me and please tell us what the 
Air Force plans to do about procuring the required spares before the 
production ends?
    Answer. While the Air Force currently has an adequate level of 
serviceable F100-229 engines available for mission needs, there is an 
overall shortfall of spare engines in the logistics pipeline. Based on 
the latest Propulsion Requirements System (PRS) engine acquisition 
computation, there remains a requirement for 25 additional F100-229 
spare engines which we hope to fund if resources allow. Absent these 
additional engines, the Air Force has and will continue to intensively 
manage the F100-229 logistics pipeline, particularly during peak engine 
overhaul periods. As of April 4, 2014, the Air Force has 52 serviceable 
spares available.

                     Civilian Workforce and Depots

    Question. What is the rationale for funding depot maintenance at 
only 70 percent of the requirement and do we anticipate that the 
Overseas Contingency Operations (OCO) request will increase the 
percentage to at least 80 percent as some have speculated? I have heard 
it said that 80 percent, that is about as much as the organic depots 
can handle; however, I am aware of some civilian personnel cuts in the 
Air Logistics Centers (ALCs). If we are funding Air Force depot 
maintenance at the highest level the depots can handle at their current 
capacity levels, why would we need to cut civilian employee levels?
    Answer. All of weapon system sustainment (WSS) is funded to 
approximately 70 percent without Overseas Contingency Operations (OCO) 
funding in fiscal year 2015 and the Air Force expects an OCO submission 
that will bring the portfolio to approximately 80 percent. This funding 
level balances capability and capacity with readiness, as our limited 
resources require strategic choices. Our organic depots are not 
operating at capacity, but organic depot workload is planned more than 
a year in advance of any given fiscal year. This planning timeline is 
required to balance workforce with workload and makes it difficult to 
adjust industrial and contract planning to accommodate near term 
funding changes.
    Overall depot manning is based on the workload and funding received 
as intended under Title 10 United States Code Section 2472, which 
prohibits the management of the depot workforce ``on the basis of any 
constraint or limitation in terms of man years, end strength, full-time 
equivalent positions, or maximum number of employees.'' The Air Force 
has used targeted Voluntary Early Retirement Authority or Voluntary 
Separation Incentive Program (VERA/VSIP) for skills leveling at the 
depots to shape the workforce so that the right skill and capability is 
available as workload generates. The depots primarily use normal 
attrition to accommodate these changes; however, based on the 
demographics of the workforce and changes in workload requirements, a 
VERA/VSIP is required when normal attrition will not achieve 
requirements.
    Question. As you know, Congress has not been too keen on BRAC, yet 
the Department has continually requested a BRAC. Deputy Secretary Fox 
has said that we need a BRAC to cut civilian personnel especially at 
depots. If granted BRAC authority, would you expect to look at depot 
capabilities within the Air Force? Also, if not granted a BRAC, should 
we expect to see your current authority to try and close or realign 
depots or other organic industrial facilities?
    Answer. The Air Force considers the retention of a strong and 
viable industrial base as critical to our ability to successfully 
complete the Air Force mission. The Air Force continually reviews 
requirements to ensure that a ready and controlled source of repair is 
maintained within the organic depots. The capabilities that exist and 
that are planned are sized to ensure the Air Force has the capability 
to support the warfighter. Capabilities within the organic depots are 
sized and structured to enable the Department of Defense to satisfy 10 
USC 2464. Any final analysis of capabilities or consideration of 
realignment under BRAC would be conducted at the Department of Defense-
level, not by the Air Force. At this time, the Air Force does not 
anticipate using any of its current authority to try and close or 
realign depots or other organic industrial facilities.

                              Weather Data

    Questions. As you may know, the National Weather Center located in 
Norman, Oklahoma is in the OK-04. Delays and significant cost growth to 
development of joint NOAA-Air Force weather satellites have caused both 
agencies to embark on different paths to get weather information once 
previous satellite development programs were cancelled. The nation 
faces a ``weather data gap'' during the next few years as a result.
    Secretary James, what is the Air Force strategy for development of 
the next generation of Air Force Weather satellites, to replace the 
venerable Defense Meteorological Satellite Program (DMSP) that provides 
crucial weather data to support DoD combat operations?
    Answer. The Air Force's Weather System Follow-on, introduced in the 
fiscal year 2015 President's Budget request, will provide a foundation 
to transition from the Defense Meteorological Satellite Program to 
future capability to satisfy Department of Defense overhead weather 
requirements. In fiscal year 2015, we will begin acquisition planning 
and strategy development to include sensor interface design and 
development, and ground processing system upgrades to process civil and 
international partner system data.
    Question. Secretary James, please summarize the key features of the 
recent ``analysis of alternatives'' conducted by the Air Force, and 
highlight in particular the recent thinking that DoD will rely on other 
sources of weather data beyond those developed with the DoD or U.S. 
government.
    Answer. The Space-Based Environmental Monitoring (SBEM) Analysis of 
Alternatives (AoA) began by assessing the military utility of 12 
capability gaps identified by the Joint Requirements Oversight Council 
(JROC), which formed the requirements basis for the AoA. The AoA 
validated the military utility of 11 of the 12 capability gaps and 
analyzed these gaps to determine if a Department of Defense (DoD) 
materiel solution was warranted to address each gap. In determining 
possible materiel solutions, two factors were considered: 1) The 
likelihood that currently programmed civil and international SBEM 
systems will be available to, and usable by, the DoD; and 2) the 
operational risk tolerance for noticeably increased dependence on non-
DoD assets. Within these parameters, a diverse set of alternatives was 
developed that ranged from no materiel solution through a materiel 
solution that addressed the entire set of capability gaps identified by 
the JROC.
    The SBEM AoA ultimately determined that the nearest term 
operational risks were associated with the following capability gaps: 
Ocean Surface Vector Winds, Tropical Cyclone Intensity and Low Earth 
Orbit (LEO) Energetic Charged Particle Characterization. The fewest 
mitigation options exist for these gaps, which prompted the Air Force 
to pursue a potential materiel solution that addresses these specific 
capability gaps. This is a pre-decisional approach, pending formal 
review and approval with the JROC and Milestone Decision Authority.
    In addition, the DoD currently accesses international SBEM data 
through the National Oceanic and Atmospheric Administration (NOAA) to 
support military operations. The DoD's agreement with NOAA allows it to 
not only share its SBEM data, but also access international partner 
data from a variety of partner environmental monitoring satellite 
systems. This relationship highlights the DoD's current reliance on 
international data, which is expected to continue and increase in the 
future.
    Question. Secretary James, a number of companies are willing to 
finance, build, and launch their own weather satellites that can 
perform some of the missions that the Air Force seeks in its analysis 
of alternatives. This approach can be attractive since no government 
procurement or research & development funds would be necessary during 
the next few years, and later the Air Force could simply purchase 
weather data as needed, using operations & maintenance funds. What role 
does the Air Force envision for commercial sources of weather data from 
U.S. companies in its analysis of alternatives?
    Answer. The Space-Based Environmental Monitoring (SBEM) Analysis of 
Alternatives (AoA) documented that the nearest term operational risks 
were associated with the following capability gaps: Ocean Surface 
Vector Winds, Tropical Cyclone Intensity and Low Earth Orbit (LEO) 
Energetic Charged Particle Characterization. It was determined that 
these specific capability gaps warranted a Department of Defense (DoD)-
specific materiel solution due to the unacceptable level of risk of 
reliance on civil and international SBEM systems to fulfill these 
capability gaps. However, the purchase of weather data will be 
considered as part of the materiel solution trade space, pending Joint 
Requirements Oversight Council endorsement of the SBEM AoA results in 
the third quarter of fiscal year 2014 and review of the acquisition 
approach with the Milestone Decision Authority in the fourth quarter 
fiscal year 2014. For the remaining capability gaps assessed within the 
SBEM AoA, it was determined that DoD can rely on its civil and 
international SBEM partner systems to provide the data that meets these 
capability gaps.
    The Air Force is not pursuing commercial sources of weather data at 
this time. The Air Force is focusing its limited resources on 
addressing specific gaps through a DoD materiel solution. The SBEM AoA 
did not identify any existing or potentially viable commercially 
available systems that can fill these gaps.
    Question. Secretary James, what specifically has the Air Force done 
to encourage development of commercial sources of weather data in the 
United States, similar to what our nation did a decade ago to develop 
commercial sources of imagery and mapping data for the intelligence 
community?
    Answer. The Air Force has considered the use of commercial sources 
of weather data as part of the Weather System Follow-on risk reduction 
activities and the recent Space Based Environmental Monitoring Analysis 
of Alternatives (SBEM AoA). Specifically, Air Force Space Command's 
Space and Missile Systems Center awarded a contract to a commercial 
company to study the benefits and possible drawbacks of utilizing a 
commercial approach to obtaining weather data. A key objective of the 
study was to demonstrate weather system architecture trades in the 
context of annual fee-for-service arrangements.
    The purchase of commercially available weather data is dependent 
upon several factors including the endorsement of the SBEM AoA results 
in the third quarter of fiscal year 2014 and review of the acquisition 
approach with the milestone decision authority in the fourth quarter of 
fiscal year 2014. The Air Force has not taken any action to preclude 
the purchase of cost effective and operationally assured commercial 
weather data in the future.
    Question. Secretary James, When does the Air Force plan to hold an 
industry day for possible U.S. commercial sources of weather data?
    Answer. The Defense Weather Systems Directorate (DWSD) at the Space 
and Missile Systems Center (SMC) is planning a Weather Partnership 
Council meeting for the third quarter of fiscal year 2014, once the 
Weather System Follow-on (WSF) materiel solution strategy is approved 
by the Milestone Decision Authority. This meeting will provide the 
opportunity for the DWSD to meet with government and industry 
environmental monitoring stakeholders to discuss the current status and 
the path forward for the weather system follow-on activities.
    The Air Force and NOAA participated in an experiment called COSMIC 
(Constellation Observing System for Meteorology, Ionosphere, and 
Climate) with the Government of Taiwan to test the concept of ``GPS 
radio occultation'' which is a highly accurate technique to derive 
measurements of temperature, pressure, and water vapor at all altitudes 
by observing the ``bending'' of radio signals from Global Positioning 
System satellites. This technique also enables prediction of solar 
activity that is potentially damaging to satellites, power grids, and 
military and civil communications.
    Question. 1) What is the Air Force plan to contribute funds or in-
kind assets to a COSMIC-2 follow on program? 2) How many COSMIC-2 
satellites are in the Air Force plan and budgets? 3) Provide all Air 
Force and other DoD funding for COSMIC-2 by appropriation, fiscal year, 
and line item. 4) How do COSMIC-2 sensors compare to those to be flown 
by U.S. commercial weather satellite industry? 5) Compare data latency 
in the COSMIC-2 approach with that of the commercial approach, and the 
need for a dedicated U.S. funded ground stations.
    Answer.
    1) At this time, there is no planned COSMIC-2 follow-on program. 
The equatorial plane of COSMIC-2 is currently in production, while the 
polar plane is being contemplated. Following COSMIC-2, the Department 
of Defense will likely benefit from the type of data COSMIC-2 provides, 
regardless of source.
    2) The Air Force is not purchasing any COSMIC-2 satellites. The Air 
Force is purchasing the primary and secondary payloads to be flown on 
spacecraft procured and operated by Taiwan. The payload suite includes 
the Tri-Global Navigation Satellite System (GNSS) Radio-Occultation 
System (TGRS), the Radio Frequency (RF) Beacon, and the Ion Velocity 
Meter (IVM).
    3) Air Force funding procured primary and secondary payloads for 
the COSMIC-2 satellites through the Space Situational Awareness 
Environmental Monitoring (SSAEM) program. The following amounts were 
appropriated under the SSAEM Budget Program Activity Code (BPAC):
          <bullet>  Air Force, RDT&E-FY10, $15.501 million, PE 
        0604425F, Line Item 73--$2.5 million of that fimded COSMIC-2 
        activities
          <bullet>  Air Force, RDT&E-FY11, $55.548 million, PE 
        0604425F, Line Item 70--$40 million of that funded COSMIC-2 
        activities
          <bullet>  Air Force, RDT&E-FY12, $38.1 million, PE 0604425F, 
        Line Item 65--$30 million of that funded COSMIC-2 activities
    4) At least two companies propose operating a weather satellite 
constellation using the same radio frequency occultation technology as 
COSMIC-2. One company plans to use the same receiver the Air Force 
developed for COSMIC-2 via the Jet Propulsion Laboratory. Another 
company plans to use a previous version of the receiver which operates 
today on COSMIC-1.
    5) COSMIC-2 data latency is expected to be about 30 minutes, but 
will depend in part on the ground system that the National Oceanic and 
Atmospheric Administration is developing. The expected data latency is 
sufficient to meet the Department of Defense's requirements for this 
type of data, particularly over the Pacific Ocean. Commercial proposals 
cannot meet this requirement at this time. The Department of Defense 
will meet this latency requirement by using existing weather satellite 
ground equipment located around the world.
     Question. Secretary James, why is the Air Force using its funds, 
at the time it is making drastic cutbacks to U.S. military programs, to 
support the government of Taiwan?
     Answer. No U.S. funds are provided directly to Taiwan under this 
joint program. In fact, the United States is leveraging $241 million 
provided by the Taiwan government to procure the COSMIC-2 spacecraft 
and integrate U.S. provided payloads. The Air Force has developed the 
primary and secondary payloads to fly on each of the COSMIC-2 
equatorial spacecraft. This partnership is a highly leveraged and cost 
effective means of providing the Department of Defense (DoD) and the 
U.S. National Oceanographic and Atmospheric Administration (NOAA) with 
the high quality data upon which the Air Force Weather Agency and the 
National Weather Service relies. In addition to DoD and NOAA, COSMIC-2 
data will be shared with the international weather community, including 
several countries which are providing ground receive sites and 
services.
     Question. Secretary James, why is it acceptable to have weather 
data for U.S. military operations being under the control of a foreign 
nation?
     Answer. Historically, the legacy Defense Meteorological Satellite 
Program has fulfilled the United States military's most essential and 
critical space based environmental monitoring operational needs. 
Nevertheless, the United States military has long benefited from the 
civil collection capabilities of National Oceanic and Atmospheric 
Administration, and from the international sharing of weather data 
facilitated by the World Meteorological Organization. For over 25 
years, the United States, including the Department of Defense, has 
utilized environmental imagery and data from satellites operated by our 
European and Japanese allies to support resource protection and safety 
of maneuver. We have also demonstrated assured access to weather data 
by partnering with Taiwan in the Constellation Observing System for 
Meteorology, Ionosphere and Climate (COSMIC-1) program. In the future, 
the Department of the Air Force's Weather System Follow-on, combined 
with continued access to our civil and international partner 
capabilities, will continue to fulfill the Department of the Air 
Force's minimal essential environmental sensing requirements.
     Consistent with the National Space Policy, the Department of 
Defense will continue to expand international cooperation in space and 
leverage our international partners' capabilities, as well as existing 
commercial capabilities, to augment dedicated United States 
capabilities.
    [Clerk's note.--End of questions submitted by Mr. Cole. Questions 
submitted by Mr. Aderholt and the answers thereto follow.]

                             Air University

     Question. Knowing the value you place on Air University and 
recognizing the fiscal environment we are facing, coupled with the 
President's Budget request to conduct a BRAC in 2017, would you please 
address:
           a) The importance of Air University as it relates to other 
        priorities
           b) The importance of future investment in Air University
           c) Any opportunities to consolidate other forms of education 
        at Air University
     Answers. The importance of Air University as it relates to other 
priorities. As the education center of the Air Force, Air University 
produces the future. Education is a force multiplier that increases the 
ability of Airmen to accomplish the mission and defend the nation. Air 
University centrally manages citizenship and accessions, professional 
military education, professional continuing education, and graduate 
technical education programs for the Air Force, making it unique among 
the four uniformed services. Under one organization, an enormous range 
of educational programs are developed and extended to hundreds of 
thousands of active duty, Guard and Reserve, and civilian Airmen, joint 
service members, and international coalition partners every year. While 
training imparts specific skills for a defined current need, education 
develops critical thinking and leadership skills for the future. Both 
are necessary to produce a force that can secure the Nation's interests 
today and for the future. The airpower dominance that the United States 
has come to expect derives in part from Airmen who are equipped with 
the knowledge, competencies, and thinking skills to confront unexpected 
strategic and operational challenges. As the force shrinks, the 
importance of consistently improving the ability of all Airmen grows. A 
flexible, educated force is essential to secure the Nation's future 
security needs.
     The importance of future investment in Air University. Air 
University operates at a nominal cost to educate the force compared to 
rising costs for technology and equipment. Air University programs 
reach high school students (Junior Reserve Officer Training Corps), 
college students, and virtually every enlisted, officer, and civilian 
Airman, expanding their knowledge and their capacity to think logically 
and critically as they confront an increasingly complex world, 
unpredictable adversaries, and an uncertain future. Resources spent to 
educate Airmen pay dividends in improved performance over a career and 
a lifetime. Through career-long learning, Airmen become better prepared 
to serve in more advanced leadership roles; Airmen who leave the 
service are better assets for their communities and for the country.
     Any opportunities to consolidate other forms of education at Air 
University. The Air Force consolidated nearly all education mission 
elements at Air University. The efficiently-sized headquarters staff, 
compared to the number of programs and students, supports and manages 
accredited programs in five academic centers and one advanced studies 
program at Maxwell Air Force Base, Alabama, and at the Air Force 
Institute of Technology at Wright-Patterson AFB, Ohio. Air University 
fields accredited programs and awards associate through doctorate 
degrees that meet established Air Force requirements with an annual 
enrollment of more than 170,000 Airmen. Past efforts to identify 
further opportunities to consolidate Air Force education missions 
focused on merging Air University with the United States Air Force 
Academy. To date, the Academy's unique mission has precluded further 
consolidation for commissioning education. Additionally, legal 
constraints prohibit expanding Air University programs to overlap or 
encroach on civilian academic programs. Nevertheless, Air University 
continues to transform educational programs to take advantage of the 
most current educational techniques and technologies. Delivering the 
right education at the right time and place in an Airman's career is 
one of the key priorities for the university.

                            Associate Units

     Question. Does the Department see a further integration of the Air 
Guard and Air Force Reserve units with the Active forces? More 
specifically, are you pursuing an expansion of Guard/Active associate 
units and Reserve/Active associate units as a mission effective and 
cost effective solution for both fighters and airlift?
    Answer. Yes. Over the last three years, the Air Force has increased 
our associations from 102 to 124--a 22 percent increase. The Air Force 
is also committed to associate every new F-35A and KC-46A unit based in 
the continental United States.
     We are constantly performing analysis to arrive at the appropriate 
force size and force mix to further integrate the active component with 
the reserve component, which can be traced back to the National 
Military Strategy and Defense Planning Guidance. Cost is only one 
factor in the decision. All options are checked against the analysis 
for operational viability, efficiency, effectiveness, benefits, and 
risks. Final programmatic decisions are negotiated with inputs from a 
variety of stakeholders across all three components. Programmatic 
changes to size and mix are made each cycle in order to continue to 
meet demands and strategic goals within current fiscal constraints.

                                  F-35

     Question. Does the department plan to equip the Guard and Reserve 
forces with newer aircraft such as the F-35, at the same time as the 
Active forces?
     Answer. The continental United States basing plan for the F-35 
includes Hill Air Force Base, Utah (active duty), followed by 
Burlington Air National Guard Base, Vermont (Air National Guard). No 
other basing decisions have been made beyond these two locations at 
this time. The Total Force-Continuum (TF-C) has an on-going analytical 
effort underway that will produce detailed options for approximately 80 
percent of the Air Force by the end of calendar year 2014 and that 
analysis will inform future active/reserve component mix decisions.

               Application Assurance Center of Excellence

     Question. The Consolidated Omnibus Appropriations Act, 2014, 
consistent with the $10 million authorization provided by the fiscal 
year 2014 National Defense Authorization Act, contained a $10 million 
appropriation for the Application Assurance Center of Excellence at 
Maxwell AFB-Gunter Annex in Montgomery. What is your timeline for 
acting on this?
     Answer. The Air Force intends to begin obligating funds by the end 
of May 2014. The Air Force Chief Information Officer is maturing the 
Air Force's strategy to organize a comprehensive software assurance 
plan which will utilize the capabilities of the Application Software 
Assurance Center of Excellence.

                            Aircraft Engines

     Question. During Secretary Hagel's remarks before the announcement 
of the President's Budget, he alluded to a $1 billion investment in 
aircraft engines. Can you clarify or expand on what this initiative 
entails? Is there an expected RFI or RFP announcement this year that 
addresses this initiative?
     Answer. The Air Force has invested in adaptive engine technologies 
through the Adaptive Versatile Engine Technology (ADVENT) effort (FY07 
to FY13) and the Adaptive Engine Technology Development (AETD) effort 
(FY12 to FY16). The acquisition strategy for the $1 billion investment 
Secretary Hagel announced is still in development, but the Air Force is 
working to maintain competition as long as possible in this follow-on 
effort. If the Department of Defense is held to sequestration levels 
for fiscal years 2016-2019, we expect no funds will be available for 
the next generation engine technology program.
     All future aircraft engines are likely to benefit from 
technologies proven through this program. In addition, the anticipated 
fuel savings could free-up funds for the Air Force to invest in the 
modernization of other Air Force warfighter capabilities. The next 
generation engine program, a follow-on to AETD, will further mature 
adaptive engine technologies through extensive ground testing to 
facilitate integration and flight testing. The emphasis is on proving 
advanced component and subsystem maturity prior to incorporation into 
major systems.
     The Air Force is in the process of developing the acquisition 
approach, so specific program titles (``Adaptive Engine Transition 
Program'' is only a notional program name at this point), goals, and 
milestones are yet to be defined. However, the next generation engine 
program has an objective of reducing specific fuel consumption by 25 
percent, yielding a 30 percent increase in range, which will be game-
changing for the Department of the Air Force's capability to operate in 
highly contested environments. The program will increase performance, 
durability, and efficiency in jet engines and bolster the nation's 
engine industrial base for the future.

                              Dual Launch

     Question. Please provide an answer, including dollar amounts, on 
what savings could be achieved by launching two satellites on one 
flight, occasionally known as ``dual launch.'' a) Please provide a 
constellation of satellites the Air Force would consider a prime 
candidate for dual launch? My understanding is that adaptation costs to 
the launch vehicles and satellites is approximately one tenth or less 
compared to the savings achieved by essentially launch two launches at 
once. b) Do other launch providers (domestic or international) take 
advantage of dual launching satellites as a way to achieve launch cost 
savings?
    Answer. Dual launch is one possible approach to lowering launch 
costs, assuming the two satellites are going to the same orbit or 
orbital plane. The Air Force considers the GPS constellation as the 
primary candidate for dual launch due to the large constellation size 
and required replenishment rate. It is correct that adaptation cost to 
the launch vehicle and satellites is approximately one tenth or less 
compared to the savings achieved by launching two satellites on one 
launch vehicle. Air Force analysis has shown that dual launching GPS 
III satellites can save the Air Force up to $80 million per dual 
launch. Currently, other Global Navigation Satellite Services such as 
Galileo (European Union) and Glonass (Russia) perform dual and triple 
launch of satellites as a way to rapidly populate the constellation and 
reduce cost.

                           Launch Competition

     Question. Is the Air Force providing competitive launches solely 
for new entrants to prove themselves capable irrespective of any 
additional cost imposed onto the taxpayer?
     Answer. No, a new entrant must ``prove themselves capable'' 
through the certification process before they can be awarded a contract 
to launch national security space missions. We believe that competition 
and the existence of a competitive environment are essential to locking 
in savings for the future.
     The Air Force did compete the DSCOVR and STP-2 launches among 
prospective commercial new entrants via the Orbital-Suborbital Program-
3 contract. They were ideal risk-tolerant missions for potential new 
entrants to demonstrate system capabilities on missions requiring EELV-
class performance.
     Question. For any competition to be real, and of benefit to the 
taxpayer, the launch services provider must launch on schedule. Is the 
Air Force willing to impose financial penalties for failing to do so?
     Answer. The terms and conditions to be included in the request for 
proposals are still in the review and approval process. The Air Force 
was directed in the National Defense Authorization Act for Fiscal Year 
2014 to brief the appropriate congressional committees on the plan to 
implement the new acquisition strategy at the same time the Air Force 
releases the draft request for proposals.
     Question. What evidence has the Air Force been provided that 
indicates new entrants will be able to meet their launch schedule?
     Answer. The Air Force monitors the launch schedule of all domestic 
launch providers for national security space, National Aeronautics and 
Space Administration, and commercial payloads. The Air Force has not 
yet finalized the acquisition strategy for Evolved Expendable Launch 
Vehicle (EELV) competition; however, the Air Force will assess the 
cost, schedule, performance, and risk of all competitive bids.
     Question. Will the added costs of adding a duplicative launch 
provider to the EELV market offset any cost savings of competition?
     Answer. The Air Force intends to compete launch services, not 
launch capability. Any cost incurred by a competitor will need to be 
reflected in their offered pricing of the service. We do not anticipate 
needing to pay more for a competed launch service than we would in a 
sole source environment. Our experience has shown that competition 
drives down cost for services.
     Question. How is the Air Force accounting for the added costs of 
the additional launch vehicles and additional infrastructure it must 
carry with a second provider, for a total of 3-4 launch vehicles 
(Atlas, Delta, Falcon)? As I understood there are currently 4 EELV ULA 
Pads (2 Atlas and 2 Delta from both the East and West Coast and there 
are 3 new entrant pads (1 pad on each coast and the newly acquired pad 
39A).
     Answer. We do not anticipate needing to pay more for a competed 
launch service than we would in a sole source environment. The Air 
Force intends to compete launch services, not launch capability. Any 
costs incurred by a competitor will need to be reflected in their 
offered pricing of the service. Our experience has shown that 
competition drives down the cost of services.
    Question. Do any new entrants currently possess the necessary 
processing facilities required to launch all the nation's Air Force and 
NRO payloads?
    Answer. At the current time, none of the new entrants involved in 
any portion of the certification process with the Air Force possess 
either the lift capability or the appropriate processing facilities 
required to lift the entire National Security Space manifest.

               Auditing, Oversight, and Accounting Rules

    Question. Should new entrants be required to comply with the same 
auditing, oversight, and accounting rules that are cuffently applied to 
United Launch Alliance? If not, why do you think different rules should 
apply to new entrants?
    Answer. All potential EELV competitors will be expected to comply 
with the applicable auditing, oversight, and accounting standards 
established in the acquisition strategy the Department of Defense 
ultimately pursues. Specific requirements will be contained in the 
requests for proposal.
    Question. Should government auditors be able to verify that funding 
disbursed prior to a launch was used to pay for materials, salaries, 
and expenses pertinent to that launch vehicle and its specific mission?
    Answer. Yes, for non-commercial contracts the contractor is 
required to account for costs in accordance with its disclosure 
statement and Federal Acquisition Regulations. For all government 
contracts, the contractor is required to submit proper invoices and/or 
vouchers for payment in accordance with the terms of the contract.

                           Launch Competition

    Question. To what degree should the government rely on this 
commercial backlog in assessing the viability of a supplier?
    Answer. The Air Force is not relying on the commercial backlog to 
assess the viability of a launch supplier. The Air Force's decision to 
award a launch services contract requires the determination that the 
system vvill meet technical requirements and the contractor is deemed 
responsible in accordance with the Federal Acquisition Regulations.
    Question. What insight is typically required to determine whether a 
contractor has sufficient capacity and financial stability to meet its 
contractual commitments?
    Answer. In accordance with Federal Acquisition Regulation 9.104-1, 
to be determined responsible, a prospective contractor must:
          (a) Have adequate financial resources to perform the 
        contract, or the ability to obtain them;
           (b) Be able to comply with the required or proposed delivery 
        or performance schedule, taking into consideration all existing 
        commercial and governmental business commitments;
           (c) Have a satisfactory performance record;
           (d) Have a satisfactory record of integrity and business 
        ethics;
           (e) Have the necessary organization, experience, accounting 
        and operational controls, and technical skills, or the ability 
        to obtain them;
           (f) Have the necessary production, construction, and 
        technical equipment and facilities, or the ability to obtain 
        them; and
           (g) Be otherwise qualified and eligible to receive an award 
        under applicable laws and regulations.
     For (a), (e), and (f) above, the contracting officer shall require 
acceptable evidence of the prospective contractor's ability to obtain 
required resources. Acceptable evidence normally consists of a 
commitment or explicit arrangement that will be in existence at the 
time of contract award, to rent, purchase, or otherwise acquire the 
needed facilities, equipment, other resources, or personnel.
     For (b) above, the contracting officer typically relies on an 
evaluation of the technical proposal by subject matter experts.
     For (c) above, the contracting officer typically relies on recent 
and relevant reports obtained from past performance tracking systems, 
such as the Past Performance Information Retrieval System.
     For competitive source selections where past performance is an 
evaluation factor, the assessment of performance record also typically 
uses past performance questionnaires.
     For (d) above, a review of the System for Award Management, 
Federal Awardee Performance and Integrity Information System, and 
Excluded Parties List System is performed.
     For (g) above, the contracting offer typically reviews the 
representations and certifications included in the prospective 
contractor's proposal.
    Question. Do you know if such an analysis has been performed of the 
new entrant space launch companies and if so, do you believe there are 
any risks for the financial stability and viability of new entrants? If 
so, what areas would you look at most closely?
    Answer. The Orbital/Suborbital Program (OSP)-3 contract was awarded 
to be compliant with Federal Acquisition Regulation 9.104-I(a). Under 
this requirement, a Contractor Responsibility Determination was 
executed for each of the three companies who were awarded OSP-3 
contracts (Orbital Sciences Corporation, Lockheed Martin Corporation 
and Space Exploration Technologies). Each of those determinations 
concluded that that the awardees had adequate financial resources to 
perform the contract, or the ability to obtain them.

                             STP-2 Mission C

    Question. Please provide an update on the STP-2 mission?
     a. It was to be launched on a Space X Falcon Heavy rocket with the 
latest launch date in mid-2015. Is this still the expectation? If so, 
please provide a list of milestones.
     b. If not, please explain the new plan and what tasks the $60 
million, already disbursed, was used for.
     c. If there is a change to the mission, please explain the reason 
for the change in plans.
    Answer.
     a. The current date for Initial Launch Capability of the STP-2 
mission is August 2015. The mission milestones are:
          <bullet> Service Requirements Review; complete: The 
        contractor presented a review of their requirements analysis 
        for the STP-2 mission which included mission requirements 
        decomposition, allocation, and validation. This is how the 
        contractor demonstrated understanding of their performance 
        obligations to the government in meeting terms of the contract.
          <bullet> Mission Design Review-1; complete: The contractor 
        presented a mission design concept to meet the mission 
        requirements. The contractor also presented a review of their 
        preliminary design for new items, new interfaces, or design 
        modifications that must be implemented to meet STP-2 mission 
        requirements.
          <bullet> Mission Unique Review; complete: The contractor 
        presented their preliminary design for the payload satellite 
        dispenser to include the separation system, dispenser design, 
        analysis, and test/verification plans. This review also 
        included delivery of a computer aided design model, an 
        integrated test plan, and a Finite Element Model of the 
        dispenser.
          <bullet> Mission Design Review-2: The contractor will present 
        a mission critical design concept to meet the mission 
        requirements. They also will present a review of their critical 
        design (90 percent) for new items, new interfaces, or design 
        modifications that must be implemented to meet STP-2 mission 
        requirements.
          <bullet> Pre-ship Review: The contractor will present the 
        pedigree of their hardware, status of factory testing of flight 
        hardware, status of preparations to ship hardware to the launch 
        site, status of the launch to receive flight hardware, and the 
        status of launch documentation and readiness to start the 
        launch campaign.
          <bullet> Launch Readiness Review: The contractor will present 
        the status of the final launch vehicle preparation, testing, 
        and readiness to conduct final launch countdown procedures.
     b. The mission plan remains unchanged. The $63.9 million already 
dispersed was for the work completed against the first three milestones 
above, which are annotated as ``complete.''
     c. The Air Force is processing a no-cost change to the initial 
launch capability date of the STP-2 mission to accommodate space 
vehicle driven delays. The details of this contract change are not yet 
finalized.

                        Re-Competition for Cores

    Question. Some have asked for a re-compete of part of the most 
recent block buy of cores. What costs would that incur, directly and 
indirectly (including lost savings) and how would other programs or 
tasks paid for by those anticipated savings be impacted?
    Answer. If the Phase 1 contract with United Launch Alliance (ULA) 
is re-competed, the government walks away from the most cost and 
operationally effective acquisition strategy and its 36-core commitment 
to ULA, thereby breaching the contract. The government can expect ULA 
to re-price the 36 cores on the contract, thereby eliminating the some 
portion of the $4.4 billion in savings resulting from this strategy, 
and exposing the Department of the Air Force to potential litigation as 
ULA's prices with its subcontractors and suppliers will likely 
increase.
    Assuming the Phase 1 contract with ULA is terminated for 
convenience in its entirety on October 1, 2014, ULA would not be able 
to complete its launch services for National Security Space (NSS) 
missions (at least 15) procured under previously awarded contracts. 
This is due to an Interdependency clause associated with Launch 
Services procured through ULA. On the date of termination, ULA would 
stop production and the launch of rockets in support of NSS 
requirements. This would significantly delay launches for those 15 
missions already on other contracts, potentially adding substantial 
costs (currently not available) to the satellite programs and delaying 
critical national space capability to the warfighter, putting our space 
constellations at risk. If a termination occurs, the contractor would 
provide a termination proposal which would then identify the costs 
related to the termination. Termination costs will not be known until 
the termination proposal is received. Re-procurement costs are also 
unknown.
    In addition to the costs above, ULA would seek payment for 
termination liability of $371 million as reported by ULA in their March 
2014 Contract Funds Status Report for Launch Capability. Launch 
Capability is needed to support launch vehicle production, satellite to 
launch vehicle integration, launch site activities and launch for the 
Phase 1 contract and for the other existing EELV active contracts. As a 
result there would be financial consequences on the current contract as 
well as on the other EELV active contracts. The total magnitude of 
these costs is currently unknown. Due to interdependencies, NASA 
contracts may be impacted as well.
    It is not possible to estimate competition driven savings until 
proposals are received.

                            Launch Services

    Question. Please specify the typical percentage amount of payment a 
launch services provider received prior to the actual launch. For 
example, it is 40 percent to allow ordering of long-lead items?
    Answer. Typically, launch services are paid in accordance with the 
Progress Payment clause--Federal Acquisition Regulation (FAR) 52.232-16 
as follows:
    ``(1) Unless the Contractor requests a smaller amount, the 
Government will compute each progress payment as 80 percent of the 
Contractor's total costs incurred under this contract whether or not 
actually paid, plus financing payments to subcontractors (see paragraph 
(j) of this clause), less the sum of all previous progress payments 
made by the Government under this contract. The Contracting Officer 
will consider cost of money that would be allowable under FAR 31.205-10 
as an incurred cost for progress payment purposes.''
    Question. Is it typical for a launch provider to be paid an amount 
equal to 100 percent of three or more launches (prior to launch)?
    Answer. The contractor is paid for work performed in accordance 
with the payment terms in the contract. In the Air Force's Evolved 
Expendable Launch Vehicle (EELV) launch program, the contractor is 
normally paid using progress payments in accordance with the Federal 
Acquisition Regulation. In our experience, it is not typical to pay 100 
percent of three or more launches prior to launch.
    Question. If a provider claims that the early funding is required 
for additional launches later, is there an accounting of what materials 
require more than a 36-month lead-time?
    Answer. Funding is obligated to the contract at the time of 
contract award. Contractors are paid via the payment terms in the 
contract after costs are incurred. The most typical payment terms are 
52.232-16 Progress Payments for fixed priced contracts and 52.216-7 
Allowable Cost and Payment for cost reimbursement contracts.
    Yes, there is an accounting of materials. Both payment clauses 
require the submission of proper invoices or vouchers which include a 
description of supplies or services.
    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Frelinghuysen and the answers thereto 
follow.]

                                  A-10

    Question. Of all the ANG A-10 squadrons being divested nation-wide, 
Idaho was the only one not to receive a stand-alone replacement flying 
mission (at Gowen Field) like the other A-10 units. How was that 
decided?
    Answer. Once the decision to divest A-10s was made, the Air Force 
worked across the total force to mitigate impacts, leveraging the 
unique characteristics and capabilities offered at each A-10 location. 
We considered numerous options for replacement missions, determining a 
classic association at Mountain Home Air Force Base (AFB) maximized 
value to the Air Force. This determination was supported by the 
following:
    <bullet> Gowen Field is a relatively short commute to Mountain Home 
AFB (51 miles gate to gate)
    <bullet> This option provides an opportunity for Air National Guard 
(ANG) entry into the F-15E community; F-15Es are currently undergoing 
critical radar and electronic warfare modifications, so we expect the 
fleet to be a critical global precision attack asset well into the 
2030s
    <bullet> This option provides the active duty F-15E community a 
path to the ANG; and provides the opportunity for additional personnel 
if some Idaho ANG A-10 pilots do not want to transition to become 
weapon system officers (F-15E back-seaters)
    Question. Was a business case analysis used to determine the most 
cost efficient course of action in this divestiture and re-missioning? 
If so, please provide the details.
    Answer. No, a full business case analysis was not performed. In 
reviewing an array of divestiture and re-missioning options for the 
Idaho Air National Guard, the Air Force viewed consolidating two flying 
units at a single location (Mountain Home AFB) where the necessary 
infrastructure already exists as the inherently more efficient and 
fiscally responsible option. The alternative of doubling the 
requirement for facilities to support two units flying the same number 
of aircraft was considered untenable, given current budget constraints.
    Question. This proposal seems counter to the recommendation 
recently published by the National Commission on the Structure of the 
Air Force. In light of that report, would the Air Force/National Guard 
Bureau consider making the 124th Fighter Wing a pilot unit for the 
iWing concept described within the report?
    Answer. The Total Force--Continuum (TF-C) is currently evaluating 
the recommendations outlined in the National Commission on the 
Structure of the Air Force report. This includes recommendations on the 
iWing concept. Through this evaluation, TF-C will explore the proper 
force mix per mission area, along with valid options associated with 
potential pilot programs outlined in the National Commission on the 
Structure of the Air Force report.

                     F-15E Aircraft at Gowen Field

    Question. Are there sufficient F-15E (Combat Coded, Backup Aircraft 
Inventory and Attrition Reserve) available worldwide to stand up a 7th 
F-15E (Active Associate) at Gowen Field while maintaining both current 
active duty F-15E squadrons at Mountain Home? Did the Air Force 
consider leveling all F-15E squadrons at 18 Primary Aircraft 
Authorizations to establish a 7th F-15E squadron?
    Answer. There are 138 combat-coded F-15E aircraft in 6 F-15E 
squadrons; 5 with 24 primary aircraft assigned (PAA) (2 each at RAF 
Lakenheath in the United Kingdom and Seymour Johnson AFB in North 
Carolina, and 1 at Mountain Home AFB, Idaho) and 1 with 18 PAA at 
Mountain Home AFB. Each squadron also has 2 to 3 backup aircraft, which 
are required to maintain enough aircraft available while aircraft 
rotate for depot or are down for maintenance. In addition, there are 2 
attrition reserve aircraft (needed in case of mishap or combat loss) in 
the entire combat-coded fleet.
    Further, there are two different engines (-220 and -229) used in 
the fleet, and we keep each squadron ``pure'' for logistics cost/
efficiency reasons. This is important because the only aircraft that 
can be considered for carving out a 7th squadron would come from the 24 
PAA units using the -229 version of the engine, meaning the two RAF 
Lakenheath squadrons and the one Mountthn Home AFB squadron. The Air 
Force considered the option of adding a 7th squadron, but it was not 
selected due to the following operational issues.
    The F-15E community has a 1:3 deploy-to-dwell rate, meaning on 
average a unit is deployed 6 months out of every 2 years; we do not 
expect this deployment rate to change in a post-Operation Enduring 
Freedom environment. For deployments, combatant commanders require 24 
PAA units. If we create an 18 PAA unit at Gowen Field, we would have to 
take 6 each aircraft from the two 24 PAA RAF Lakenheath squadrons and 
the 24 PAA Mountain Home AFB squadron, meaning only the two North 
Carolina units would still have the required 24 PAA. This would create 
an unsustainably high operational tempo and burden on these units and 
the community.
    When a 24 PAA unit deploys, there is some residual capability at 
home station permitting the unit to continue with valuable upgrade and 
continuation training; this capability is not available to 18 PAA 
units. Squadrons have fixed overhead costs and requirements, so smaller 
units are less efficient.
    In addition, the extra pilots at the squadron, group, and wing all 
have to be trained in the F-15E, which places increased burden on our 
formal training unit (FTU). The F-15E FTU is already over-stressed and 
unable to produce sufficient numbers of pilots. For safety reasons 
based on net explosive weights, Gowen Field cannot handle some of the 
munitions used by the F-15E. Gowen Field would likely require some 
operation and maintenance funding to accommodate the F-15Es requiring a 
site survey for precise costs.

           Movement of Personnel from Boise to Mountain Home

    Question. What criteria were used in the proposal to move the 550 
Guardsman from Boise to Mountain Home for a Classic Association? Is 
there a set of basing criteria considered to move this significant 
number of personnel? If so, please provide those details.
    Answer. The Air Force and Air National Guard ultimately agreed that 
a 545-personnel classic association at Mountain Home AFB was the best 
balance for maximizing efficiencies while continuing to meet F-15E 
rotational demand during the A-10 divestment and 124th Fighter Wing 
conversion to the F-15E. This was an operational decision and did not 
qualify for the strict basing criteria the Air Force reserves for 
movement of platforms between bases.
    There will be zero Air National Guard billets/jobs lost in the 
transition. The 545 personnel are both full-time and part-time 
personnel from the operations and maintenance groups (74 and 471, 
respectively) needed to fill a 6-ship deployable package in each of the 
two active duty F-15E squadrons at Mountain Home AFB, as well as 
associated personnel at the wing, group, and operations support 
squadron. It is best for unit integrity and the mission to move the 
operations and maintenance personnel together.
    Question. With the significantly longer commuting distance from 
Boise to Mountain Home, were the time constraints, safety, recruiting 
and retention of Traditional (part-time) Guardsman considered?
    Answer. We recognize there may be some inconvenience in the commute 
and that some Guard members may choose to separate or retire as a 
result of the move. However, early indications are that this will not 
be a significant problem, and we also expect some active duty Airmen 
from Mountain Home AFB and other F-15E units will transition to the Air 
National Guard to fill any open billets.
    Experience from St. Louis/Whiteman AFB, and other classic 
associations, suggests there will be minimal impact on recruiting and 
retention. For example, in Virginia the Air National Guard unit at 
Richmond was closed and re-located to Joint Base Langley-Eustis with 
minimal effects on recruiting and retention.

                               124th Wing

    Question. The 124th Wing, like all Air Force wings, is comprised of 
4 Groups: Operations, Maintenance, Support, and Medical. The Air Force 
proposal would relocate two of those groups, Operations and 
Maintenance, to Mountain Home AFB. Under this proposal where the 124th 
Wing is geographically split (two groups at Gowen Field in Boise, and 
two at Mountain Home AFB) was the long term viability of the entire 
IDANG as a military unit into consideration?
    Answer. For the integrity of the training and operational mission, 
it is vitally important for the operations and maintenance groups to 
move to Mountain Home AFB. The mission support and medical groups were 
considered for movement, but ultimately it was decided to leave them in 
place at Gowen Field where they retain their facilities and remain 
viable supporting the base and providing medical services. It is also 
likely better for the Guard members within those groups who will not 
have to commute.
    In terms of viability, the range control squadron which is part of 
the 124th Fighter Wing is already operating out of Mountain Home AFB. 
There is no indication that this is degrading the viability of the 
unit. Further, there is precedent in other states. For example, there 
are split operations for the B-2 between St. Louis and Whiteman AFB in 
Missouri (an approximately 3-hour commute). A few Guard members left 
the unit, but most made the transition and recruiting was not an issue.

    [Clerk's note.--End of questions submitted by Mr. 
Frelinghuysen.]
                                          Thursday, March 27, 2014.

                 FISCAL YEAR 2015 ARMY BUDGET OVERVIEW

                               WITNESSES

HON. JOHN M. McHUGH, SECRETARY OF THE ARMY
GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF, UNITED STATES ARMY

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The Committee will come to 
order.
    This morning, the Committee holds a public hearing on the 
posture of the United States Army and the budget request for 
the Army for fiscal year 2015. We welcome back to the Capitol 
our friend and former colleague, the Honorable John McHugh, 
Secretary of the Army, and General Ray Odierno, Chief of Staff 
of the Army.
    I speak for everybody in this room when I thank both of you 
for your long and valuable service and to the men and women you 
represent, who have had repeated deployments overseas and make 
up the force that continues to serve in Afghanistan as we speak 
here this morning. We honor all of those. And we particularly 
honor those who have paid the supreme sacrifice as well as 
those who have physical and mental wounds who live with the war 
each and every day. We honor all of them.
    There are many challenges facing our great Army, and this 
morning we will discuss personnel issues, readiness, equipment 
modernization and reset, current operations in Afghanistan, 
obligations to the Pacific region, research and development, 
and the lack of an overseas contingency operations budget, 
among other important topics.

                     CONTINGENCY OPERATIONS FUNDING

    The Army budget proposal is $116 billion. In addition, the 
Department of Defense has forwarded an $80 billion placeholder 
in lieu of a formal request for funding of overseas contingency 
operations. These operations, war operations, are still 
essential to the safety of our troops and to our national 
security and to security in that part of the world--a very 
dangerous and unpredictable place.
    We have discussed this in private, but I will say it again 
publicly: This Committee, in the strongest possible terms, 
urges the Department of Defense and all of our services to work 
together to provide us with verifiable and defensible line-item 
data on projected costs of our overseas operations as quickly 
as possible. We have a bill to write.
    Of course, the Committee is very concerned about the 
challenges facing the Army for current operations and 
readiness. We understand the difficulty in reducing spending in 
operations, personnel, and modernization accounts in order to 
satisfy budget control requirements. But we have made the 
decision to leave--we have left Iraq, and we are exiting 
Afghanistan, and, of course, one might anticipate that we would 
have reductions in a variety of accounts, including end 
strength.
    Innovative thinking is required, and the road to a lower 
top line is never smooth. We expect to have a thoughtful 
discussion on force structure and personnel and also on several 
major programs:

                        KEY ACQUISITION PROGRAMS

    A new infantry fighting vehicle remains a major goal for 
the Army, as does the continuation of fielding components of 
the information network of sensors, software, and radios that 
the Army has been assembling since 2011.

                          AVIATION RESTRUCTURE

    Your proposed aviation restructure is designed to retire 
all OH-58-series helicopters, the Army's only remaining single-
engine helicopter. The Active Component will downsize by 887 
helicopters, and the Army National Guard will cut 111 
helicopters. However, the plan moves all the Apaches from the 
Army Guard to serve as a reconnaissance helicopter for the 
Active Component. Whether or not to keep Apaches in the Army 
Guard remains a contentious issue.
    Last point: The Army is people. There is no room for sexual 
assault in its ranks. Good soldiers do not abuse one another, 
and this committee nor Congress will tolerate it.
    We will ask our witnesses for their summarized statements 
in a moment, but I do want to recognize the distinguished 
ranking member, Mr. Visclosky, for any comments he may wish to 
make.
    [The opening statement of Chairman Frelinghuysen follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Mr. Chairman. I appreciate you 
holding the hearing; gentlemen, for your service and your 
attendance today.

                     CONTINGENCY OPERATIONS FUNDING

    And I do want to associate myself with the chairman's 
remarks in their entirety, but particularly his comments about 
the overseas contingency operation fund. And, again, we have 
had the discussions, but, as the chairman pointed out, we do 
have legislation that will be on the floor shortly, so I 
appreciate your comments.
    And thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Secretary McHugh, thank you for being with us this morning.

                 Summary Statement of Secretary McHugh

    Mr. McHugh. Mr. Chairman, thank you very much. 
Distinguished Ranking Member Visclosky, fellow former 
colleagues, members of the subcommittee, I deeply appreciate 
the opportunity.
    This is my fifth chance to appear before you to talk about 
the work of our soldiers, our civilians, and our leaders over 
this past year and to, as you said, Mr. Chairman, discuss very 
important matters of the current state of America's Army in 
what I think we can all agree are very uncertain and perilous 
times that lie ahead, particularly if the requirements in this, 
our budget proposal, should not be approved.
    I think it is important that I be clear up front: The time 
for action is now. And perhaps more than any other time 
certainly in recent years, we need your leadership, we need 
your help and your support. We must have this budget to 
properly restructure, reduce, and to revamp our force, and, 
quite frankly, we need it to protect your Army as we march into 
a dangerous and unpredictable future.
    As members of this subcommittee, you know full well that 
the cuts that we have already endured from the Budget Control 
Act and sequestration have significantly damaged our readiness, 
drastically reduced our modernization programs, and demanded, 
as the chairman noted, sharp cuts to our end strength.

                     SHORTFALL IN READINESS FUNDING

    These, coupled with a significant shortfall for the Army in 
2013 in OCO funding, caused us to enter this year with a $3.2 
billion hole in readiness alone. The bipartisan budget 
agreement does, happily, provide some temporary relief, but we 
still are implementing a $7.7 billion cut to our fiscal year 
2014 budget request, and to meet our top-line requirements, we 
have had to cut another $12.7 billion from our 2015 submission.
    In order to protect current operations, our combat power, 
as well as our soldiers and their families, we have been forced 
to make extremely hard choices in this budget that impact 
virtually every component, every post, camp, and station, and 
limit nearly every modernization and investment program. Trust 
me, this is not what we wanted. It is not what I think your 
Army deserves. But it is what we have had to do to preserve 
America's land power in such an austere fiscal environment as 
constructed by the dictates approved in law.

                   COMBAT, RETROGRADE, TRANSFORMATION

    Now, in spite of turbulent funding and tremendous change, I 
think it is fair to say this past year has been one of great 
transition, transformation, and, yes, triumph for America's 
Army, not just here at home but across the globe as well. From 
intense combat to counterterrorism and retrograde, to 
humanitarian relief, disaster assistance, and regional 
engagement, your soldiers and civilians from every component--
Active, National Guard, and Reserve--have seen unprecedented 
success, saved countless lives, and promoted freedom and 
democracy in some 150 nations around the world.
    In Afghanistan, as your Army continued to fight insurgents 
and terrorists, we further transitioned into a training and 
support role, helping to set conditions for elections in April 
and appropriate withdrawal in December.
    Simultaneously, we are conducting one of the largest 
retrograde operations in history, returning, removing, or 
demilitarizing some 580,000 pieces of equipment in the past 12 
months alone. We plan to retrograde $10.2 billion of the Army's 
$15.5 billion in equipment that currently remains there.
    From Europe to the rebalance to the Pacific to South 
America and beyond, as our forces perform vital missions around 
the world, we began a major transformation to reorganize our 
brigade combat teams. We have also accelerated end strength and 
cut our headquarters staff, all of these things designed to 
protect critical readiness and seek more balance under these 
budgetary constraints.
    As we continue to retrograde, restructure, and reduce, we 
also continued our transition to decisive action training, 
replacing our recent focus on counterinsurgency. Unfortunately, 
due to severe cuts in fiscal year 2013, we were forced to 
cancel seven combat training rotations and significantly reduce 
home station training.
    Although we ensured deploying units were fully trained, 
sequestration cuts directly impacted the training, readiness, 
and leader development of more than two divisions' worth of 
soldiers. Although our readiness levels will increase through 
this year and into 2015, the looming return of sequestration in 
2016 will quickly erode these gains.
    I would be very remiss if I did not mention the 
extraordinary burden our civilian employees have faced over the 
past year through pay freezes and furloughs. Although our 
fiscal year 2014 appropriation brought some relief, I truly 
fear that we have yet to see the true impacts of these cuts on 
their morale and their retention.
    Our fiscal year budget reflects the challenging fiscal 
times in which we live by making the hard strategic choices 
now. It contains a number of very difficult decisions to 
further reduce end strength, realign our aviation assets, 
prioritize near-term readiness, and protect our soldier and 
family programs. We do much of this by taking calculated risk 
in modernization and facility initiatives. This budget, as 
such, is lean, it is stark, but it is critical to meeting the 
needs of our Nation and our soldiers.

                              END STRENGTH

    In this request, we will begin further reduction to our end 
strength, reaching 450,000 Active, 335,000 Guard, and 195,000 
Reserve soldiers by the end of fiscal year 2013. It is 
important to note that we are also adjusting our force mix in 
favor of the Reserve Component. This is the maximum end 
strength we believe we can afford to protect readiness and the 
minimum we need to execute the 2012 Defense Strategic Guidance. 
Nevertheless, this clearly is not without risk.

                          AVIATION RESTRUCTURE

    As the chairman mentioned, we must restructure our aviation 
portfolio. We know this is controversial, but we believe we 
have no choice. The money is gone, and we must rebalance these 
vital assets in a way that maximizes our readiness and 
minimizes costs across all components.
    This initiative will generate significant savings by 
reducing our total number of platforms from seven to four. We 
will divest the older, less capable Kiowa and TH-67 trainers in 
favor of Apaches and Lakotas. In support, the Guard will 
transfer their low-density high-demand Apache attack 
helicopters to the Active Army and receive over 100 of our most 
modern Blackhawks, a platform which is far more ideal for their 
dual combat and state support role.
    This is the right thing to do. It allows us to better 
sustain a modernized, more capable fleet across all components 
and significantly reduce sustainment cost. Once again, the vast 
majority of these cuts, a total of 86 percent, come from the 
Active Army. Overall, the Guard's fleet will decline by just 8 
percent, while the Active force declines by some 23 percent.

                           CARING FOR PEOPLE

    As you said, Mr. Chairman, at its core, our Army is people. 
Accordingly, we are committed to protecting effective soldier, 
civilian, and family programs and, where appropriate, adding 
resources. In fact, we increased funding by nearly 46 percent 
across a myriad of programs associated with a ready and 
resilient campaign.
    From the prevention of sexual harassment, assault, and 
suicide to transition assistance and comprehensive soldier and 
family fitness, we are determined to meet the needs of our 
warriors, employees, and families. We have a sacred covenant 
with all those who serve and with all who support them, and we 
will do everything within our power not to break it.

                      BASE REALIGNMENT AND CLOSURE

    On a final note, let me take a moment to mention BRAC. I 
know that is not popular. As a Member, I went through three 
rounds. I had a base close in my district. And I recognize that 
authorizing another BRAC is a difficult step to take. But it 
was necessary during the last round, in 2005, and I would argue 
it is even more necessary now. We cannot afford to pay for the 
maintenance and upkeep of unused or unnecessary facilities. It 
wastes money we just don't have.
    As I noted, we didn't want to make a number of these hard 
decisions, we didn't want to limit our programs or further cut 
our end strength, but we had no choice. Nevertheless, we 
believe we have developed a plan that balances the needs of our 
Nation, our soldiers, and family members against severe budget 
constraints and calculated risk.
    This is where we need your leadership, your support, your 
help. If our planned reductions and realignments are derailed 
or delayed, we do not have the funding, we don't have the time 
to adjust. Simply put, we need protection and we need 
predictability, not politics.
    In conclusion, on behalf of the men and women of your Army, 
let me thank you for your continued and thoughtful oversight, 
your steadfast support, and proud partnership. Let's go forth 
together to help safeguard the most capable land force the 
world has ever known as we prepare to meet the unforeseen 
challenges that lie ahead.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Secretary, for an 
excellent statement.
    General Odierno, good morning, and thank you for being with 
us again.

                  Summary Statement of General Odierno

    General Odierno. Thank you, Chairman Frelinghuysen and 
Ranking Member Visclosky, other distinguished members of the 
committee.

                            DEPLOYED FORCES

    Despite declining resources, the demand for Army forces 
continues to increase. More than 70,000 soldiers are deployed 
today on contingency operations, and about 85,000 soldiers are 
forward-stationed in nearly 150 countries, including nearly 
20,000 on the Korean Peninsula. Our soldiers, civilians, and 
family members continue to serve with the competence, 
commitment, and character that our great Nation deserves.
    As we consider the future roles and missions of our Army, 
it is imperative we consider the world as it exists, not as one 
we wish it to be. The recent headlines alone--Russia's 
annexation of the Crimea, the intractable Syrian civil war, 
missile launches by North Korea, just to name a few--remind us 
of the complexity and uncertainty inherent in the international 
security environment. It demands that we make prudent decisions 
about the future capability and capacity that we need within 
our Army.
    Therefore, we must ensure our Army has the ability to 
rapidly respond to conduct the entire range of military 
operations, from humanitarian assistance and stability 
operations to general war.
    The 2014 Quadrennial Defense Review builds on the defense 
priorities outlined in the 2012 Defense Strategic Guidance. 
Last year, I testified that we can implement the defense 
guidance at moderate risk with an end strength of 490,000 in 
the Active Army, 350,000 in the National Guard, and 202,000 in 
the U.S. Army Reserve. I stand by that assessment. However, 
given that sequestration cuts are the law of the land and 
remain in fiscal year 2016, we must take deliberate action now 
to prepare.

                       REDUCTION IN END-STRENGTH

    Therefore, in order to attain the proper balance between 
end strength, readiness, and modernization by the end of 
sequestration, we will have no choice but to slash end-strength 
again beginning in fiscal year 2016. We will be required to 
further reduce the Active Army to 420,000, the National Guard 
to 315,000, and the U.S. Army Reserve to 185,000.
    At these end-strength funding levels, we will not be able 
to execute the defense strategy, and, in my opinion, this will 
call into question our ability to execute even one prolonged, 
multiphase major contingency operation. I also have deep 
concerns that our Army at these end-strength levels will not 
have sufficient capacity to meet ongoing operational 
commitments and simultaneously train to sustained appropriate 
readiness levels.
    The President's budget submission supports end-strength 
levels at 440,000 to 450,000 in the Active Army, 335,000 in the 
Army National Guard, and 195,000 in the U.S. Army Reserve. I 
believe this should be the absolute floor for end-strength 
reductions.
    In order to execute the defense strategy, it is important 
to note that, as we continue to lose end strength, our 
flexibility deteriorates, as does our ability to react to 
strategic surprise. My experience tells me that our assumptions 
about the duration and size of future conflicts, ally 
contributions, and the need to conduct post-conflict stability 
operations are overly optimistic. And if these assumptions are 
wrong, our risk grows significantly, even at the 440,000 to 
450,000 levels.
    For the next 3 to 4 years, we are reducing end-strength as 
quickly as possible while still meeting our operational 
commitments. As we continue to draw down and restructure into a 
smaller force, the Army will continue to have degraded 
readiness and extensive modernization shortfalls.
    This has required us to implement tiered readiness as a 
bridging strategy in the near term. Our acquisition funding, 
which has declined 39 percent since the fiscal year 2012 budget 
planning cycle, will continue to suffer.
    At the end of fiscal year 2019, under sequestration, we 
will begin to establish the appropriate balance between end-
strength, readiness, and modernization, but for an Army that is 
much smaller. From fiscal year 2020 to 2023, we begin to 
achieve our readiness goals and reinvest in our modernization 
programs. Under the President's budget, we achieve balance 
between end-strength, readiness, and modernization 3 to 5 years 
earlier, around fiscal year 2018, and at greater total force 
levels.
    In order to meet the reduction imposed by sequestration, we 
have worked with the leadership across all our components on a 
total force policy that ensures the proper balance for all 
components. In developing our plan, we took the Secretary of 
Defense guidance to not retain structure at the expense of 
readiness. Additionally, the Secretary of the Army and I 
directed that cuts should come disproportionately from the 
Active Force before reducing the National Guard and U.S. Army 
Reserve.
    Our total force policy was informed by the lessons learned 
during the last 13 years of war. We considered operational 
commitments, readiness levels, future requirements, and costs. 
The result is a plan that recognizes unique attributes, 
responsibilities, and the complementary nature of each 
component while ensuring our Guard and Reserves are maintained 
as an operational, and not strategic, reserve.
    Ongoing reductions, coupled with sequestration-level cuts 
over the next 7 years, will result in a reduction of 150,000 
soldiers and 687 aircraft and up to 46 percent of the brigade 
combat teams from the Active Army. The National Guard will 
reduce by 43,000 soldiers, 111 aircraft, and up to 22 percent 
of the brigade combat teams. And the U.S. Army Reserve will 
reduce by 20,000 soldiers.
    These end-strength cuts to the Active Army will represent 
70 percent of the total end-strength reductions, compared with 
20 percent from the National Guard and 10 percent from the U.S. 
Army Reserve. This will result in the Guard and Reserves 
comprising 54 percent of the total Army end strength, while the 
Active Component will comprise 46 percent. The Army will be the 
only service in which the Reserve outnumbers the Active 
Component.

                       ARMY AVIATION RESTRUCTURE

    Under sequestration, we cannot afford to maintain our 
current aviation structure and still sustain modernization 
while providing trained and ready aviation units across all 
three components. Therefore, we have developed an innovative 
concept to restructure our aviation fleet to address these 
issues. Overall, we believe this plan will generate a total 
savings of $12.7 billion over the POM.
    Of the 798 total aircraft reduced under this plan, 687 
aircraft, or 86 percent, will come out of the Active Component, 
and 111 aircraft, or 14 percent, will come from the National 
Guard. This will also include the transfer of over 100 
modernized UH-60s to the Guard.
    As with end-strength, we have disproportionately taken cuts 
from the Active Component aviation. And, in fact, we will 
eliminate three full combat aviation brigades out of the Active 
Component, while the National Guard sustains all of its brigade 
structure.
    This plan allows the Army to eliminate obsolete airframes, 
modernize the fleet, and sustain pilot proficiency across the 
total force. The result is an Active and Reserve aviation force 
mix with more capable and prepared formations that are able to 
respond to contingencies at home and abroad.
    Let me be very clear: These are not cuts we want to take 
but we must take based upon sequestration. I believe our 
recommendation delivers the best total Army for the budget that 
we have been allocated.
    The Secretary and I understand that the American people 
hold us to a higher standard of character and behavior. 
Combating sexual assault and harassment remains our top 
priority.
    Over the past year, the Army has established more stringent 
screening criteria and background checks for those serving in 
positions of trust. Army commanders continue to prosecute the 
most serious sexual assault offenses at a rate more than double 
that of our civilian jurisdictions, including many cases that 
civilian authorities refuse to pursue.

                            ETHICAL LEADERS

    We appreciate the continued focus of Congress as we 
implement legislative reforms to enhance the rights of 
survivors and improve our military justice system. We continue 
to take this issue very seriously, and I also know much work 
remains to be done in this area.
    We are also aggressively and comprehensively attacking the 
issue of ethical leadership, both individually, 
organizationally, and through systematic reviews. We have 
initiated 360-degree assessments on all officers, especially 
commanders. We have implemented a new officer evaluation report 
to strengthen accountability. For our general officers, we 
conduct peer surveys and developed a specific ethics focus as 
part of our Senior Leader Education Program, and we have also 
implemented 360-degree evaluations.

                      BASE REALIGNMENT AND CLOSURE

    We also appreciate help with two issues impacting our 
ability to maintain the right balance for our Army.
    First, the base realignment and closure process is a 
proven, fair, and cost-effective means to address excess 
installation capacity. With the reduction of over 200,000 
soldiers from our Army and lower budgets, we need a BRAC to 
reduce unsustainable infrastructure.

                            PAY AND BENEFITS

    Second, we are extremely grateful for the high-quality care 
and compensation provided to our soldiers. We have endorsed 
proposals that recognize their incredible service while 
allowing us to better balance future investments in readiness, 
modernization, and compensation.
    We must keep in mind that it is not a matter of if but when 
we will deploy our Army to defend this great Nation. We have 
done it in every decade since World War II. It is incumbent on 
all of us to ensure our soldiers are highly trained, equipped, 
and organized. If we do not, they will bear the heavy burden of 
our miscalculations.
    I am proud to wear this uniform and represent the soldiers 
of the Active Army, the Army National Guard, and the U.S. Army 
Reserve. Their sacrifices have been unprecedented over the last 
13 years. We must provide them with the necessary resources for 
success in the future.
    Thank you, Mr. Chairman, and thank you to the entire 
committee for allowing me to testify here today. And I look 
forward to your questions.
    Mr. Frelinghuysen. I thank you, General Odierno.
    [The statements of Secretary McHugh and General Odierno 
follows.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. I am pleased to yield my time for the 
first line of questioning to Mr. Womack, who, as you are aware, 
has had a distinguished career as a member of the--I think a 
30-year career as a member of the Arkansas National Guard.
    Mr. Womack, the time is yours.

                         Remarks of Mr. Womack

    Mr. Womack. Thank you, Mr. Chairman.
    And let me just say at the outset how much I admire the 
work of the Secretary and the Chief here for the terrific job 
that they have ahead of them, the challenges they face, and the 
tremendous demands that we are putting on these gentlemen and 
the men and women that they represent.
    And I will just say this at the outset, that we owe you 
certainty. We owe the country certainty. And we have fallen 
short in that area, and I am hopeful that we can give you the 
certainty that you need.
    Mr. Chairman, I am a product of a tremendous, what I call, 
AC/RC relationship down through the years. I have been a 
participant in and the beneficiary of that AC/RC relationship, 
and it is something that I take a great deal of pride in. And I 
know I speak a lot on behalf of Guard issues, because that is a 
lot of my background.

                    AVIATION RESTRUCTURE INITIATIVE

    And, General Odierno, you know that I have some deep 
concerns in the area of attack aviation and the proposed 
exchange, if you will, in the Blackhawk and Apache arena.
    I cannot argue a lot of the logic about the utility of the 
Blackhawk and its ability to better serve Governors and 
adjutants general for some of their statewide missions. And so 
I applaud you for giving consideration to those missions.
    My concern, however, is taking the attack aviation piece 
completely out of the National Guard. And it creates a bit of a 
contentious debate between the AC and the RC components, but I 
just think it is flawed from a sense that we have taken some of 
our strategic depth out of the Reserve Component that we 
believe is a very important component of our ability to 
prosecute missions around the world.
    And so I need you to help me understand why we would make 
such a drastic exchange of that type.
    General Odierno. Thank you, Congressman.
    First off, it is about the budget. The issue is we can no 
longer afford to sustain the amount of aircraft we have, so we 
have to eliminate obsolete aircraft. And that is centered 
around the OH-58.
    This proposal is cost-avoidance of almost $12 billion 
because it would cost us about $10 billion to modernize the OH-
58 for it to perform the mission. So what we have to do is we 
have to take existing Apaches and replace them to do the scout 
mission. We can't buy enough Apaches to have them do the 
mission both in the Active and the Guard.
    And so we have had to make some difficult choices. So what 
we have tried to do is come up with an organization that allows 
us to respond to future threats with the Active Component while 
still keeping structure in the Reserve Component.
    As I mention in my comments, we are eliminating three 
complete aviation brigades out of the Active Component because 
we can't afford to keep them. We are not eliminating aviation 
brigades in the Guard. What we are doing is transferring the 
attack capability out of the Guard. We can't afford to keep it. 
If we kept the attack capability in the Guard, we would have to 
eliminate three to four brigades out of the Guard in order to 
do that. I don't want to do that because I need the lift.
    In Afghanistan and Iraq, the combat aircraft that flew the 
most hours is the UH-60, by far. It is the centerpiece of 
everything we do, and I need that capability in the Guard. I 
need that to be capable of coming forward.
    The other piece with the Apache is it is not about 
individual pilot proficiency. We can sustain that in the Guard. 
It is about the complexity of the air-ground integration that 
has to occur that just frankly takes a long time to do. We 
don't have the training time--we will not in the future have 
the training time to sustain the right level of this 
integration that is necessary in the Guard. We do have the time 
to do it in the Active Component, and that is why we felt it 
would be better to move it to the Active Component.
    Again, if I had my choice and I had the dollars, I 
certainly would have kept it in the Guard, but we simply don't 
have that choice.

                        APACHE SCOUT HELICOPTER

    Mr. Womack. Well, so let me ask as just a follow-up--and I 
know I am going to run out of time. The wisdom of using the 
Apache helicopter, an attack helicopter, for a scout mission 
and the wisdom of taking 100 percent of your capability out of 
the National Guard--I am just simply suggesting that there is a 
better rebalance than the one that is proposed.
    General Odierno. Again, I would say the rebalance would be 
eliminating more aviation brigades in the Guard. And I don't 
think--that would also eliminate lift in CH-47s, and I don't 
think we can afford to do that as I look at our total mission 
set as we move forward.
    Mr. McHugh. Mr. Chairman, may I add one brief point?
    Mr. Frelinghuysen. Mr. Secretary, it is my time, so go 
right ahead. And----
    Mr. McHugh. Thank you, sir.
    Mr. Frelinghuysen [continuing]. I am going to go to Mr. 
Owens after Mr. Womack.
    Mr. McHugh. Okay.
    The gentleman from Arkansas is more than capable of making 
up his own mind, but the only thing I would say, as I mentioned 
in my opening comments, as not just Mr. Womack but all of you 
consider this proposal, the money is gone.
    So if we are not allowed to do this, if that is the 
judgment of Congress, obviously, we will follow that, but we 
have to find that $12 billion somewhere else out of hide. That 
is a lot of money, that is a lot of end strength, that is a lot 
of readiness. So that is just part of the equation.
    Mr. Womack. I appreciate the responses and the hard work of 
these gentlemen.
    And, Mr. Chairman, I do appreciate you yielding me the 
time.
    Mr. Frelinghuysen. Thank you, Mr. Womack.
    Mr. Owens.

                          REMARKS OF MR. OWENS

    Mr. Owens. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    You mentioned in your opening comments about the National 
Defense Strategy and how you are, in effect, trying to match 
the resources that you have against that strategy. That makes, 
ultimately, good sense.
    What do you see as the threats that we are going to face 
over the next 3 to 5 years, and how would you prioritize those 
threats?

                                THREATS

    General Odierno. So what I would say is, as I look at the 
world today, we have the breaking-down and unrest in the Middle 
East, we have Sunni and Shia conflict going on throughout the 
Middle East, we have governments, ungoverned territories in the 
Middle East, as well as North Africa and Central Africa, that 
have great concerns, where terrorism can use in order to--
terrorist organizations can use in order to attack the United 
States. Those are grave concerns.
    I have grave concerns over the Korean Peninsula. The acts 
of the new leader of North Korea, some of the things he has 
done, such as he has done in the last week or so--launching 
missiles, provocatively launching missiles. So those are 
concerns.
    We obviously were somewhat concerned, because of the 
economic necessity of Asia-Pacific to the United States, by 
some of the competition over the islands with some of our close 
allies, the Japanese, and issues with China.
    And there are others, but those are the main ones that I am 
concerned about.
    And the bottom line is--and then we have things that pop 
up, such as what has happened over in Ukraine and the Crimea, 
where 90 days ago nobody would have been talking about that. 
And so it is these unknown issues that come up that also 
concern me that we have to be prepared to do.
    In my opinion, as we move forward, one of the most 
important things our military does is deter, and that we have 
to deter miscalculation and actions that others might do. And I 
think that is what we have to be concerned about. And 
deterrence is a combination of capability and capacity, and I 
think, for us, it is important that we understand that as you 
move forward.

                          SEQUESTRATION IMPACT

    Mr. Owens. And if I am interpreting your testimony 
correctly, you feel that at this point you do not have the 
maximum deterrent capacity that you need.
    General Odierno. I think that, if we have to go down to 
full sequestration, I believe it will be difficult, it will 
become into question.
    Mr. Owens. So, absent the impact of sequestration in 2016, 
you think you would be at your maximum deterrent capacity.
    General Odierno. That is correct, sir.
    Mr. Owens. Do I have a little more time?
    Mr. Frelinghuysen. A little more time, yes.
    Mr. Owens. A little more time. I have a question----
    Mr. Frelinghuysen. And then Mr. Kingston.

                                  BRAC

    Mr. Owens [continuing]. On BRAC. I have a question on BRAC.
    One of the things that we have seen the Army doing is some 
realignment without a BRAC. You have, in fact, moved some 
troops around. You obviously can't close a facility in the 
absence of a BRAC, but you can, in fact, move troops around.
    Is the plan to continue that process, and the ultimate 
outcome being, if you will, the creation of a scenario in which 
it is now obvious which facilities you want to have closed?
    Mr. McHugh. Well, having gone through a BRAC that hit close 
to your hometown, Plattsburgh----
    Mr. Owens. It did.
    Mr. McHugh [continuing]. You can never tell, because 
Plattsburgh Air Force Base was closed in spite of the fact that 
the Air Force very much wanted to keep it. So it is not our 
intent to create a foregone conclusion.
    As you noted, we have made significant restructuring 
decisions largely because we had to draw down in end-strength 
pursuant to budgets. Absent some further relief, that will 
continue. Although I will tell you, we are already scheduled to 
come down to 490,000 by the end of 2015 and then from 490,000 
to 440,000 to 450,000. So, just by definition, as your troops 
are in those buildings, more and more space will become excess. 
We want to minimize that.

                  COST OF MAINTAINING EMPTY FACILITIES

    Right now, we calculate we are paying about a half a 
billion dollars a year in what we call the ``empty facilities 
tax.'' You have to maintain buildings to a certain level even 
though you are not using them.
    But we will always stay within the law. We have 
prerogatives of certain things we can do with respect to 
structure that the Congress has provided us. And as we go 
forward, we will try to use those. But an ultimate BRAC, which 
is the most efficient way, the most way in which we wisely 
spend taxpayers' dollars and which we receive the most savings, 
is, in our judgment, the most sensible path to take. But we 
need your authorization to do that.
    Mr. Owens. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Owens.
    Mr. Kingston.

                        REMARKS OF MR. KINGSTON

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Secretary, General Odierno, it is great to see both of 
you. We certainly appreciate everything that you do and your 
friendships that you have developed here on the Hill.
    I wanted to follow up with Mr. Owens on that. Mr. 
Secretary, I think that is an important point. You are paying, 
you say, a half a billion dollars a year, $500 million a year, 
to maintain buildings which you no longer need?
    Mr. McHugh. Correct.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Kingston. And, therefore, would it be more orderly to 
have a BRAC than to not have a BRAC? Because it seems like 
right now we are having a BRAC, it is just that it is a 
backdoor BRAC.
    Mr. McHugh. Well, without a BRAC, what we do is create more 
excess rather than fewer. We keep facilities, but there are no 
people in them. There is no use for those facilities, and yet 
we still have to maintain them. So it actually adds--the 
process that we are going through right now of drawing down 
forces, our end strength, of creating more vacancies in our 
facilities, actually will drive that $500 million up.
    A BRAC would allow us to go about it in a far more sensible 
way, would allow us to make rational decisions so that we can 
concentrate our facility excess and, to as great an extent as 
possible, get it off the books, saving us rather than costing 
us money.

                          COSTS OF DOWNSIZING

    Mr. Kingston. Would it be possible to put a dollar amount 
on that?
    Mr. McHugh. Well, if you look at 2005, the Department spent 
$6 billion as investment going in to execute the BRAC and are 
realizing $3 billion savings per year.
    Right now, we would estimate a BRAC would probably produce 
us about a billion dollars in savings after a 7-year 
implementation period.
    That is a hand-grenade estimate, obviously. We were 
precluded under the NDAA from even considering or planning for 
a BRAC, so we don't have the fidelity on our estimates that we 
would like, but we think that is a reasonable estimate. And as 
we go forward, we will certainly refine those estimates.
    Mr. Kingston. General Odierno, Mr. Owens had asked about 
troop strength, and we have the numbers in terms of not just 
the Guard but the Reserve and the Active Duty. Do you think 
that puts us at peril, going down to the troop levels that are 
proposed?
    General Odierno. So at 440,000 to 450,000, 335,000, 
195,000, I believe that is the floor that we can go to and meet 
the Defense Strategic Guidance. And as I view the national 
security environment, I believe that is the lowest we should go 
to.
    Sequestration takes us to a much lower level--420,000, 
315,000, 185,000. And I believe we will not be able to meet our 
mission, and I believe it puts in question our ability to 
properly deter and to properly even conduct one long, 
prolonged, multiphase campaign if necessary. And that is my 
concern.
    Mr. Kingston. Okay. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Kingston.
    Ms. Kaptur.

                         REMARKS OF MS. KAPTUR

    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Secretary and General Odierno, welcome.
    General Odierno, I first met you in Iraq, and I want to 
thank you for your service to our country in a most difficult 
assignment. And we are very honored with your presence today.

                        RUSSIAN TROOP MOVEMENTS

    I almost don't know where to start because I really want to 
ask you about your perspective on Iraq and the prospects for 
stability going forward, but I simply must ask this because of 
what has happened in Central Europe with the staging of Russian 
troops at both the Ukrainian and very proximate to the Moldovan 
border and now, we heard on the news this morning, Estonia, at 
the Estonian border. It appears largely army troops.
    I am wondering if you have had a chance, with your staff, 
to observe what is going on and could put what is happening 
there in perspective for us. How significant is that staging by 
Russia?
    General Odierno. Well, I would just say, first, we do watch 
it very carefully. I think, for us, it is something that we 
have to be very cognizant of, and ``us'' within the NATO 
context. I think NATO and the United States has to be very 
cognizant of what is going on and watch very carefully the 
troop deployments and the exercises that they are doing in 
Russia.
    So we have to watch it. We have to understand that some of 
these countries who we have begun to work with are concerned 
about this. We have some of our other NATO allies that are 
concerned about what they are seeing here, especially those in 
Eastern Europe.
    And I think it is important for us that we operate within 
the NATO framework to address these issues. And we are doing 
that. We are obviously reaching out to our counterparts. 
Obviously, the Supreme Allied Commander Europe is working this 
very hard. But it is something that I think we all have to 
watch very carefully and that we are all concerned with.

             TRAINING AND SUPPLYING RUSSIAN BORDER NATIONS

    Ms. Kaptur. I want to just make an observation, that it 
appears to me Ukraine was left defenseless over the last 2 
decades. There have been some exercises that have occurred 
within her territory, there has been some engagement, but the 
last 2 decades appear to have allowed this moment to happen. 
And so I just wanted to state that for the record.
    I hope that whatever occurs in the future, that the border 
nations--Lithuania, Estonia, Latvia, Poland, Hungary, even 
Turkey, Moldova, Romania--that a new architecture for 
participation in some manner to maintain an edge. There has to 
be some structure that holds the line. And I am sure that is 
being discussed, and I hope it continues.
    I would just ask you to consider--it is my understanding 
there are some training exercises that were to occur in the 
western portion of Ukraine in June with several allies of the 
United States. I don't know--and not all of them, I believe, 
are members of NATO. However, I am wondering if those training 
exercises might be moved up, or some aspect of them.
    I am not aware of all training exercises, but it just seems 
to me to leave any country that wants to accede to Europe 
defenseless at this moment is not a good strategy. And I am 
just wondering about the flexibility of exercises.
    And then I would like to ask about supplies. If Ukraine 
were to request supplies, would that be formally done through 
NATO? Where would supplies come from to Ukraine if she faced 
the worst?

                        COMBINED TRAINING EVENTS

    General Odierno. So, a couple things.
    I think we have a robust exercise program that goes on 
throughout Europe that could be used, utilized, to do many 
things, to include what you suggest. And I think we are taking 
a very hard look at that, as we look at the exercises that we 
have planned.
    You know, last year, we went through this for the first 
time. The United States has a brigade that is part of a NATO 
response force, and it is actually First Brigade or First 
Cavalry Division out of Fort Hood. And they have been training, 
and, in fact, they are supposed to conduct training exercises 
in Europe with NATO over the next several months. And so there 
are things that can be done.
    In terms of supplies, we are working several different 
courses of action, from nonlethal to lethal supplies that we 
could provide. It could be done through NATO, it could be done 
in a bilateral nature, depending on the decisions that are 
made. We are conducting assessments of types of things we could 
do, and we are providing those to the Joint Staff for analysis.

                         MARKSMANSHIP TRAINING

    Ms. Kaptur. Thank you very much.
    Mr. Chairman, do I have time for one additional question?
    I just wanted to place on the record, if I could, that it 
has come to my attention--and I may have incorrect 
information--that within your budget, in the area of the 
marksmanship and training of our personnel, both Active and 
Guard and Reserve, that the funding for marksmanship has been 
reduced by about 60 percent. I don't know if that is a correct 
number.
    I represent Camp Perry, with the best shooting range in the 
country. And I would hope that if, in fact, there has been that 
type of serious cutback, you might take a look at the ability 
of our forces to train properly and to do what is necessary to 
provide them with those skills.
    General Odierno. If I can just give a quick answer. There 
has been no reduction in individual and squad-level training 
and marksmanship. That is funded. Where we have problems is 
when we get above that level. The collective training that 
happens at platoon, company, battalion, that is where we have 
had to reduce funding.
    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    And I think the record should also show, and I think it is 
true, General Odierno, that Ukraine has stood with us both in 
Iraq and Afghanistan, and we are highly appreciative and 
recognize their sacrifice.
    Mr. Cole.

                           BUDGET CONTROL ACT

    Mr. Cole. Thank you, Mr. Chairman.
    And I thank both of you gentlemen for your terrific service 
to our country in a variety of capacities.
    And thank you, in particular, in both your testimony for 
being direct and blunt about the consequences of another 
sequester. You know, I think your--and I have said this on 
multiple occasions, but I am going to keep saying it for the 
record. I think you and your counterparts in the other services 
are making tough decisions because we haven't, as a Congress 
and an administration, made our tough decisions.
    And I don't think anybody, when we first voted for the 
Budget Control Act, ever thought sequester would become a 
reality. Nobody did politically on either side. I don't think 
the services did. And we stumbled into a really bad situation 
that you are having to deal with.
    And while I am very proud that we found 2 years of relative 
budget certainty, you know, all we did was buy a little time. 
We are going to have exactly the same problem here.
    And I would suggest, I don't think anything is going to 
happen between now and November, but we need to make the tough 
decisions as soon after that as we possibly can so you have the 
certainty that Mr. Womack appropriately said that we owe you. I 
have always been willing to vote for any deal that we could 
find that would do that. I would to do that again.
    But I do think some of our leadership on both sides of the 
aisle and, sort of, up the chain need to sit around the table 
and come to a deal. Otherwise, we are going to keep living this 
scenario, and it is just not fair to the men and women that you 
both lead.

                              PALADIN-PIM

    Let me ask a couple of quick questions, if I may. One, you 
know, if you represent Fort Sill, you are always interested in 
artillery. So I am very interested in your assessment of where 
we are in the PIM modernization program and how you see that 
unrolling.
    Mr. McHugh. Well, thank you for your comments, Mr. Cole. 
And, obviously, it is not important, I suppose, but we fully 
agree.
    As I know you and I have talked in the past, the Army is 
fully committed to PIM. And we recognize the impact to the 
great State of Oklahoma, but it is critically important to the 
Army. We need a new self-propelled artillery howitzer to keep 
up with our formations, and so we are going forward.
    We really have no particular challenges at this point. We 
are coming up to our first delivery of LRIPs. We expect 66.5 
vehicle sets sometime in mid-2015. And, thereafter, we will go 
to the first unit equipped and a full-rate production decision 
plan for the second quarter of 2017.
    You know, these are long timelines, they are frustrating. 
But when you are developing something as important as this and 
really is a generational change, time is kind of an unavoidable 
factor.
    Mr. Cole. Second, just a quick follow-up. And I know this 
causes everybody a great deal--we have spent an awful lot of 
money in the pursuit of new cannons, whether it was the 
Crusader or the NLOS-C, part of the Future Combat System. We 
spent billions of dollars, never got a deployable system out of 
it.

             TECHNOLOGY HARVESTED FROM TERMINATED PROGRAMS

    Number one, is there anything that was gained in the course 
of that work that can be salvaged technologically? And, number 
two, what are we doing to make sure we don't walk down this 
road again? Because we certainly can't afford to do it.
    Mr. McHugh. Yeah. Thank you for bringing--I think there 
was----
    Mr. Frelinghuysen. Let me associate myself with----
    Mr. McHugh [continuing]. Bringing up our painful past.
    Mr. Frelinghuysen [continuing]. Mr. Cole, having defended a 
lot of those programs.
    Mr. McHugh. At least he didn't throw in Future Combat 
Systems and some of the----
    Mr. Frelinghuysen. I think he did, actually.
    Mr. McHugh. Oh, he did? I missed that. I had grown numb by 
the time he had gotten to that.
    Mr. Cole. I can repeat the question.
    Mr. McHugh. No, no, that is okay. Thank you.
    If you take, as we have, all of these nondeliverable 
developmental programs, we can learn a great deal, and we do 
think we have. And we have tried to employ those lessons 
learned of reaching too far for immature technologies, of 
writing requirements that are really more a pipe dream than a 
realistic path forward to acquisition. I do believe we have 
shown great improvement.
    The fact that the PIM at this point of maturity and in the 
low-rate initial production is still on time and still on 
schedule I think reflects, indeed, the fact of those lessons 
learned. And I think we can show it in other developmental 
programs, as well.
    We spent a lot of time after the cancel of the NLOS-C and 
Crusader and those other things you mentioned trying to better 
understand where it was we seemed to repeatedly come up short. 
We had the Decker-Wagner report that I ordered to be held; it 
came back with 56 great recommendations. We have implemented 
the vast majority of those, and they are making a difference.
    And we watch these very, very closely. And every program 
manager knows that he or she is going to be judged by their 
staying in budget, on schedule, and is going to be judged by 
their ability to bring in that program to production.
    Mr. Cole. Just one quick request, really. If it is 
possible, could I get a copy of that report?
    Mr. McHugh. Absolutely.
    Mr. Cole. Frankly, it could be helpful for us to learn the 
same lessons.
    Mr. McHugh. Absolutely.
    Mr. Cole. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    General Odierno. If I could just quickly comment, and I am 
just going to reenforce what the Secretary said. But we have 
moved some of the technologies into the PIM program. Now, 
probably not worth the investment that we made, but we have 
taken some of those technologies and integrated it.
    Now, I would say one thing----
    Mr. Frelinghuysen. Used to be called ``spiralling up.''
    General Odierno. Yes. Yes.
    Mr. Frelinghuysen. I don't know what they call it now.
    General Odierno. Spiralling out.
    Mr. Frelinghuysen. All right.
    General Odierno. Spiralling out technologies.
    But the other thing I would say is, and the Secretary 
mentioned it, it is about requirements and it is about our 
requirements process.
    We have put in a lot of work on ensuring we have adjusted 
our requirements process in the Army, and we are constantly--
because what happens is you have--we built requirements on 
hoping for technology instead of building requirements on 
technology that was achievable. And that is what we are 
changing.
    And you have to build requirements that are achievable. And 
if we build them that are unachievable, it leads us down this 
road. And you have to constantly assess it, adjust it, take a 
look at it. And we now, I believe, have processes in place that 
allow us to do that.
    Mr. Frelinghuysen. Thank you.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Mr. Ryan.

                          REMARKS OF MR. RYAN

    Mr. Ryan. Thank you, Mr. Chairman.
    Let me first just, as I look at the numbers here, I know we 
have had a couple questions already on the end strength. And 
you look at the sequester numbers, what the potential 
possibilities could be. I just want to encourage you, as 
publicly and as loudly as you can, to continue to get this 
message out and amplify it.
    I think this is a situation that would be completely 
unacceptable from the committee's perspective, and I know it is 
from yours, as well. My fear is that this hasn't really 
penetrated the thoughts of average Americans as to what this 
would mean for us.
    And you have mentioned, General, that this is mostly about 
deterrence, to Mr. Owens' question, this is mostly about 
deterrence. And so, to look at these numbers and to imagine a 
world in 2018, 2019 is unacceptable, I think, to most of us 
here. So if you can continue to help us out in the public to 
drive that message, I think it would be critically important.
    You mentioned BRAC. And the Navy was here yesterday, and 
they mentioned BRAC, as well. As you know, Mr. Secretary, it is 
not the favorite phrase to hear as a Member of Congress.

                      BASE REALIGNMENT AND CLOSURE

    And so just a question. I know we had some discussions from 
previous BRACs at how much it cost to actually implement the 
BRAC process. And there were a lot of complaints of how 
expensive it was to implement BRAC. I think it was $35 billion 
in some of the estimates that I looked at.
    Can you talk a little bit about how a new BRAC would be 
different? Or is that standard?
    Because the assumption was it was going to cost, like, $21 
billion to implement, and it ended up being $35 billion. And in 
these tough times, I think this is a fair question, for us to 
ask how much money would we be asked to put up front and what 
would the estimated savings be on the back end.
    Mr. McHugh. Absolutely an important and appropriate 
question.
    The $35 billion was a department-wide, as you noted, 
department-wide investment for the 2005 round.
    If you look at from the Army's side of it, the 2005 round 
was really two BRACs in one. We had really what we call an 
efficiency BRAC to the extent that it largely entailed moving 
troops around, relocating headquarters, trying to place 
programs and processes in one location to gain efficiencies. 
That takes a lot longer to pay back. And because the MILCON 
costs are so high because we are creating new structure, that 
would be considered an unusually expensive BRAC for the Army.
    The second piece was the more traditional closure--save 
money, fewer facilities. And we are saving right now from the 
2005, as an Army, about a billion dollars a year, each and 
every year, even at that high price tag, unusually so in 2005.
    For the Army, again, we don't expect our costs going in 
would be anywhere near the 2005, although, as I commented 
earlier, because of previous prohibitions on our ability to 
actually do analysis related to BRAC--that has now been 
lifted--we don't have the kind of clarity, the kind of numbers 
I think that you would want. And we understand that. We are 
going to try to work to get those to you.
    Our rule of thumb, about a 7.7 percent rate of return on 
investment for the Army, that that would be our goal after 7 
years. We have made that, to my understanding, virtually every 
previous BRAC, and we think that would be a more than 
reasonable expected rate of return, which would----
    Mr. Ryan. You said you have met that over previous BRACs?
    Mr. McHugh. Yes, sir.
    Mr. Ryan. You have hit that number?
    Mr. McHugh. Right.

                         ARMY BASE CONSULTATION

    General Odierno. If I could, I would just add that, the 
last BRAC, there was really some significant reorganization 
that went on in the Army. For example, we consolidated the 
Maneuver Center of Excellence. Fort Benning and Fort Knox 
consolidated. We consolidated all our combat service support at 
Fort Lee. We consolidated maneuver support at Fort Leonard 
Wood. Those were major changes.
    That is not what this BRAC would be about. We have done 
that, and that has been very successful. This one is more about 
excess infrastructure. In other words, it is just that we have 
to get rid of some of the excess infrastructure, and we can't 
afford to pay it.
    So I think, based on that, the expense would not be as 
great, because we had to build new facilities as we combined 
facilities at Fort Benning and at Fort Lee and at Fort Leonard 
Wood in Missouri. So it was probably a bit higher. I think this 
one would be quite a bit different, because it is really about 
eliminating infrastructure we just can't afford to have because 
of the reduction in the size of the Army.
    Mr. Frelinghuysen. Thank you, Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. You will get another bite at the apple--
--
    Mr. Ryan. All right.
    Mr. Frelinghuysen [continuing]. Depending on time here.
    Judge Carter, thank you.

                              OCO FUNDING

    Mr. Carter. Thank you, Mr. Chairman.
    And good to see both of you.
    Mr. Secretary, I believe we met first and got to know each 
other on a trip to Iraq. And, General Odierno, we met you in 
Iraq. So there is some relationship there. I don't know what it 
is. I have since gotten to know you at Fort Hood.
    I want to ask a question that still is relevant to what we 
are talking about. As I understand it, we will not receive the 
fiscal year 2015 overseas contingency operations, OCO, budget 
until after the Afghanistan--President's decision has been 
made.
    The Army has said it will need OCO dollars for years after 
operations in Afghanistan draw down, both to get our equipment 
out of the theater and into depots so that the equipment may be 
retrograded and reset. The Army has $9.9 billion of reset 
requirements alone that are directly attributable to this war 
effort. In addition, OCO provides funding for global-war-on-
terror operations happening in the CENTCOM area of 
responsibility but not necessarily Afghanistan.

                            LONG-TERM RESET

    Secretary McHugh, what is the Army's long-term plan to fund 
equipment resets and retrograde? Will you request funding for 
the Army in OCO in fiscal year 2015 and in the out-years? What 
impact would the loss of OCO funding have on the Army's 
retrograde and reset, and what impact would it have on the Army 
readiness?
    And, General Odierno, with the problems in--I understand 
that when we are moving things out of Afghanistan, a great deal 
of that is to go the northern route because of issues we have 
had with Pakistan. And, therefore, I assume that would involve 
Russia in some form or fashion. And with what is going on with 
the unrest in Russia, do you see that, the northern route out, 
being an issue as we take our equipment out?
    Mr. McHugh. Thank you, Congressman.
    Our intent has always been and our need has been and 
remains that OCO funding continue for 3 years after cessation 
of hostilities, after withdrawal out of Afghanistan. And the 
vast, vast majority of those funds are intended to do the reset 
that you mention.
    As we sit here this morning, we have probably about $10 
billion worth of equipment in Afghanistan that we intend to 
retrograde back to the United States to reset and to return to 
our troops. And if we lose that money, we will have junk piles 
next to our arsenals, next to our depots particularly, because 
we won't have the funds to process those.
    That has multiple effects, none of them good. First of all, 
the workload, the people need at those depots will go down. 
That is a real impact on the economy. It is an added concern 
for us as we struggle to find ways, already, to sustain our 
organic industrial base. It also means that those pieces of 
equipment, vital to our formations, vital to keeping our 
equipment on hand and our modernization ratings up and 
sufficiently high, would not get back to those troops; it would 
just be unavailable. That means readiness declines even 
further.
    So, regardless of what perspective you take on this issue, 
if we fail to get that funding, we have an enormous problem 
that I just don't see us fixing in any less than a decade, if 
then.
    We do intend to ask for funds in 2015. The problem that I 
recognize that is challenging for this committee, particularly 
this subcommittee, is that without hard numbers it is hard to 
write a bill. The administration has asked for a placemarker. 
We obviously will look to you to----
    Mr. Frelinghuysen. Not only--if the gentleman will yield--
not only to write a bill, defend a bill. We need to----
    Mr. McHugh. No argument. I have been there, seen it. I 
never served on this great committee, but I begged you for 
things over many years.
    Mr. Frelinghuysen. You worked very closely with our former 
Chairman.
    Mr. McHugh. So, yeah, if you look at last year, the Army's 
portion of the OCO bill is about $46 billion. We are coming 
out, we expect it would be something less than that. But we owe 
you the numbers as quickly as we can get them.
    But, as you noted, Judge, we have the issue of the Afghan 
elections and the Afghan SOFA.
    Mr. Frelinghuysen. Thank you, Judge Carter.
    Mr. Visclosky.
    Mr. Carter. Could I get the answer to the northern route?
    Mr. Frelinghuysen. Very briefly.
    Northern route I know we are not using as much as we 
originally intended; is that correct?
    General Odierno. That is correct. It has not been affected. 
We are using it, but we have a course of action in case we 
don't have to use it.
    I know you are----
    Mr. Frelinghuysen. Expensive, too.
    General Odierno. Yeah, it is expensive.
    Could I just make a short comment on OCO?
    Mr. Frelinghuysen. Go right ahead.
    General Odierno. On the OCO, we understand the Army has a 
really specific problem even for 2015, because October, 
November, December, we know for sure we are still in 
Afghanistan. We have to pay for October, November, December. In 
addition to that, all of our end-strength over 490,000 is in 
OCO, and we don't get to 490,000 till the end of 2015. So we 
already have a bill that we know, regardless of what the 
outcome is in Afghanistan. So we have to work this very 
carefully, because it would have significant impact on our 
budget.
    The other piece of this is we also have about $5 billion, 
we estimate, that has to go from OCO to base if we continue to 
do some of our contingency operations that are being paid by 
OCO.
    And so there are a lot of issues involved with this that we 
are going to have to deal with in 2015 and the out-years with 
OCO. And that could have a significant impact on our base 
budget.
    Mr. Frelinghuysen. Excellent point and important to have in 
the record. Thank you.
    Mr. McHugh. If we have to fly everything out, which if the 
GWACs go down we would, that is a $3 billion estimate. The 
least expensive using GWACs is a billion. So it is big money.
    Mr. Frelinghuysen. Yeah.
    Mr. Visclosky.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, just following up on your remarks, and we have had 
some extended conversation on OCO, you hit a point. And that 
is, no matter what happens, we are there for 3 more months. 
And, again, the chairman's opening remarks and mine, should we 
expect from the administration shortly some details for at 
least those 3 months for our anticipated bill?
    General Odierno. We are having discussions right now 
internally on this. We understand the importance of it, and we 
are having discussions on this now.
    Mr. Visclosky. I would like to follow up--as always, Mr. 
Cole is ahead of me. I have a terrific question that he has 
already asked, thanks to our wonderful staff. But I would 
follow up on that, and in all seriousness, about the issue of 
acquisition in programs.
    Relative to some of these large programs--Ground Combat 
Vehicle, the Future Combat Systems, just to name a couple--as 
we proceed, two questions on my mind. One is, what are our 
risks of obsolescence?
    And understanding that the Army is always trying to upgrade 
what we do have and circumstances change, what is the 
difficulty we are seeing here in the industrial base? Because 
you still keep that base alive as you upgrade, but at some 
point if you don't have some significant production, I am very 
concerned about that.
    Mr. McHugh. Well, it is very important. And although we 
focus a lot of time on our external industrial base, as we 
should, it is not often that people think about what we do in 
our modernization programs in terms of supporting the general 
economy.

                      GROUND COMBAT VEHICLE (GCV)

    And when we have to, as we already have, take significant 
cuts out of our modernization programs, out of our 
developmental programs--and GCV is a perfect example. GCV was 
performing. The program was on schedule, it was on budget for 
the internals of the initiative, but we simply couldn't afford 
it in light of other realities. So that results in potential 
loss of jobs. Those are programs that go away.
    And so, as we look across our portfolio, we try to do the 
best we can in identifying particular points of failure--in 
other words, where we have suppliers or we have high-skilled 
manufacturing personnel--and try to make adjustments, where 
possible, so that we continue to support them at least at a 
minimum sustainment rate so that when, you know, larger 
programs come about and we are in full-rate production of 
something else that they can build, you know, they can return 
to full health.
    But it is a challenge. We don't have enough money to do the 
things we need to do to begin with.

                        INDUSTRIAL BASE CONCERNS

    Mr. Visclosky. Any particular discrete areas of the 
industrial base, if you would, that you are most concerned 
about? And, again, the issue of obsolescence that you----
    Mr. McHugh. Well, we have a number of studies and analyses 
ongoing. One, the S2T2, sector-by-sector, tier-by-tier analysis 
conducted by the Department of Defense, and as well as, 
internally to the Army, we are setting our organic industrial 
base at particular points of vulnerability. And we have an 
ongoing A.T. Kearney study that will finish its first phase and 
the report will be ready probably by the end of next month and 
then enters a second phase.
    And most of those are trying to identify two particular 
areas. First, where are those truly high-skilled, close-to-
irreplaceable workers? You know, we are not talking about folks 
who, you know, come and go and folks we are able to hire off 
the economy pretty readily, but those folks that have 
particular skills.
    And, second of all, where are those--and they are usually 
lower down on the chain of acquisition--single points of 
failure? And they generally lie in pretty specialized 
manufacturers. And we have made some adjustments in our FLIR, 
our forward-looking infrared radars, and in some transmission 
components for our combat fleet to try to protect those kinds 
of things.
    But, again, it comes back to you can only protect as many 
as you have money to spend.
    Mr. Visclosky. All right.
    General Odierno. I mean, we are working very hard. Let me 
use the Ground Combat Vehicle as an example. How do we sustain 
the intellectual base of our combat development programs in 
industry? And so we are working to make sure that we have the 
dollars to do that. Because if we lose that, then as we move 
down the road, we really have problems in developing these 
programs.
    So we are looking to put some moneys in this process so 
they can sustain a level of intellectual capacity to move 
forward as we look down the road to develop a future, for 
example, infantry fighting vehicle. And we have to do that in 
several areas. And we are trying to balance that so that we can 
sustain that. Because if we don't, we have real problems.

                            WOMEN IN COMBAT

    Mr. Visclosky. Mr. Chair, if I could ask one more question, 
please?
    On women in combat, Secretary Panetta had a memorandum in 
January of last year. And would note that in 2012 the Army has 
already opened up 14,000 positions that had previously been 
closed to women.
    One of the issues, obviously, is the issue of physical 
standards. And, as I understand it--and had a very good 
conversation with a number of people yesterday--it is not 
necessarily having the same standards but making sure that the 
outcome you need for that particular skill set is met. And 
there might be different techniques to get to that outcome.
    I guess the question I would have is: Has DOD, in this case 
the Department of the Army, taken steps to more clearly define 
what those physical standards might be? And, secondly, how are 
we proceeding? And, again, recognizing that the Army is making 
significant progress here.

                         PHYSICAL DEMAND STUDY

    General Odierno. So there are two things.
    So the Training and Doctrine Command has undertaken a 
physical demand study, and that is in coordination with the 
U.S. Army Research Institute of Environmental Medicine and 
other outside organizations. And they are conducting valid, 
safe, legally defensible physical performance tests.
    We are out doing it now. We just finished one at Fort 
Stewart, Georgia, where we are doing these tests in order to 
define what are the capabilities, physical capabilities, that 
are necessary to accomplish specific MOSes. And it is 
regardless of----
    Mr. Visclosky. Sex.
    General Odierno [continuing]. Gender.
    Mr. Visclosky. Yeah.

                           GENDER INTEGRATION

    General Odierno. So it is really important that we do this.
    The other thing we are doing is a gender integration study. 
And what we are doing is, you know, they are conducting the 
cultural and institutional factors that would ensure that we 
set the environment for successful gender integration in the 
MOSes that previously women have not been serving.
    And so, with those two efforts, we believe we are really 
making a lot of progress. And we are very confident in how we 
are moving forward right now.
    Mr. McHugh. May I make a comment, Mr. Chairman?
    Mr. Frelinghuysen. Yes.
    Mr. McHugh. I think it is important that everybody 
recognize that the discussion that somehow we are lowering 
standards to allow women to enter is simply untrue.
    Mr. Frelinghuysen. Right.
    Mr. McHugh. We have been told by the folks who are in a 
position to know that when we get through this exercise that 
the Chief laid out and match the physical requirements to 
skills required, there are going to be some men who probably 
for some time have been in those MOSes who are not going to be 
able to qualify anymore.
    This is about making sure we are maximizing every soldier 
to have a job that he or she is most likely to succeed in and 
ensuring that we have soldiers who are less likely to get 
injured, who can perform at higher standards. And we are going 
about this in a very, very deliberate way.
    So while we are working very hard to open up positions for 
women--right now we have a notice from DOD to the Congress that 
for the Army will open 32,000 additional positions--this is 
much wider than just women in the Army. This is about giving 
every soldier a better opportunity for success.
    Mr. Visclosky. Well, I appreciate your seriousness about 
this issue and all of the good work and progress you have made 
to date very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    The chair would like to claim some time before I recognize 
Ms. Lowey.

                              WAR FOOTING

    When I was in the coffee line this morning, somebody said, 
are you going to mix it up with the Secretary and the Army 
Chief, and I said, well, first of all, they are good friends 
and they do a remarkable job, they provide a lot of leadership. 
And you have been given some pats on the back and accolades for 
being blunt about the sequester. But the other part of that 
equation is that--and I suppose I would direct this to you, as 
a civilian leader. There has been a decision to get off what we 
call permanent war footing.
    In other words, to me, as someone on this committee who has 
been here for a while, we sort of started the process being 
able to be involved in two wars at the same time, and General 
Odierno suggested that we could perhaps address one for a 
limited period of time.
    So we have good reason, in some ways, to continue to be on 
a war footing. I mean, there was a time a couple of months ago 
when the House was challenged that we were going to, sort of, 
take some military action in Korea. And there was sort of a 
back-off from that, which I think surprised a lot of people, 
disappointed some of our allies. The Koreans aren't slowing 
down, you know, their hostility. The Chinese are setting up 
sort of an exclusion zone. We talked about this in another 
setting over the last 24 hours. And they are being 
confrontational. And there is the issue that our adversaries 
are watching, our allies are watching what our response is.
    After all, this is a defense posture hearing here. We can 
wring our hands about the state of what is going on here, in 
terms of the sequester and continuing resolution, but you still 
have a job to do here. And I don't know whether, you know, this 
is the forum, but this is the committee that is going to come 
up with whatever it takes you to get across the finish line.
    I think we continue to live in a very dangerous world here. 
Who would have thought that the Russians would have annexed 
Crimea? We can go back into the history. We can talk about 
gulags and things that, you know, all these people have 
suffered, their indignities and the horrors. But we need to be 
prepared for every eventuality.
    And I know this is sort of sequester-centric here, but, in 
reality, we now have a--we are taking ourselves off a permanent 
war footing. I think we live in a more dangerous world, and we 
need to be prepared for that.
    So the bottom line here: Are we prepared? Are we prepared? 
It is an issue of readiness here. Whatever the number is, are 
we ready to meet whatever those challenges are, some of which I 
have outlined?

                      BI-PARTISAN BUDGET AGREEMENT

    General Odierno. Well--and a really important subject. And 
what keeps me up at night is our readiness today. That is what 
keeps me up at night.
    I mentioned earlier we have 70,000 soldiers currently that 
are on operational commitments around the world. That is a 
significant number. And what has happened is, in 2013, we had a 
really significant downgrade in our readiness because of the 
hammer of sequestration.
    The bipartisan budget agreement helped us significantly in 
2014. It helps a little bit in 2015. So we are starting to 
rebuild this readiness. The problem is, if you go back to 
sequestration in 2016, you fall off the cliff, readiness cliff. 
So, once again, we are going to have readiness issues because 
of the nature of sequestration.
    So, in order to sustain appropriate readiness, it has to be 
consistent funding over consistent periods of time. Because 
readiness is something that comes and goes. If you are not 
constantly preparing yourself, you lose readiness. And I worry 
we are having too many fits and starts with readiness.
    We are taking advantage of the money that you have given us 
on the bipartisan budget agreement, and we are now building 
readiness. But that ends, you know, in 2015, and so we have 
this problem.
    The only other thing I would say that is counterintuitive, 
what people don't realize, as you get smaller, readiness is 
more important. Because----
    Mr. Frelinghuysen. Exactly my question.
    General Odierno. Yeah.
    Mr. Frelinghuysen. Whatever your size is, you better be 
capable of moving it quickly.
    It is a subject which is key to our--and this is a group 
that all endorses, you know, regular order. We have the ranking 
member here, Mrs. Lowey. I mean, it has been a working 
relationship with Chairman Rogers. I am not sure everybody 
outside our committee gets it, but we are still working on it.
    Leader Lowey.

                             SEXUAL ASSAULT

    Mrs. Lowey. Thank you very much, Mr. Chairman. It is a 
pleasure for me to join you in welcoming the Secretary.
    Nice to see you in this position.
    And, General Odierno, I know that I have been involved, I 
know you are, in the Wounded Warrior Project. And I know how 
much you care and you are working to address that very, very 
serious issue when these young men and women come home.
    I want to thank you and all the Army soldiers and civilians 
for your sacrifices and dedication to keeping our Nation safe.
    The Army faces great funding shortfalls due to 
sequestration, and while a partial restoration of funds in the 
fiscal year 2014 budget will help recoup some of the lost 
readiness, tough choices remain in the Army's budget proposal 
for fiscal year 2015 and beyond.
    With today's volatile environment, it is increasingly 
difficult to most effectively shape the Army for the future. 
And we need to work together to ensure this budget allows the 
Army to meet our national security goals despite uncertainty 
and fiscal constraint.
    And I look forward to doing just that, Mr. Chairman.
    Sexual assault and harassment continues to plague the 
military. The President gave the Department of Defense a 
deadline of December 1st, 2014, to evaluate whether changes 
implemented over the past 12 to 18 months are making a 
difference.
    The Pentagon reported that about 5,400 instances of sexual 
assault or unwanted sexual contact were reported in the 
military in fiscal year 2013, a 60 percent rise from 2012. Last 
month, a top Army prosecutor for sexual assault was suspended 
after allegations that he sexually harassed a subordinate. Just 
this week, an Army general officer got off with merely a hand 
slap after being charged with similarly egregious offenses.
    General Odierno, do you believe the Army will be able to 
stem the rising incidence of sexual assaults or unwanted 
contact? Is it a cultural problem? Is it a leadership problem? 
Will opening more military positions to women at all ranks help 
the problem?

                ARMY STRATEGY TO COUNTER SEXUAL ASSAULT

    General Odierno. First off, I think there are several 
things we have to do. One is we have to constantly work on our 
culture. And we are working that from the bottom up and the top 
down, and it is absolutely critical.
    It is also, anything that goes on in the Army is a leader 
issue. And this is about leaders being involved at every level 
to solve this problem. We have made it our number-one priority. 
I hold regular meetings with our leaders. I talk to every 
brigade or battalion commander, I am talking to every one of 
our generals about their responsibilities--our sergeant majors. 
And that is, in our institutions, we are changing how we train.
    So all of this is absolutely critical to us as we go 
forward. Yes, we can solve this problem, but we have a lot of 
work to do yet.
    We are seeing some things that I think--you know, our 
prosecution rates are up. Number of people going to trial is 
up. So there are some positive signs.
    I also believe that the reason the rates have gone up in 
terms of the number of incidents is because they feel much more 
comfortable coming forward because of the new renewed 
involvement in the chain of command and that they are gaining 
some confidence.
    But we still have much work to do. We are nowhere near 
where we need to be yet. But we are absolutely focused on this.
    Mrs. Lowey. If you could describe for us, the DOD Military 
Criminal Investigative Organization, the MCIO, to investigate 
100 percent of sexual assault cases, what impact will this have 
on the Army? And how has the criminal investigation division 
been resourced, both funding and manning, to meet this growing 
requirement?

                     SEXUAL ASSAULT COUNTERMEASURES

    General Odierno. There are two things that we have done.
    First of all, I think we are recognized as having the best 
forensics capability of any of the services in terms of sexual 
assault within the criminal investigation division of the U.S. 
Army because we have invested a lot of dollars in that.
    We continue to increase the number of special prosecutors 
that we are training with experience in this area. We are also 
increasing the number of investigators and giving them very 
specific training to ensure they understand how to investigate 
these crimes. And we are continuing to increase this.
    We also have an awareness campaign that commanders 
understand the capabilities of the criminal investigation 
division, both the special prosecutors as well as the 
investigators.
    We continue to increase in all of these areas, and we are 
continuing to invest.
    I just went down to Fort Leonard Wood, where we have our 
school, and I spent time there. We have also implemented new 
courses in the school. We have also established a new Army-
level school for SARCs.
    And so we are investing a lot of money in this, and we will 
continue to do so.
    Mrs. Lowey. And one other question, if I may. The issue of 
suicide prevention remains a high priority, I know, within the 
Department of Defense. While Army suicides in all 3 components 
have declined in recent years from 325 in 2012, 305 in 2013, 53 
reported thus far in 2014, it remains a problem, and it really 
pains all of us to look at those numbers.
    General Odierno, do you believe the Army is doing a better 
job of addressing this issue with soldiers? And what has made 
the difference? What still needs to be done?
    It is so painful for us to think this exists after our 
young men and women serve with such distinction. If you could 
address that.
    General Odierno. Yes, thank you, ma'am. Two areas I will 
highlight quickly.
    One is we have expanded behavioral health significantly in 
the Army. We have increased behavioral health staff by 150 
percent since 2013. And we are now in the units; we now have 
behavioral health specialists down to brigade level. This is 
having a significant impact, so they have people they can get 
to and more access to the care that they need.
    The other thing I would say is that it is about us, also, 
our ready/resilient campaign, where we are focusing on ready/
resilient soldiers and families and the education of them in 
terms of modification of their behavior, better physical, 
better mental toughness and strength, the ability to cope with 
very difficult situations. And we are getting great feedback 
from our soldiers and families that this is starting to make a 
difference.
    Again, this is one that requires leadership attention. This 
is one that we will not stop. No matter however we lose a 
soldier, it is very difficult for us. And we continue to work 
this very carefully.
    Mrs. Lowey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mrs. Lowey.
    And let me just correct the record. I was referring early 
to Syria, the potential military action there. We obviously 
hope never to see such a thing happen on the Korean Peninsula.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    I want to pick up a little bit on what the chairman just 
talked about in terms of readiness. When I walked in, Mr. 
Visclosky was talking about the industrial base. And I want to 
ask a couple--we have had this ongoing conversation about 
tanks.
    And I actually just came from a meeting with Condoleezza 
Rice, and we were talking about Ukraine, talking about Russia, 
talking about Georgia, talking about NATO. And one of the 
things that she commented on, you know, maybe we were a little 
premature in thinking everything is going in the right 
direction.

                      M1A2 ABRAMS TANK PRODUCTION

    And when you talk about tanks, I know there was a time 3, 5 
years ago, said, we don't need any more tanks for now, but we 
might need them 5 years later. And so we had a discussion about 
what happened if you shut down a production facility and then 
had to start it back up. And there was a back-and-forth about 
how much that might cost, somewhere, $500 million to a billion 
dollars.
    And the last several years, this subcommittee--and we have 
to take, like, a long view of the world. I know sometimes your 
decisions can be driven on a short-term basis. But we provided 
somewhat of a safety net to make sure that the only tank 
production and modernization facility we have stayed open, 
along with some foreign military sales. And, each year, you 
have chosen not to put any money in your request to--but we 
kind of provided that safety net.
    And so, once again, here we are; we look at the request. 
And I think your view is that hopefully foreign military sales 
will keep the line sustainable. And as the world seems to get a 
little more dangerous, tanks probably become more important 
than they might have been 5 years ago in terms of 
modernization.
    And I guess the question is, if we didn't provide a safety 
net and the foreign military sales weren't what we all hoped 
they would be, what would happen to that only tank production 
facility we have in the country? And if it were to shut down, 
how much would it cost the Army, the military, to start it back 
up, either next year or the year after that? And that is not in 
the budget.
    So talk about that and how you view the whole readiness 
issue, the industrial base issue. Because I think we all agree 
how important it is, but it seems like that is an overall cost 
of doing business.

                            INDUSTRIAL BASE

    Mr. McHugh. If I could, Mr. Crenshaw, I will start and then 
let the Chief take over.
    As I mentioned earlier, we have spent a whole lot of time 
trying to analyze what we are able to do to sustain both the 
organic as well as the external industrial base.
    In the case of our combat fleet, we have, in fact, done 
some things to try to stretch out procurement times to sustain 
a minimum amount of work necessary to retain the skilled 
workers, which is our focus. We can't possibly maintain an 
entire workload as it was at the height of production, but we 
want to keep those skilled workers.

                 KEEP SOME M1A2 WORKERS ON THE PROGRAM

    We have made some accelerated acquisition, I mentioned 
earlier, in FLIR, our forward-looking infrared radars, some 
engine transmissions for Bradley and other units to try to 
ensure that those skilled workforces stay available. And we 
have accelerated, with respect to the Abrams, we have 
accelerated our plan for the engineering upgrades. Originally 
planned in 2019, we have accelerated that to 2017.
    We had, and you mentioned, shut down to warm status, 
analysis that showed us that doing that kind of action and then 
a restart was far more cost-efficient than sustaining and 
buying product that we don't need. We will have met the full 
Army acquisition requirement for Abrams tanks by next year, 
2015. It will be what it already is, one of the most modern 
articles in the United States Army's inventory. The average 
Abrams tank is 4 to 5 years old right now.
    So do we wish we had money to continue to buy and build up 
a reserve? I suppose that would be nice. But in the current 
budget realities, we just don't have that capacity.
    General Odierno. If I could just add, we have the most 
modernized and new tank fleet that we have ever had since I 
have been in the Army today. And that is because of the 
investments that you have allowed us to make. And so I feel 
comfortable with where we are with our tank fleet. We have not 
ignored it. We have capacity, we have capability. So we have 
that capability.
    The issue is, as the Secretary said, how do we sustain an 
industrial base for the long term. And I think we have tried to 
come up with the best strategy possible to do that.
    And so I feel comfortable with where we are with that. I 
feel comfortable with where we are with our tank fleet. Again, 
I believe we have the best tank in the world, and I believe we 
have the most--and it has been modernized to the extent that 
the fleet age of our tanks are the lowest they have ever been. 
And so I feel comfortable with where we are with that.
    We certainly are concerned with sustaining an industrial 
base that can continue to support us in the long term.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Crenshaw.
    Ms. McCollum and then Ms. Granger.

                        REMARKS OF MS. MCCOLLUM

    Ms. McCollum. Thank you.
    I have two questions, and I really would like to get to 
them both. One builds off of what Mr. Crenshaw was talking 
about. There has been a lot of discussion about weapons systems 
and protecting those and making sure that we have what the Navy 
needs in order to carry out its mission--the Air Force, the 
Army, the Marine Corps. And a lot of it is heavy equipment.
    But one thing I see when I am out in the field and one 
thing that is issued to just about everybody in the military is 
body armor. And so I am concerned from conversations that I 
have had from our soldiers as well as with some of the medical 
personnel that I have spoken with that some of the body armor 
was so heavy and what we were asking our soldiers and Marines 
and others, you know, to carry around with them was really 
causing a lot of stress on their body.
    So I understand that the Army was really pursuing to work 
towards better body armor. I am also aware that there is a 
shelf life with a lot of the body armor and there is a report 
coming out shortly.

                               BODY ARMOR

    So here is my question: What are you doing, because of what 
is in the budget for body armor, one, to make sure we have 
don't lose the ability to continue the R&D on it, that we don't 
find ourselves in a position where we have outlived shelf life 
and all of a sudden we are scrambling for body armor?
    I mean, I think it is important that--you know, the 
industrial base, we think of the big-ticket items, but the 
industrial base also includes R&D for the smaller-ticket items, 
the items that are, you know, intimately responsible for 
protecting that soldier or Marine.
    Mr. McHugh. If I could start, Ms. McCollum.
    Body armor, in terms of weight, is a very significant 
aspect, but it is only one aspect. We are working across all 
the personal protection and personal equipment arenas to try to 
lighten the load, everything from batteries for a 3-day patrol, 
we have lightened the battery weight by 30 percent, and on and 
on and on. So body----
    Ms. McCollum. Mr. Secretary----
    Mr. McHugh. Sure.
    Ms. McCollum [continuing]. I really want to be respectful, 
but I have another question that is very----
    Mr. McHugh. Sure.
    Ms. McCollum [continuing]. Very important to me. If you 
could just address body armor for me, please.
    Mr. McHugh. We have an acquisition objective to reduce 
further procurements of body armor weight by up to 20 percent. 
We have already reduced body armor through carrier plates and 
other systems by some 10 percent. But every day we are trying 
to do what we can to squeeze out weight.
    Ms. McCollum. And what is the shelf life on the body armor? 
Is there a report coming out?
    Mr. McHugh. I do believe there is an analysis. I haven't 
seen it, so I can't tell you what it says.
    Ms. McCollum. And do you know what happens to the R&D and 
some of things that are going into the, I am going to call it 
the industrial base for body armor, when the requisitions go 
down so low, especially when we don't know what the shelf-life 
report is going to say?
    General Odierno. Yeah, if I could, we do have the Soldier 
Protective System, which is the body armor system for the 
future. And that is our line to get the R&D and continue to 
move forward with new developments in our body armor program. 
And that is ongoing, and it looks at all aspects of the body 
armor--eye, torso, et cetera.
    And we are also looking at different types of body armor 
for different missions, because that also reduces the weight. 
And so that is all part of this future program that is being 
worked. Again, I am not--I have to look at the report, as well, 
to----

                             SEXUAL ASSAULT

    Ms. McCollum. Okay. Well, we will get back to you.
    I want to go back to the issue of sexual assault. Army 
General Sinclair just recently received a fine and no time. 
When he was first charged, it could have meant life in prison. 
My understanding and I could read from a report in the 
Washington Post here that, you know, after 2 years, all of a 
sudden all the charges were dropped.
    What I had been led to believe is that General Sinclair had 
originally been willing to--and admitting to charges which 
would have had consequences of jail time and consequences of 
losing rank and possibly losing pension. When that was 
discussed higher up the chain, it was told, no, we are not 
going to do that, we are going to go to trial, even though--and 
I have it on fairly good authority--that this was an agreement 
that the General had agreed to.
    We have been asked to trust the chain of command. I watched 
very carefully what was going on in the Senate. Can you tell me 
whether or not Admiral Sinclair had agreed to do jail time and 
had agreed to accept charges and then the chain of command 
said, we don't want to do that?
    Mr. McHugh. I am the civilian authority that has to make 
final determination on this and all similar disciplinary cases. 
Given that this is and remains an open case, unlike in the 
civilian sector when a jury renders its verdict and the judge 
issues sentencing, there still are several significant steps in 
the military process that have to occur. So we are greatly 
constrained, at this point, as to what we can say.
    I can say this. I am not sure where you got your 
information that charges were dropped, but obviously they 
weren't dropped. The decision to prosecute--in fact, he was 
convicted.
    The issue, as I understand it, that arises was the judge's 
decision for sentencing. As in the civilian sector, the Army 
has no control over what an independent judiciary does or 
doesn't do----
    Ms. McCollum. So, Mr. Secretary, to your knowledge----
    Mr. McHugh [continuing]. With respect to sentencing.
    Ms. McCollum [continuing]. To your knowledge, General 
Sinclair was never willing to plead guilty to any of the 
charges earlier and was directed or told that he should not 
accept that and that it should go to court?
    Mr. McHugh. To my knowledge, I am not in a position to 
speak as to the procedure of the trial. The trial record is 
still open----
    Ms. McCollum. I am not talking about a trial, sir. I am 
talking about----
    Mr. McHugh. That is all part of the record, Congresswoman. 
And I am sorry, I wish I could, but I am not in a position to 
comment on that.
    I can tell you that this officer, when he was accused, the 
investigation was properly begun. There was a decision to 
charge him. He was charged, he was prosecuted, and he was 
convicted. That is what I am at liberty to say.
    I have the final determination authority as to his 
conditions of retirement, meaning his grade at retirement. And 
that matter has not yet reached my desk.
    Ms. McCollum. And I can understand you can't talk about 
that any further. Thank you very much. And I think I made my 
point to my committee members.
    Mr. Frelinghuysen. Thank you, Ms. McCollum.
    Ms. Granger.

                         REMARKS OF MS. GRANGER

    Ms. Granger. Secretary McHugh, less than a year ago, May of 
2013, the Army opposed purchasing additional Lakota 
helicopters, stating that there was no emergency requirement 
that existed and that the Lakota was not designed for combat. I 
have been advised that you are planning to now purchase 100 new 
Lakotas and moving 100 existing Lakotas into the Training 
Command.

                  LAKOTA HELICOPTERS IN FLIGHT SCHOOL

    The requirements generation process that led you to replace 
the existing TH-67 Creek trainers with Lakotas is unclear to 
me. Was there a study done? And if there was, what did the 
study say?
    Mr. McHugh. There was an analysis done that resulted in a 
report that we call ARI, the Army Reconfiguration Initiative, 
that seeks to realign and make new decisions on the entire Army 
portfolio.
    As we discussed earlier, one of the keystones of that is 
having the Army totally divest itself of Kiowa Warriors. That 
has been an integral part of our attack platforms for many, 
many years, but it is no longer affordable. And, instead, to 
use Apache platforms, particularly in the Active Component, as 
a measure, frankly, to save money, some $12 billion.
    The decision on the training base was an underpinning of 
those other decisions and was led, in part, to the decision 
that you mentioned on the acquisition of 100 additional Lakotas 
for training purposes.
    Ms. Granger. Can we get a copy of that, of the ARI? Or do 
we have a copy of the ARI?
    Mr. McHugh. It is really a proposal. Do we have a full 
analysis, maybe the Chief can----
    General Odierno. We have a proposal. We can provide you 
some backup data on why we made some of these decisions, and we 
will do that, ma'am.
    Ms. Granger. Okay. Thank you.
    [The information follows:]

    As requested, a copy of the Army Restructure Initiative plan and 
related supporting analysis has been provided to Representative Granger 
under separate cover.

    Mr. Frelinghuysen. Ms. Granger, I know we have a second 
round here. I am trying to make sure it is even-steven here. Is 
there any indication on my left, if there is someone who would 
like to pose a question?
    Ms. Kaptur, and then we will go to Mr. Cole or Mr. Crenshaw 
or Judge Carter.
    Ms. Kaptur. Thank you, Mr. Chairman.
    And I would like to associate my statement today with 
Congressman Crenshaw of Florida on the importance of a very 
robust force and overground capacity, particularly in tanks, 
and not knowing what the future will bring.

                 EQUIPMENT RETROGRADE FROM AFGHANISTAN

    I wanted to also ask Secretary McHugh, as you consider 
shipment back to the United States of equipment, used equipment 
from theater, I would hope that you would look at all four 
coasts equally. And if you need additional authority to use the 
Great Lakes, I would hope that you let me know that. Because, 
in the past, a lot has not come back through the Lakes, even 
though we have a very high enlistment rate. And if there is not 
sufficient authority to use all four coasts, I hope that you 
will let me know that. I will try to fix it if you don't have 
the authority.

                           HELPING THE NEEDY

    And that also there be an aggressive effort made by the 
Department of Defense to look at organizations stateside that 
need help. Our State veterans homes, for one--everything from 
beds to kitchen equipment, et cetera. Our homeless veterans 
shelters, not-for-profits in some of the lowest-income 
communities in our country that need kitchen equipment, et 
cetera.
    So I just wanted to sensitize you to four coasts and 
allowing people who need equipment to be aware that it is being 
offered.
    Mr. McHugh. I saw your neighbor on your right-hand side, 
also your neighbor on the Great Lakes, perk up at that. Having 
represented a Great Lakes district and a Saint Lawrence River/
Seaway district for 17 years, I understand your concern and 
interest.
    I will advise TRANSCOM, Transportation Command, of your 
very gracious offer. They are interested in doing it in the 
most cost-effective way possible, obviously.
    As to the equipment disposal, there is a Federal process 
whereby we are required to offer excess articles to certain 
nongovernmental and governmental agencies. A lot of the kinds 
of things that you mentioned are, frankly, far too expensive to 
bring back; they cost more to bring back than they cost to buy 
new.
    So I am not sure how many of those articles would be 
available, but if they are brought back as excess, we do have a 
way by which we make those available.
    Ms. Kaptur. All right. Very good. Well, I think we have 
some interest. So thank you very much.

                            SUBSTANCE ABUSE

    I wanted to also just state for the record--and this 
relates to defense medicine and the condition of our soldiers 
in terms of suicide, alcohol, and PTSD. Through work that the 
Department has done with Case Western Reserve and our Army 
Guard in Ohio, we have learned some very important things. One 
of the most important is in terms of suicide, that the 
correlation between alcohol abuse descending into suicide is 
direct and significant.
    And I don't want to spend my time today talking about 
alcohol abuse, but I would--I am sure you know this, but I just 
wanted to place it on the table and hope that the Department 
would do everything possible to identify alcohol abuse and to 
intervene at that level initially in order to make a difference 
on the suicide numbers. And I know you have already done--yes, 
Mr. Secretary?
    Mr. McHugh. Very quickly.
    Absolutely true. And we have seen that in our analysis, as 
well. And I think the other services would agree.
    We would love to have the opportunity to have some folks 
come over and talk to you about, I think, one of the 
revolutionary programs the Army has initiated and I have 
authorized to go Army-wide called CONTREAT, where we encourage 
soldiers with those kinds of problems to self-report before 
they get into trouble, to go through treatment, and to have 
absolutely no negative effect to their record.
    Ms. Kaptur. And their buddies can help a lot, too.
    Mr. McHugh. Absolutely.
    Ms. Kaptur. The second point----
    Mr. Crenshaw. If the gentlewoman would--would you yield----
    Ms. Kaptur. I would be happy to yield.

                           TANK MODERNIZATION

    Mr. Crenshaw. She mentioned she would like to associate 
herself with the remarks. And with all due respect, the 
question I asked didn't really get answered. I know the 
chairman wanted to move on, but this whole question of are you 
going to build more modernized tanks in 2016.
    And if they are not enough military sales this year and 
there is no safety net that we provide as Congress, how much is 
that going to cost when you decide you are going to start 
building tanks again? And do you build that in?
    And that is the question.
    Mr. Frelinghuysen. Well, that will be a rhetorical 
question, but we would like to have a response.
    Mr. McHugh. We can provide--we have the analysis, as I 
think, Mr. Crenshaw----
    Mr. Crenshaw. The initial analysis, you said it would be 
better go ahead and shut down the line for 5 years. And we 
argued about whether that cost a billion or not, but you had an 
analysis that said that is a good way to do it. We thought it 
would be better to get something for our money, and that is 
what we have been doing.
    Now, if you are telling me now you have a report that says 
shut down the line for a year and that is still----
    Mr. McHugh. Well----
    Mr. Crenshaw [continuing]. A better way to do the business 
than actually have some money in the budget this year to kind 
of make sure it stays open----
    Mr. McHugh. Yeah.
    Mr. Crenshaw [continuing]. Is that what you are saying?
    Mr. McHugh. The analysis I mentioned didn't really deal in 
5 versus 3. It dealt with, what does it cost to shut a line 
down and then reopen it, whether it is 1, 2, or----
    Mr. Crenshaw. One year or 5 years?
    Mr. McHugh. Yes, sir.
    Mr. Crenshaw. So if it cost a billion dollars per year, 
that is still a better use of the taxpayers' dollars?
    Mr. McHugh. That has been our analysis when we meet our 
acquisition objective. And the minimum sustainment rate for the 
manufactured tanks is 12 tank equivalents per month. We are 
talking billions of dollars that we simply don't have to spend 
on something we don't need, is our point.
    Mr. Frelinghuysen. Ms. Kaptur reclaims her time for 15 
seconds. Then we go to Mr. Cole.

                                  PTSD

    Ms. Kaptur. Thank you, Mr. Chairman.
    I wanted to place important information on the record 
relating to PTSD. And we in Ohio have been very involved with 
the Department in doing a longitudinal study of over 3,000 Ohio 
Guard members upon return, especially from Iraq and 
Afghanistan, and here is what we found. Fifty percent of 
soldiers were entirely resistant. The other half had various 
levels of symptoms: 36 percent had mild symptoms; 11 percent, 
chronic, mild, and persistent; and 3 percent, very 
debilitating.
    But what we learned was that if more attention was paid at 
the enlistment level to the following factors, we could 
identify the most susceptible. And these are the categories: 
those enlistees who come from families with less than $40,000 
in income; who have an education of high school, GED, or less; 
who have had more than 10 traumatic experiences prior to 
enlistment in the military; they have spent most of their time 
in Iraq and Afghanistan; and they had no insurance at the 
baseline.
    So I just think that the work that Case Western has done 
with the Ohio Guard is extraordinarily important in identifying 
subgroups that we should focus on within the military.
    Ms. Kaptur. And I thank the chairman.
    Mr. Frelinghuysen. Ms. Kaptur is requesting you take a 
close look at that report, and I am sure you will do it as a 
result of the discussion.
    The gentleman from Oklahoma.

                               IRON DOME

    Mr. Cole. Thank you, Mr. Chairman.
    Recently, with the chairman of our whole committee, I had 
the opportunity to go to Israel and see--we not only sustain 
our industrial base, we help some of our friends sustain their 
industrial base and get something back in return. And I think 
one of the better investments, it appeared to me, that we have 
made was in Iron Dome. And we went to the company that 
manufactures it, also went and saw it deployed in the field.
    And I was just curious, you know, are the technology 
benefits coming back to us? And what are the things we are 
doing to harvest that and make sure that, you know, if our 
friends have developed something that is capable and robust and 
that we have helped finance and deploy--and let me tell you, 
the gratitude was tremendous about what the United States had 
done in this case.
    I just am curious what we are doing to make sure that we 
get whatever benefit out of the investment that is appropriate 
for us, as well.
    Mr. McHugh. Well, we try to do just that, not just with the 
Israelis but all of our Tier 1 partners. And I think there is a 
sense of shared best practice. There does at times get into the 
consideration of industrial jealousies, et cetera, that we try 
to work through.
    As to Iron Dome, we have had pretty robust opportunity to 
analyze it. It certainly seems to meet the Israelis' needs 
very, very well. We didn't, the last I checked, find a lot that 
we could harvest out of it.
    But having said that, the fact that we had the chance to 
sit down and work with our Israeli partners was very, very 
important and appreciative. And, as you said, Mr. Cole, they 
have been enormously grateful for the support that they have 
received from us, and I don't think we could ask for better 
cooperation.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Cole.
    Yes, Mr. Visclosky.

                       REGIONALLY ALIGNED FORCES

    Mr. Visclosky. Thank you, Mr. Chairman.
    First of all, Secretary and General, I would very sincerely 
and seriously associate myself with the observations that Ms. 
Kaptur made relative to transport in the Great Lakes. Too 
often, people forget States like New York or Minnesota or 
Indiana or Ohio or places are actually a fourth seacoast, and 
would hope that people do note that fact.
    I would, just in the time I have, want to say that I 
support your efforts as far as your regionally aligned forces. 
Since our standing military is going to be smaller, I do 
appreciate that you are looking for innovative, low-cost, 
small-footprint initiatives to work with others relative to 
counterinsurgency.
    I particularly am pleased with the Department's decision on 
increasing assistance relative to going after the Lord's 
Resistance Army. I understand that you have, if you would, for 
these partnerships, protected that program in the 2015 budget.
    Might you just briefly for us explain where in that budget 
request those types of items would appear and we could look for 
them?
    General Odierno. Oh, the State Partnership Program, is 
that----
    Mr. Visclosky. Yes.
    General Odierno. Yeah. So we have increased 27 percent.
    Mr. Visclosky. Well, not just that, but for all of--in 
general, the partnership capabilities that you have.
    General Odierno. Okay.
    So, first off, what we have done under regional line forces 
is--there are several things. First, we have some baseline 
activity in our budget, our O&M budget, that allows us to 
conduct regionally aligned force activities, whether it be in 
support of NATO, whether it be in Africa, et cetera.
    But the other thing we have found when we ran the pilot in 
Africa, that out of the $98 million that were spent last year, 
only $4 million came out of the Army budget. We found $94 
million in other pots of money within DOD and the State 
Department that we were able to leverage in order for us to 
support efforts in building partner capacity as well as other 
activities that we have conducted.
    And so what we are doing is we are leveraging the moneys 
that have been allocated across the Department of Defense as 
well as the Department of State to execute this. And we believe 
we can continue to do this. There are funds set up specifically 
to go after these kind of missions.
    And so we will fund some minor portions of it out of the 
Army O&M, but we will try to utilize these other budget 
capabilities that are specifically targeted towards building 
partner capacity and developing other countries' militaries. 
And we are using that as our funding to do this, and we have 
been very successful so far in doing it.
    Mr. Visclosky. Army's resources, is that a line item, or is 
that dispersed throughout your----
    General Odierno. I would have to get back to you 
specifically what it is.
    Mr. Visclosky. That would be fine. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. It is substantial, though.
    Judge Carter.

                         ASIA PACIFIC REBALANCE

    Mr. Carter. Thank you, Mr. Chairman.
    Recently, in fact yesterday evening, we had a discussion 
about PACOM. And looking at that map, it sure as heck looked 
like the Pacific theater in World War II, as far as the area we 
are talking about. And the President and the administration 
have announced a shift to that area.
    So, General Odierno, I am well aware of what we have in 
Korea and what we are doing in Korea, but as you look at PACOM 
and the possible needs and involvement of the Army, I would 
like your opinion as to what you think--and the Secretary's 
opinion--about what you think our Army involvement potentially 
could be in PACOM.
    General Odierno. Yeah. So we have 80,000 soldiers--Guard, 
Reserve, Active Component--assigned to Pacific Command. And so, 
as I said, 20,000 of those--and we have 60,000 that are 
conducting missions throughout many different areas in the 
Asia-Pacific region.
    You know, we have five treaty allies--South Korea, Japan, 
Thailand, Philippines, Australia--that we are working very much 
with.
    On this issue of partnership activities to facilitate U.S. 
relationships, gain access, provide security for global 
commons, and support some of our contingency planning, we are 
looking at where we put prepositioned stocks, not only to meet 
a range of activities, from humanitarian assistance support all 
the way up to supporting potential deployments of forces in the 
Asia-Pacific region--so it is a wide variety of engagements 
that we are conducting.
    And just to give you an example, we just did a joint 
airborne operation with the Thai Army, for example. We just did 
a humanitarian assistance exercise with the Chinese in Hawaii.
    So there are activities such as this that we are doing to 
build confidence, to build our relationships, to build 
familiarity, which helps us in developing our security 
activities throughout the Asia-Pacific region. And that is what 
we are going to continue to do. It is a significant commitment 
that the Army is making in this area.
    Mr. McHugh. Could I just add, you know--and I think it is 
understandable. People talk about the Pacific, and you 
immediately think of a lot of ocean and a lot of sky. But the 
reason people are interested in those oceans and sky is because 
there are a lot of people who live around them.
    There are 36 nations in the Pacific region. Of those, 27 
have military. And of those 27, 26 of them, the army is the 
largest of their militaries. And of those 27, 20 of the defense 
chiefs are army officers. So, however we view it, the Asian 
nations of that region view their army as their principal actor 
in military matters.
    And while we always have to think about conflict and going 
to war, our main purpose, particularly in that theater, is to 
prevent and shape, to work with partners and build partnership 
capacity. And there, I would argue, the Army is better postured 
in terms of ability to work with other nations than perhaps any 
of the other services.
    So we think we have a very important part. And the PACOM 
commanders--Admiral Sam Locklear, who I understand was with you 
yesterday, was with the SASC a day or 2 earlier, I think would 
be one of the first to validate that.
    Mr. Frelinghuysen. Okay. I think he did validate that.
    The gentleman from New York, Mr. Owens?
    Thank you, Judge.

                         ASIA PACIFIC REBALANCE

    Mr. Owens. Thank you.
    First of all, certainly, we would like to see Saint 
Lawrence Seaway used for the repatriation of those items.
    I want to go back to this whole PACOM area. I am assuming 
that the analysis that you have applied has led you to the 
conclusion that China is the next emerging, if not emerged, 
superpower, and that in order to have that deterrent effect, 
therefore we have shifted our position toward Southeast Asia.
    Is that a fair analysis?
    Mr. McHugh. Well, certainly, China is an emerging military 
and economic power. And I don't know that one needs to do a lot 
of analysis on that.
    But the pivot to the Pacific is really based on a broader 
range of considerations. I mean, if you look at India, another 
very major emerging power. And if you look at where the great 
economic interests of this Nation lie and where we want to do 
everything we can to promote peace and security, the Pacific 
would seem to be a good place to start.
    Clearly, there are security challenges there. We have 
already talked about Korea, and I know the Chief has spent some 
recent time in China trying to build relationships with their 
military and their army, and we want to continue to do that. 
But it does posture us to better, we hope, productively and 
cooperatively engage with China.
    Mr. Owens. It would also be logistically somewhat difficult 
to move large numbers of troops in and around that region, I 
would think.
    General Odierno. Yeah, I think, again, I think, obviously, 
the distances involved make it very difficult. So that is why 
it is important for us to posture certain capabilities there 
that allow us to do that.
    Again, I would focus on, I think in the Asia-Pacific region 
it really is about protecting our economic interests. And what 
we want to do is have a balanced approach to the Asia-Pacific 
region that allows us to continue to move forward economically, 
that helps to keep us as a strong Nation. And so what we are 
trying to do is develop strong relationships, to build 
partnerships that allow us to sustain and would make everyone 
realize that we are a Pacific power.
    The Asia-Pacific region is very important to the United 
States. It is important to us, as the Secretary said, 
economically, and it important to us to sustain stability.
    So this is not about having another cold war; this is about 
sustaining a level of stability that allows to continue to 
develop economically as we continue to increase significantly 
our trade in the Pacific region. And I think it is about that: 
preventing conflict and shaping the environment for us to 
continue to grow in strength as a Nation economically.
    And that is the strategy we are putting forward by building 
partnerships, by having access, in order to prevent conflict in 
the future. And I think that is what we are trying to do.

                        PREPOSITIONED EQUIPMENT

    Mr. Frelinghuysen. And may we add also, if the gentleman 
would yield, the prepositioning of assets which are highly 
important and do represent a substantial contribution to 
stability and are recognizing our continued interest in the 
area.
    Mr. Owens. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Owens.
    Ms. Granger.

                    ACTIVE AND RESERVE COMPONENT MIX

    Ms. Granger. In 2011, the Air Force proposed a plan that 
was opposed by the National Guard and also the Governors. And 
the Congress really didn't appreciate or respond very well to 
that plan.
    It now appears that the Army is attempting a very similar 
tactic. So, given the Guard's critical role, both domestically 
and internationally, I am concerned that the Army's proposal 
ignores not only the concerns of the Governors but also the 
concerns of a seated member of the Joint Chiefs of Staff.
    So I would like to know what you are doing to work with the 
Guard and our Governors to incorporate changes that will enable 
them to support your plan. And have you incorporated any of the 
Guard's suggestions or alternatives?
    Mr. McHugh. If I may just open with a few comments.
    I think there are enormous differences between the path the 
Air Force took and the path we took. First of all, the Air 
Force began with cuts against the Guard. The Army has, for the 
last 2 years, totally immunized the Guard from cuts while we 
have taken substantial reductions across the board. And that 
was to protect the operationalized aspects of that Guard that 
we have built. I mean, this wasn't forced upon us. We have 
built over the last 13 years, and we want to continue to 
sustain.
    The other is, unlike the Air Force, we engaged the 
professional staff members here on the Hill, kept them fully 
informed. I am not suggesting that means everybody buys into 
it. But I think when the Air Force hit the street with their 
proposal, it was a surprise to a lot of people. Again, we 
didn't do that, and we did involve the Guard in the discussions 
from day one.
    So I will let the Chief--again, not that they agree with 
it, necessarily, but they were involved.
    Chief.
    General Odierno. As we looked at this proposal, this is 
about what is best for the Army. And we are very cognizant of 
the role the Guard and Reserve plays, and that was taken into 
consideration as we made these recommendations.
    I would also say that, again, comparing it to the Air 
Force, the Air Force has 70 percent of their structure in the 
Active Component and only 30 percent in the Guard. The Army in 
2012 was about 51 percent to 49 percent, Active to Reserve. 
When we finish this, we are going to be 54 percent Reserve and 
46 percent Active, so we have taken the majority of the cuts 
out of the Active. So it is a very different situation.
    We recognize the importance of the Guard and Reserve. This 
is not about the Guard versus the Reserve--I mean, the Active 
versus the Guard. This is about coming up with the right 
balance.
    And we recognize the fact that the Active Component is more 
expensive, so we have taken a significantly more--majority of 
the cuts out of the Active Component. We have done that. But it 
comes to a time where, based on what we believe we need to 
execute our defense strategy, we can't go any lower in the 
Active Component, so we have had to take some out of the Guard. 
And the budget is driving us to those decisions.
    We understand that we have to have the right integration 
and the right capabilities and depth that the Guard provides 
us, that the U.S. Army Reserve provides us. It is critical to 
what we are doing. And I think the Secretary and I have 
recognized that in the budget submission. We recognize the 
importance.
    What we can't do is maintain structure that we can't 
sustain at the right readiness levels. So we have gone to the 
lowest level we can in the Active. We want to take a little bit 
out of the Guard, because we want them to stay in operational 
reserve. We do not want them to go back to a strategic reserve. 
And I worry, if we keep too much structure in the Guard, they 
will end up being a strategic reserve because we can't fund the 
training that is necessary.
    Ms. Granger. Did the Guard--I understand they presented 
several alternatives. Did you consider the alternatives?
    General Odierno. We absolutely did. I don't want to debate 
that here, but in their alternatives, in some cases, it 
actually increased the size of the Guard. And so it was 
difficult, but----
    Mr. Frelinghuysen. Okay. Maybe we will leave that 
discussion for a future date, but, certainly, the Members have 
a keen interest.
    Moving towards the finish line, Mr. Ryan and then Ms. 
McCollum, and then we may be towards an adjournment.
    Thank you.

                           UKRAINE AND RUSSIA

    Mr. Ryan. Thank you, Mr. Chairman.
    Just a brief question, as we are all concerned with what is 
happening in the Ukraine and Russia. Should the Russians 
continue to move aggressively in that region and in the Ukraine 
and NATO would have to respond, for example, what would that 
mean for the United States Army?
    General Odierno. Well, I can't comment on the decisions 
that--what I have to make sure is we are prepared. So my 
responsibility is to make sure that the U.S. Army is prepared 
to respond as part of a joint force as part of NATO. So I have 
to make sure that we ensure that we are ready if asked. The 
decision for us will be external to that.
    So what I am focused on is improving our readiness in 
combat, combat service support and combat aviation 
capabilities, to make sure we are ready to respond, whether it 
is from a humanitarian assistance aspect or any other aspect. 
And that is what I am focused on now.
    Mr. Ryan. What would the number be? I see we have 28,000 
soldiers in Europe, 940 in the Balkans. What would our 
commitment level be, do you think?
    General Odierno. Well, I simply don't know.
    And I would just remind people that, actually, some of the 
soldiers that are assigned to Europe right now are in 
Afghanistan.
    So it just depends on what they would ask us to do. But we 
would take the whole CONUS Army and whatever else, depending on 
what we are asked to do, we will take capabilities from across 
the Army to go after the problem.
    Mr. Ryan. Okay.
    Mr. Frelinghuysen. Thank you, Mr. Ryan.
    Ms. McCollum.

                               READINESS

    Ms. McCollum. Thank you.
    And to go to the issue of readiness, the President had 
proposed $56 billion in additional spending above the Murray-
Ryan budget for 2015, and that was paid for with tax reforms 
and mandatory spending cuts. So about half of the $56 billion 
would have gone to nondefense spending, and that would have 
about $28 billion for defense spending broadly across, you 
know, several bills.
    So it was envisioned that part of the Army's piece of this 
account would have been about $7.5 billion, and $4.2 billion 
was for operation and maintenance accounts. And some of the 
proposals were to go towards readiness enhancements of all 
services, including $600 million in training and other 
readiness-related increases for the Army.
    So could you describe a little more about some of the 
projects and activities that you would have been able to 
include in the Army's portion of this?
    And given the fact that readiness is one of your highest 
priorities, can you also say maybe why some of these activities 
were left in this proposal? Or are they just really, you know, 
the extra deluxe that you would like to see our Army have for 
readiness?
    Mr. McHugh. If I may start, Ms. McCollum.
    This Opportunity, Growth, and Security Initiative is the 
President's I think laudable attempt to try to work with 
Congress to increase, of course, in DOD's case, the top line 
by, as you correctly noted, over $26 billion.
    For the Army, I wouldn't say it was a luxurious thing, but 
it would allow us to recover our readiness and to do some--to 
restore what is called our ISM, our investment and sustainment 
moneys, for our facilities to a more historic target of about 
90 percent.
    So, while we think it is very, very important money, it 
allows us, most importantly, to regain readiness more quickly 
than we can under the 2015 plan that was adopted under the 
bipartisan budget agreement. It would be very, very positive 
news for this Army.

                  TRAINING AND INSTALLATION READINESS

    General Odierno. Yeah, I would just--this is essential 
readiness funding. We do not have the funding to sustain the 
level of readiness we think is appropriate for the Army under 
the current budget, but this would improve our readiness more. 
It would give us more readiness number to ensure our aviation 
is more ready, our combat brigades are more ready, our combat 
service support.
    But, also, it has to do with our installations. We are only 
funding about 50 percent of our installation needs now in 
readiness. And that gets to family program--we are fully 
funding family programs, but it gets to ranges which we are not 
able to sustain or upkeep. It gets to some of our equipment 
that we are not able to sustain or upkeep.
    So this additional money allows to us to fund that which we 
think is the appropriate level of readiness necessary to 
sustain the readiness over the long term in the Army.
    Ms. McCollum. Thank you, gentlemen.
    Mr. Frelinghuysen. Thank you very much, Ms. McCollum.
    Gentlemen, Mr. Secretary, General Odierno, thank you for 
your testimony this morning and--I should say, this afternoon. 
And we look forward to getting the OCO portion to us sooner 
rather than later.
    And on behalf of the entire Committee, we thank you for 
your leadership and the men and women you represent who honor 
us by their service every day.
    We stand adjourned.
    General Odierno. Thank you, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Rogers and the 
answers thereto follow.]

                              AISR Assets

    Question. What are the Army's plans for manned, fixed wing AISR 
assets in Afghanistan?
    Answer. Our commitment to the Soldiers deployed to Afghanistan 
remains paramount. We continue to provide our Soldiers and Commanders 
the tools they need to accomplish their mission. The Army currently 
provides a fleet of 34 fixed-wing and 14 unmanned aerial vehicle (UAV) 
platforms to Afghanistan. Down from a peak of 110 manned OEF/OIF 
platforms in 2008, the current Aerial Intelligence, Surveillance, and 
Reconnaissance (AISR) Fleet includes the platforms and sensors 
necessary to support the force in this critical year of transition.
    Should U.S. Forces be sustained at any level past 2015, the Army 
has been tasked to be prepared to sustain the following platforms and 
associated sensors, while the rest will be withdrawn:
          2 x Highlighter (B200 with Airborne Change Detection)
          2 x Night Eagle (B200 with FMV Change Detection)
          8 x Medium Altitude Reconnaissance and Surveillance System 
        (MARSS) (B300 with SIGINT and FMV)
          4 x Saturn Arch (DHC-8 200 with Hyper Spectral Imagery)
    As the bulk of the AISR assets are withdrawn, those designated as 
enduring will remain in Army's AISR Fleet. Those assets not designated 
as enduring in program of record will be divested from the Army's AISR 
Fleet in accordance with Headquarters, Department of the Army (HQDA) G-
3 directives.
    In accordance with the Army's AISR 2020 and Beyond Strategy, which 
was approved by the Army Requirements Oversight Council for Non-
Standard Equipment ISR, the Army will:
          <bullet> Enhance 14 x RC-12 Guardrail Common Sensor (GRCS) X 
        Models with full motion video and eliminate 28 x legacy GRCS 
        Systems
          <bullet> Modernize the 9 x existing EO-5C Airborne 
        Reconnaissance Low (ARL) with improved sensors and a 
        sustainable platform
          <bullet> Modernize the Enhanced Medium Altitude 
        Reconnaissance and Surveillance System (EMARSS) by leveraging 
        and combining 12 OCO-procured quick reaction capability (QRC) 
        aircraft and 8 Liberty Project Aircraft with 4 base-procured 
        EMARSS platforms to meet the program requirement of 24 total 
        systems
          <bullet> Integrate the best of the proven QRC sensors to 
        provide high-demand capabilities to satisfy unique Department 
        of Defense (DOD) directed requirements
    This fleet of 52 aircraft (accounting for 5 training aircraft) will 
provide the Army and DoD with a standardized mix of platforms and a 
diverse set of sensor technologies by capitalizing on OCO investments 
and migrating best-of-breed sensors and QRC aircraft into programs of 
record.
    The Army recognizes the committee's concern regarding the Army's 
plans for manned, fixed wing AISR assets in Afghanistan. We are 
confident in our strategy and look forward to continuing our work with 
Congress to sustain the best AISR platforms and sensors for our Army. A 
more detailed explanation of our strategy accompanied the plan 
submitted to the congressional defense and intelligence committees as 
directed by Senate Report 112-173, dated June 4, 2012. While minor 
changes have occurred since submission (e.g., the Army's intention to 
accept Liberty Project Aircraft into the Army's AISR fleet), we remain 
on plan and prepared to provide a detailed update to Members of 
Congress and/or their staffs at any time.
    Question. Is the Army concerned about a potential capability gap 
that may emerge during the shift to government-owned platforms?
    Answer. No, the Army is not concerned with any potential capability 
gaps that may emerge during the shift to government-owned platforms. 
The Army's Aerial Intelligence, Surveillance, and Reconnaissance (AISR) 
2020 strategy will allow the Army to maintain the most capable and 
relevant platforms and sensors as we migrate the best-of-breed from 
quick reaction capabilities (QRC) into programs of record (POR) without 
compromising capabilities in the current fight.
    The Army's AISR 2020 strategy meets the directives received from 
the Secretary of Defense Planning Guidance, the Department of Defense 
Consolidated Intelligence Guidance, and the Army Requirements Oversight 
Council for Non Standard Equipment--Intelligence, Surveillance, and 
Reconnaissance (AROC for NSE-ISR). Based upon those directives, the 
following sensor capabilities will be retained by the Army and 
transition to a POR. We will experience no capability gaps during the 
transition.
          <bullet> Wide Area Motion Imagery (Constant Hawk)
          <bullet> SIGINT (Med Altitude Recon. and Surveillance System 
        (MARSS))
          <bullet> Light Detection Ranging / Foliage Penetration 
        (LIDAR/FOPEN)
          <bullet> Ground/Dismount Moving Target Indicator (GMTI/DMTI 
        (VaDER))
          <bullet> Hyper-spectral Imagery (HSI (Saturn Arch))
          <bullet> UHF Synthetic Aperture Radar (SAR) (Desert Owl)
          <bullet> High Definition EO/IR FMV (multiple platforms)
    The Army Aerial ISR 2020 Strategy will move the Army toward the 
following objectives:
          <bullet> Enhance 14 x RC-12 Guardrail Common Sensor (GRCS) X 
        Models with full motion video and eliminate 28 x legacy GRCS 
        Systems
          <bullet> Modernize the 9 x existing EO-5C Airborne 
        Reconnaissance Low (ARL) with improved sensors and a 
        sustainable platform
          <bullet> Modernize the Enhanced Medium Altitude 
        Reconnaissance and Surveillance System (EMARSS) by leveraging 
        and combining 12 OCO-procured QRC aircraft and 8 Liberty 
        Project Aircraft with 4 base-procured EMARSS platforms to meet 
        program requirement of 24 total systems
          <bullet> Integrate the best of the proven QRC sensors to 
        provide high-demand capabilities to satisfy unique DOD directed 
        requirements
    We will migrate the best-of-breed sensors to POR and apply them to 
the AISR fleet above to provide the Army the best possible AISR Fleet.
    The Army recognizes the committee's concern for potential 
capability gaps, but we are confident in our strategy and look forward 
to continuing our work with Congress to sustain the best AISR platforms 
and sensors for our Army. A more detailed explanation of our strategy 
accompanied the plan submitted to the congressional defense and 
intelligence committees as directed by Senate Report 112-173, dated 
June 4, 2012. While minor changes have occurred since submission (e.g., 
the Army's intention to accept Liberty Project Aircraft into the Army's 
AISR fleet), we remain on plan and prepared to provide a detailed 
update to Members of Congress and/or their staffs at any time.
    Question. Given this significant rebalancing of the AISR fleet and 
the need for a mix of assets with a range of capabilities, on what 
assets will the Army rely for tactical Brigade-level AISR?
    Answer. The Army's tactical Brigade-level Aerial Intelligence, 
Surveillance, and Reconnaissance (AISR) is primarily satisfied through 
the organic Unmanned Aircraft Systems (UAS), which are part of a larger 
strategy to provide assured, organic UAS support from Platoon to 
Division. UAS at each echelon enables improved situational awareness 
and decision-making for our ground commanders.
    The RQ-7B Shadow UAS supports our Brigade Combat Teams and Special 
Forces Groups. At Battalion level and below, the Army relies upon the 
hand-launched RQ-11B Raven and the RQ-20A Puma systems.
    At the levels of Brigade and below, the emphasis is upon 
Reconnaissance, Surveillance, and Target Acquisition. The organic UAS 
systems enable tipping and queuing between full-motion video and 
signals intelligence collectors. The result is improved shared 
situational awareness from limited post-mission exploitation.
    Platforms and sensors at the levels of Division and above provide 
additional and advanced sensors, fusion, and detailed exploitation that 
builds on and expands the shared situational and target awareness.
    [Clerk's note.--End of questions submitted by Mr. Rogers. Questions 
submitted by Mr. Kingston and the answers thereto follow.]

                                  HMEE

    Question. Since it was first fielded in 2007, the HMEE has expanded 
beyond traditional Engineer missions of Survivability, Counter-mobility 
and Mobility-into Route Clearance and the machine has become the 
engineering jack of all trades. The Army is confronted with the 
requirement to replace the M9 Armored Combat Earthmover-which may is 
cost prohibitive in this environment. There are many advantages to 
considering HMEE since the M9 ACE is not critical dual use for the 
National Guard, whereas HMEE is And, HMEE is more deployable (air 
droppable from C-17) and it is self-deployable and can travel in excess 
of 60 mph even with armor protection. Should the US Army use High 
Mobility Engineering Excavator as a next replacement for the M9 ACE? 
Since the system is a Critical Dual Use (CDU) platform employed the 
Army National Guard to provide Defense Support to Civilian Authority 
(DSCA) as part of its Homeland Defense missions, wouldn't this 
capability make the HMEE the most cost effective and logical choice for 
both the Active and reserve component?
    Answer. There is currently no requirement to replace the M9 Armored 
Combat Earthmover (ACE). However, the Army acknowledges significant 
sustainment costs for the ACE and is in the very early stages of 
exploring potential alternatives. The Office of the Chief of Engineers 
conducted a preliminary analysis of courses of action to upgrade the 
ACE for the Commandant, United States Army Engineer School (USAES). 
Since then, the USAES Commandant has asked the Maneuver Support Center 
of Excellence to prepare a requirements document for the future ACE 
replacement. A robust and formal Analysis of Alternatives that 
considers costs and operational requirements will be conducted in 
conjunction with the development of a requirement for a replacement 
system. At this early juncture, it would be premature to determine 
whether the High Mobility Engineering Excavator, or other existing or 
developmental system, would best meet these emerging requirements.
    [Clerk's note.--End of questions submitted by Mr. Kingston. 
Questions submitted by Mr. Calvert and the answers thereto follow.]

                           Shape of the Force

    Question. Currently the U.S. has 770,000 Defense civilian personnel 
vs. 1.3 million Active Duty Military personnel--that is 1 civilian for 
every 1. 79 Active Duty Military personnel. It is the most 
disproportionate ratio between Defense civilians and Active Duty dating 
back as far as 1949. In 2010, the Defense Business Board recommended to 
direct Defense civilian reductions back to FY 2003 levels or 15% 
whichever is greater. In 2003, we had 636,000 Defense civilian 
personnel vs. 1.4 million Active Duty Military personnel--that is 1 
civilian for every 2.25 Active Duty Military personnel. According to 
the testimony, Army Civilians will reduce from 285,000 to 263,000 by 
the end of FY15, just under 8%. Do you believe these reductions will 
result in the right mix of civilian and Active Duty personnel across 
the Army? Please provide a detailed explanation to your response.
    Answer. The Army is resetting the entire force from that needed to 
fight two foreign wars, amid massive fiscal reductions. This requires a 
broader strategy that links functions, funding, priority and manpower 
to produce the workforce of the future--one that fully supports and 
focuses on a generation of trained and ready combat units, rather than 
a strategy of fair-share percentage reductions. Every single function 
and classification of personnel (civilian, contractor, military) is 
going to be affected in some way as we obtain balance of capabilities 
within resources.
    We are in the process of drawing down our Civilian Workforce from a 
wartime high of 285,000 in FY10 to 263,000 by the end of FY15, and if 
necessary we will make additional cuts commensurate with military 
reductions projected through FY19.
    This civilian reduction takes into account not only the fiscal 
realities in which we now find ourselves, but also the reintegration of 
Soldiers from the Operational Army back into the Institutional Army, 
while reducing military end strength.
    The Institutional Army must reabsorb Soldier authorizations; 
analyzing every function to determine which positions can or should be 
performed by military and which should be civilian. And, all of this 
must be done not only from a cost perspective, but with readiness as 
the primary concern.
    Any reductions or conversions that are made--civilian, contract or 
military--will be consistent with applicable laws and policies.
    The Army is also addressing investments made in key areas such as 
cyber, intelligence, and health of the force.
    This rebalancing effort will require multiple changes as strategic 
decisions are made. Force structure changes, unit basing and 
operational activity will be key to informing future needs (as will 
funding levels).

                              AH-64 Apache

    Question. General Odierno, the National Guard Association has 
voiced several of their concerns over this latest proposal of taking 
the AH-64 Apaches from the National Guard's fleet, including the 
following: (1) the National Guard will lose attack and aerial 
reconnaissance capabilities, (2) the Total Army will lose some of their 
most experience Apache pilots and maintainers, and (3) this proposal 
would eliminate a place for Active Component pilots and maintainers to 
serve should they leave active service. How would you respond to each 
of these concerns?
    Answer. First, the transfer of AH-64s from the National Guard to 
the Active Armed cannot be viewed in isolation, and, instead, must be 
seen as a part of a larger effort to simultaneously reduce structure 
and increase the warfighting capabilities of the Army. The Aviation 
Restructure Initiative (ARI) enables the Army to retain critical 
structure, maintain modernization programs, and sustain the force in 
the current fiscal environment. In the absence of the Army's ability to 
procure a new Armed Aerial Scout helicopter, the way ahead under ARI 
was chosen because it optimized combat power at the lowest risk given 
the budget available and requirements of combatant commanders.
    Under the ARI, the Army will eliminate three complete Aviation 
Brigades from the Active Component (AC), divest all remaining OH-58Ds 
from the fleet and transfer all AH-64Ds from the Army National Guard 
(ARNG) to the AC. Currently, an ARNG Aviation battalion is funded to 
maintain platoon proficiency and requires one to two years notice and 
approximately 70 training days at the mobilization station prior to 
being ready to deploy. An ARNG AH-64 battalion simply does not have 
enough collective training days to operate and satisfy mission 
requirements to support an AC multi-component brigade. In most cases, 
they are geographically located too far away from AC bases and their 
training schedules do not match in order to conduct critical joint 
training. Additionally, the ARNG currently does not have Shadow 
Unmanned Aircraft Systems (UAS) platoons organic to their AH-64 
battalions to conduct Manned-Unmanned Teaming (MUM-T) collective 
training in order to be proficient enough to rapidly deploy for short-
notice, world-wide contingency operations. ARNG AH-64 battalions would 
be required to take additional training days to conduct MUM-T training 
with Shadow platoons at the mobilization station. These Shadow platoons 
are in short supply in the AC and may not be available to participate 
in 90-120 day mobilization training along-side ARNG AH-64 battalions.
    The ARNG counter proposal to keep six AH-64 battalions would cost 
the Army an additional $4.425 billion in one-time equipping costs. 
Furthermore, the ARNG AH-64 battalions will have only 18 out of 24 AH-
64s assigned which would require them to pull aircraft from other units 
possibly rendering their Fully Mission Capable (FMC) rate too low to 
deploy. Transferring the AH-64s to active duty would avoid this 
situation and mitigate the risk of not being able to provide the 
commander on the ground essential attack/reconnaissance capabilities in 
a rapid manner. Active Component units are funded at battalion/brigade 
level proficiency and have more resources and collective training days 
to keep their Attack/Reconnaissance pilots fully trained and ready for 
deployment on short notice to meet world-wide critical mission 
requirements.
    It should be noted that UH-60 and CH-47 aircraft are essential for 
Air Assault, Air Movement, and Intelligence, Surveillance and 
Reconnaissance (ISR) combat operations. In Afghanistan, UH-60 medical 
evacuation (MEDEVAC) aircraft and crews are carrying out heroic rescues 
on the front lines of combat. The Army strategy will provide AC AH-64 
battalions to be available to deploy with RC Aviation Brigades when 
required. Army National Guard Aviation is, and will remain the most 
capable and experienced in disaster relief and should be the force of 
choice for disaster relief and humanitarian aid (Haiti, Pakistan, 
Philippines, Colorado, East Coast, Gulf Coast, Tornado Alley). Army 
National Guard Aviation Brigades will have an AC AH-64 battalion 
aligned (Multi-compo solution) for non-permissive or hostile 
environments. Active Component AH-64 Battalions will be aligned to RC 
Aviation Brigades for training (Multi-compo solution).
    The ARNG will provide their AH-64 pilots and maintainers every 
opportunity to transition to a new aircraft as a result of a unit 
conversion or transfer to another existing unit. In some cases, there 
may be opportunities for highly skilled ARNG AH-64 Instructor Pilots 
and Maintenance Test Pilots to apply for a position in the Active 
Component under a limited call to active duty program. The ARNG is 
planning to ensure 100 percent of their personnel impacted by ARI are 
accounted for through aircraft transitions, unit conversions, transfers 
to other units, and a small percentage through retirements and ordinary 
attrition. The skill sets and experience achieved by ARNG personnel in 
the Attack/Reconnaissance units, or AC personnel transitioning to the 
ARNG, will easily transfer and be very beneficial to CH-47, UH-60, UH-
72, and Fixed Wing units. It is not unusual for ARNG pilots to be 
qualified in multiple airframes due to turbulence within their civilian 
careers and a state need to fill unit vacancies.
    [Clerk's note.--End of questions submitted by Mr. Calvert. 
Questions submitted by Mr. Cole and the answer thereto follow.]

                                PATRIOT

    Question. The Patriot system appears to be in high demand around 
the world. Please tell us a little about the threat and demand, as well 
as the requirements to modify and modernize the Patriot system and the 
timeline for that. Why are those modifications important?
    Answer. Patriot is in high demand from our combatant commanders and 
from our Allies, not only to support their warplans, but also as a 
flexible deterrent and strategic message to our common adversaries. 
These demands currently stress the Patriot force and if not managed 
carefully, may over exceed the ability of the US Army to generate 
forces to continuously meet all commitments. While the Patriot system 
remains proven and capable, modernization is necessary to counter 
modern threat technology and techniques, and to achieve maximum 
effectiveness and efficiency.
    The threat is increasing in capability, complexity, and quantity. 
To counter the evolving threat, the Patriot system must be upgraded and 
sustained. The FY14 President's Budget contained finding for 
modifications and modernization efforts necessary to increase Patriot's 
capability against threats now and in the future. Planned Patriot 
upgrades include software upgrades and a more powerful Radar Digital 
Processor (RDP). The RDP provides the increased memory and 
computational capacity needed to provide capability against current and 
emerging threats. RDP additionally pairs with the latest software 
build, Post-Deployment Build 8 and with the newest Patriot Missile, 
Missile Segment Enhancement, to synergistically improve Patriot's 
overall capability.
    The Patriot Modernization Acquisition Strategy addresses 
modification and modernization program efforts implemented for 
incremental improvements of the Patriot Weapon System. Modification is 
defined as near and mid-term (FY14-FY19) updates to existing hardware 
and software. Modernization is defined as long-term (FY20-FY27) lower 
tier, air and missile defense, protection requirements and development 
of the next generation lower tier air and missile defense capability. 
Modification and modernization improvements are necessary to meet 
performance requirements against evolving threats based on the 
requirement to remain viable for the US Army and Coalition Forces 
through 2048.
    To fully leverage Patriot capabilities and defeat the full range of 
threats, the Army's plan is to integrate our Air and Missile Defense 
(AMD) portfolio of systems as nodes within a larger Integrated Air and 
Missile Defense (IAMD) network. The Integrated Air and Missile Defense 
Battle Command System (IBCS) is scheduled to begin fielding in FY18. 
Networked IAMD mission command provided by IBCS will enable more 
efficient and effective use of Patriot sensors and interceptors in 
future engagements.
    Question. Do you have enough PAC-3 and Missile Segment Enhancement 
(MSE) missiles or are more required for the various threats we face?
    Answer. Patriot PAC-3 is the Army's primary missile defense system 
to protect U.S. forces, allied forces and key assets from Tactical 
Ballistic Missiles, as well as Air and Cruise Missile threats. When the 
Army incorporates Missile Segment Enhancement (MSE), beginning in FY15, 
Patriot will be able to engage at greater altitudes and ranges. MSE 
production will ultimately replace PAC-3 and older legacy missiles and 
only recently commenced at its initial low rate of production (limited 
deliveries in FY15). An increase over the currently planned production 
is most likely needed to backfill the natural obsolescence of the PAC-2 
Guidance Enhanced Missile (GEM) family and to counter the increasing 
threat. However, the Army must balance modernization, readiness and 
acquisition requirements within the current budget. Given these 
constraints, we believe we have the right balance for air missile 
defense. Calculating an estimate of our missile needs is a continuous 
process, supported by modeling and simulation. Army PAC-3/MSE needs are 
defined by an Army Acquisition Objective which the Army continues to 
purchase toward. This estimate considers threat analysis from the 
intelligence community, along with combatant command warplans.

                                  AMPV

    Question. This replacement is the Armored Multipurpose Vehicle 
(AMPV) correct? I am informed that Under Secretary Kendall has twice 
reviewed the AMPV acquisition program and solicitation, and has deemed 
this program ``Full and open Competition.'' What is the current AMPV 
acquisition timeline? Is it in competitive sourcing right now? How 
important is the AMPV program to the Department of Defense?
    Answer. AMPV is the Armored Multi Purpose Vehicle. Undersecretary 
of Defense Frank Kendall has reviewed the AMPV program and solicitation 
in detail, as the program is under direct OSD oversight.
    The Army released the AMPV Request for Proposals (RFP) on 26 
November 2013 and is currently in competitive sourcing. The AMPV RFP 
closing date is scheduled for 28 May 2014, following a 90-day extension 
granted in January 2014 in response to industry request. The Army plans 
to award an Engineering, Manufacturing, and Development (EMD) contract 
in second quarter Fiscal Year 2015 (FY15) with Low-Rate Initial 
Production (LRIP) projected in FY19. The Army will open negotiations to 
accelerate the LRIP to FY18 once the Army selects a vendor and we have 
evaluated the technical risks of doing so.
    The AMPV RFP provides for full and open competition to find the 
best value solution for the Army's needs. The analysis of alternatives 
examined 115 candidate vehicles, both tracked and wheeled. 
Additionally, the 656 requirements in the AMPV solicitation are tiered 
to allow industry to make more flexible design trades on any potential 
vehicle proposed. The Army has continuously engaged with industry, to 
include holding two industry days in which a total of 112 companies 
participated. The Army also released all Government owned technical 
data required to use the Optional Exchange Vehicle in some manner and 
released two draft RFPs to understand and incorporate vendor feedback 
on the AMPV requirements to ensure a robust competition. Additionally, 
Government extended the solicitation due date by an additional 90 days 
to allow for proposal refinement.
    The AMPV program remains the highest priority developmental effort 
in the Army combat vehicle portfolio. The current fleet of M113 
vehicles has become operationally irrelevant due to the lack of 
protection, mobility, and survivability necessary to fight within the 
Armored Brigade Combat Team. The Army must balance the need to 
expeditiously replace its aging fleet of M113s against overall 
portfolio affordability constraints.
    Question. What is the current AMPV acquisition timeline? Is it in 
competitive sourcing right now?
    Answer. The Army released the Armored Multi Purpose Vehicle (AMPV) 
Request for Proposals (RFP) on 26 November 2013 and is currently in 
competitive sourcing. The AMPV RFP closing date is scheduled for 28 May 
2014, following a 90-day extension granted in January 2014 in response 
to industry request. The Army plans to award an Engineering and 
Manufacturing Development contract in second quarter Fiscal Year 2015 
(FY15) with Low-Rate Initial Production projected for FY19.
    Question. Now that GCV is terminated, what is the Army's plan for 
accelerating the AMPV program IAW Congressional directive in the last 2 
National Defense Authorization Acts (FY13, FY14)
    Answer. Although the Ground Combat Vehicle (GCV) program was 
executing on planned cost, schedule, and performance, the Department 
determined that it is no longer affordable to transition the GCV 
program to the next phase of development due to significant fiscal 
constraints under sequestration. The program will conclude upon 
completion of the Technology Development phase in June 2014. This 
decision will enable the Army to maintain investment in Armored Multi 
Purpose Vehicle (AMPV) development and modernization of existing combat 
vehicle platforms, including Abrams, Bradley, Stryker, and Paladin; 
thereby ensuring that our currently-fielded combat vehicles are as 
capable as possible for contingencies that may arise. However, it will 
not allow us to accelerate the program.
    Once an AMPV vendor is selected, the Army will open up discussions 
for possible acceleration of the schedule depending on the solution 
proposed and the assessed technical risks.
    Question. The CSA recently briefed that AMPV will become the Army's 
highest combat vehicle priority after GCV termination. What is the 
capability gap that drives this decision? (e.g. M113s can't drive off 
the FOBs).
    Answer. The current fleet of M113 vehicles lacks the protection, 
mobility and survivability necessary to fight within the Armored 
Brigade Combat Team (ABCT). The current M113 Family of Vehicles lacks 
the required under-belly protection, 360 degree ballistic protection 
and overhead artillery protection needed to accomplish its mission 
within the ABCT as well as adequate Space, Weight, Power, and Cooling 
(SWaP-C) capabilities necessary to accept the Army's inbound network. 
The Armored Multi Purpose Vehicle (AMPV) addresses these shortfalls and 
provides mobility commensurate with the combat vehicles it supports 
within the ABCT. The AMPV will maneuver to support the unit's tank and 
infantry fighting vehicles and maintain its doctrinal positioning 
within the ABCT formation throughout the battlefield.
    Question. How has the Army maintained competition in the AMPV 
procurement Request for Proposal?
    Answer. Since the earliest stages of the program, the Army has 
taken deliberate steps to develop and implement a competitive 
acquisition strategy for Armored Multi Purpose Vehicle (AMPV). The 
AMPV's Acquisition Strategy is competitive and platform-agnostic, 
providing for full and open competition to find the best value solution 
for the Army's needs. An analysis of alternatives examined 115 
candidate vehicles, both tracked and wheeled, and the mobility 
requirement does not specify a wheeled or tracked solution.
    The Army has continuously engaged with industry to understand and 
incorporate vendor feedback on the AMPV requirements to ensure a robust 
competition. This engagement included holding two industry days with 
112 companies participating, and releasing two draft Request for 
Proposals (RFPs). As a result, the 656 requirements in the AMPV 
solicitation are tiered to allow industry to make more flexible trade 
designs on any potential vehicle proposed. The final RFP is open to any 
vendor proposing a range of vehicle solutions that meet the 
requirements, including either wheeled or tracked vehicles. This 
deliberate strategy allows for robust competition among multiple 
platforms to find the best value solution.
    Question. What would a 1-3 year delay in the current Armored Multi-
Purpose Wheeled Vehicle (AMPV) Request for Proposal do to the program 
as structured? How will this jeopardize Soldiers who could potentially 
deploy in M113s for the next fight?
    Answer. A 1-3 year delay in the Armored Multi Purpose Vehicle 
(AMPV) Request for Proposal (RFP) would delay initial fielding of the 
AMPV until at least Fiscal Year (FY) 2022 to FY 2024 and could put 
program funding at risk. The program is currently fully funded and 
supported within the combat vehicle portfolio across the Future Years 
Defense Program years. Further delay could jeopardize funding and delay 
or reduce the availability of funding for future combat vehicle 
programs.
    Additionally, a delay would require Soldiers to continue using the 
operationally irrelevant and unsustainable M113 platform, which 
provides lower levels of survivability, mobility, force protection, and 
networking capability than the AMPV will provide. The M113 platform 
lacks adequate Space, Weight, Power, and Cooling capabilities necessary 
to accept the Army's inbound network. Without the inbound network, the 
Commander's ability to maneuver and communicate across the full width 
and depth of the battlefield will be reduced.

                              End Strength

    Question. Secretary McHugh, What are the estimates of the number of 
active, National Guard and reserve personnel that will have to be 
reduced in the FY14-18 time frame, and if sequestration continues 
beyond FY18?
    Answer. The Active Component will reduce its personnel inventory by 
approximately 80,000 during FY14-17 to achieve an end strength of 
450,000. Over the same time period, the Army National Guard will reduce 
its personnel inventory by 23,000 to achieve 335,000 and the U.S. Army 
Reserve will reduce 10,000 to achieve a 195,000 end strength. If 
sequestration continues beyond FY18 and the Army is required to 
continue its drawdown, the Active Component would further reduce its 
inventory by 30,000 personnel across FY18-19 to achieve a 420,000 end 
strength. The Army National Guard would lose an additional 20,000 
personnel to reach a reduced end strength of 315,000 and the U.S. Army 
Reserve would lose an additional 10,000 for a reduced end strength of 
185,000.
    Question. Secretary McHugh, How has the Bipartisan Budget Agreement 
(BBA) spending limits impacted Army major defense acquisition programs, 
and in your opinion, how will these impacts require a change in defense 
strategy and/or loss in operational capability for the Army? Please 
explain.
    Answer. The Bipartisan Budget Act (BBA) of 2013 provides the Army 
modest, temporary relief from Budget Control Act (BCA) defense spending 
caps in 2014. However, the Army still faces budget shortfalls of $7.7 
billion in Fiscal Year 2014 (FY14), and an additional $12.7 billion in 
FY15, when compared to the President's FY14 Budget request. While we 
welcome the relief and predictability that the BBA provides, the Army 
will be forced to cut $20.4 billion in planned finding, an abrupt 
reduction over a short two-year period of time.
    The BBA allows the Army to remedy only a fraction of lost 
capability. The Army remains committed to a balanced modernization 
strategy by executing incremental modernization with selective 
investment in new capabilities to support force protection, lethality, 
and networked mission command; investment in enabling technologies; 
incremental upgrades to existing capabilities; divesture of selected 
legacy systems, to include efforts through the Aviation Restructure 
Initiative; and delaying some new capabilities due to fiscal realities, 
such as the next generation Infantry Fighting Vehicle, Armed Aerial 
Scout, and Warfighter Information Network--Tactical Increment 3. The 
collective impact of the BBA is that Army units will continue to rely 
on current solutions while threat tactics and capabilities continue to 
adapt and evolve. This means the Army will employ current or slightly 
modified systems against an enemy with increased lethality and armed 
with lessons from on-going operations.
    Question. Secretary McHugh, from a Department of Army perspective, 
what do you consider to be the greatest threats to the defense 
industrial base, and what can we do to address them?
    Answer. The greatest threats to the Defense Industrial Base are the 
loss of critical commercial suppliers at the lower tiers of the supply 
chain and the related loss of critical skill sets.
    As the Army draws down from contingency operations, some additional 
issues being addressed include excess capacity, limited incentives for 
private investment, commercial sources exiting the Defense business, a 
potential growing dependence on foreign suppliers, shrinking, and aging 
stockpiles and declining commercial research and development 
capabilities.
    In addition to the significant reduction on the demand for supplies 
and equipment, the financial uncertainty of sequestration will affect 
the future demand for new systems. These factors create a high-risk 
environment for manufacturers and suppliers, especially, for small-to-
medium-sized companies, due to their inability to reconstitute or 
rapidly move to other business portfolios. As these lower-tier 
companies downsize, exit the defense sector, or go out of business, the 
critical skill sets they possess, such as those in engineering and 
advanced manufacturing, become less available.
    The Army is taking a proactive approach to identify those critical 
and essential capabilities needed for future short and long term 
operations.

                                Arsenals

    Question. Secretary McHugh, How would a 15% mandatory decrease in 
number of civilian personnel, starting in FY2015 through FY2025 impact 
workloads at Army Arsenals and how would the necessary workload be 
managed? In order to meet the required workload, would the Army need 
relief or a change to 10 U.S.C. 2466 that mandates a 50% ceiling, 
measured in dollars, on the amount of depot maintenance workload that 
may be performed by contract for a military Department or defense 
agency during a fiscal year.
    Answer. The Army manages its civilian personnel at arsenals based 
on workload and available funding. A mandatory 15% reduction starting 
in FY2015 through FY2025 will result in the loss of critical workforce 
skill sets that will take many years to rebuild, sub-optimize existing 
Army Working Capital Fund business processes, and render the arsenals 
as an uneconomical option for manufacture support that is required to 
effectively and efficiently meet future Army contingency requirements.
    The Army does not require relief or a change to Title 10 U.S.C. 
Section 2466, which mandates a 50% ceiling on contractor funded depot 
maintenance. The Arsenals' manufacturing workloads are not considered 
depot-level maintenance and repair workload for purposes of Title 10 
U.S.C. Section 2466.
    [Clerk's note.--End of questions submitted by Mr. Cole. Questions 
submitted by Mr. Aderholt and the answers thereto follow.]

                      UH-60 Blackhawk Helicopters

    Question. General Odierno, can you describe the model or type of 
UH-60 Blackhawk helicopters that will transfer to the National Guard 
and the plan to modernize the National Guard UH-60 fleet under the Army 
proposed plan?
    Answer. Under the Aviation Restructure Initiative (ARI), 111 UH-60L 
Blackhawk helicopters will transfer to the Army National Guard. The 
Army's H-60 Blackhawk modernization strategy remains the procurement of 
1,375 UH/HH-60M new build aircraft and digitization/recapitalization of 
760 H-60L aircraft. The ARI will allow this modernization plan to 
continue at an affordable rate to ensure that the Total Army can meet 
its operational commitments. Almost 600 of the planned procurement of 
1,375 UH-60M helicopters have been fielded to all three components; 
procurement will continue through the mid 2020s. In the near term, the 
Army will continue recapitalizing and modernizing a select number of 
UH-60As to UH-60Ls at a rate of approximately 36 aircraft a year. This 
effort is primarily focused on the Army National Guard and will 
continue through FY18. At that time, the Army will transition the 
recapitalization/modernization effort to UH-60L helicopters. These 
aircraft will be recapitalized and modernized with a digital cockpit at 
a rate of approximately 48 aircraft per year. This effort will 
modernize 760 UH-60Ls in all three components (Active, Guard, and 
Reserves), and continue until completion in FY34.

                              Armored BCTs

    Question. What is the final projection for the number of 
``armored'' BCTs?
          a. Is this enough to deter a traditional mechanized army, 
        such as Russia or China?
          b. Are we at risk of ``fighting our last war''--one focused 
        on counterinsurgency and not on the most serious threat of a 
        force-on-force engagement?
    Answer. By FY 15 there will be 9 Armored BCTs in the Active Army 
and 7 in the Army National Guard. The Army is actively working through 
the Total Army Analysis 17-21 process to determine the optimal number 
of Armored Brigade Combat Teams (BCTs) as the Army further reduces end 
strength to the levels directed in the Quadrennial Defense Review. As 
we move forward, the rapidly evolving operational environment will be 
taken into account.
    Effective implementation of the National Defense Strategy is 
dependent on the total capability and capacity of our Army, not just 
the number of Armored BCTs. Resource reductions under the Budget 
Control Act will severely jeopardize our readiness and modernization, 
limiting our ability to effectively deter our adversaries. The Army 
recognizes that tomorrow's threats may be different from today. When 
properly resourced, the Army remains ready to protect our Nation and 
defend our interests across the full range of military operations.

                   Prompt Global Strike (PGS) Program

    Question. Initial testing of the department's Prompt Global Strike 
(PGS) program by the Army Space and Missile Command/Army Forces 
Strategic command was successful and demonstrates the progress made in 
developing technologies that would allow us to quickly engage ``high-
value targets'' or ``fleeting targets'' with a global-reach 
conventional weapon strike capability. A second longer-range test of 
AHW is planned for August of this year.
          a. How soon could this technology be deployed if needed?
          b. Is there a plan for a Flight 3 test?
          c. Are we at risk of losing critical developments and slowing 
        the program if Flight 3 is not conducted?
          d. What impact does a Navy focused program have on achieving 
        a near-term capability?
          e. Does the current plan, which involves the pursuit of a 
        possible sea-launched option also recognize the short-term 
        threats and preserve critical technology development made by 
        the Army and provide a near-term deployment option?
    Answer.
    a. The Advanced Hypersonic Weapon (AHW) Program is a technology 
development effort which focuses on maturing technologies in pursuit of 
a proof of concept of a Conventional Prompt Global Strike (CPGS) 
capability. The AHW technology development is one of several potential 
initiatives intended to lead to a CPGS capability. The maturity of the 
technology and the reliability of the concept are still to be fully 
assessed; and, therefore, an estimate of an operational capability is 
presently not available.
    b. No. Per current Office of the Secretary of Defense (OSD) 
direction, there is not a third AHW flight test planned.
    c. No. The intent of OSD's CPGS Office is to leverage demonstrated 
technology as well as lessons from the first and second AHW flight 
test, and apply them to the overall national CPGS effort. Desired AHW 
Flight Test 2 advancements in technology, such as navigation and 
guidance control, thermal protection, aerodynamic characterization and 
test range capabilities will be applicable to the next OSD planned CPGS 
test--the Navy's Intermediate Range Conventional Prompt Strike (IRCPS) 
Flight Experiment 1 (FE-1) as well as the overall CPGS program.
    d. The stated focus of the U.S. Navy led IRCPS program is a CPGS 
capability designed and optimized for utilization in the upgraded 
Virginia class submarine. This will require the development of both a 
smaller scale variant of the AHW glide body and a new booster stack 
designed for use on this platform. Questions concerning the Navy 
program capability of supporting a near term limited operational 
capability should be addressed to either the OSD's CPGS Office or the 
U.S. Navy's Strategic Systems Program Project Office.
    e. The requirement for a CPGS capability has been established by 
the Department of Defense (DoD). The intent of the OSD CPGS office is 
to leverage the technology advancements and lessons from both the 
initial and upcoming AHW flight tests and upcoming Navy test and apply 
them to future operationally deployed DoD developed systems. At this 
time, the Army has no plans for a near-term CPGS capability.

                         Cyber Vulnerabilities

    Question. The 2013 Defense Science Board report concluded that 
cyber vulnerabilities in weapon systems as well as DOD system 
architecture exists and places our nation at risk. How does the Army 
plan to counter these vulnerabilities and provide resiliency in areas 
such as the missiles and space portfolio and UAS operations?
    Answer. Cyber threats to Army systems and networks are becoming 
increasingly sophisticated. We know the adversary incessantly probes 
our networks and attempts to access and exploit our military systems. 
Therefore, the Army must ensure our systems and networks are cyber 
resilient by designing them with the capability to operate through a 
cyber attack. Such preparedness is achieved through coordinated and 
focused efforts involving policy, resource investment, systems 
architecture and design, acquisition of cyber defense capabilities, and 
dynamic cyber defense operations. Leaders and users must work to 
eliminate common, cybersecurity weaknesses from Army systems and 
networks such as poor password hygiene, failure to patch or update 
software, poor physical and information security, and unprotected 
servers/vulnerable web applications.
    Army Missile and Space Systems and Unmanned Aerial Systems have 
implemented additional mitigation steps to harden and protect systems 
and ensure their cyber resiliency. Examples include: implementation of 
protected communications, limiting access to critical hardware from 
physical access panels, increasing training and awareness to protect 
passwords, enforcing cyber security policy compliance and penetration 
testing in advance of operational tests.

                    Improved Turbine Engine Program

    Question. The Improved Turbine Engine Program was significantly 
highlighted in the Army's budget presentation.
          a. Please explain to the importance of this program to Army 
        Aviation and the benefits this engine will bring to the fleet?
          b. Is this program fully funded in the out-years and if not, 
        what does this mean for the program?
    Answer.
    a. The Improved Turbine Engine will provide critically needed 
improvements to support operations in hot weather conditions (95 
degrees) and at higher altitudes (6,000 feet) as recently experienced 
in Iraq and Afghanistan, respectively. Also, the engine is intended to 
achieve a 25 percent fuel consumption reduction and a 35 percent 
reduction in maintenance costs. The engine will replace the T700 family 
of engines for the UH-60 Black Hawk and AH-64 Apache fleets, bringing 
an urgent capability needed by the Warfighter to operate in a worldwide 
environment.
    b. No. Based on the initial cost estimate, the Deputy Assistant 
Secretary of the Army for Cost and Economics has assessed the program 
as not fully funded in the out-years. Given that the program is Pre-
Milestone A, it is too early in the process to have appropriate data to 
yield a reliable cost estimate. A planned future independent cost 
estimate will provide additional clarity.

                      Combat Vehicle Manufacturers

    Question. The last time the Army was down to a single major ground 
vehicle modernization program was during the days of Future Combat 
System. At that time, the Army felt very strongly that it was important 
to have two healthy, viable combat vehicle manufacturers and directed 
that the Manned Ground Vehicle part of FCS be split between BAE and 
General Dynamics. Today with the cancellation of the Ground Combat 
Vehicle (GCV), the Army is once again down to a single major program to 
build new combat vehicles, the AMPV program. Since that is the case, 
would it make sense to have a split buy of Bradley and Strykers to 
sustain both vehicle companies at time of very lean budgets?
    Answer. The Army supports a healthy combat vehicle industrial base 
and continues to assess impacts as budgetary resources decline.
    AMPV development is under a competitive solicitation open to any 
vendor proposing vehicle replacements for the existing M113s. There is 
potential for an overall mixed Armored Multi-Purpose Vehicle (AMPV) 
fleet in the future, as the current solicitation is only for vehicles 
at echelons below brigade. The current AMPV program will only replace 
M113s at the brigade and below level--within Armored Brigade Combat 
Teams--which consists of 2,897 vehicles. There are an additional 1,922 
M113s supporting Echelons Above Brigade, and the Army is currently 
assessing these emerging vehicle requirements against potential 
solutions for a future competition that may involve a diverse range of 
platforms.
    The Army continues to assess the Combat Vehicle industrial base, 
and seeks to keep this diverse portfolio of platforms modernized within 
the current fiscal constraints. Such modernization efforts support the 
industrial base while maintaining critical capabilities. Currently, the 
Army has plans to modernize the Abrams, Bradley, and Stryker platforms 
via Engineering Change Proposals (ECPs). These ECPs include two major 
upgrades to the Bradley, enhancing track and suspension as well as 
upgrading transmission and networking power capability. We are also 
continuing production of the Abrams tank and procurement of a third 
brigade of Stryker Double-V Hull (DVH) vehicles. The Army is further 
assessing requirements and resources for a potential fourth brigade of 
Stryker DVH vehicles.
    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Ms. McCollum and the answers thereto follow.]

                                  BRAC

    Question. Secretary McHugh, earlier this week you testified that 
the Army would be able to save up to $5 billion dollars from a new 
round of base closures. Why is a BRAC critical to mission readiness? 
What percentage of Army facilities are in excess?
    Answer. BRAC is critical to mission readiness because Army force 
structure and end-strength are declining alongside our available 
finding. We must carefully balance end-strength, modernization, and 
readiness. In particular, the Army cannot afford to retain a hollow 
force structure and excess infrastructure at the expense of readiness. 
Therefore, the time to authorize BRAC is now. The money is gone. If we 
do not shed excess overhead, hundreds of millions of dollars will be 
wasted each year in maintaining underutilized buildings and 
infrastructure.
    The Army has conducted facility capacity analyses to support an 
end-strength of 490,000 Active Component (AC) Soldiers. Preliminary 
results indicate the Army will have about 15-20% excess capacity at its 
installations (over 160 million square feet) by 2019. The average 
excess capacity is about 18 percent. At roughly $3 per square foot for 
sustainment, the ``empty space'' or under-utilization tax on our budget 
rapidly adds up. Further, Army end strength and force structure cuts 
will only increase the amount of excess capacity.
    The Army is saving $1 billion a year in annual recurring savings 
from the BRAC 2005 process, and we began realizing those savings as 
soon as the BRAC process concluded in September 2011. The BRAC 2005 
process produced two types of recommendations--efficiency and 
transformation. Efficiency recommendations across all of the Department 
of Defense (DoD) in BRAC 2005 cost about $6 billion to implement, and 
produced recurring savings of $3 billion per year.
    For the Army, our BRAC 2005 ``efficiency'' recommendations cost 
about $2 billion to implement and are saving over $500 million each 
year. Those are the kinds of returns on investment we are looking to 
achieve in a future round of BRAC.
    The Department of Defense has calculated that a future efficiency 
BRAC round that eliminated about 5 percent of our plant replacement 
value would involve a rough magnitude $6 billion to implement and save 
about $2 billion a year. The Army would represent a portion of that, 
depending upon the objective processes of developing recommendations. 
An independent Commission would review the BRAC recommendations and 
receive community input. If the President approved the package of 
recommendations on an ``all or none'' basis, Congress would then have 
an opportunity to review the recommendations.
    Question. If Congress fails to approve a new BRAC round, what are 
the consequences for the Army?
    Answer. If Congress fails to authorize another round of BRAC, the 
defense drawdown is likely to repeat a very unfortunate historical 
pattern of hollowed-out forces dispersed across hollowed-out 
installations. If we cannot reduce excess infrastructure, we will need 
to reduce funds elsewhere to meet the budget caps.
    The Army has conducted facility capacity analyses. Preliminary 
results indicate the Army will have about 15-20% excess capacity at its 
installations by 2019 at the 490,000 active component end-strength. The 
average excess capacity is about 18 percent. Further, Army end strength 
and force structure cuts will only increase the amount of excess 
capacity.
    At roughly $3 per square foot for sustainment, the ``empty space'' 
tax on our budget rapidly adds up. Paying nearly $500M a year to carry 
over 160 million square feet of excess or under-utilized facilities on 
our books, will simply result in cuts to capabilities elsewhere in the 
budget.
    In considering the Army's BRAC request, the following points are 
critical:
    First, the money is gone.
    Second, failure to authorize a new round of BRAC in 2017 does not 
prevent defense communities from experiencing the consequences of 
smaller forces and lower off-post economic activity. The Soldiers and 
Families at the installations will be gone, and their spending power 
and requirements will go with them.
    Last, without the BRAC process, it is much more difficult to back-
fill those vacant or underutilized facilities with other missions.
    [Clerk's note.--End of questions submitted by Ms. McCollum. 
Questions submitted by Mr. Frelinghuysen and the answers thereto 
follow.]

                              Hollow Force

    Question. General Odierno, you have repeatedly expressed concern 
that retaining too much Army force structure would result in a hollow 
force. Could you explain what is meant by a hollow force?
    Answer. The Army's definition of Service hollowness is a military 
force that appears mission-ready, but in fact does not have the 
capacity to generate the necessary capability to conduct its mission 
and responsibilities as prescribed in strategic guidance. The gap in 
capacity and capability is attributed to prolonged and disproportionate 
investments across manpower, operations, maintenance, modernization, 
sustainment, and procurement without a corresponding adjustment to 
strategy. While aggregate amounts of units with low readiness may be a 
by-product, unit readiness is not a standalone indicator of hollowness.
    Question. Do you believe that sequestration and reduced defense 
budgets are leading to a hollowing out of the force?
    Answer. The cumulative effects of sequestration and reduced defense 
budgets could create a Hollow Force if prolonged and disproportionate 
investments across manpower, operations and maintenance, modernization, 
sustainment, and procurement are made without a corresponding 
adjustment to strategy. While reductions in the short term will not 
immediately trigger a Hollow Force, they will have impacts that, when 
accumulated over time, will contribute to a Hollow Force. For example, 
a single year reduction to operations and maintenance doesn't indicate 
a hollow force. However, that single reduction combined with a seven 
year decisive action training deficiency, poorly maintained 
installation facilities, and slowed modernization can contribute to a 
hollow force.
    Question. Some will argue that hollow units may be the best of an 
array of poor alternatives in an era of tight budgets. The services 
seek to retain experienced and well trained officers and NCOs. They are 
battle tested veterans. Structure can be maintained to support the 
continued readiness training for mid grade leaders. While junior 
enlisted soldiers can be recruited and trained relatively quickly, it 
takes many years to develop a platoon sergeant or first sergeant. 
Should the Army retain structure in order to have the number of 
experienced mid grade officers and NCOs we will need if we are forced 
to respond to another large scale contingency operation?
    Answer. At the stated end strengths mandated by the Quadrennial 
Defense Review (QDR), the Army can maintain the readiness and 
modernization needed to prevent a hollow force within resource 
constraints. Hollow units are not a viable solution because they 
jeopardize the lives of our Soldiers and limit our ability to rapidly 
respond to crises. Further, hollow units are not sustainable since they 
do not provide the requisite experience for junior leaders due to 
shortages of personnel and resources.
    However, in order to mitigate risk, the Army is exploring the 
possibility of retaining select numbers of experienced and well-trained 
senior officers and Non-Commissioned Officers (NC0s) in the generating 
force. If the Army is required to expand for a contingency, these 
personnel can form the nucleus for new units.

            Manned Ground Vehicle/Infantry Fighting Vehicle

    Question. General Odierno, the Bradley began service in the U.S. 
Army in 1981. Automotive technology, sensor technology, and weapons 
technology have advanced greatly in the decades that the Bradley 
Fighting Vehicle has been in service. Might our mechanized units be 
better off by having an Infantry Fighting Vehicle that is built to 
today's state-of-the-Art, which would benefit from over 30 years 
advancement in technology, rather than terminating and restarting the 
program again and again and always falling short of the impossible?
    Answer. A new state-of-the-art Infantry Fighting Vehicle (IFV) 
remains a key requirement for the Army. However, due to significant 
fiscal constraints, the Department has determined that it is no longer 
affordable to transition the Ground Combat Vehicle program to the next 
phase of development, and the program will conclude upon completion of 
the Technology Development phase in June 2014. This decision will 
enable the Army to maintain investment in Armored Multi-Purpose Vehicle 
(AMPV) development and modernization of existing combat vehicle 
platforms, including Abrams, Bradley, Stryker, and Paladin; thereby, 
ensuring that our currently-fielded combat vehicles are as capable as 
possible for contingencies that may arise.
    The Army will continue to manage Infantry Fighting Vehicle 
technology maturity activities in support of a future modernization 
program once anticipated resources become available in Fiscal Year 
2019.
    Question. The Army sponsored a voluntary demonstration where 
developers could bring their Ground Combat Vehicles to be compared 
side-by-side. However, none of the vehicles offered by industry was 
considered adequate by Army. General Odierno, what were the main 
improvements over the Bradley that you were seeking in a new vehicle, 
and which none of the demonstrators provided?
    Answer. The Army completed an Analysis of Alternatives (AoA) for 
the Ground Combat Vehicle (GCV) program, including an assessment of 
non-developmental vehicles (NDV) to determine if they could meet the 
key requirements for the GCV. The analysis found that while many of the 
vehicles could meet one or more aspects of mobility, lethality, force 
protection, survivability, capacity, or network hosting power, none 
could meet the required key Infantry Fighting Vehicle (IFV) 
capabilities in combination. The AoA concluded that a new start combat 
vehicle program was required to meet the requirements.
    Question. Did any of the vehicles achieve an 80 percent solution?
    Answer. No. None of the non-developmental vehicles tested presented 
an acceptable 80 percent solution. For example, one system met the 
force protection and nine-man squad carrying requirements, but failed 
to meet the tactical mobility requirement to keep pace with the Abrams 
tank and had limited lethality. Two other systems provided increased 
underbody protection, the capacity to host our network, increased 
lethality, and the mobility to keep pace with the Abrams tank, but did 
not meet required direct fire protection or passenger carrying 
capacity.
    Question. Mr. Secretary, are the armed services adopting an 
``MRAP'' military acquisition strategy, that is, to train on existing 
equipment, and depend on industry to rapidly produce materiel solutions 
once the fight begins?
    Answer. The Department's procurement of the Mine Resistant Ambush 
Protected (MRAP) vehicle does not represent the Army's intended 
strategy for developing and fielding future capabilities. In the case 
of MRAPs, as cited in the GAO Report (GAO-10-155T--Rapid Acquisition of 
MRAP Vehicles), ``The program relied only on proven technologies and 
commercially available products; established minimal operational 
requirements; and undertook a concurrent approach to producing, 
testing, and fielding vehicles.'' This approach, driven by the 
exigencies of large-scale urgent operational requirements, is the 
exception, not the norm.
    Given the Army's budget pressures, our modernization strategy 
incorporates a diverse investment strategy that includes procurement of 
available commercial technologies in suitable areas, incremental 
upgrades on existing systems, and targeted investment in development of 
new capabilities. Examples include procurement of the Handheld, Manpack 
& Small Form Fit (HMS) radio which is based on mature commercial 
technology; increasing space, weight, and power margins for the Abrams 
tank; and targeted investments in the Armored Multi-Purpose Vehicle 
(AMPV) and the Joint Light Tactical Vehicle (MTV) to address critical 
capability gaps in the current ground combat vehicle fleet.

                      Joint Light Tactical Vehicle

    Question. General Odierno, please describe the progress of the JLTV 
program.
    Answer. The Joint Light Tactical Vehicle (JLTV) program is 
progressing on schedule, due to stable requirements focused on mature 
technologies. It remains on track to close a critical capability gap 
for Soldiers and Marines. The initial production phase contract is 
planned for solicitation and award in fiscal year 2015 in conjunction 
with an anticipated Milestone C, low-rate initial production decision.
    Question. What are the planned advances over the up-armored HMMWVs 
and MRAPs?
    Answer. The Joint Light Tactical Vehicle (JLTV) is not a 
replacement for Mine Resistant Ambush Protected (MRAP) vehicles, but is 
designed to fill critical capability gaps related to protected 
mobility. At maximum protection levels, the legacy High Mobility 
Multipurpose Wheeled Vehicle fleet loses substantial payload and 
performance capabilities that inhibit mission accomplishment. At the 
same time, MRAP vehicles are not easily transportable and do not 
perform well in a wide range of operating environments. JLTV 
intentionally balances payload, performance, and protection to restore 
protected mobility across a range of operating environments, and is the 
first vehicle purposefully designed for networked mission command 
operations. It provides major operational improvements in protected 
mobility, fuel efficiency, and reliability, operation and sustainment 
costs, and network connectivity in order to meet future mission 
requirements.
    Question. The Committee understands that three companies are 
competing in the engineering and manufacturing development phase and 
the program will select one of the companies for production and 
deployment. General Odierno, what problems do you see in this program 
at this time?
    Answer. I see no problems in the program at this time. The initial 
production phase contract is still planned for solicitation and award 
in Fiscal Year 2015, in connection with a planned Milestone C low-rate 
initial production decision. The Joint Light Tactical Vehicle (JLTV) 
program is executing on schedule, due to stable requirements focused on 
mature technologies. It remains on track to close a critical capability 
gap for Soldiers and Marines.
    Question. The strategy for the light tactical vehicle fleet calls 
for 49,099 JLTVs for the Army, or about one third of the fleet? What 
type vehicles will make up the other two thirds?
    Answer. The Army's Acquisition Objective, determined through 
mission requirements analysis, is 49,099. The existing High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) fleet will continue to make up the 
remaining complement of light tactical vehicles. The Joint Light 
Tactical Vehicles (JLTVs) will be fielded on a priority basis, and the 
Army will cascade the most modernized HMMWVs to lower priority units, 
with plans to divest the oldest and least modernized HMMWVs.
    Question. When will production be complete?
    Answer. The Marine Corps 5,500 vehicle procurement will be complete 
in 2022. The Army's 49,099 vehicle procurement will complete production 
in the year 2040.

                    Armed Reconnaissance Helicopter

    Question. General Odierno, what are the comparative costs of 
performing the manned aerial reconnaissance mission with an OH-58 Kiowa 
Warrior versus performing that mission with an Apache?
    Answer. A simple comparison of flight hour costs (2014 Department 
of Defense Flight Hour Rates) does show the AH-64 is more expensive to 
fly than the OH-58D: OH-58D--$2,373 per Hour vs. AH-64D--$6,034 per 
Hour.
    However, the transfer of AH-64 Apaches to the Active component (AC) 
is one aspect of the Secretary of Defense-approved comprehensive 
Aviation Restructure Initiative (ARI), which is designed to achieve a 
leaner, more efficient and capable force that balances operational 
capability and capacity across the Total Army. Under ARI, the Army will 
eliminate three entire Combat Aviation Brigades from the AC, ultimately 
avoiding approximately $1.1 billion in annual costs. It is important to 
understand that the total Army funds and flies all of the AH-64s and 
OH-58s in the current force structure, meaning no additional costs 
associated with flying those aircraft and, ultimately, avoiding $496 
million in annual costs as a result. ARI removes nine Active Component 
OH-58D Squadrons at a cost avoidance of $479.7 million annually (*Does 
not account for Institutional/Sustainment Cost Savings due to 
Termination of the OH-58D Program). It removes one Reserve Component 
OH-58D Squadron at a cost avoidance of $19 million annually. It removes 
six Reserve Component AH-64 Battalions at a cost avoidance of $195.8 
million annually. And it adds three manned Active Component AH-64 
Squadrons at a cost of $198.6 million annually.
    Question. General Odierno, will Apache crews that are performing 
the armed reconnaissance mission aircraft be able to maintain the same 
operational readiness rate as the OH-58D Kiowa Warrior helicopter?
    Answer. Yes. The pilots that transition from the OH-58D to the AH-
64 will be able to achieve the same pilot proficiency readiness level. 
The maintainers will be able to achieve an Operational Readiness (OR) 
maintenance rate on the AH-64 comparable to the OH-58D.
    Question. The Committee understands that the requirement for a new 
armed aerial scout helicopter remains valid. When will the Army resume 
its search for a new armed aerial scout?
    Answer. The Army maintains a valid requirement for the Armed Aerial 
Scout and would like to develop an aircraft to meet the manned aerial 
reconnaissance mission. However, we currently do not have the funding 
to pursue that path.
    The analysis of alternatives conducted for the Armed Aerial Scout 
(AAS) determined that absent a new materiel solution, the best solution 
for the armed reconnaissance capability was a team of AH-64E with 
Unmanned Aircraft System (UAS). The AH-64 and UAS manned-unmanned-
teaming solution was not chosen at the time because it was unaffordable 
to buy and sustain additional AH-64s. The reduction in aviation force 
structure, mainly in the Active Component, allows the Army to employ 
AH-64s and Shadow UASs that the Army already owns and sustains to meet 
the Armed Aerial Scout requirement. The AH-64 with its Modernized 
Target Acquisition Designation Sight, and teamed with unmanned systems, 
is already being employed with tremendous success across Afghanistan--
this is a proven success story. The best sensors in Army Aviation are 
on the AH-64E.
    Question. General Odierno, the Army recently conducted a voluntary 
flight demonstration. However none of the aircraft brought forward by 
industry were considered to be adequate as the basis for a new armed 
aerial scout. Please comment on the key shortcomings that made the 
demonstration aircraft unacceptable. Were there capabilities among the 
demonstration aircraft that are desirable going forward?
    Answer. The voluntary flight demonstrations in 2012 did not reveal 
any aircraft that was rapidly available while providing a substantial 
increase in capability over the OH-58D Kiowa Warrior. All aircraft were 
assessed for performance, military airworthiness, safety, 
survivability, and mission equipment. None of the aircraft mitigated 
the current capability gaps without a development and integration 
effort and investment associated with a full acquisition program. Some 
common areas that indicated the need for additional development 
included high pilot workload, high control forces, growth potential 
(maximum gross weight at takeoff), survivability (integration of 
aircraft survivability equipment), and safety (closed circuit refuel 
capability). A common desirable capability was field of view. 
Performance (speed, range, and endurance), maneuverability, and mission 
equipment were capabilities that varied among the demonstration 
aircraft.
    Question. General Odierno, will high enroute speed, be a key factor 
in the selection of the next armed reconnaissance helicopter? In future 
conflicts, the Army must have an aircraft that is capable of flying 
230+ knots to and from the battlefield. This is why the Army is looking 
into Future Vertical Lift (FVL) aircraft as a viable solution for the 
Scout/Reconnaissance mission.
    Answer. Yes. Enroute speed is an important performance 
characteristic for the next armed reconnaissance helicopter. Range, 
power (hover capability at 6,000 feet pressure altitude and 95 degrees 
temperature), and operational radius (range to an operational area with 
one hour of station time and return) are the other key performance 
factors. Speed is important for crossing the battle space quickly and 
for conducting escort missions with other Army helicopters.

                  Armored Multi-Purpose Vehicle (AMPV)

    Question. General Odierno, during the wars in Iraq and Afghanistan, 
our Army added armor kits to many vehicles, including Bradleys, trucks 
of all sizes, Strykers and even MRAPS. However we did not develop a 
solution to up-armor or replace the M113s. Instead the M113s were 
restricted to the forwarding base. The Armored Multi-Purpose Vehicle or 
AMPV [Amp Vee] program is intended to replace the M113 family of 
vehicles. This is a big program, the Army has about 3,000 M113 series 
vehicles. Could you provide the Committee a progress report on the AMPV 
program?
    Answer. The Army released the Armored Multi-Purpose Vehicle (AMPV) 
Request for Proposals (RFP) on 26 November 2013. This solicitation is 
designed to fill requirements for 2,897 AMPV vehicles at echelons 
within the Armored Brigade Combat Team (ABCT). The Army is still 
assessing requirements for vehicles at echelons above brigade, which we 
anticipate to consist of 1,922 vehicles. The AMPV RFP closing date is 
scheduled for 28 May 2014, following a 90-day extension granted in 
January 2014 in response to industry request. On February 14, 2014, a 
prospective bidder filed an agency protest with Army Material Command 
which was decided on April 4, 2014. The protest was decided in the 
Army's favor, and found that the solicitation provided adequate 
information and time for contractors to develop proposals, and that the 
solicitation requirements did not unfairly favor any competitor or 
materiel solution. The current solicitation reflects a competitive 
acquisition strategy in which vendors can propose any vehicle that 
meets stated AMPV requirements. The Army plans to award an Engineering, 
Manufacturing, and Development contract in second quarter Fiscal Year 
2015. The AMPV program is focused on meeting a requirement that the 
Army and Joint Staff has deemed operationally relevant and necessary.
    Question. The low rate production decision is planned for Fiscal 
Year 2018. At this point is that schedule doable?
    Answer. Yes, the Armored Multi-Purpose Vehicle (AMPV) program 
schedule is achievable at this time. Moreover, once a vendor is 
selected, the Army will open up discussions for potential acceleration 
of the schedule depending on the solution proposed and capabilities the 
vendor offerors.
    Question. Will the Army continue to require protection against IEDs 
in vehicle design? Some argue that the best solution to defeat IEDs is 
to avoid lengthy stabilization and security assistance operations in 
which our forces become sitting ducks. What is your comment on that?
    Answer. The requirement to engage in stabilization and security 
assistance operations remains a political decision. However, the use of 
Improvised Explosive Devices (IED) can occur across the range of 
military operations. Recent experiences have exposed gaps in the 
survivability of the Army's current wheeled vehicle fleet which must be 
addressed, regardless of future employment.
    Land forces will continue to face threats from explosive devices; 
the design and function of most IEDs incorporate effects also produced 
by conventional ordnance items such as blast and fragmentation, or 
explosively formed penetrators. These effects can be produced by the 
conventional weapons inventories of many potential adversaries. As an 
Army, we must develop vehicles that protect our Soldiers from both 
conventional and improvised explosive threats. This requires the Army, 
our Joint and Coalition partners, along with our industrial partners to 
continue developing the best vehicle protection possible while 
maintaining mobility for our forces.

                        Air and Missile Defense

    Question. General Odierno, please provide the Committee your 
assessment of the aircraft and missile threat to our deployed forces.
    Answer. North Korea fields a large, forward-deployed military that 
retains the capability to inflict serious damage on the Republic of 
Korea (ROK) despite significant resource shortfalls and aging hardware. 
North Korea continues to be deterred from conducting large-scale 
attacks on the ROK primarily due to the strength of the U.S.-ROK 
Alliance. However, North Korea has demonstrated its willingness to use 
military provocation to achieve national goals. North Korea's special 
operations forces (SOF), artillery, and growing missile force provide 
significant capabilities for small-scale attacks that could rapidly 
spiral into a larger conflict. A classified response containing more 
details on the air and missile components of North Korea's military 
capabilities has been provided in a separate document.
    Question. General Odierno, you recently stated that due to budget 
limitations, prompt improvements to out dated air and missile defenses 
would not be forthcoming. Rather, the Army can provide increased air 
and missile defenses to U.S. Forces in distant locations by means of 
air lift. Could you discuss your air and missile defense concept?
    Answer. Generals' Sharp and Thurman recent National Defense 
Industrial Association article on Air and Missile Defense (AMD), 
specifically in Korea, highlights the high demand for AMD assets in the 
Pacific and worldwide. The Army is challenged but able to meet current 
Combatant Command requirements with a mix of forward deployed and 
forward stationed AMD capability. Forward stationed AMD assets (such as 
the Army's 35th Air Defense Artillery BDE with its two Patriot 
Battalions in South Korea) would be augmented with additional assets 
and capabilities as needed if a conflict arises. Expeditionary airlift 
would be used to bring these capabilities forward, further, supporting 
the Army's move towards a more expeditionary force. We are reviewing 
the global posture of our newest AMD Capability, the Terminal High 
Altitude Area Defense (THAAD), to include possible worldwide 
stationing. Already deployed to Guam, the planned global posture for 
future THAAD batteries is being incorporated into the Army Campaign 
Plan's Strategic Effort #4 (THAAD Posture). Additionally, the Secretary 
of the Army and I signed the AMD Strategy in September 2012 to 
articulate an overarching AMD framework that synchronizes Service 
functions in support of Army and Joint missions over the next 25 years. 
Central to that strategy are ``game changing'' new systems such as 
Integrated Air and Missile Defense Battle Command System and Indirect 
Fire Protection Capability Multi-Mission Launcher. These key additions 
to the AMD Portfolio will allow the Army to capitalize on all available 
sensors and shooters and be less constrained by command and control 
limitations, better enabling us to organize forces at the component 
level and increasing our global responsiveness.
    Question. Are there air defense assets that have been tested, and 
proved, but not fielded which could be adopted for use and quickly 
brought into service?
    Answer. There are no available air defense assets that have 
completed a full test and evaluation program and are proven, but not 
fielded. There were three Air and Missile Defense (AMD) systems in the 
development process that were not approved for fielding. Those systems 
are Joint Land Attack Cruise Missile Defense Elevated Netted Sensor 
System (JLENS), Surface Launched Advanced Medium-Range Air-to-Air 
Missile (SLAMRAAM), and Medium Extended Air Defense System (MEADS). 
None of these assets were fully tested or proved, though JLENS testing 
continues in a 3-year exercise in the National Capital Region.
    The Army has developed two JLENS orbits; all further development 
and procurement is canceled. One orbit is committed to a Secretary of 
Defense directed three year operational exercise at Aberdeen Proving 
Ground in support of the Commander, NORAD/NORTHCOM in the National 
Capital Region. The second orbit is incomplete and is in long-term 
storage. There is no force structure or manning allocated for the 
second orbit, and it would require additional common equipment for 
employment. Beyond providing one orbit in support of the operational 
exercise, any additional employments of this capability will require 
extensive planning, coordination, force structure and time to execute.
    The other two AMD systems formerly in the development process were 
canceled. The first, SLAMRAAM, had operational prototype equipment 
delivered, which went into storage after procurement was canceled. 
There is no force structure, no common equipment, no trained Soldiers, 
and no plans to address obsolescence issues for this system.
    Finally, the U.S. Government was developing the MEADS system in 
coordination with Germany and Italy. The system is not beyond the 
Engineering, Manufacturing and Development phase, and the Office of the 
Secretary of Defense agreed that MEADS doesn't meet the Army's open 
architecture, non-proprietary requirements to interoperate with other 
US AMD systems/command and control. The limited components that could 
be made available will not meet operational requirements or our 
modernization path forward, and would require resources, time, and 
hardware and software improvements to become operational. Also, there 
are no trained MEADS Soldiers who could man the system.

                       Army Aviation Restructure

    Question. Given the high demand for Combat Aviation Brigades does 
it not make sense to have some Army Guard brigades, complete with 
Apache attack helicopters? Commanders are taught to always have a 
reserve. But the aviation restructure plan would have no ``Apache 
reserve'' in the reserve components. Would it make more sense to retain 
some number of attack helicopter units in the Army Guard?
    Answer. The Army's Attack/Reconnaissance battalions are considered 
low density and high demand assets that must be fully trained and ready 
on short notice to deploy for world-wide contingencies and crisis 
response in the wake of major reductions to the Total Army end-strength 
and force structure. The divestment of OH-58D Kiowa Warriors and the 
elimination of three entire Combat Aviation Brigades (CABs) from the 
Active Component (AC) will take Army Aviation down from 37 to 20 
shooting battalions. This necessitates transferring all Apache 
helicopters to the AC in order to meet the demands of our Combatant 
Commanders. The Army simply does not have the luxury of retaining 
Apache helicopters in the Reserve Component (RC) as it is considerably 
more expensive to maintain a sufficient, available inventory of Apaches 
in the RC than it is to do so in the AC.
    When considering the most effective use of limited resources, 
National Guard Formations should be optimized with ``dual use'' 
equipment and formations that are capable of supporting States and 
Governors as well as Combatant Commanders when mobilized. We must 
develop complimentary and mutually supporting capabilities. The Army 
supports a multi-component solution for operationalizing Army National 
Guard (ARNG) Aviation Brigades in non-permissive environments. Under 
the Aviation Restructure Initiative (ARI), each ARNG Aviation Brigade 
will have an AC AH-64 battalion aligned with them for training and 
deployment. These AH-64 battalions will deploy with an intermediate 
maintenance slice to support AH-64 maintenance and armament. This model 
has proven effective in the past, and in fact, we have a National Guard 
aviation brigade deployed to Kuwait today with an active duty attack 
battalion attached.
    Question. Has consideration been given to buying additional Apaches 
to outfit both active and reserve component units? Would it be feasible 
to partially equip some units, to support proficiency flying, and when 
the unit is called up, provide additional aircraft from units returning 
from theater?
    Answer. Yes. Prior to selecting the current Aviation Restructure 
Initiative (ART) plan, the Army considered two other options in which 
the Army National Guard (ARNG) keeps 6 AU-64 battalions and the Active 
Component operates with 18 AH-64 battalions plus 2 AH-64 Korea rotation 
equipment sets. Under the selected ART plan, the Army will require 690 
AH-64s out of the 730 currently on hand. The analysis conducted on the 
alternative plans required 765 AH-64s for the first option and 805 for 
the second option. However, this analysis concluded that it would 
require a budget increase between $2.5 billion and $4.4 billion for 
both options in unprogrammed one-time equipping costs added to the 
Total Army budget which is not supported by the Budget Control Act 
(BCA). This added cost comes from the requirement to either 
remanufacture old aircraft or build new ones.
    It would not be feasible to partially equip some ARNG units in 
order to maintain proficiency until additional aircraft are assigned 
from units returning from theater. An ARNG unit that is partially 
equipped would only be able to maintain the minimum flying requirements 
making it extremely challenging to achieve platoon or company level 
proficiency prior to mobilization. This would require a longer post-
mobilization training period to bring an ARNG AH-64 unit up to a level 
in which they were ready to deploy. Additionally, most aircraft 
returning from major combat operations are required to be RESET for 
major maintenance repairs and upgrades which can take several months. 
This situation could place some units at high risk of not receiving 
their aircraft prior to mobilization. Since the AC has a faster Army 
Force Generation (ARFORGEN) cycle (1:2) as compared to the ARNG (1:5), 
this could place AC AH-64 units at risk of not getting their aircraft 
back in time to redeploy. For example, if ARNG AH-64 battalions were 
given only 18 out of 24 AH-64s assigned, this would require them to 
transfer aircraft from sister units (AC and RC) rendering the donor 
units' Fully Mission Capable (FMC) rate too low to deploy. Keeping all 
AH-64s in the Active Component would avoid this situation and mitigate 
the risk of not being able to provide the commander on the ground 
essential attack/reconnaissance capabilities in a rapid manner to meet 
operational demand requirements. Active Component AH-64 units train to 
the battalion/brigade level of proficiency and have access to more 
resources and available collective training days to keep their Attack/
Reconnaissance pilots fully trained and ready for deployment on short 
notice to meet world-wide critical mission requirements.
    Question. General Odierno, how long will it take to retrain the 
pilots and ground crews that will be shifted to a different aircraft 
under the restructure?
    Answer. The institutional training curriculum to transition to a 
new airframe takes between 8 to 14 weeks on active duty for training 
either at Fort Rucker, Fort Eustis, or one of the Army National Guard 
(ARNG) Training Sites. Once a pilot returns from an aircraft 
qualification course it can take between 3 to 6 months to complete 
progression training to be fully mission qualified depending on the 
skill level of the individual. It will take ground maintenance 
personnel about 6 to 9 months upon graduating from an Army helicopter 
maintenance course to be fully trained and ready at their home unit.

                          Rotational Presence

    Question. Please discuss what you see as the benefits to Army units 
of actually living and training at forward locations in their wartime 
area of responsibility.
    Answer. Access and influence are important to achieving U.S. 
strategic ends. Forward presence also increases the response time 
afforded to Combatant Commands by ensuring military capability is 
postured closer to a theater of operations. Army forces living and 
training forward will enable U.S. global engagement while benefiting 
from enhanced readiness and providing combatant commanders a persistent 
presence to prevent, shape, and if required, win.
    The benefits to these units begin with the enhanced readiness they 
develop through the experiences gained in the geographic locations 
where they may be deployed for operations. The additional terrain, 
regional, cultural, socio-political, and language familiarization these 
personnel and units will develop while living and training at forward 
locations significantly improves their ability should they become 
engaged in combat operations in these locations. Moreover, the 
interpersonal relationships they develop with Allies and partners at 
all levels and over time is a critical enabler to support inter-
operability, assured access, and to shape U.S. strategic objectives.
    While Forward Stationing units ensures deep contextual 
understanding for our soldiers and families, establishing a Rotational 
Forward Presence by unit and/or individual replacement can provide 
similar benefits with reduced infrastructure. The Army must balance 
forward presence and rotational force posture to ensure we meet 
Combatant Command requirements for responsiveness and readiness while 
operating in a fiscally constrained environment and meeting the 
targeted reductions in the Total Army force.
    Question. Will National Guard units take part in this program?
    Answer. As we begin rotating a complete brigade to Korea, we will 
exclusively use Active Component (AC) forces. Over time, we could 
consider Reserve Component (RC), but this would incur an additional 
requirement in our base budget of approximately $344 million per 9-
month brigade combat team (BCT) rotation in addition to any training, 
mobilization and demobilization costs required to bring the BCT to the 
required readiness level.
    Question. What size units make these rotational presence visits?
    Answer. During our pilot, one Combined Arms Battalion of 
approximately 800 personnel and one Aerial Reconnaissance Squadron of 
approximately 400 personnel will initially conduct the Korea rotational 
presence mission. Beginning in FY15, we will rotate the entire Brigade 
Combat Team and continue to rotate an Aerial Reconnaissance Squadron.
    Question. What is the required readiness training status of the 
rotational units before they deploy?
    Answer. The Army tailors readiness of rotational forces to meet the 
specific operational requirements established by the Combatant 
Commanders to assure mission success. In some instances, this process 
will build unit readiness that is identical to the core functions and 
capabilities of the unit--for example an armor brigade conducting 
offensive decisive action operations. In other instances, the process 
will generate unit readiness that is focused on either a subset of a 
unit's design (deployment of a truck platoon instead of the entire 
truck company) or on an assigned mission that differs greatly from the 
unit's core functions, such as a Security Force Assistance Brigade. In 
either case, the Army ensures that deploying units are trained and 
ready to perform those missions designated by the combatant commander.
    Question. ``Why not bring home all of the units that the U.S. has 
forward stationed, in Europe and Asia?''
    Answer. For nearly 70 years, our overseas military bases have been 
a centerpiece of American security. U.S. boots on the ground remain the 
most visible and potent symbol of enduring American support for 
partners and allies. They are both a fundamental aspect of our national 
defense policy and a means to safeguard ourselves and our interests 
from shocks to the international system. Faced with increasingly 
sophisticated anti-access and area denial abilities of potential 
adversaries, maintaining forward presence, especially in the Asia-
Pacific and Europe, ensures interoperability and timely and decisive 
response to Combatant Commander requirements.
    The cumulative effects of sequestration and reduced defense 
budgets, however, could create a Hollow Force if prolonged and 
disproportionate investments across manpower, operations and 
maintenance, modernization, sustainment, and procurement are made 
without a corresponding adjustment to strategy. While reductions in the 
short term will not immediately trigger a Hollow Force, they will have 
impacts that, when accumulated over time, will contribute to a Hollow 
Force. For example, a single year reduction to operations and 
maintenance doesn't indicate a hollow force. However, that single 
reduction combined with a seven year decisive action training 
deficiency, poorly maintained installation facilities, and slowed 
modernization can contribute to a hollow force.

                               Body Armor

    Question. General Odierno, what advances in technology is the Army 
pursuing that may result in better body armor?
    Answer. The Army is focusing on long-term revolutionary solutions 
in biotechnology, nanotechnology, and materials science to provide the 
next generation of body armor capability. Examples include investments 
in manufacturing processes, improved ceramics, biomimetic materials 
such as spider silk, aramid copolymers, and textile composite armor 
that provide a framework for successful design of lightweight textile 
armor of the future. The Army is also investing in light weight 
protection material systems that exhibit revolutionary performance by 
manipulating matter at the atomic scale, pushing the high-performance 
material envelope. Payoffs from this research include protection 
materials with 33 percent savings in weight over current systems. While 
we believe that significant breakthroughs in ballistic material 
performance and system weight reduction are possible, revolutionary new 
material technologies typically require 10-20 years of development.
    Meanwhile, we are also focused on near-term solutions through the 
Soldier Protection System (SPS), which is the Army's next generation 
body armor system. The SPS program is a clear step forward, which 
focuses on reducing weight while integrating the systems worn by our 
Soldiers and balancing capabilities in protection and mobility. This 
program integrates the Integrated Head Protection System, Transition 
Combat Eye Protection, Torso and Extremity Protection, Vital Torso 
Protection, and an Integrated Soldier Sensor System. SPS provides a 
modular, scalable integrated system of mission tailorable ballistic/
blast protective equipment that will improve the level of mobility, 
form, fit, and function for both male and female Soldiers. The 
threshold weight reduction of ten percent for both hard and soft body 
armor and five percent reduction in head protection are realistic and 
achievable at this time. This program entered into Engineering and 
Manufacturing Development in third quarter fiscal year 2013 (3QFY13) 
and is currently scheduled to enter into Milestone C and Low Rate 
Initial Production in 3QFY15.
    Question. Is there an established shelf life for body armor?
    Answer. The Army has not established a shelf or service life for 
body armor. The Army replaces body armor (both hard and soft) and 
helmets when it has determined that a particular component is no longer 
serviceable and safe for its intended use. Such determinations are made 
through routine and frequent Preventive Maintenance Checks and Services 
(PMCS) by Soldiers or periodic scanning by the Army's hard body armor 
non-destructive test equipment. During combat operations in Iraq and 
Afghanistan, body armor improvements evolved quickly, leading to the 
replacement of Small Arms Protective Inserts with Enhanced Small Arms 
Protective Inserts (ESAPI), the current standard plates used in body 
armor. ESAPI plates are up-to-date and have been in continuous 
production to meet requirements for deploying soldiers. The Anny 
continues to use surveillance as the principal means to establish 
accurate shelf and service life for body armor components.
    Question. Is there a maintenance program for body armor that 
requires periodic inspection and testing?
    Answer. The Army maintenance program for Armor Ballistic Plates 
consists of Soldier level pre-combat checks and additional 
serviceability inspection conducted via the Hard Body Armor 
NonDestructive Testing Equipment (NOTE) system. The NOTE is an 
automated digital X-Ray inspection system that evaluates the internal 
ballistic integrity and serviceability of the plates. All Soldiers 
deploying to theater must have plates that have been scanned and 
determined to be serviceable. Body armor with external material defects 
are sent to the appropriate Regional Logistics Supply Center (RLSC) for 
repairs. External material defects consist of, but not limited to; 
tears in material, frayed or damaged cables, bunching of soft 
ballistics, hook/loop failure, punctures, and petroleum based stains or 
discoloration. The RLSC repair activities consist of patching torn 
covers of ballistic plates, sewing outer material tears of vests, 
replacing unserviceable components, and industrial cleaning of body 
armor.
    Question. The Committee understands that PEO Soldier has been 
conducting a study of body armor. When will the results of the study be 
available?
    Answer. The Army is supporting an Office of the Secretary of 
Defense study in accordance with Section 146 of the Fiscal Year 2014 
National Defense Authorization Act, directing the identification and 
assessment of cost-effective and efficient means of procuring personal 
protective equipment, anticipated to be complete by RAND in 4QFY14. 
This study is also examining how to promote competition and innovation 
in the personal protection equipment industrial base.
    Question. At this time is some of the U.S. Army body armor over 
age?
    Answer. No, current body armor (soft and hard ballistic components) 
does not have an expiration date. Body armor for deployment is 
continuously evaluated for serviceability through prescribed Soldier 
Preventative Maintenance Checks and Services (PMCS) and regularly 
through the Hard Body Armor Non-Destructive Testing Equipment (NOTE) 
system pre-deployment screening program.
    Question. Is there a plan to recertify or replace over age body 
armor?
    Answer. At this time the Army has no plans to replace body armor 
based solely on age. We replace body armor when faults are noted during 
Soldier Preventative Maintenance Checks and Services (PMCS) inspections 
or the Hard Body Armor Non-Destructive Testing Equipment (NOTE) system 
scanning. Currently the Army has sufficient stocks on-hand to support 
anticipated requirements for contingency operations until 2020. Once 
current Operation Enduring Freedom deployment requirements end, 
ballistic plates held in contingency stocks will be recertified through 
NOTE testing every four years.

                      Sexual Assault in the Force

    Question. Please describe the policies and programs in place to 
combat sexual assault and provide immediate care and assistance to 
victims of sexual assault. What new programs are being implemented to 
combat this issue?
    Answer. In the past year, the Army has devoted extraordinary 
resources to addressing the issue of sexual assault, and those efforts 
have begun to gain traction. Through the combined efforts of our 
military and civilian leaders at all echelons, we've implemented an 
unprecedented number of initiatives--more than 30 in the past year--to 
address this insider threat. These initiatives are enhancing the 
reporting, investigation and prosecution of sexual assault offenses, 
increasing the accountability of leaders and fostering a cultural 
change that will lead to a positive command climate.
    Key among the initiatives implemented during the past year are:
          <bullet> A Special Victims Counsel Program available to all 
        service members and their dependents who are victims of sexual 
        assault;
          <bullet> Added sexual assault prevention and response as a 
        category for all officer and noncommissioned officer 
        evaluations;
          <bullet> Expanded to all command levels the requirement to 
        conduct Command Climate Surveys, with results reviewed by 
        supervisors;
          <bullet> Raised the level of leadership of the Army's Sexual 
        Harassment/Assault Response and Prevention (SHARP) office to 
        the SES level;
          <bullet> Expanded the implementation of our Special Victims 
        Capability for the investigation and prosecution of offenses by 
        instituting trauma-informed investigation training and 
        increasing the number of Special Victims Prosecutors;
          <bullet> Credentialed thousands of Sexual Assault Response 
        Coordinators (SARCs) and Sexual Harassment/Assault Response and 
        Prevention Victim Advocates (SHARP VAs);
          <bullet> Enhanced background screening requirements before a 
        Soldier is qualified to serve as a SARC or SHARP VA;
          <bullet> Required Judge Advocates to serve as investigating 
        officers in Article 32 proceedings;
          <bullet> Enhanced victim participation in the post-trial 
        process of military courts-martial;
          <bullet> Required administrative separation of Soldiers 
        convicted of sexual assault offenses;
          <bullet> Implemented a pilot SHARP 8-week course for SHARP 
        Program Managers and Trainers, Sexual Assault Response 
        Coordinators (SARCs), and Victim Advocates (VAs). This course 
        is an initial action in the Army's efforts to establish a SHARP 
        Schoolhouse, which will incorporate doctrine, SHARP Life-Cycle 
        Training (Professional Military Education, Civilian Education 
        System, Unit Training and Self-study training), and quality 
        assurance measures for all SHARP training. This first-of-its-
        kind schoolhouse will ensure our full-time program personnel at 
        brigade and higher are thoroughly trained and prepared to 
        assist commanders in preventing and responding to sexual 
        offenses. Once the pilot, which began in late January, 
        concludes in October, we'll assess the effectiveness of the 
        initiative, as well as what needs to be refined prior to 
        instituting a permanent schoolhouse in the FY15/16 time frame.
          <bullet> The Chief of Staff of the Army conducted two forums 
        with Survivors, SARCs and VAs. The SHARP School efforts are a 
        direct result of this forum. The last forum was held 18 March 
        2014, and the next one is scheduled to occur no later than 
        November 2014.
    Question. What measures is the Army taking to encourage victims to 
report sexual assaults and to cooperate with investigators so they are 
able to prosecute these cases.
    Answer. Sexual assault is one of the most underreported crimes in 
society at large, and this is no less the case in the Army and other 
Military Services. The Army is working hard to foster a climate in 
which victims: trust their chains of command to support them if and 
when sexual offenses occur; know they will receive all necessary 
services and support from the Army, are confident their allegations 
will be taken seriously; and know that all incidents of sexual assault 
and harassment will be thoroughly investigated. The 51 percent increase 
in reporting during this past fiscal year is possibly reflective of 
victim's growing confidence in our system. Although the apparent 
increase in victim confidence in the chain of command and response 
system is an encouraging sign, some barriers still exist that 
discourage reporting--feelings of shame or embarrassment as well as 
fear of retaliation or ostracism by peers. That's why this is an issue 
whose remedy lies in the hands of the leadership and command authority. 
Commander-driven change in unit culture and compassionate, 
comprehensive support of victims are critical to address these concerns 
and assuage victims' fears.
    Some of the initiatives in place to provide commanders with the 
tools they need to facilitate cultural change include:
          <bullet> Enhanced medical, psychological and legal 
        assistance. The Army is dedicated to providing sexual assault 
        victims with extensive medical, psychological, and legal 
        support services. The Army is learning from the increasing body 
        of peer-reviewed research about the neurobiology of trauma and 
        how it affects the needs, behavior, and treatment of victims of 
        sexual assault and other traumatic experiences. The Army is 
        committed to both understanding this research and in 
        implementing innovative and successful strategies to combat the 
        effects of Military Sexual Trauma (MST). All sexual assault 
        victims are assigned a Sexual Assault Response Coordinator 
        (SARC) and Sexual Assault Prevention and Response Victim 
        Advocate (SAPR VA). When a victim of sexual assault presents to 
        any Military Treatment Facility (MTF) in the Army, his or her 
        care is managed by a Sexual Assault Clinical Provider (SACP) 
        and Sexual Assault Care Coordinator (SACC) from initial 
        presentation to completion of all follow-up visits related to 
        the sexual assault. The victim will be offered a Sexual Assault 
        Forensic Exam (SAFE), and if not already accompanied by a SARC 
        or SAPR VA, the SACP or SACC will coordinate the process and 
        explain reporting options. The SARC or SAPR VA will also 
        provide a referral to appropriate services. With the 
        implementation of the Special Victim Counsel Program, the 
        victim will also be notified of the availability of a Special 
        Victim Counsel by the SARC.
          <bullet> Enhanced investigatory and prosecutory resources. 
        The Army has invested a substantial amount of resources and 
        training toward the investigation and response to sexual 
        assault allegations. The U.S. Army Military Police School 
        provides Special Victim Unit Investigative Training that 
        focuses on memory and trauma, common victim behaviors, alcohol-
        facilitated sexual assaults, sex offender behaviors, male 
        victimization, and the innovative victim interviewing technique 
        that has resulted in a more in-depth and complete recollection 
        of events than traditional methods of questioning. 
        Investigators and attorneys from all three Services, as well as 
        the Coast Guard and National Guard Bureau, attend this 
        training, and it is regarded as the best education available to 
        investigators and attorneys anywhere in Federal government. The 
        Army also has a dedicated group of nearly 22 Sexual Assault 
        Investigators (SAI) in the Criminal Investigation Command 
        (CID), each of whom is specially trained to ensure allegations 
        of sexual assault are fully and appropriately investigated. An 
        additional 8 authorizations were added in FY14. The Judge 
        Advocate General also manages 23 specially-trained Special 
        Victims Prosecutor (SVP) Teams comprised of SVPs, paralegals, 
        and SAPR VAs. Special Victim Investigators collaborate closely 
        with SVPs, who are hand-selected at the Department of the Army 
        level for their expertise in the courtroom and their ability to 
        work with victims.
    Developing a properly trained cadre of investigators is 
extraordinarily important in the Army's efforts to increase reporting 
because victims' willingness to initiate and follow through with 
investigations is directly related to whether they feel supported and 
believed. If their initial contact with law enforcement is a positive 
experience, victims' likelihood of pursuing cases increases.
    Question: New evidence shows the bulk of sexual assaults may 
actually be committed by serial offenders, or predators, who have 
dozens, sometimes hundreds, of victims in a lifetime rather than a case 
of ``mixed signals''. Please explain what the new emphasis means and 
what kind of changes you're implementing based on this new evidence.
    Answer: The Army is also aware of this line of research, much of it 
informed by the work of Dr. David Lisak, PhD, recently of the 
University of Massachusetts-Boston, which indicates that although 
incarcerated sex offenders may have been prosecuted on a single count 
of rape, in actuality those individuals went undetected in committing 
multiple incidents of rape throughout their lifetime, prior to 
apprehension. However, the Army currently does not have data to 
validate these findings within a military setting. We further agree 
with Dr. Lisak's research in that many offenders leverage their 
personal relationships with victims in order to affect a sexual 
assault. In fact, over 80 percent of military victims of sexual assault 
knew their attacker for at least a little while prior to the sexual 
assault. In addition, the sexual assault case synopses submitted to 
Congress each year since 2007 show another common pattern to sex 
offender behavior, that is a considerable portion of sexual assaults 
are perpetrated opportunistically by individuals known to the victim. 
These cases show signs of manipulative behavior on behalf of the 
alleged offender, but would not necessarily align with what most would 
consider predatory behavior.
    As a result, the Army feels very strongly that its prevention and 
response work must address a wide variety of criminal and suspect 
behavior. In its prevention programs, the Army Sexual Harassment and 
Assault Response and Prevention (SHARP) program focuses on the benefits 
that an active and empowered bystander can achieve when they recognize 
situations at risk for sexual assault. The Army made a conscious 
decision to move to a bystander approach after a great deal of research 
and consultation with experts in the field of sex offender behaviors, 
such as Dr. Lisak. Given that 80 percent of military victims knew their 
offender, sexual assault is viewed as an ``insider threat''--something 
that is most likely to be perpetrated by a friend or co-worker they see 
daily. The lessons learned from research on all sexual offenders, not 
just those with a particular pattern of behavior, is that prevention 
efforts should be geared mostly toward the bystander--male and female--
who can be trained to identify predators and safely intervene in 
situations that have the potential to lead to sexual assault. Since 
2006, the Army has incorporated bystander Intervention into its 
prevention and training curriculum at all levels of military 
operational and institutional training.
    Research on the wide variety of offender behaviors also emphasized 
the need for highly-trained, highly-skilled Sexual Assault 
Investigators (SAI) who are skilled in identifying sexual predation. 
Early on, the Army invested in sexual assault investigators by adding 
22 positions to the Criminal Investigation Command. An additional 8 SAI 
authorizations were added in FY14.
    Question. Incidents of assault remain high among the 18-24-year-old 
junior enlisted population as well as a continued problem at the 
Service Academies. What are we doing to teach our newest 
servicemembers, who will someday become our nation's military leaders, 
about the military's no tolerance policy for sexual assault and the 
programs in place for both our recruits and at our service academies to 
raise awareness of this issue?
    Answer. SHARP training is a key element in our multi-faceted 
prevention approach. SHARP training is integrated throughout the life-
cycle of a Soldiers' career, including ``Future Soldier'' training in 
which we engage Army recruits with SHARP and values training in the 
recruiting environment. Since 2011, SHARP training has been integrated 
into Army Initial Military Training (IMT). This training includes signs 
of abuse of power, sexual harassment/assault, and unprofessional 
relationships. The Army requires all trainees receive SHARP training 
within 14 days of reporting to IMT. This policy has been in place since 
2012, making the Army a leader among the Services in that respect. The 
Army also requires SHARP Unit Refresher Training for all personnel and 
has expanded SHARP training throughout all levels of Operational and 
Institutional Training. Additionally, the Army provides SHARP training 
during pre-command courses, such as the Commander/First Sergeant 
Course, to provide commanders and Senior Non-Commissioned Officers 
(NC0s) with the skill sets required for them to lead from the front on 
the issue of sexual assault. Our Training and Doctrine Command has 
added sequentially progressive SHARP training at the Army's 
Professional Military Education schools for Soldiers, NCOs and 
Officers.
    The Army has recognized the importance of fostering an environment 
free of sexual assault and harassment at the United States Military 
Academy (USMA). The West Point leadership has made this a top priority 
at the academy. The USMA Superintendent chairs a monthly Sexual Assault 
Review Board to ensure there is unity in effort throughout the military 
academy in combating sexual assault and harassment. Sexual assault 
prevention and response education is incorporated at every level of 
cadet progression. The Corps of Cadets have dedicated Sexual Assault 
Response Coordinators (SARC) and Victim Advocates (VA) to educate 
cadets and cadre and care for victims of these offenses. USMA also 
offers Special Victims Counsel and has a trained Sexual Assault Nurse 
Examiner to provide specialized legal and medical care to victims. 
Furthermore, the Corps of Cadets are taking a proactive role in 
changing the culture and eliminating sexual assault and harassment. 
They have established the Cadets Against Sexual Harassment and Assault 
(CASH/A). This organization consists of trained facilitators who have 
become the subject matter experts in the Army's Sexual Harassment and 
Assault Response and Prevention Program. The program has grown to 
include a CASH/A representative within every company. USMA will 
continue to combat sexual assault and harassment by attacking the 
problem from every level.
    Question. What programs are in place to train our commanders and 
senior commissioned officers how to handle such cases?
    Answer. The Army has sustained and expanded legal education for 
commanders, and added education for their senior enlisted advisors. 
Commanders who serve as courts-martial convening authorities attend 
mandatory legal education at the Senior Office Legal Orientation (SOLO) 
(for Special Courts-Martial Convening Authorities--SPCMCA) and the 
General Officer Legal Orientation (GOLO) (for General Courts-Martial 
Convening Authorities--GCMCA). Additionally, The Judge Advocate 
General's Legal Center and School (TJAGLCS) recently published the 2013 
version of the Commander's Legal Handbook, which serves as a valuable 
resource for commanders.
    The SOLO is a 4.5-day course that covers the MI breadth of a 
commander's legal responsibilities. Classes are generally 60-70 
students with seminars and electives built into the curriculum. A 
significant portion of the course focuses on command responsibilities 
related to sexual assault. While most commanders who attend are brigade 
level commanders, a significant number of battalion commanders attend 
on a space-available basis. There are efforts to expand legal education 
for all battalion commanders and to enhance commander education at the 
company command level through standardized training support packages 
implemented at the local level.
    The GOLO is a 1-day course that is required for all general 
officers who will serve as a GCMCA, but is also mandated by the Chief 
of Staff for all General Officers who are deploying. This course is 
conducted in a ``one-on-one'' setting and consists of mandatory topics 
including Sexual Harassment and Sexual Assault Prevention and Response, 
as well as elective topics that help focus the commander and specific 
topics relevant to their command.
    The Command Sergeant Major Legal Orientation is a new 3.5-day 
course that covers legal topics relevant to the duties of the senior 
enlisted advisors to general officers and SES civilians. Attendees are 
nominative CSMs whose attendance is approved by the Sergeant Major of 
the Army. SHARP topics are emphasized in this course.
    Training at the Company Commander and First Sergeant Course and the 
Battalion and Brigade Pre-Command Course (PCC) is specifically focused 
on preparing leaders for the unique SHARP responsibilities inherent in 
their respective levels of command. The instruction at the Battalion 
and Brigade PCC is provided by General Officers from the Office of the 
Judge Advocate General (OTJAG) and the Office of the Provost Marshal 
General. Each year, the Army also conducts a Sexual Harassment/ Assault 
Prevention Summit that commanders attend. During the Summit, attendee 
hear from national leaders, Department of Defense (DoD) and Army 
leadership, and subject matter experts, as well as exchange ideas with 
each other and provide feedback to Army leadership on challenges they 
face in executing the SHARP Program and ideas they have for improving 
it.
    Question. This Committee provided an additional $25 million to 
expand the Special Victims Counsel (SVC) program to all of the 
Services, to give victims their own lawyer to represent them through 
the process. Could you give us an update regarding timing for the 
implementation of the program in the Army?
    Answer. Since January 1, 2014, the Special Victims Counsel (SVC) 
program for the Army's active component has been at full operating 
capability. The Army has received largely positive feedback, from both 
the program's clients and SVCs themselves, on the program.
    The SVC program has a pool of judge advocates who are trained and 
certified to perform SVC functions--these attorneys are well supported 
and functioning under Legal Assistance Divisions across the Army. Since 
the SVC program's inception in August 2013, the Army has conducted four 
instructional courses--three face-to-face courses and one on-line 
course--training a total of 91 Active Army and 110 Reserve Component 
SVCs. The Reserve Component SVC Programs are ready to be at full 
operating capability no later than May 1, 2014. The active component 
Army SVCs are located world-wide, to include the Central Command Area 
of Responsibility. There are a limited number of small installations 
without a resident SVC but SVCs at identified larger installations will 
be directly responsible to support those few smaller installations. In 
addition, the SVC Program Manager(PM) has the ability to allocate 
assets as needed to ensure each and every Special Victim in the Army 
has the opportunity to have an SVC, regardless of location.
    The Army SVC program presently represents over 700 clients, has 
conducted over 2,400 consultations, accompanied 556 clients to 
interviews with Trial Defense, Trial Counsel, and Criminal 
Investigation Division and appeared either by brief or in person on 
behalf of clients in over 125 court-martials. The program is fully 
funded by Congress and has the assets needed to carry out Congress's 
intent. The Army Judge Advocate General (JAG) Corps has 
enthusiastically embraced the SVC program and the Corps' leadership has 
made it one of its highest priorities.
    Question. Does this year's budget request include sufficient 
funding for the Sexual Assault Prevention and Response Programs?
    Answer. Sexual Assault Prevention and Response is an Army top 
priority. As such, the Army is committed to applying all resources 
necessary to effectively address this issue. As a reflection of the 
Army's commitment, the Army SHARP Program's budget is projected to grow 
by approximately $44M from FY14 ($86.70M) to FY15 ($130.40M). We are 
doing everything in our power to maximize our SHARP funding line by 
continually assessing the efficacy of our program and by looking for 
ways to leverage best practices, eliminate redundant and inefficient 
procedures and by ensuring the full utilization of our resources. We 
are working diligently to meet our SHARP funding requirements and 
responsibilities.

                             Women in Combat

    Question. Servicemembers often talk about `Band of Brothers culture 
and the importance of unit cohesion and morale, particularly in certain 
specialties currently closed to women. How will opening these units to 
women impact unit cohesion? What kinds of challenges do you expect in 
integrating these kinds of units? What has been the reaction of 
currently serving (male) servicemembers to opening positions to women? 
Do you expect them to be largely supportive or do you expect 
significant opposition to the integration?
    Answer. The evidence to date does not indicate that integrating 
women into previously closed positions will have any negative impact on 
unit cohesion. The Army conducted interviews, focus groups and surveys 
of soldiers when women in open occupations were initially assigned to 
positions in headquarters and headquarters companies of maneuver 
battalions in select units. The results of those assessments indicated 
that women were successfully integrated into the units, and there were 
no negative impacts on unit cohesion or effectiveness.
    Question. A recent Army survey showed that only 7.5% of the female 
Soldiers who responded said they were interested in combat positions, 
and younger Soldiers were more interested than mid-level Soldiers in 
those positions. Given that the Services have said they would like 
integration to begin at the more senior levels, will this hesitation 
present a roadblock to integration?
    Answer. Preliminary results of the surveys conducted to date 
indicate that approximately twenty-two percent of women polled are 
``moderately interested'' or ``very interested'' in serving in closed 
occupations. This survey represents a much larger polling population 
than other surveys because it included women of all ranks. The survey 
cited with only 7.5% interest only included junior Soldiers (O1-O3, E1-
E6) who indicated they were ``very interested.'' Although results from 
the propensity survey are still being evaluated, data from recent 
assessments indicate a very encouraging trend regarding the level of 
interest of women to serve in closed occupations. While statistics 
serve as useful indicators of trends as part of the analytic process, 
Soldier feedback is equally, if not more, important. The Gender 
Integration Study will help us determine what is important to Soldiers, 
what they see as keys to success, and where they have concerns. Gender 
Integration Study data has been and will continue to be compiled and 
analyzed to inform Army leadership and develop strategies for future 
gender integration. The focus is on, and will continue to be on, 
expanding opportunities to women, rather than equating success to 
numbers.
    Question. Do you expect to see women being integrated into all 
specialties, such as special forces units or infantry, for example? Are 
there any specialties that you are expecting the Services to recommend 
remain closed to women? Are there any specialties that you expect to 
approve requests to remain closed to women?
    Answer. In accordance with the Army Implementation Plan, no later 
than 1 January 2016, the Secretary of the Army will either notify the 
Secretary of Defense to open positions and occupations, or request an 
exception to policy to keep the positions and occupations closed.

    [Clerk's note.--End of questions submitted by Mr. 
Frelinghuysen.]





                          W I T N E S S E S

                              ----------                              
                                                                   Page
Amos, General J. F...............................................    87
Dempsey, General Martin..........................................     1
Greenert, Admiral J. W...........................................    87
Hagel, Hon. Chuck................................................     1
Hale, Robert.....................................................     1
James, D. L......................................................   197
Mabus, Ray.......................................................    87
McHugh, J. M.....................................................   277
Odierno, General R. T............................................   277
Welsh, General M. A., III........................................   197

                                  [all]
</pre></body></html>
